<html>
<title> - COLUMBIA BASIN ECOSYSTEM MANAGEMENT PLAN</title>
<body><pre>[Senate Hearing 105-906]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-906


 
                        COLUMBIA BASIN ECOSYSTEM
                            MANAGEMENT PLAN

=======================================================================

                             JOINT HEARING

                               before the

                 SUBCOMMITTEE ON THE DEPARTMENT OF THE
                     INTERIOR AND RELATED AGENCIES

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                                and the

                      SUBCOMMITTEE ON FORESTS AND
                        PUBLIC LANDS MANAGEMENT

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                               __________

Printed for the use of the Committees on Appropriations and Energy and 
                           Natural Resources


                               <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate

                                 ______


                      U.S. GOVERNMENT PRINTING OFFICE
 54-770 cc                   WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402
                           ISBN 0-16-058254-7


                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             DALE BUMPERS, Arkansas
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
CONRAD BURNS, Montana                TOM HARKIN, Iowa
RICHARD C. SHELBY, Alabama           BARBARA A. MIKULSKI, Maryland
JUDD GREGG, New Hampshire            HARRY REID, Nevada
ROBERT F. BENNETT, Utah              HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
LAUCH FAIRCLOTH, North Carolina      BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

    Subcommittee on Department of the Interior and Related Agencies

                   SLADE GORTON, Washington, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
PETE V. DOMENICI, New Mexico         DALE BUMPERS, Arkansas
CONRAD BURNS, Montana                ERNEST F. HOLLINGS, South Carolina
ROBERT F. BENNETT, Utah              HARRY REID, Nevada
JUDD GREGG, New Hampshire            BYRON DORGAN, North Dakota
BEN NIGHTHORSE CAMPBELL, Colorado    BARBARA BOXER, California
                           Professional Staff
                              Bruce Evans
                              Ginny James
                             Anne McInerney
                             Kevin Johnson
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  FRANK H. MURKOWSKI, Alaska, Chairman
PETE V. DOMENICI, New Mexico         DALE BUMPERS, Arkansas
DON NICKLES, Oklahoma                WENDELL H. FORD, Kentucky
LARRY CRAIG, Idaho                   JEFF BINGAMAN, New Mexico
BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
CRAIG THOMAS, Wyoming                BYRON L. DORGAN, North Dakota
JON KYL, Arizona                     BOB GRAHAM, Florida
ROD GRAMS, Minnesota                 RON WYDEN, Oregon
GORDON H. SMITH, Oregon              TIM JOHNSON, South Dakota
SLADE GORTON, Washington             MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana
                  Andrew D. Lundquist, Staff Director
                    Gary G. Ellsworth, Chief Counsel
          Thomas B. Williams, Staff Director for the Minority
             Sam E. Fowler, Chief Counsel for the Minority
                                 ------                                

           Subcommittee on Forests and Public Land Management

                    LARRY E. CRAIG, Idaho, Chairman
                  CONRAD BURNS, Montana, Vice Chairman
PETE V. DOMENICI, New Mexico         BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
JON KYL, Arizona                     RON WYDEN, Oregon
GORDON H. SMITH, Oregon              TIM JOHNSON, South Dakota
                                     MARY L. LANDRIEU, Louisiana
   Frank H. Murkowski and Dale Bumpers are Ex Officio Members of the 
                              Subcommittee

                  Mark Rey, Professional Staff Member
                    Kira Finkler, Counsel, Minority



                            C O N T E N T S

                              ----------                              
                                                                   Page
Statement of Robert Williams, Regional Forester, U.S. Forest 
  Service, Department of the Interior............................     1
Statement of Susan Giannettino, Project Team Leader, Interior 
  Columbia Basin Ecosystem Management Project, Boise, ID, U.S. 
  Forest Service, Department of the Interior.....................     1
Statement of Tom Quigley, Ph.D., Science Team Leader, Pacific 
  Northwest Experiment Station, Corvallis, OR, U.S. Forest 
  Service, Department of the Interior............................     1
Opening remarks of Senator Slade Gorton..........................     1
Prepared statement of Senator Gorton.............................     5
Prepared statement of Robert Williams............................    11
Opening remarks of Senator Craig.................................    14
Prepared statement of Senator Larry Craig........................    17
Statement of Stephen P. Mealey, director, Idaho Department of 
  Fish and Game..................................................    29
Letter from Governor Philip Batt.................................    30
Prepared statement of Stephen P. Mealey..........................    31
Statement of Julie Lapeyre, natural resource policy advisor, 
  Office of the Governor, State of Montana.......................    33
    Prepared statement...........................................    35
Prepared statement of Marc Racicot, Governor, State of Montana...    36
Statement of Carol Jolly, executive policy advisor on natural 
  resource policy, executive policy office, State of Washington..    39
    Prepared statement...........................................    41
Letter from Gary Locke, Governor, State of Washington............    43
Statement of Jaime A. Pinkham, treasurer, Nez Perce Tribal 
  Executive Committee............................................    44
    Prepared statement...........................................    47
Statement of Bob Morton, State Senator, vice president pro 
  tempore, Washington State Legislature..........................    50
    Prepared statement...........................................    52
Implementing a record of decision................................    55
Statement of Dale White, judge, Harney County, OR, and chair, 
  Eastside Ecosystem Coalition of Counties.......................    61
    Prepared statement...........................................    63
Letter from Judge Dale White.....................................    64
Statement of George Enneking, commissioner, Idaho County, 
  Cottonwood, ID, and chair, Public Lands Committee, Idaho 
  Association of Counties........................................    72
    Prepared statement...........................................    73
Statement of Michael Kennedy, commissioner, Missoula County, 
  Missoula, MT, and member, Eastside Ecosystem Coalition of 
  Counties.......................................................    75
    Prepared statement...........................................    78
Statement of Joan Frey, commissioner, Klickitat County, 
  Goldendale, WA, and member, Eastside Ecosystem Coalition of 
  Counties.......................................................    79
    Prepared statement...........................................    80
Private property rights..........................................    81
Statement of Hon. George R. Nethercutt, Jr., U.S. Representative 
  from Washington................................................    91
Statement of Sharon Beck, president, Oregon Cattlemen's 
  Association....................................................    93
    Prepared statement...........................................    94
Statement of Mike Poulson, natural resource chairman, Washington 
  State Farm Bureau..............................................    95
    Prepared statement...........................................    97
Statement of David A. Halley, Pulp & Paperworkers' Resource 
  Council & United Paperworkers International Union..............    98
    Prepared statement...........................................   100
Statement of Laura E. Skaer, executive director, Northwest Mining 
  Association....................................................   102
    Prepared statement...........................................   103
Statement of Adena Cook, public lands director, Blue Ribbon 
  Coalition, Inc.................................................   111
    Prepared statement...........................................   113
Statement of Thomas K. Goodall, assistant timberlands manager, 
  Boise Cascade Corp.............................................   116
    Prepared statement...........................................   118
Statement of Kathleen Benedetto, executive director, Minerals 
  Exploration Coalition..........................................   125
    Prepared statement...........................................   126
Importance of socioeconomic study................................   129
Statement of Mark Solomon, executive director, the Lands Council.   133
Statement of Sara Folger, the Lands Council......................   133
Prepared statement of Bill Haskins, director, Ecology Center, Inc   139
Prepared statement of Rick Brown, resource specialist, the 
  National Wildlife Federation...................................   139
Prepared statement of Gary MacFarlane, Friends of the Clearwater.   140
Prepared statement of Barry Carter, Blue Mountain Native Forest 
  Alliance.......................................................   141
Prepared statement of Ernie Horvath..............................   142
Prepared statement of Thomas E. Dayley, executive vice president, 
  Idaho Farm Bureau Federation...................................   143
Prepared statement of Dixie Riddle, state secretary-treasurer, 
  Washington Association of Wheat Growers........................   146
Prepared statement of the Northwest Timber Workers Resource 
  Council........................................................   147
Letter from Richard Bass, chairman, Board of Owyhee County 
  Commissioners..................................................   149
Prepared statement of the Owyhee County Commissioners............   150
Prepared statement of Arlene Montgomery, Friends of the Wild Swan   156
Prepared statement of Governor John Kitzhaber, Spokane, WA.......   158
Prepared statement of Tom Partin, general manager, Malheur Lumber 
  Co.............................................................   165
Letter from Barbara Evans, Commissioner, Board of County 
  Commissioners, Missoula, MT....................................   170
Prepared statement of Marc Racicot, Governor, Office of the 
  Governor, State of Montana.....................................   170
Prepared statement of Hubert B. Sager, vice president, resources, 
  Vaagen Bros., Lumber, Inc......................................   174
Prepared statement of the Franklin County Board of County 
  Commissioners..................................................   176
Prepared statement of Lawrence A. Dolezal, chair, board of 
  commissioners, Lincoln County, State of Montana................   177
Prepared statement of Peter S. Test, associate director of 
  government affairs, Oregon Farm Bureau.........................   178
Prepared statement of King Williams, chairman, board of 
  directors, Protecting Industries Now Endangered................   182
Prepared statement of Maurice Williamson, ACF, Consulting 
  Forestry.......................................................   183
Prepared statement of Chris Drivdahl, State of Washington 
  Department of Fish and Wildlife................................   184
Prepared statement of Dale W. Williams, District 1, Flathead 
  County Board of Commissioners..................................   185
Prepared statement of Michael Kennedy, commissioner and EECC 
  member, Missoula County Board of County Commissioners..........   185
Prepared statement of Bob Playfair, Rafter Seven Ranch...........   186
Prepared statement of Dennis Reynolds, judge, County Court of 
  Grant County...................................................   187
Letter from Sue Kupillas, commissioner, Jackson County, OR.......   198



                COLUMBIA BASIN ECOSYSTEM MANAGEMENT PLAN

                              ----------                              


                         THURSDAY, MAY 28, 1998

        U.S. Senate, Subcommittee on the Interior, 
            Committee on Appropriations, and Subcommittee 
            on Forests and Public Land Management, 
            Committee on Energy and Natural Resources,
                                                       Spokane, WA.
    The subcommittees met at 11 a.m., in the city council 
chambers, Spokane City Hall, Spokane, WA, Hon. Slade Gorton 
(chairman) presiding.
    Present. Senators Gorton and Craig.

                       DEPARTMENT OF THE INTERIOR

                          U.S. Forest Service

STATEMENT OF ROBERT WILLIAMS, REGIONAL FORESTER
ACCOMPANIED BY:
        SUSAN GIANNETTINO, PROJECT TEAM LEADER, INTERIOR COLUMBIA BASIN 
            ECOSYSTEM MANAGEMENT PROJECT, BOISE, ID
        TOM QUIGLEY, Ph.D., SCIENCE TEAM LEADER, PACIFIC NORTHWEST 
            EXPERIMENT STATION, CORVALLIS, OR

                   opening remarks of senator gorton

    Senator Gorton. I will call this hearing to order and ask 
the audience to be seated. This is an official hearing of the 
U.S. Senate Appropriations Committee together with the 
Committee on Energy and Natural Resources. The subject, of 
course, is the Interior Columbia Basin Ecosystem Management 
Project.
    My good friend and Senate colleague, Larry Craig, of Idaho 
will be here shortly to represent the Energy and Natural 
Resources Committee. Representative Nethercutt who is a member 
of the House Appropriations Committee will be joining us later 
on this hearing.
    Encompassing almost all of eastern Washington, most of 
Idaho, major portions of Oregon and Montana, and parts of Utah, 
Nevada, and Wyoming, the Columbia Basin study covers the 
largest area in the United States ever to have been examined as 
a whole by the Federal Government. The stated intention of the 
study is to apply large-scale planning direction, to producing 
a variety of goods and services for the people in the area and, 
for that matter, for the overall population of the United 
States.
    Because of the overwhelming concerns of many of my 
constituents in eastern Washington and the potentially 
devastating impact this plan could have on natural resources 
industries--industries that drive our local economies 
throughout the inland West--Congress, I believe, has an 
obligation to hear from the people who will be impacted 
directly and whose input should matter the most before we make 
any decisions about implementing this plan.
    Over the past 5 years, this planning process has grown from 
a project estimated to cost $5 million in the planning stages 
and something over $30 million in the implementing stages per 
year, to more than $40 million on planning so far and a request 
for additional money for implementation, at $112 million a 
year. In other words, a 400-percent increase. Now, for the 
first time, the Clinton administration is requesting those 
funds for the actual implementation of the plan.
    As the chairman of the Interior and Related Agencies 
Appropriations Subcommittee in the U.S. Senate, I have to say 
that this money, if we were to find it, must be found--given 
the balanced budget agreement and a freeze on Federal 
spending--out of other perhaps equally important priorities. 
And I have to do so in the light of the fact that I have been a 
vocal critic of the potentially devastating impact this plan 
could have on the people of eastern Washington and the way in 
which the administration has conducted the study itself.
    I have questioned the planning process and done everything 
in my power to minimize its impacts on the rural communities 
that stand to lose the most if it is implemented. During the 
budget showdown between Congress and the Clinton administration 
in 1996, I offered legislative language that would have 
guaranteed the implementation of this study's recommendations 
would be left to the discretion of local land managers and 
their communities. The language also included assurances that 
the rights of private property owners would be protected.
    I was astounded when the White House rejected this 
commonsense solution and threatened to shut down the Government 
if it did not get its way. While the final version of my 
proposal that was included in an omnibus appropriations bill 
that year provided some assurances that the study would not 
infringe on private property rights, there are currently no 
guarantees in law that protect private landowners' rights 
should the implementation phase of this plan proceed.
    During last year's appropriations process, I successfully 
authored legislation extending the comment period on the draft 
EIS for another year. My bill also required the agencies 
responsible for developing this plan to conduct a socioeconomic 
assessment of the plan's impact on affected communities.
    I find that the agencies' analysis has this kind of quality 
for my constituents here in eastern Washington: Othello is 
listed as a community in which there is no agricultural 
employment specialization. Wenatchee is listed as a community 
in which there is no agricultural employment specialization. 
Pasco falls into that category. Moses Lake falls into that 
category. Okanogan and Pateros fall into that category, among 
other communities in the State of Washington. And I suspect 
that there may have been similar findings with respect to 
communities in the other States involved.
    The quality of that analysis is rather shattering in one's 
confidence with respect to the way in which the entire study 
has been managed to this point.
    Clearly, the areas in these States affected by the study 
produce a wealth of goods and services from our natural 
resources, including timber, grazing, hydroelectric power, and 
the production of dozens, and perhaps hundreds, of agricultural 
commodities. Simply put, the commodities produced through these 
natural resources are the lifeblood of the region's economy.
    As I have already said, I am deeply troubled about the 
study. The simple fact is that the Federal agencies managing 
the project, after 5 years of analysis and spending more than 
$40 million, have not yet delivered on assurances that 
conducting a basinwide study such as this will either protect 
the natural resources-based economy of the inland West or 
resolve the threat of litigation-created gridlock throughout 
the region.
    In addition to its potential adverse impact to the economy 
of my State and my neighboring States, I am also concerned that 
the taxpayers of the United States, after pouring large sums of 
Federal funds into this project for 5 years, are receiving few 
benefits. The project was begun with assurances from the Forest 
Service and the Bureau of Land Management that conducting land 
management planning and analysis at a basinwide level was the 
most efficient method of mitigating the cumulative effects on 
endangered species, assuring sustained commodity outputs from 
timber, range and mines, recreation needs, while at all times 
assessing the economic effects on local communities within the 
project area.
    Congress was led to believe that with the record of 
decision from this project, local forests and land management 
and resource plans would be promptly amended or revised, and 
important decisions on resource allocations would be made. 
Congress has been told repeatedly that the project would lead 
to more timely decisions and quicker agency actions. So far, 
this has simply not happened.
    The agencies involved have failed to meet most of their 
self-imposed deadlines. The final environmental impact 
statement and record of decision were supposed to be 
implemented more than 1 year ago. Instead, the interagency team 
responsible for developing this plan barely completed the draft 
environmental impact statement by that time.
    The final statement and record of decision are now expected 
to be completed sometime next summer, more than 2 years behind 
schedule. And this is just the study part of the project. With 
more than 90 new standards and objectives included in the draft 
environmental impact statement, I find it difficult to believe 
that any progress will be made in ending the gridlock that is 
already so prevalent in our public lands management 
decisionmaking process.
    As Congress gets closer to a decision on whether or not to 
continue this project, I have a number of objectives that I 
think it ought to encompass. They are, first, protecting the 
health of our natural resource-based economy in eastern 
Washington and in neighboring States, all of which depend on 
the wise use of Federal lands. Second, ensuring that the rights 
and interests of private property owners within the project 
area are not adversely impacted. And the third, the degree of 
participation in the decisions that affect their daily lives by 
the people who are affected by those lives and by the local 
officials whom they elect and the local management officials 
working for the Federal agencies.
    Of course, a plan meeting its originally stated goals would 
be something that would help most of us. We have strayed so 
far, however, that I am not at all sure that those goals can or 
will be met.
    While I am clearly no fan of the way in which the study has 
been conducted, there is a larger issue that we need to address 
today, one that could be beyond anyone's control. When this 
project began, it was touted as the best way to eliminate 
litigation and the resulting gridlock stemming from inherent 
disagreement between commodity production and preservation 
interests. Even today there are those who say that Congress has 
no choice but to continue to support the project. They say 
failing to analyze on a basinwide basis will result in 
protracted litigation based on the presumption that no single 
unit is capable of independently preparing land management 
plans without creating conflicts and inconsistencies with 
neighboring units.
    In addition, I am told that past litigation has been 
resolved based on the expectation that Federal agencies would 
soon issue basinwide decisions as a result of this study. At 
the same time, others will argue that we do not get protection 
from just those lawsuits. There are certain notices of intent 
to sue over interim guidelines. But just 2 weeks ago the U.S. 
Supreme Court, in a case arising out of Ohio, may very well 
have undercut both those threats and many of the other threats 
that led to this basinwide study in the first place.
    So, at this point, we are simply uncertain as to whether or 
not the completion of this study, one, will prevent litigation, 
or indeed whether such litigation at this early stage is 
available under present Federal rules laid down by the Supreme 
Court at all. One of the questions I hope that each of the 
panels will address today is whether or not the study 
represents a legitimate solution to the gridlock that now 
threatens the Northwest. And if it is such a legitimate 
solution, will our rural communities in the area be any better 
off under this plan than we would be if we did nothing and let 
the chips fall where they may?
    If a locally driven alternative is out there that is better 
at protecting our local economies, as well as the environment, 
and does not lead to constant court injunctions, I hope to hear 
about it today from some or all of the people who are on these 
panels.
    I have just described the very frustrating, ``damned if you 
do, damned if you do not predicament'' that Congress faces as 
we enter this hearing today. If we continue to support this 
project, we must clearly understand what decisions will be made 
and when and what their impacts will be on the communities that 
are directly affected by the study and its aftermath. It may 
well be that the project has gotten too broad in scope and 
cannot be properly focused, that it is too inherently 
bureaucratic and will not be successful.
    I hope to find out today if there is any merit in narrowing 
the goals of the project so that they can be focused on more 
carefully and more successfully. I am willing to continue if I 
can reach three conclusions: first, that the study is the best 
approach to preserving the resource-based economy that is 
important to the region; second, that the plan appropriately 
protects the interests of private landowners within the study 
area; and, finally, that any land management plan encompassing 
such a vast area will not be implemented in a one-size-fits-all 
fashion.
    Can we assure that local public lands managers and the 
representatives of the people, elected in local communities, 
will have a major voice on public lands decisions affecting the 
citizens of the Columbia Basin?
    Our committees will be hearing from a diverse array of 
witnesses today. They were selected by local leaders in their 
respective areas of expertise. They include farmers, loggers, 
Federal, State, and county officials, recreationists, and 
environmentalists. The witnesses who will be testifying are too 
numerous to mention now, but I will introduce each as we seat 
the panels.
    Unfortunately, due to time constraints, we will not have 
time to hear from anyone except our panelists, but anyone who 
wishes to offer testimony after this hearing will be encouraged 
and authorized to do so. And we will give equal weight to 
written testimony, and we will keep the hearing record open for 
several weeks in order to accommodate those who wish to submit 
written testimony.
    I want to emphasize once again that the committee and the 
committee staff did not select the particular witnesses today. 
Almost all of them are representatives of organizations that 
are interested in this subject and in this hearing, and we 
permitted those organizations to choose the witnesses to speak 
for them.

                           prepared statement

    Now, I was hoping that I had spoken long enough so that 
Senator Craig could arrive and make his opening statement. He 
will be here momentarily. But we are not going to waste any 
time, so we will start right now with our first panel.
    [The statement follows:]

               Prepared Statement of Senator Slade Gorton

    I welcome all of you to our joint Senate Appropriations and 
Energy and Natural Resources Committee hearing on the Interior 
Columbia Basin Ecosystem Management Project. My friend and 
Senate colleague Larry Craig is here representing the Energy 
and Natural Resources Committee. Also joining me are our 
colleagues from the House of Representatives whom we are 
delighted to welcome to this important hearing. I welcome 
Representative Nethercutt from the House Appropriations 
Committee and from the House Authorizing Committees.
    Encompassing almost all of Eastern Washington, most of 
Idaho, major portions of Oregon and Montana, and parts of Utah, 
Nevada and Wyoming, the Columbia Basin study covers the largest 
area in the United States ever to have been examined by the 
Federal Government. The stated intent of the study is to apply 
large scale planning direction to producing a variety of goods 
and services for the people in the area and the overall 
population of the United States.
    Because of the overwhelming concerns of my constituents in 
eastern Washington and the potentially devastating impact this 
plan could have on natural resource industries that drive local 
economies throughout the inland west, Congress has an 
obligation to hear from the people who will be impacted 
directly and whose input should matter the most before we make 
any decisions about implementing this plan.
    Over the past 5 years, Congress has reluctantly spent more 
than $40 million for four federal agencies to conduct this 
massive study. Now for the first time, the Clinton 
Administration has requested funds for actual implementation. 
As Chairman of the Interior and Related Agencies Appropriations 
Subcommittee, I have been a strong and vocal critic of the 
potentially devastating impact this plan could have on the 
people of eastern Washington and the way in which this 
Administration has conducted itself throughout the course of 
this study.
    I have questioned this planning process every step of the 
way and have done everything in my power to minimize its 
impacts on the rural communities that stand to lose the most if 
it is implemented. During the budget showdown between Congress 
and the Clinton Administration in 1996, I offered legislative 
language which would have guaranteed that implementation of 
this study's recommendations would be left to the discretion of 
local land managers and their communities. The language also 
included assurances that the rights of private property owners 
would be protected.
    I was astounded when the White House rejected this common 
sense solution and threatened to shut down the government if it 
did not get its way. While the final version of my proposal 
that was included in the Omnibus Appropriations bill provided 
some assurances that the study would not infringe upon private 
property rights, there are currently no guarantees in statute 
that protect private landowners rights should the 
implementation phase of this plan proceed.
    During last year's Appropriations process, I successfully 
authored legislation extending the comment period on the Draft 
EIS for an entire year. My bill also required the agencies 
responsible for developing this plan to conduct a socioeconomic 
assessment of the plan's impact on affected communities.
    Once again, I was disappointed with much of the agencies' 
analysis in this study which was released earlier this year. 
For example, I am told that in this study the economy of 
Othello, Washington is not considered dependent on agriculture. 
As someone who has spent dozens of hours meeting with Othello 
residents and traveling throughout the area, I have to question 
the accuracy of any study that cannot recognize the obvious 
fact that Othello and rural towns like it are almost totally 
dependent on farming and other natural resources industries. 
There are few in this audience who would disagree.
    Clearly, the areas affected by this study produce a wealth 
of goods and services from our natural resources including 
timber, grazing, hydroelectric power, and production of dozens 
of other agricultural commodities. Simply put, the commodities 
produced from these natural resources are the life blood of the 
region's economy.
    In recent years, however, these areas have come under 
attack from the preservationist tendencies within this 
Administration. It is on this battleground of interests, some 
of which support wise use of the land, and some that support no 
use, that the Columbia Basin studies are being conducted.
    I am deeply troubled about this study. The simple fact is 
that the federal agencies managing the project, after five 
years of analysis and expenditures of over $40 million, have 
not delivered on assurances that conducting a basin-wide study 
such as this will either protect the natural resources based 
economy of the inland west or resolve the threat of litigation 
created gridlock throughout the region.
    In addition to its potential adverse impact to the economy 
of my state and neighboring states, I am also concerned that 
the taxpayers of this country, after pouring huge sums of 
federal funds into this project for five years, are receiving 
few benefits. The project was begun with assurances from the 
Forest Service and the Bureau of Land Management that 
conducting land management planning and analysis at a basin-
wide level was the most efficient method of mitigating 
cumulative affects on endangered species, assuring sustained 
commodity outputs from timber, range and mines, recreation 
needs, while at all times assessing the economic affects on 
local communities within the project area. Congress was led to 
believe that with the Record of Decision from this project, 
local forest and land management resource plans would be 
promptly amended or revised and important decisions on resource 
allocations would be made.
    Congress has been told repeatedly that the project would 
lead to more timely decisions and quicker agency actions. This 
simply has not happened. The agencies involved have failed to 
meet many of their self imposed deadlines. The final EIS and 
Record of Decision were supposed to be implemented more than a 
year ago. Instead, the Interagency Team responsible for 
developing this plan barely completed the Draft EIS by that 
time. The final EIS and Record of Decision are now expected to 
be completed sometime next summer--more than two years behind 
schedule. And this is just the study part of the project. With 
over 90 new standards and objectives included in the Draft EIS, 
I find it difficult to believe that any progress will be made 
in ending the gridlock that is already so prevalent in our 
public lands management decision making process.
    I fear that the Columbia Basin Study has gone awry as a 
result of an inherent problem with bureaucracy: that it is 
regularly choosing to analyze rather than make decisions. 
During this hearing today, I want to know why the project has 
yielded no results and seems to be in a severe state of 
analysis paralysis.
    As Congress gets closer to a decision on whether or not to 
continue this project, I have three important objectives. They 
are: (1) protecting the health of our natural-resource based 
economy in Eastern Washington State and neighboring states that 
depends on the wise multiple use of federal lands; (2) ensuring 
that the rights and interests of private property owners within 
the project area are not infringed; and (3) empowering local 
federal land managers--not Washington, D.C. bureaucrats--to 
make the final management decisions on federal lands.
    While I am clearly no fan of this study, there is a larger 
issue that we must address today--one that could be beyond 
anyone's control. When this project began, it was touted as the 
best way to eliminate litigation and the resulting gridlock 
stemming from inherent disagreement between commodity 
production and preservation interests. Even today, there are 
those who say Congress has no choice but to continue to support 
this project. They say failing to analyze on a basin-wide basis 
will result in protracted litigation, based on the presumption 
that no single unit is capable of independently preparing land 
management plans without creating conflicts and inconsistencies 
with neighboring units. In addition, I am told that past 
litigation has been resolved based on the expectation that the 
federal agencies were soon to issue basin-wide decisions 
through this study.
    At the same time, others will argue that this plan will not 
shield the region from just such lawsuits. Currently, I am 
aware of at least two notices of intent to sue over existing 
interim guidelines. The entire basin could be plunged into 
paralysis dependent on what interest feels its wishes are not 
met. Rather than being a conduit for applying basin-wide 
science to make broad scale land management decisions, a final 
product could be a lightening rod to attract appeals and 
lawsuits. On that basis there are those who advocate killing 
this project and letting local agency managers make these 
critical decisions.
    One of the questions I hope our panels will address today 
is whether or not the study is a legitimate solution to the 
gridlock that now threatens the Northwest. And if it is, will 
our rural communities in the area be any better off under this 
plan than if we did nothing and let the chips fall where they 
may with respect to court actions? If there is a locally driven 
alternative out there that is better at protecting our local 
economies and does not lead to an injunction, I hope to hear 
about it today.
    I have just described the damned if you do, damned if you 
don't predicament that Congress faces as we enter this hearing 
today. If we continue to support this project, we must clearly 
understand what decisions will be made and when and what their 
impacts will be on the communities directly affected by this 
study.
    I am increasingly convinced that this project has gotten 
too broad in scope and cannot be focused; that it is too 
inherently bureaucratic and will not be successful. I hope to 
find out today if there is any merit at all to funding various 
elements of the project. I am willing to continue if I reach 
three conclusions. First, that this study is the best approach 
to preserving the resources based economy that is so important 
to the region. Second, the plan appropriately protects the 
interests of private land owners within the study area. 
Finally, that any land management plan encompassing such a vast 
area will not be implemented in a one-size-fits-all fashion. We 
must ensure that local public lands managers--not beltway 
bureaucrats--have a major voice on public lands decisions 
affecting the citizens of the Columbia Basin.
    Our committees will be hearing from a diverse array of 
witnesses today. They were selected by various local leaders in 
their respective areas of expertise. They include farmers, 
loggers, federal, state, and county officials, recreationists, 
and environmentalists. The witnesses who will be testifying are 
too numerous to mention now, but I will introduce each as we 
seat the panels. Unfortunately, due to time constraints, we 
will not have time to hear from anyone except our panelists. 
For those who wish to offer testimony after this hearing, we 
will be giving equal consideration to written testimony and 
will keep the hearing record open for several weeks to 
accommodate you. Let me say at the outset, thank you to all the 
witnesses and all my colleagues for joining me here today.
    Now I will ask Senator Craig if he has any opening remarks.


                  summary statement of robert williams


    Senator Gorton. Our first witness is Robert Williams, the 
Regional Forester from the U.S. Forest Service in Portland, OR. 
And, Bob, you may introduce those who have accompanied you here 
today.
    Mr. Williams. Thank you, Mr. Chairman. We appreciate the 
opportunity to be here and discuss the Interior Columbia Basin 
Ecosystem Management Project, and to provide you with a status 
report on that project.
    As you have said, I am Bob Williams, the Regional Forester 
for the Pacific Northwest Region of the Forest Service. I am 
also a member of the Executive Steering Committee for this 
project.


                       introduction of associates


    I am accompanied today by Tom Quigley, who is the Science 
team leader on the project; and Susan Giannettino, who is the 
project team leader. The two of them have been involved in 
developing this project all along.
    The project provides the best opportunity to create a 
common vision for the long-term management of Federal lands in 
the Interior Columbia Basin. And we believe it is a wise 
investment in the future of the basin.
    Some believe that we should end the project without issuing 
decisions. In lieu of completing the final impact statement, 
some critics of the process want the scientific information 
given to field managers to consider when updating or revising 
their land management plans. Others question the science upon 
which the project is based, and say it needs to be redone. The 
project is important to the long-term strategy that will 
coordinate management of multiple-use public lands in the 
basin, to provide sustainable levels of goods and services, 
while ensuring sustainable populations of plant and animal 
species.
    I believe oftentimes project critics do not take into 
account the fact that the basin land managers are currently 
working under several short-term directives until a long-term 
strategy is developed. The project is important to that long-
term strategy. And failure to complete it will likely lead to 
litigation, requiring us to complete similar strategies to 
replace those temporary directives.
    Further program disruptions would have significant impacts 
to local communities, as well as to the natural resources we 
are charged with managing.
    I would like to discuss the benefits that we believe the 
project will provide, give you a short status report on the 
science assessment and the environmental analysis, as well as 
the public involvement efforts we have taken to date.
    The background of the project is of course that in July 
1993, President Clinton directed the Forest Service and the 
Bureau of Land Management to develop a scientifically sound and 
ecosystem-based strategy for the management of the eastside 
forests as a part of this overall plan for ecosystem management 
in the Pacific Northwest.
    Two key factors shaped this project. First, issues such as 
forest and rangeland health and the viability of salmon 
populations are extremely difficult to address efficiently and 
effectively on a unit-by-unit basis. If each of the 74 existing 
land and resource management plans for the Bureau of Land 
Management and the Forest Service within the project area is 
developed independently, broad problems which are influenced by 
numerous plans, such as species viability and the cumulative 
effects of individual management actions would be very, very 
difficult to resolve.
    Second, we must take into consideration both the link 
between the rural economies of the region and the resource 
management decisions, as well as the changing nature of the 
economic bases. Economic vitality in these communities, once 
tied almost exclusively to timber, mining, and agriculture, is 
now also contingent on nonconsumptive activities, such as 
recreation and tourism. These various uses are interrelated and 
dependent on the long-term health of all of the resources in 
the region.
    The project decisions which will be made when the final 
environmental impact statement is completed will provide a 
framework for future management, will establish guidelines for 
future management to assure sustainable populations of species 
across the planning area, and will provide greater certainty 
regarding the goods and services these public lands will 
provide in the future. The 5 Federal agencies involved in the 
project are working hard, with 7 States, 100 counties, 22 
American Indian tribes, and many partners, interested groups, 
and individuals, to carry out a very complex task. We are all 
striving to find a way to balance the statutory 
responsibilities of the five agencies with the needs of all of 
these.
    The comment period on the draft EIS's began June 6, 1997, 
and was extended three times, and finally closed May 6, 1998. 
Since the beginning of the comment period, Executive Steering 
Committee members and project staff have participated in 
numerous public meetings across the basin. We have also met 
with representatives from all levels of government, business, 
conservation, and professional and civic groups, federally 
sanctioned advisory groups, and local citizens.
    I will discuss in a bit more detail some of our discussions 
in the past months with other governments, counties, tribes, 
and States.
    The Eastside Ecosystem Coalition of Counties represents the 
county associations from Idaho, Montana, Oregon, and 
Washington. The coalition has sought a win-win solution for the 
region, which are good for both ecosystems and communities. 
They have identified a number of concerns with the social and 
economic effects in the draft EIS's, and identified additional 
information needs, including characterization of the economic 
and social conditions of individual communities, discrepancies 
in economic dependency factors and determinations, validation 
of the recreation findings described in the science assessments 
and the draft EIS's, and documentation in the variation in 
wages between different industries displayed in the draft 
EIS's.
    The first concern was addressed through the social and 
economic report that I will mention later. And we are 
continuing to work with the coalition members to address their 
remaining concerns and other issues they and their constituents 
have brought forward as we move to the final EIS stage.
    A comment on the tribes. We have worked very early in the 
EIS process and we have made a commitment to consult on a 
government-to-government basis with 22 American Indian tribal 
governments that are affected by the project. Since release of 
the draft EIS's, three regional tribal summits were held 
involving tribal representatives. At a December 1, 1997, 
meeting involving Secretary of Interior Bruce Babbitt, we 
chartered a tribal executive steering committee working group 
as a means to further government-to-government discussions. 
This group is working with us to address tribal concerns prior 
to the completion of the final EIS.
    These include that trust and treaty responsibilities will 
be met, particularly regarding harvestable populations of 
animals, plants, and fish; that there will be access to 
traditional areas of interest; and that there will be funding 
adequate to implement the restoration activities.
    The Executive Steering Committee and the project staff are 
working with the Governors and the State agencies within the 
project area to respond to their concerns about the draft 
EIS's, and have met with them during the comment period to 
review their comments for incorporation in the final EIS. Their 
concerns are similar to those identified by the coalition.
    The project, to date, has received over 85,000 comments on 
the draft EIS's. We are completing the analysis of comments, 
and hope to meet with our government partners and advisory 
groups in July, to review the results of that analysis. The 
comments are diverse and, at times, conflicting. Comments 
received reflect stark differences of opinion regarding several 
of the critical issues. As Federal land managers, we must 
consider all views in developing our land use plans, and will 
use the comments and, in consultation with our advisory groups 
and governmental partners, define a framework within which 
decisions can be made.
    The final EIS will represent our best attempt to balance 
the many competing views regarding management of BLM and Forest 
Service administered lands in the basin.
    As you mentioned, the project has prepared a report on the 
economic and social conditions of communities within the 
project area in response both to the 1998 Interior 
Appropriations Act and to the earlier request from the Eastside 
Ecosystem Coalition of Counties. It was mailed to the 8,000 
people on the project mailing list, as well as being made 
available in all of the Forest Service and BLM field offices 
throughout the basin.
    The information contained in the report will be used as we 
work with our advisory groups and governmental partners to 
understand the effects of the various alternatives in the final 
EIS. Community leaders can also use the information 
independently to help them plan their futures in many other 
arenas. This year the Forest Service and the BLM expect to 
spend about $5.7 million on project-related activities. That 
will bring the total spent by the end of fiscal year 1998, the 
one we are in now, to approximately $40 million.
    In fiscal year 1999, we will need an additional $5 to $6 
million to complete the final EIS and the records of decision. 
The funding will be used over the next 1\1/2\ years to 
accomplish the following work: Encourage further public 
involvement, analyze and prepare responses to public comments, 
prepare and print a final environmental impact statement and 
the records of decision, and complete an implementation 
strategy.
    It will also be used to transfer the science information to 
field personnel and to the public, and to test and finalize new 
collaborative processes. We estimate implementation costs, 
based on the preferred alternative in the draft EIS--and I 
point out that they may change upon completion of analysis of 
public comments and the development of the final EIS--we 
estimate full implementation costs for the preferred 
alternative at $268 million for all agencies, over one-half of 
which could come from the reprioritization of current regional 
budgets.
    The President's fiscal year 1999 budget is adequate to move 
ahead in the initial implementation of the vision that will be 
developed in the record of decision. During development of the 
final EIS, we will reassess implementation funding needs, and 
will submit a revised interagency budget proposal as 
appropriate.


                           prepared statement


    In closing, the Executive Steering Committee is committed 
to completion of a final EIS and development of a long-term 
framework that meets public need on public lands within the 
Interior Basin. Failure to complete the project will further 
disrupt program delivery, create more adverse effects to local 
communities, and could put at risk the natural resources we are 
charged with managing and the communities that we serve.
    We appreciate being here, and we will be happy to answer 
questions.
    Senator Gorton. Thank you, Bob, very much.
    [The statement follows:]
                 Prepared Statement of Robert Williams
    Thank you for the opportunity to discuss the Interior Columbia 
Basin Ecosystem Management Project (the Project) and to provide a 
status report on the Project. I am Bob Williams, Regional Forester for 
the Pacific Northwest Region of the Forest Service, and I am very 
pleased to be here. I am accompanied by Tom Quigley, Science Team 
Leader, and Susan Giannettino Project Team Leader, who have led the 
assessment and planning efforts.
    The Project provides the best opportunity to create a common vision 
for the long term management of Federal lands in the Interior Columbia 
Basin (Basin) and it is a wise investment in the future of the Basin. 
Some believe that we should end the Project without issuing decisions. 
In lieu of completing the Final Environmental Impact Statement (EIS), 
some critics of the process want the scientific information given to 
field managers to consider when updating or revising their land 
management plans. Some question the science upon which the Project is 
based and say it needs to be redone. The Project is important to the 
long term strategy that will coordinate management of multiple use 
public lands in the Basin to provide sustainable levels of goods and 
services while ensuring sustainable populations of plant and animal 
species.
    Project critics do not take into account the fact that Basin land 
managers are currently working under several short term directives 
until a long term strategy is developed. The Project is important to 
that long term strategy, and failure to complete it will likely result 
in litigation requiring us to complete strategies to replace the 
directives. Further program disruptions would have significant impacts 
to local communities and to the natural resources we are charged with 
managing. Failure to complete the Project could also influence future 
issues related to management of private lands.
    I would like to discuss the benefits we believe the Project will 
provide, the status of the science assessment and environmental 
analysis, public involvement efforts to date, where we are in the 
review of the comments on the draft EIS, the value of the socioeconomic 
report we recently completed, and budget implications.
                               background
    In July, 1993, President Clinton directed the Forest Service and 
Bureau of Land Management to ``develop a scientifically sound and 
ecosystem-based strategy for the management of eastside forests'' as 
part of his plan for ecosystem management in the Pacific Northwest. The 
agencies expanded the planning area based on concerns common to the 
upper Columbia River system and the resultant Interior Columbia River 
Basin Ecosystem Management Project responds to the President's charge 
by examining forest and rangeland ecosystem health, listings and 
potential listings of plant and animal species under the Endangered 
Species Act, the economies of rural communities, and treaty and trust 
responsibilities to American Indian Tribes. The Project is managed by 
Susan Giannettino under the direction of the interagency Executive 
Steering Committee
    The Project area encompasses 24 percent of the National Forest 
System and 10 percent of the BLM administered public lands in the 
nation. A scientific assessment of the entire interior Columbia Basin 
was published in 1997; however, the management decisions the BLM and 
Forest Service will make will only apply to the lands each agency 
administers in the Basin.
    Two key factors shaped this Project:
  --First, issues such as forest and rangeland health and the viability 
        of salmon populations are extremely difficult to address 
        efficiently and effectively on a unit-by-unit basis. If each of 
        the 74 existing land and resource management plans for the BLM 
        and Forest Service within the Project area is developed 
        independently, broad problems which are influenced by numerous 
        plans, such as species viability and the cumulative effects of 
        individual management actions, would be very difficult to 
        resolve.
  --Second, we must take into consideration both the link between the 
        rural economies of the region and resource management 
        decisions, as well as the changing nature of this economic 
        base. Economic vitality in these communities, once tied almost 
        exclusively to timber, mining, and agriculture is now also 
        contingent on non-consumptive activities such as recreation and 
        tourism. These various uses are interrelated and dependent upon 
        the long-term health of all of the resources in the region.
                            public benefits
    The Pacific Northwest and interior West have been a focus of 
controversy over public land management for years due, in part, to 
reduced timber and agriculture outputs and uncertainty regarding the 
levels of future outputs that will be provided from Federal lands.
    The Project has done an outstanding job of helping us better 
understand where we are today. The science developed over the last four 
years established historical baselines, compared current conditions to 
those baselines, and identified critical problems we need to address. 
The Project has developed draft Environmental Impact Statements (EIS) 
integrating that information. The draft EIS's have been reviewed by the 
public and we are in the process of reviewing those public comments at 
this time.
    The Project decisions which will be made after the final EIS is 
completed, will:
  --Provide the framework for future management;
  --Establish guidelines for future management to assure sustainable 
        populations of species across the planning area; and
  --Provide greater certainty regarding the goods and services these 
        public lands will provide in the fixture.
    The five Federal agencies involved with the Project, are working 
hard with seven states, 100 counties; 22 American Indian Tribes; 
partners; interested groups; and individuals to carry out a very 
complex task. We are striving to find a way to balance the statutory 
responsibilities of five federal agencies with the needs of states, 
tribes, and local governments; the demands of industries and 
conservationists; and the desires of an even broader array of 
individuals and groups regarding management of these public lands.
    Without a final EIS, the 74 Land and Resource Management Plans 
affected by the Project will remain vulnerable to lawsuits and already 
a number of administrative appeals and lawsuits have been filed on 
those plans, projects, or related issues. The broad framework defined 
by the final EIS and related forest plan amendments will significantly 
increase our success in appeals and litigation.
                                 status
    The comment period on the draft EIS's began June 6, 1997, and was 
extended three times and finally closed May 6, 1993. Since the 
beginning of the comment period, Executive Steering Committee members 
and Project staff have participated in numerous public meetings across 
the basin. We have also met with representatives from all levels of 
government, business, conservation and professional and civic groups, 
federally sanctioned advisory groups, and local citizens. I want to 
discuss in more detail some of our discussions in the past months with 
other governments--counties, tribes, and states.
Eastside Ecosystem Coalition of Counties
    The Eastside Ecosystem Coalition of Counties (Coalition) represents 
the county associations from Idaho, Montana, Oregon and Washington. The 
Coalition has sought ``win-win'' solutions for the region which are 
good for both ecosystems and communities. They have identified a number 
of concerns with the social and economic effects in the draft EIS's and 
identified additional information needs including: Characterization of 
economic and social conditions of communities; discrepancies in 
economic dependency factors and determinations; validation of the 
recreation findings described in the science assessment and draft 
EIS's; and documentation in the variation in wages between different 
industries displayed in the draft EIS's.
    The first concern was addressed through the social and economic 
report that I will discuss later. We are continuing to work with the 
Coalition members to address their remaining concerns and other issues 
they and their constituents have brought forward as we move to the 
final EIS stage.
Tribes
    Very early on in the EIS process, we made a commitment to consult 
on a government-to-governent basis with 22 American Indian tribal 
governments affected by the Project. Since release of the draft EIS's, 
three regional summits involving tribal representatives have occurred. 
At a December 1, 1997, meeting involving Secretary of the Interior 
Bruce Babbitt, we chartered a tribal Executive Steering Committee 
Working Group as a means to further government-to-government 
discussions. This group is working with us to address tribal concerns 
prior to the completion of the final EIS, which include the need to 
assure: That trust and treaty responsibilities will be met, 
particularly regarding harvestable populations of animals, plants, and 
fish; access to traditional areas of interest; and funding adequate to 
implement restoration activities.
States
    The ESC and Project staff are working with the governors and state 
agencies within the Project area to respond to their concerns about the 
draft EIS's and met with them during the comment period to review their 
comments for incorporation in the final EIS. Their concerns are similar 
to those identified by the Coalition and include: A perception that 
regulatory agencies are dictating land management direction; conflicts 
between regulatory framework and human needs objectives of the project; 
and inadequate response to economic distress caused by land management 
changes.
                        public comments to date
    The Project received over 85,000 comments on the draft EIS's. We 
are completing the analysis of comments and hope to meet with our 
government partners and advisory groups in late June or early July to 
review the results of that analysis. The comments are diverse and, at 
times, conflicting. I want to briefly list some of the common themes we 
received: Conflicting views of appropriate public land management 
objectives short- versus long-term benefits, local versus national 
interests, and commodity versus amenity values; the perceived loss of 
local decision making; concern about economic uncertainties; 
conflicting views of ecosystem management principles and their 
appropriate application; Concerns about the development and use of the 
science for the project; and concerns about the agencies' ability to 
implement Project decisions.
    Comments received reflect stark differences of opinion regarding 
several of these critical issues. As Federal land managers, we must 
consider all views in developing our land use plans and will use the 
comments and, in consultation with our advisory groups and governmental 
partners, define a framework within which decisions can be made. The 
final EIS will represent our best attempt to balance the many competing 
views regarding management of BLM and Forest Service administered lands 
in the Basin.
          economic and social conditions of communities report
    The report on the economic and social conditions of communities 
within the Project area in response to both the 1998 interior 
appropriations act, and to an earlier request from the Eastside 
Ecosystem Coalition of Counties, was mailed to the 8,000 people on the 
Project mailing list, was available in over 100 BLM and Forest Service 
field offices throughout the Basin, and was posted on the Project's 
homepage on the internet.
    The report built upon the information presented in the science 
documents and the draft EIS's to describe the economic and social 
conditions at many different scales within the Basin. This multi-scale 
description is necessary because conditions appear quite different 
depending on the economic area studied. For example, while timber, 
ranching and mining make up a minimal amount of the direct total Basin 
employment, numerous counties are dependent on those sectors and while 
most of the people live in counties that are growing and have diverse 
economies, most of the counties lack diversity.
    At the community level, about one third are considered isolated and 
nearly 70 percent of all communities are specialized in either 
agriculture, agricultural services, wood products manufacturing, mining 
or Federal government employment. The information contained in the 
report will be used as we work with our advisory groups and 
governmental partners to understand the effects of the various 
alternatives in the final EIS. Community leaders can also use the 
information independently to help them plan their futures in many other 
arenas.
                      1998 and 1999 project costs
    This year, the Forest Service and BLM expect to spend $5.7 million 
on Project-related activities. That will bring the total spent by the 
end of fiscal year 1998 to approximately $40 million. In fiscal year 
1999, we will need an additional $5-6 million to complete the final EIS 
and records of decision. The funding will be used over the next year 
and a half to accomplish the following work:
  --Encourage further public involvement;
  --Analyze and prepare responses to public comments;
  --Prepare and print a final EIS and Record of Decisions;
  --Complete an implementation strategy, that includes, among other 
        items: An MOU between Federal land management and regulatory 
        agencies outlining collaborative . . . activities; A broad 
        scale monitoring plan; A process for setting restoration work 
        priorities; Guides for the new processes prescribed in the EIS; 
        A process for changing and adapting management direction in the 
        EIS; The oversight process for implementation decisions and 
        resolving questions; The role of community assistance and 
        economic action programs, and A description of the relationship 
        between this and future planning efforts;
  --Transfer of the science information to field personnel and the 
        public; and
  --Test and finalize new collaborative processes.
    We estimated implementation costs based on the preferred 
alternative of the draft EIS, and they may change upon completion of 
analysis of public and development of the final EIS. We estimate full 
implementation cost for the preferred alternative at $268 million for 
all agencies, over half of which would come from the reprioritization 
of current regional budgets. The President's fiscal year 1999 budget is 
adequate to move ahead in implementing the vision that will be 
developed in the record of decision. During development of the final 
EIS, we will reassess implementation funding needs and will submit a 
revised interagency budget proposal.
                                closing
    In closing, the Executive Steering Committee is committed to 
completion of a final EIS and development of a long-term framework that 
meets public need on public lands within the interior Columbia Basin. 
Failure to complete the Project will further disrupt program delivery, 
create more adverse effects to local communities, and could put at 
greater risk the natural resources we are charged with managing and 
communities we serve.
    We would be happy to answer any questions.

                    opening remarks of senator craig

    Senator Gorton. Senator Craig has arrived, and I am going 
to defer to him for his opening statement.
    Senator Craig. Senator, thank you very much. My apologies 
to all of you for arriving late. Something about the airline 
connections between here and Boise.
    But let me at the outset, Senator Gorton, tell you how much 
I appreciate the ability of our committees to work together and 
to hold this joint hearing on what most of us view, and 
certainly Senator Gorton and I view, as a important and 
critical issue. We have, over the period of several years, 
looked at this issue with some concern.
    The Energy and Natural Resources Committee on which I serve 
and the subcommittee that I chair have held oversight hearings 
and review on two occasions: April 1995 and May 1997. Our 
interest in this plan is both ongoing and intense, given the 
amount of money invested in the development of the issues 
addressed and the amount of money that we are just hearing will 
be necessary to complete it.
    Testimony provided by the administration's representatives 
at our April 5, 1995, hearing offered many promises. These 
promises were about what the plan would do and why it was 
worthy of undertaking to secure the balanced and sustainable 
management of our resources here in the Columbia Basin. It is 
fair to say that the assurances provided during the April 5, 
1995, hearing resulted in the decision by a majority of the 
Members of Congress to permit further work on the plan. 
Congress provided full funding for the continued planning, 
notwithstanding the reservations and objections that some of us 
had as it related to this issue and how it might affect the 
region.
    It is also fair to say, however, that by the time our May 
15, 1997, oversight hearing arrived, most Members of Congress 
felt that the promises made by the administration had not been 
redeemed. For instance, by the time promises of a timely 
completion of the effort were demonstrated, it was clear that 
that was not going to happen. The effort was taking much longer 
than was originally anticipated, and now its completion is even 
further delayed.
    Similarly, promises of a more cost-effective decisionmaking 
result were not forthcoming. And it appeared that even at that 
time the completion was going to be extraordinarily expensive.
    Third, we were promised that this effort would result in 
conducting appropriate environmental analysis at the proper 
ecological scale and with the best science information 
available. It is hard to square with the extensive subbasin 
plan analysis that will be required once this regional plan is 
completed. It is also impossible to square with the 
administration's one-size-fits-all road moratorium that is now 
of controversy here in the region. And I will talk about that 
in just a moment.
    Finally, we were promised that we would not have to review 
the same issues at subsequent levels of decisionmaking. Here 
again, I have a hard time seeing how that will be accomplished. 
Consequently, Senator Gorton and I collaborated last year as it 
relates to the Forest Service appropriation bill, to direct the 
agencies to do some additional analysis and disclose some 
additional information before completing this project. We asked 
for more specific socioeconomic impact analysis on a community-
by-community basis.
    We also asked for a discussion of the various decisions and 
likely outputs that would result from the implementation of 
this plan. I hope that we will hear from the administration 
today on the progress in fulfilling these information requests.
    And, Bob, I have missed your testimony. I will read it as 
the questions go forward.
    I would say that in the next few weeks we will be at a 
critical point of judgment on this project. Clearly, the 
original expectations for this project, in my opinion, have not 
been met. This is something that the Congress and the 
administration are going to have to discuss critically, 
decisively and I hope intelligently as we decide how and 
whether to go forward.
    More broadly, however, I am very troubled that in the fact 
of all of the effort that has gone into this project and the 
assurances that were made about it. The administration is 
making critical resource management decisions now, totally 
divorced from the analysis contained in the Interior Columbia 
Basin Ecosystem Management Plan. The arbitrary and unilateral 
imposition of a one-size-fits-all roadless area moratorium 
earlier this year may, by itself, be grounds for terminating 
the extraordinary expenses that have been and will continue to 
be associated with this plan.
    That is something the administration will have to reconcile 
to this Senator's satisfaction, or I will work strongly against 
any further movement of this plan.
    Additionally, in light of the Supreme Court's decision last 
week in the Ohio Forestry Association v. Sierra Club, I note 
that we may produce a plan that will be immune from meaningful 
judicial review by many of the parties that will discuss their 
problems with this plan here today. Essentially, the Supreme 
Court found that many of the interests who were concerned about 
the development of resource management plans lacked the 
standing to challenge those plans.
    I frankly welcome last week's decision as appropriately 
decided based on existing law. But the decision clearly exposes 
what I consider to be one of the most serious and fundamental 
problems with the law and plans like this one, developed under 
current law. The Justices found that since public land 
management plans do not contain any final decisions, those who 
might want to challenge a plan need to wait until the agency 
actually proposes on-ground activities.
    I think anyone familiar with the work that I have been 
doing in S. 1253 knows that sometimes I have been very critical 
of this approach. It is also something that I specifically have 
addressed in my bill. We ought to be making important land 
management decisions early on in the process. And we ought to 
be involving the public sooner.
    My bill would see to it that there is only one layer of 
land management planning, and that layer would actually lead to 
concrete decisions being made. The public would have easy 
access to those decisions, and the courts would be better able 
to review them.
    My bill would help us avoid the specter of planning 
documents like the plan we are discussing today. I think we are 
up to close to 7,000 pages as it relates to this issue.
    So, the Supreme Court is speaking. We are attempting to 
speak. And we are being asked to evaluate, and therefore to 
fund and to continue a process that, by itself, is now under 
real criticism. And the administration appears to use it only 
as a game, and then proceed on their own path with alternative 
decisionmakings and alternative approaches that appear to be in 
conflict with this approach, if not totally a separate one.

                           prepared statement

    So, I am anxious, Senator Gorton, to hear the rest of the 
testimony today. If my remarks are viewed as critical, I hope 
they are viewed as that. Because I am at this point developing 
a level of intolerance toward this kind of phenomenal waste of 
public resource, to add another layer of decisionmaking that 
will only get us into an 8- or 10-year time line on activities 
instead of the current 5 to 6.
    Thank you, Senator.
    [The statement follows:]
               Prepared Statement of Senator Larry Craig
    Good morning, and welcome to a joint hearing of the Senate 
Appropriations and the Senate Energy and Natural Resources Committee on 
the Interior Columbia Basin Ecosystem Management Plan. For the Energy 
and Natural Resources Committee, this will be our third oversight 
hearing on this plan, as the Committee previously reviewed the plan on 
April 5, 1995 and May 15, 1997. Our interest in this plan is both 
ongoing and intense, given the amount of money invested in its 
development and the issues it addresses.
    Testimony provided by Administration representatives at our 
Committee's April 5, 1995 hearing offered many promises. These promises 
were about what the plan would do, and why it was a worthy undertaking 
to secure the balanced and sustainable management of the resources of 
the Columbia Basin. It is fair to say that the assurances provided 
during that April 5, 1995 hearing resulted in the decision by a 
majority of members of Congress to permit further work on the plan. 
Congress provided full funding for continued planning, notwithstanding 
the reservations and objections by many in the affected region.
    It is also fair to say, however, that--by the time of our May 15, 
1997 oversight hearing--most members of our Committee felt the promises 
made by the Administration had not been redeemed. For instance, by that 
time promises of the timely completion of the effort were clearly not 
happening. The effort was taking much longer than originally 
anticipated. And now, its competition is even further delayed.
    Similarly, promises of more cost-effective decision-making are hard 
to live down in light of the increased costs of completion, and the 
extraordinary cost of implementing this program.
    Thirdly, we were promised that this effort would result in 
conducting appropriate environmental analyses, at the proper ecological 
scale, and with the best scientific information available. This is hard 
to square with the extensive sub-basin plan analyses that will be 
required once this regional plan is completed. It is also impossible to 
square with the Administration's ``one-size-fits-all'' road moratorium. 
I will talk a bit more about this in a moment.
    Finally, we were promised that we would not have to review the same 
issues in subsequent levels of decision-making. Here again, I have a 
hard time seeing how this will be accomplished.
    Consequently, Senator Gorton and I collaborated in last year's 
Forest Service Appropriations bill to direct the Agency to do some 
additional analyses, and disclose some additional information before 
completing this project. We asked for more specific socio-economic 
impact analyses on a community-by-community basis. We also asked for a 
discussion of the various decisions and likely outputs that would 
result from the implementation of this plan. I hope that we will hear 
from the Administration today on the progress in fulfilling these 
information requests.
    I would say that, in the next few weeks, we will be at a critical 
point of judgement about this project. Clearly, the original 
expectations for this project have not been met. That is something that 
the Congress and the Administration are going to have to discuss 
critically, incisively, and intelligently as we decide how and whether 
to go forward. More broadly, however, I am very troubled that--in the 
face of all of the effort that has gone into this project, and the 
assurances that were made about it--the Administration is making 
critical resource management decisions totally divorced from the 
analysis contained in the Interior Columbia Basin Ecosystem Management 
Plan. The arbitrary and unilateral imposition of a ``one-size-fits-
all'' roadless area moratorium earlier this year may, by itself, be 
grounds for terminating the extraordinary expenses that have been, and 
will continue to be, associated with this plan. That is something the 
Administration will have to reconcile to our satisfaction.
    Additionally, in light of the Supreme Court decision of last week, 
I am growing increasingly concerned that we will produce a plan that 
will be immune from meaningful judicial review by many of the parties 
that will discuss their problems with the plan here today. Essentially, 
the Supreme Court found that many of the interests who are concerned 
about the development of resource management plans lack standing to 
challenge those plans.
    I frankly, welcome last week's decision as appropriately decided 
based upon existing law. But the decision clearly exposes what I 
consider to be one of the most serious and fundamental problems with 
the law, and plans (like this one) developed under current law. The 
Justices found that, since public land management plans don't contain 
any final decisions, those who might want to challenge a plan need to 
wait until the agency actually proposes on-the-ground activities.
    Anyone familiar with my forest management bill--S. 1253--knows that 
that's something I've been critical of for a long time. It's also 
something I specifically address in my bill. We ought to be making 
important land management decisions earlier on in the process, and we 
ought to be involving the public sooner.
    My bill would see to it that there's only one layer of land 
management planning, and that layer would actually lead to concrete 
decisions being made. The public would have easier access to those 
decisions, and the courts would be better able to review them. My bill 
would help us avoid the specter of planning documents like the plan we 
will be discussing today that with last week's Supreme Court ruling --
are immune from public challenge.
    I suspect that we will find the prospect of applying that Supreme 
Court precedent to this plan extremely troubling for a number of our 
witnesses here today. With those brief introductory remarks, I believe 
we should hear from our witnesses. Rest assured that we will have a 
number of questions.

                 impact of failure to complete project

    Senator Gorton. Mr. Williams, at the end of the first page 
of your testimony, in speaking about what would happen if the 
project is not completed, you say: Failure to complete the 
project could also influence future issues related to the 
management of private lands.
    Do you want to explain that? Would you explain what adverse 
impacts to private lands might ensue from a failure to complete 
the project?
    Mr. Williams. Much of this relates to our experience on the 
westside of our region, where we have dealt with threatened and 
endangered species issues. By completing a Federal land 
management strategy, we have been able to absorb much of the 
impact of protecting those species on the public lands to the 
benefit of the private lands. The private landowners are 
experiencing relaxed standards over those that we are 
experiencing on the Federal lands. We are carrying a larger 
share of that load. And therefore it is a benefit to the 
private lands.
    So, I would make the adjustment, if we end up--and we will 
end up--in problems with threatened and endangered salmon 
species, particularly in the basin, we believe by having a good 
Federal land strategy in place it will provide a building block 
and a benefit to the private lands.
    Senator Gorton. Well, let us take the opposite of that 
question. I have two documents published by the analysis team 
and presented in Congress, one of them in the spring of last 
year. The document contains a reference to private property and 
states, and I quote: ``There would not be any direct impacts,'' 
on private lands within the basin, because decisions apply only 
to BLM and national forest lands.
    The other quote was in the economic and social conditions 
publication that was published in February, as required by our 
appropriations bill last year. This document states, and again 
I quote: ``Private lands will not be affected directly by any 
of the alternatives,'' published in the draft environmental 
impact statement.
    Now, in a way, those are obscure references that are in 
larger documents. But are they correct? Can you assure the 
people of the region that if we go forward and complete this 
plan and implement it that there will be no impacts, no effects 
on private property?
    Mr. Williams. There are no decisions being made in these 
documents that affect private property.
    Senator Gorton. But that is a little different.
    Mr. Williams. The discussion I just had would be indirect 
benefits.
    Senator Gorton. But that is a little different. My question 
is, if we complete and implement the plans, will private 
landowners be assured that neither the plans nor the 
implementation will adversely affect their private property?
    Mr. Williams. Yes.
    Senator Gorton. And you are able to make that statement 
unequivocally?
    Mr. Williams. I am.
    Senator Gorton. Where, on the other hand, the failure to 
complete it might have an adverse impact, through the actions 
or the enforcement of the Endangered Species Act?
    Mr. Williams. I think there are some benefits that would be 
missed.
    Senator Gorton. Is it true that action alternatives under 
the plan project future timber harvest levels of somewhere 
between 23 and 70 percent of the levels allowed under current 
plans?
    Mr. Williams. I am sorry, I just do not have that 
information in front of me. Susan, maybe you can help on that.
    Ms. Giannettino. I do not have the exact figures in front 
of me. I can look in the EIS's that we have copies of. It is 
correct that the preferred alternative has projected timber 
harvest volumes that are less than the aggregate of current 
plans. However, the preferred alternative is more than what is 
currently being harvested or even made available for sale.
    Senator Gorton. Well, you have anticipated my second 
question then. When the administration says the preferred 
alternative increases harvests over present levels, we are not 
talking about over the present authorized levels, we are 
talking about over the present actual levels?
    Ms. Giannettino. That is true.
    Senator Gorton. OK.
    But obviously they have played a major role in the study. 
Are they or should these regulatory agencies be equal partners 
with the Forest Service and the Bureau of Land Management in 
the management of lands within the study areas?
    Mr. Williams. We think they clearly should be. We can make 
better progress by having them as a part of the decisionmaking 
team. I will point out, though, that the final decisions are 
made by the three BLM State directors and the three regional 
foresters. We are the people who will sign the documents.
    Senator Gorton. Amplify on that answer a little bit. You 
first said they are equal partners and second said you have 
final responsibility. Aren't those slightly inconsistent?
    Mr. Williams. Well, that is the way it is working. They are 
a part of the Executive Steering Committee. They are our 
partners in developing this. But the ultimate decision in 
signing the documents will remain with the land management 
agencies.
    Senator Gorton. Are you confident that interagency 
cooperation is at a maximum, or can it be improved without 
becoming a burden on that implementation?
    Mr. Williams. It can clearly be improved. We are showing 
improvement, where we have worked with them on the 
implementation of the northwest plan, and we think we can bring 
that same kind of improvement to this area.
    Senator Gorton. On another subject, a major frustration 
with the study centers on the fact that once it is completed, 
local unit plans must be revised and amended. So, 2 years 
behind our original schedule, it looks like we wait even more 
time for local units to incorporate the study's findings.
    If a record of decision is published, will the National 
Forest and the BLM district plans be amended simultaneously?
    Mr. Williams. Yes; they will.
    Senator Gorton. Presuming that significant amendments to 
the National Forest and BLM district plans will be required, 
how long will it take?
    Mr. Williams. I think that will depend on the individual 
unit plans. Some of them will need to be revised fairly quickly 
because they are becoming quite old and conditions have changed 
quite a bit. Others will take several years. There will be no 
need to revise some of them quickly.
    So, it is going to be a range of timeframes.
    Senator Gorton. And what happens in the interim? What will 
be the nature of activities on those affected Federal lands 
while the amendments are in process?
    Mr. Williams. We are trying to make a distinction between 
amendments and revisions of plans, and I may have mixed up your 
question. But this project will amend the plans. A revision is 
a more complete remodeling of the plan. All of them will be 
amended to incorporate the results of this activity. And then, 
based on a priority of need, plans will be revised following 
that.
    And that can range from 2 or 3 years after the conclusion 
of this project to many more years. I am not sure I got at your 
question, sir, but I wanted to clarify that part of it.
    In the meantime, we will continue to manage according to 
the plan that is in place, as amended by this process.
    Senator Gorton. All right. That is the answer to my 
question.
    Now, in my opening comments I pointed out the extreme 
difficulty, if not impossibility, of finding the very large 
amount of implementation money about which you spoke. If you do 
not get that $112 million above the current operating level for 
the Forest Service and the Bureau of Land Management, has the 
effort been for no purpose?
    Mr. Williams. No; not at all. The processes that are put 
into place will provide the same benefits. We simply will be 
able to do less of the work that we want to get done. And I 
need to point out here that 87 percent of the funding for this 
project--the proposed funding for the project--goes into on-
the-ground kinds of work. That means weed control, road 
maintenance, thinning, commercial tree harvests. Those are the 
places where the bulk of this money goes.
    So, we will simply be doing less of those in each case if 
we do not get the money.
    Senator Gorton. With all of the entities and organizations 
that you will be dealing with and coordinating with now, is 
there going to be a need for a new Federal bureaucracy, like a 
Regional Ecosystems Office, to coordinate a transition during 
the implementation of the plan?
    Mr. Williams. We are evaluating that now. It is our hope 
that there will not be. However, we do know that we are going 
to have to have some kind of a coordination mechanism between 
our agencies, to make sure that we get consistent 
implementation. So, I would not want to go so far as to assure 
you that there will not be something like that. But we are 
trying to look at what are the most efficient ways to do it. 
And one would simply be an ad hoc approach, where each of us 
assign that to some of our people and they work as an 
interagency committee. And that is what we are focusing on 
right now.
    But this is a big project that covers a lot of area and has 
a huge scientific base for it, so there will be an ongoing need 
to interpret the information and then to monitor for the proper 
application of the information. So, I would have to give you a 
qualified answer on that.
    Senator Gorton. Now, let us go to the other alternative 
that we have. If the project were not continued, would there be 
any barriers? Would there be barriers to implementing the 
features of the preferred alternative under current land and 
resource management plans or under revised land and resource 
management plans?
    Mr. Williams. I think the barriers--and I am not sure that 
is the right term for me to use--would be that we would have to 
do much of the same work we are doing anyway. If we were to 
stop at this point and tell our field people, take this 
information and implement it, we have a massive task of 
interpreting that information, helping them understand it. This 
is a big step, from a project at this level, with the amount of 
scientific information that we have, to implementing it in 74 
different land management plans on the ground.
    We would be investing much of the same energy that we are 
investing in this project to help interpret what does this mean 
to field-level people.
    Senator Gorton. All right. Then what is the difference 
between going forward and stopping and doing it then in that 
fashion?
    Mr. Williams. We think the biggest risk is if we do not 
have something in place that demonstrates a basinwide strategy 
as soon as we develop the first two or three of those land 
management plans, we will be challenged on them and we will be 
found to be wanting, because of our inability to apply a 
basinwide strategy.
    Senator Gorton. In light of that decision of the Supreme 
Court in the Ohio case, will you be subjected to such a 
challenge? Who is going to make the challenge?
    Mr. Williams. Well, we are interested in hearing what that 
is. Now, that is new. That may change. You know, possibly it 
could make a difference.
    Our experience on the Northwest Forest Plan Area was the 
opposite; that without having a broad strategy in place, we 
were unable to defend individual local plans.
    Senator Gorton. Would you have your legal counsel look at 
that decision and give us a written response on whether or not 
it does not change some of the assumptions under which we 
started down this road and, for that matter, the place in the 
road in which we find ourselves at the present time?
    Mr. Williams. We will be glad to. We have asked them to 
look at it, and they are in the process of doing that right 
now.
    [Clerk's note.--The information was not received from the 
Department in time to be included in the hearing record.]
    Senator Gorton. If you would do that and share that with 
us, I think it would be of very significant value to us.
    Mr. Williams. We are curious for the answer ourselves.
    Senator Gorton. OK.
    Mr. Williams. It opens up a new arena.
    Senator Gorton. Senator Craig.
    Senator Craig. Thank you, Slade.
    Bob, what additional activities and budgets will be 
required specifically to bring this whole thing to fruition? I 
know you have talked around it, and we have heard figures--the 
Senator had mentioned some. What are we going to expect and to 
what extent will ongoing programs on individual forests in BLM 
districts cost?
    Mr. Williams. You are speaking about implementation, not 
the completion of the project, but the implementation?
    Senator Craig. I am talking about the completion of the 
project, No. 1, and then impact, No. 2.
    Mr. Williams. OK. The completion of the project will 
essentially be tailored for fiscal year 1999. We are expecting 
to bring it to a conclusion and begin the phase-down at the end 
of 1999. That is the $5 to $6 million that we are talking 
about.
    Senator Craig. Right. I had heard you give that.
    Mr. Williams. That comes out of our existing funding. In 
our case in the Forest Service, mostly ecosystem management or 
land management planning funding that we use.
    Now, to move into the implementation funds--and I apologize 
for the small size of this chart, but the large green portion 
of this circle--the chart itself represents the total 
implementation package of about $268 million per year, 
annually. The green portion of the chart is the project level, 
on-the-ground fieldwork that we are projecting we want to do.
    About one-half of that work is being done today. That is 
marking timber for sale, thinning projects, road maintenance 
and closure--not just weed treatment, prescribed fire to reduce 
fire hazard. So, what this amounts to is an expansion of those 
projects.
    Senator Craig. So, the 200-plus million you are talking 
about--the 268--is additional money?
    Mr. Williams. One-half of that is.
    Senator Craig. One-half of that is.
    Mr. Williams. It is approximately a one-half split.
    Senator Craig. Against the current program?
    Mr. Williams. Against the current program.
    One-half of it we are doing today. We are saying if we want 
to achieve the benefits of aggressive restoration of these 
lands, an increase of about an equal amount is necessary to do 
that. And 87 percent of that goes into on-the-ground.
    And I will hasten to point out that the rest of it includes 
such things as tribal consultation, additional research, and 
monitoring and evaluation activities that we need to do.
    Senator Craig. Are any Forest Service or BLM units 
implementing the standard and guidelines in the EIS now?
    Mr. Williams. I do not know that I can give a definitive 
answer. We have not directed them to do that. But I am hedging 
here because this is information that is out there, and as they 
do individual project plans and they see something that is a 
good idea, people begin to apply it. So, I am sure that we can 
go in the basin and we can find where situations are being 
resolved following the advice that is in the plan or 
information that is coming from the science. And of course we 
have not directed people to do it.
    Senator Craig. Then let me read you this note. This comes 
from a staff person of mine who attended a meeting the other 
night. It says:

    Last night, the first public meeting of the Southwest Idaho 
Ecogroup, Boise, Payette and Sawtooth Forests were held. The 
main concern was that the Forest Service is implementing now 
Columbia River Basin plans without the necessary authorization 
or the finalization of the process.

    The discussion with the Forest Service was that they are 
just doing it. The Boise and the Payette, as we know, have a 
terrific forest health problem. They are prescribing now a 
substantial amount of burn. The Payette had about 30 percent of 
its land allocated to timber harvest. It now has largely, in 
the new plan proposed, zero; and the Boise about 54 percent, 
and now it is down to 11. And the discussion by Forest Service 
officials was that they were moving now to comply with the 
standard and guidelines of the plan.
    That staff person of mine was tremendously frustrated by 
what she heard at that meeting.
    Mr. Williams. With your permission, I would like to ask 
Susan to address that. She is closer to what is going on in the 
Boise area than I am.
    Senator Craig. Please.
    Thank you, Susan.
    Ms. Giannettino. I am hoping I can address it, but I was 
not at that meeting. So I do not know what somebody may have 
heard or said.
    I do know that the Boise, Payette, and Sawtooth are at the 
point of initiating the revision process for forest plans, and 
have looked at their current management situation. And in their 
current situation they are implementing their current forest 
plans as amended by PACFISH and INFISH. They have recognized 
the significant forest health issue, and I do know that they 
have been doing quite a bit of silvicultural treatments that 
address forest health. And they have been doing quite a bit of 
prescribed burning.
    But I do not know at all, and they have given no indication 
to us, that they are implementing the specific objectives and 
standards of this project. In fact, they are implementing what 
is in PACFISH, INFISH and in their current forest plan.
    So, my understanding is different than your staff person's. 
And I certainly could go back and check that out and give you a 
clearer piece of information.
    Senator Craig. Well, I think it would be appropriate, and I 
would appreciate that, Susan.
    And, Susan, maybe you could respond, or, Bob, to this 
question. Do you believe you are in compliance with NEPA if you 
are taking these standards and guidelines before a record of 
decision and implementing them?
    Mr. Williams. No; if we are doing, I am sure we could be 
found in noncompliance with NEPA.
    Senator Craig. Even if it is a good idea and it is specific 
to the standard and guidelines of this EIS?
    Mr. Williams. If it is being put through another NEPA 
process, such as an environmental impact assessment for a 
project, or being built into another EIS for a land management 
plan revision, then that would take care of the NEPA question. 
So, they could take the idea and put it through an additional 
NEPA process. And virtually all of our projects that we are 
doing go through an additional NEPA process.
    Senator Craig. Well, the followup question has to be, why 
would you do that if the principal benefit of this plan, when 
ready to be implemented, would disallow your doing that?
    Mr. Williams. I am sorry, I do not understand the disallow 
portion.
    Senator Craig. Well, it is the premise of this plan that if 
you have this informational base, you eliminate some of the 
process and the procedure. So, if you are doing it now, you, by 
your own admission, must walk it through the NEPA process to be 
legal.
    Mr. Williams. We do not have the decision now. So, if they 
want to use----
    Senator Craig. Well, then why don't you wait for the 
decision, if in fact this knowledge is adequate?
    Mr. Williams. Because the projects are important to get on 
with. They are annual projects that we are attempting to meet 
our annual targets of outputs, including timber sales, 
prescribed fire, those other things that we are doing.
    Senator Craig. Well, let me only comment that there is 
still no finding that you have to apply those standard and 
guidelines to be in compliance. I think that is our 
frustration.
    Let me move on. And let us find out that information, 
Susan, if we can.
    Senator Gorton, I think, asked an extremely valuable 
question as it relates to private lands. And you referenced the 
westside and how, over there, there has been benefit. Then how 
do you square the National Marine Fisheries conflict going on 
with Governor Kitzhaber at this time, in Oregon, over whether 
State forest practice rules are adequate to comply with EIS's 
and ESA's on private lands? There is a lot of conflict going on 
over there right now that has not been resolved, I would 
suggest, and it is all on private and State lands as a result 
of National Marine Fisheries.
    Mr. Williams. The only way I can respond, since I can speak 
for National Marine Fisheries, is that they do continually 
point out that the aquatic standards and strategy that is put 
in place with the Northwest plan provides a building block for 
the entire coastal coho recovery. And that has been in place 
since they started working with Governor Kitzhaber, and it has 
been one of the strengths of the coastal coho plan.
    I cannot comment on their evaluation of the State Forest 
Practices Act.
    Senator Craig. The last we checked, the NMFS has taken the 
position that the Northwest plan's standard and guidelines 
should apply on private lands. So, there is a transfer across. 
And I think that is what a great many citizens in the region 
are terribly concerned about--the impact on private lands if 
this becomes a decisionmaking document that has the effect of 
law.
    Mr. Williams. I need to come back to the point I made 
earlier. These documents are for the Federal lands, to be 
signed by the Federal land managers. I cannot comment on what 
NMFS has done or might suggest that they would do. But that 
would be outside of the decisionmaking authority of this 
process or of the land management agencies.
    Senator Craig. Well, Bob, my only point here is that you 
had asserted there was a benefit to private lands.
    Mr. Williams. I clearly believe there is.
    Senator Craig. And it appears that there is an impediment, 
or a new hurdle, for private lands and not necessarily a 
benefit. There may be a whole new standard that has to be met.
    Mr. Williams. But I do not think that is the result of 
doing either the westside planning process or this planning 
process. That is the result of new information being----
    Senator Craig. OK. Well, it is the westside plan that 
National Marine Fisheries cites as the overlay that private 
lands must adhere to, or should adhere to. And that is, I 
think, our level of frustration here.
    Mr. Williams. I understand. New information is going to be 
new information for whomever wishes to use it.
    Senator Craig. How do you square your response with the 
conflict over the development of the Washington DNR habitat 
conservation plan for State lands? It is a similar kind of 
conflict.
    Mr. Williams. I do not believe I have enough information on 
that one to comment on it.
    Senator Craig. OK. Current outputs from Federal lands have 
dramatically declined, about 75 percent over the last 3 years, 
due to restrictive interim guidelines, staff and budget 
reallocation, and regulatory gridlock. The effects analysis for 
all proposed alternatives was benchmarked against the existing 
plans, with interim guidelines. The pregridlock period--that 
is, before interim guidelines--provides a better baseline for 
presenting agency proposals for shifting management policies.
    Please explain why the permanent adoption of current plans, 
with interim guideline restrictions, is being considered a no-
action alternative?
    Mr. Williams. Let me make the first comment, and then I 
will ask Susan to follow up.
    There are two alternatives, one and two, that represent the 
two points that you make, one being the existing lands as they 
are, without PACFISH, INFISH, and the eastside screens; two 
being the way those current plans are being applied today with 
those screens and PACFISH and INFISH in place. And we thought 
it was important to show both of those for comparison sake.
    Senator Craig. OK.
    Ms. Giannettino. I cannot really add to that, other than 
that as we receive the public comment that we are getting from 
the last 330-some-odd days of review, perhaps there are 
comments that we need to look at presenting that information 
differently, and we can consider that between draft and final. 
But I would have to concur with Bob, it seemed to make sense to 
me, although it was not my idea, since I came to the project 
more recently, to have the two current actions representing the 
situation we have--current plans and current plans amended by 
interim strategies.
    Senator Craig. Well, I guess any proposal that results in a 
75-percent reduction in Federal timber supply cannot be 
considered a no-action plan or a no-action alternative.
    Ms. Giannettino. But those are what is in place right now. 
That is the dilemma that we are facing.
    Senator Craig. One more question, Senator Gorton.
    You say that if you stop now, it will take much time to 
revise forest plans. But here is what you said last May.

    Question. What impacts--costs, staff, project delays--to 
the Forest Service operations will result from the subbasin 
reviews and other additional studies and analysis called for in 
the proposed standards? What approaches are being considered to 
mitigate these impacts?
    Answer. Subbasin review is anticipated to be a brief review 
and validation of broad-scale science data at a more localized 
area, and is intended to take no more than 3 weeks. We do not 
expect this review to significantly delay on-the-ground 
projects. Ecosystem analysis at the watershed level is a more 
intensive process and could take 1 to 4 months to complete, 
depending on the numbers and kinds of issues. However, we 
expect that the analysis will support numerous projects within 
the watershed that would have required individual analysis.

    Now, if the subsequent analyses are so simple, why would it 
be so much trouble to revise the plans? And those are the 
individual forest plans.
    Mr. Williams. I think we are talking about two different 
things. Those processes of subbasin review and watershed 
analysis are simply processes to help us implement projects on 
the ground. Revision of a plan is a complete different process 
of revising the entire plan and taking into account all of the 
things that should be changed in that land management plan. So, 
they are two totally separate processes.
    Senator Craig. Instead of a full plan revision, why not the 
necessary or significant amendments to the existing plan that 
would accommodate it?
    Mr. Williams. That may be sufficient in some cases.
    Senator Craig. Would that not take considerably less time?
    Mr. Williams. Yes; it probably would.
    Senator Craig. Would that not reduce that cost factor 
substantially?
    Mr. Williams. I need to understand the question. Now, the 
cost factor of implementation of this plan?
    Senator Craig. I would expect a full plan revision based on 
this document, the science, standards, and guidelines, is 
anticipated in those costs that you have proposed.
    Mr. Williams. No, we do not have plan revision incorporated 
in those costs. This is implementation of the existing----
    Senator Craig. How are you approaching this, in a 
simultaneous amendment of all the plans?
    Mr. Williams. All of the plans will be simultaneously 
amended to incorporate the standards from this plan.
    Senator Craig. And what will those costs be?
    Ms. Giannettino. The cost of the simultaneous amendment is 
the cost of this project. So, by going through this project and 
spending the money we are spending to complete the project, we 
will accomplish the simultaneous amendment of 74 management 
plans. And our argument is that that is more efficient than 
independently trying to do 74 on separate schedules and 
timeframes.
    Senator Craig. OK. Then, Susan, let me cut to the chase. 
Why would it be so much more expensive to just stop now, take 
the knowledge you have, make necessary amendments in the 
plans--not revisions--and get on with the business of managing 
the land?
    Mr. Williams. Well, let me just offer one comment. If we 
could make that stick, it would not be more expensive. The 
question is, as soon as we attempt to do that, if we do end up 
in court because we do not have a basinwide aquatic strategy or 
any other basinwide strategy to adhere to, then we will have to 
eventually put that basinwide strategy together. So, we think 
we will be right back doing the same job again.
    Senator Craig. But wouldn't you be able to go to court and 
argue that with these findings and the amendments of the plan, 
you in effect have put in a basinwide strategy--because that is 
exactly what you would otherwise do by carrying this thing 
through to completion--and spending a great deal more money and 
time?
    Mr. Williams. Do you want to attempt that?
    Ms. Giannettino. The dilemma, as I see it--and I just may 
not be answering what you are asking--is that if you had 74 
individual efforts, then you have to get the coordination 
amongst those 74 individual entities that we on the project are 
providing right now. And you would be diverting the energy of 
the people on those units from actually doing project work to 
get into doing this amendment work, understanding the science, 
developing the standards, trying to coordinate with each other 
so it is all consistent.
    The point here was to try and have the project do it for 
all of those units, and do it once and, as a result, amend all 
those plans at the same time, the 74 plans. Because they do 
need some measure of consistency and coherency to replace the 
interim strategies, to deal with cumulative effects, and 
address the viability question.
    Mr. Williams. But let me add a point to it. If we were to 
take the approach of handing this off and revising individual 
plans, that would be done over a fairly long period of time, 
just because of the energy it would take.
    Senator Craig. But, Bob, it would do something that is 
critical.
    Mr. Williams. Pardon me?
    Senator Craig. It would begin to take the science and 
localize it to the communities of interest that you are missing 
right now. Instead of taking one-quarter of the United States 
and rubber stamping it with a one-size-fits-all, you turn it 
back to the locality and the expertise on a forest-by-forest 
basis, tied to its communities of interest. And you may have a 
document that could live and respond instead of one that will 
be battled.
    That is my frustration and concern.
    Mr. Williams. I think I appreciate that. And I really have 
no argument with the statement that you make. But at some 
point, we are going to have 15, 20, or 25 of these 74 land 
management plans revised, and we are going to be dealing with 
threatened and endangered species of salmon that are going to 
require some kind of a basinwide strategy to deal with them, or 
we are going to end up with a T&E species shutdown. And we are 
going to be sitting there with the balance of 40 or 50 land 
management plans that have not been revised and that we cannot 
get to for another 3 or 4, or maybe even more, years. That is 
going to leave us quite vulnerable, we think, to that kind of a 
challenge.
    Senator Craig. Thank you.
    Senator, thank you.
    Senator Gorton. Bob, I found this to be an enlightening 
exchange with both of us who are up here on this side of the 
table. We start with two realities: Your unequivocal statement 
to me that the completion and implementation of this plan will 
not adversely impact private property and in fact may result in 
fewer interferences with private property rights, and the very 
real fear on the part of many people in this audience and 
thousands like them that we are simply going to see another 
increase, in degree at least and perhaps in kind, of Federal 
interference with their private property activities.
    And maybe this exchange has gotten us to the point at which 
I understand it--and I am going to present it to you this way--
you have told us unequivocally: Let us finish the plan. Let us 
implement the plan. You, Robert Williams, and your successor as 
the Regional Director of the U.S. Forest Service, are not then 
going to adversely impact private property rights.
    But in answer to a question by Senator Craig you obviously 
have not been able to say that the National Marine Fisheries 
Service, enforcing the Endangered Species Act or some other 
similar act, may not come along, independently of what you have 
done, and issue orders that will have a very real impact on 
private property rights because that is outside of your area 
and jurisdiction as the Regional Director of the Forest 
Service.
    Am I correct?
    Mr. Williams. That is correct.
    Senator Gorton. OK. So, the fear is real. You are just 
saying it is not a fear of you.
    Mr. Williams. The fear should be there whether we do this 
project or not. New information is new information. Whether we 
put it on the table or a college puts it on the table or 
someone else, any regulatory agency, whether it is Federal or 
State or county can pick that up and, if it is good 
information, can use it.
    So, my point is, to connect that fear with this project 
just does not connect.
    Senator Gorton. As a result of these questions, I 
understand your position. And I understand that 
differentiation. That fear is out there. It is going to remain 
out there. It is reality. But you are just saying it is not 
because of what you are doing. And what you are saying is you 
actually may be able to reduce it a little bit.
    Mr. Williams. I firmly believe that.
    Senator Craig. Senator, let me add just an additional 
dimension to that.
    Because I understand exactly what you are saying, Bob, but 
I am a bit frustrated. If you look at chapter 1, page 16, 
volume 1, of the EIS, we are talking about objectives of the 
project. These words are in there:
    Some reasonable changes may be required in the maintenance 
and operation of existing rights--rights happen to be 
property--such as water rights, mineral leases, mining claims, 
right-of-ways, livestock grazing permits, awarded contracts, 
and special-use permits. That is in the language of the EIS.
    Mr. Williams. Yes.
    Senator Craig. Those are private rights in some instances. 
In others they are shared.
    Mr. Williams. OK. I was trying to respond to a land 
ownership question. I think that is still----
    Senator Craig. A water right is just as much a right as a 
land ownership right is.
    Mr. Williams. And I am going to have to say that I want to 
take another look at the use of the term ``water right.'' 
Almost all of the rest of those I believe I can support. You 
have raised the question----
    Senator Craig. A mining claim is a private property.
    Mr. Williams. That is correct. But the development of that 
claim, if it is a claim, is done under a set of standards 
developed with the agency.
    Senator Craig. We are not talking about development; we are 
talking about existing operations.
    Mr. Williams. If it is patented, we have nothing that we 
can do about it.
    Senator Craig. But if it is a lease, you do of course, that 
is right.
    Mr. Williams. If it is a lease or if it is being worked 
under a claim that has not gone to patent, they file an 
operating plan with us. And these new standards may well affect 
that operating plan.
    Senator Craig. OK. Thank you.
    Senator Gorton. OK. Thank you, all, very much for your help 
here.
    Mr. Williams. Thank you.
STATEMENT OF STEPHEN P. MEALEY, DIRECTOR, IDAHO 
            DEPARTMENT OF FISH AND GAME
    Senator Gorton. We have used a lot of time on the Federal 
panel. We will now call the members of the State panel up to 
testify. For each of the States, Steve Mealey, director of the 
Idaho Fish and Game Department; Julie Lapeyre, of the 
Governor's Office in Montana; Carol Jolly, of the Governor's 
Office in Olympia, WA; Jaime Pinkham, of the Columbia River 
Intertribal Fish Commission; and State Senator Bob Morton, from 
the 7th District of Washington.
    And while you are preparing yourselves for your testimony, 
we are going to have to run the light system now, and ask you 
to limit your testimony to 5 minutes each, so we will have some 
time to ask you questions and get to the rest of the panels. 
When the yellow goes on, it means, wherever you are, please 
finish that sentence or that thought, and then complete what 
you have to say.
    Your written statements are already in the record and are a 
formal part of the record. And unless there is some reason to 
do otherwise, we will go in the order that I announced your 
name.
    And, Mr. Mealey, that means that you are first.
    Mr. Mealey. Senators, I am Steve Mealey, director of the 
Idaho Fish and Game Department, and former project manager for 
the Upper Columbia River Basin EIS Project.
    I am pleased to be here to represent Governor Philip Batt 
and the State of Idaho to comment on the Upper Columbia River 
Basin draft environmental impact statement. My comments will be 
in two parts. First, Governor Batt's May 4 letter to Susan 
Giannettino, Project Manager for the Columbia Basin Project. 
And the second part is an excerpt from my letter, as Director, 
of April 27th, also to Susan.
                    Letter From Governor Philip Batt
                                                       May 4, 1998.
    Dear Ms. Giannettino: The State of Idaho respectfully submits 
comments regarding the Upper Columbia River Basin draft EIS. These 
comments represent a comprehensive effort by Idaho's Attorney General 
Alan G. Lance, along with the Idaho Department of Water Resources, 
Department of Fish and Game, Department of Lands, Department of Parks 
and Recreation, Idaho Department of Commerce, the Idaho Department of 
Agriculture, and the Division of Environmental Quality. Additionally, I 
have included a critical economic analysis provided by the University 
of Idaho College of Agriculture.
    This cover letter highlights the State's primary concerns about the 
UCRB DEIS. They are as follows:
    No. 1, many of the proposed standards in the DEIS appear to be 
fine-scale, quite detailed and specific, and inconsistent with the 
landscape-scale data on which they should be based, as well as used to 
assess effects. The State believes that the landscape-scale science 
analyses from the scientific assessment provide information appropriate 
only for broad- or landscape-scale decisionmaking. Accordingly, any 
effort on the part of the Executive Steering Committee to proceed with 
the final EIS and record of decision that contain detailed, fine-scale 
prescriptive standards and objectives will be strongly opposed by the 
State of Idaho.
    No. 2, the State of Idaho proposes a simple solution: return to the 
original intent of the scoping document. That intent was to provide 
broad-scale ecosystem strategies, including goals and general 
statements of policy that respond to broad-scale science findings. This 
would not necessarily result in a record of decision. Under this 
scenario, broad statements of policy would be supplemented with 
guidelines. A DEIS revised to accomplish this purpose would result in a 
document amending the existing Forest Service regional guides.
    Similarly, general guidance would stand as a new policy layer for 
the Bureau of Land Management. The State believes that altering the 
approach to general management is a constructive step toward restoring 
forest, rangeland and aquatic ecosystem health. Additionally, the 
approach provides the State and Federal agencies more of an opportunity 
to cooperatively manage public lands.
    And the third point: The existing standards and guidelines in 
PACFISH and INFISH need to be reviewed for their necessity and 
sufficiency in conserving anadromous and resident fish. The State 
proposes that the current PACFISH and INFISH interim strategies be 
refined independently of the UCRB DEIS process. In doing so, it will be 
important to consult Idaho Department of Fish and Game scientific 
studies, which clearly demonstrate that habitat is not the primary 
limiting factor for anadromous fish populations in the State of Idaho.
    I am encouraged that the UCRB DEIS team has agreed to engage in 
meaningful dialog with the State to revise the DEIS. I believe that 
existing State regulatory processes can and should be used to meet the 
intent of the original scoping document. State and Federal agencies 
merely need more collaboration on land management issues. We do not 
need to devise a confusing new layer of bureaucracy as the DEIS 
proposes.
    Public processes such as the Bull Trout Conservation Plan and the 
State Water Quality Plan for developing TMDL's should be utilized 
whenever possible instead of creating a new Federal process to 
accomplish the same task. If collaboration is truly the goal of the 
project, this ought to be the primary objective. I look forward to your 
response to the comments.
            Very truly yours,
                                                    Philip E. Batt.

    And now, briefly, an excerpt from my own letter, dated 
April 27th. This was one of several paragraphs.
    And it begins:

    There is a corresponding matter regarding the legal 
architecture in place for decisionmaking on Federal lands in 
general. Simply put, the legal architecture now in place for 
Federal lands makes effective, balanced and integrated Federal 
policymaking nearly impossible. Three Federal acts in 
particular--the Clean Air Act, the Clean Water Act and the 
Endangered Species Act--make integrated Federal land management 
extremely difficult.
    These laws are basically single-purpose, functional laws 
that can be used to trump all other resource needs. They can be 
interpreted by agency administrators to permit or allow for no 
short-term, fine-scale risk, or minimum short-term, fine-scale 
risk to air and water resources and to listed species. They 
appear to have been so interpreted in this manner in the 
current draft environmental impact statement.
    Such interpretations prevent consideration of the relative 
risks of proposed actions, such as the short-term risks of 
action and the long-term, broad-scale risks of inaction; this 
could be the short-term risks of forest health restoration and 
the long-term, broad-scale risks of no such restoration--long-
term, broad-scale risk can often outweigh the short-term, fine-
scale risks.
    Such narrow and shortsighted interpretations appear to 
permit little or no decision space to meet other resource needs 
and opportunities. This appears to be true of all alternatives. 
The decision space for Alternative 4, in particular, appears to 
be so limited by aquatic/riparian standards and required 
watershed analyses that many other essential ecological 
restoration needs appear difficult to meet.

                           Prepared Statement

    That concludes my formal comments, and I will be pleased to 
answer any subsequent questions.
    Senator Gorton. Thank you.
    [The statement follows:]
                Prepared Statement of Stephen P. Mealey
    Gentlemen, I am pleased to be here to represent Governor Philip 
Batt and the State of Idaho to comment on the Upper Columbia River 
Basin (UCRB) Draft Environmental Impact Statement (DEIS). My comments 
will be in two parts: First, Governor Batt's May 4 letter to Susan 
Giannettino, Project Manager, Upper Columbia River Basin Project. The 
second part is an excerpt from my letter of April 27, also to Ms. 
Giannettino.
                  [governor batt's may 4, 1998 letter]
    ``Dear Ms. Giannettino: The State of Idaho respectfully submits 
comments regarding the Upper Columbia River Basin Draft Environmental 
Impact Statement (UCRB DEIS).
    ``These comments represent a comprehensive effort by Idaho's 
Attorney General, Alan G. Lance, along with the Idaho Department of 
Water Resources, Department of Fish and Game, Department of Lands, 
Department of Parks and Recreation, the Idaho Department of Commerce, 
the Idaho Department of Agriculture, and the Division of Environmental 
Quality. Additionally, I have included a critical economic analysis 
provided by the University of Idaho's College of Agriculture.
    ``This cover letter highlights the state's primary concerns about 
the UCRB DENIS. They are as follows:
    ``1. Many of the proposed standards in the DEIS appear to be fine-
scale, quite detailed and specific, and inconsistent with the 
landscape-scale data on which they should be based, as well as used to 
assess effects. The state believes that the landscape-scale science 
analyses from the scientific assessment provide information appropriate 
only for broad- or landscape-scale decision-making. Accordingly, any 
effort on the part of the Executive Steering Committee to proceed with 
a Final Environmental Impact Statement (FEIS) and Record of Decision 
(ROD) that contain detailed, fine-scale prescriptive standards and 
objectives will be strongly opposed by the State of Idaho.
    ``2. The State of Idaho proposes a simple solution: return to the 
original intent of the scoping document. That intent was to provide 
broad-scale ecosystem strategies, including goals and general 
statements of policy, that respond co broad-scale scientific findings. 
This would not necessarily result in a ROD. Under this scenario, broad 
statements of policy would be supplemented with guidelines. A DEIS 
revised to accomplish this purpose would result in a document amending 
the existing Forest Service Regional Guidelines (``Regional Guides) (36 
CFR 219). Similarly, general guidance would stand as a new policy layer 
for the Bureau of Land Management (BLM). The state believes that 
altering the approach to general management is a constructive step 
toward restoring forest, rangeland, and aquatic ecosystem health. 
Additionally, this approach provides the state and federal agencies 
more of an opportunity to cooperatively manage our public lands.
    ``3. The existing standards and guidelines in PACFISH and INFISH 
need to be reviewed for their necessity and sufficiency in conserving 
anadromous and resident fish. The state proposes that the current 
PACFISH and INFISH interim strategies be refined independently of the 
UCRB DEIS process. In doing so, it will be important to consult Idaho 
Department of Fish and Game scientific studies which clearly 
demonstrate that habitat is not the primary factor limiting anadromous 
fish populations in the state.
    ``I am encouraged that the UCRB DEIS team has agreed to engage in 
meaningful dialogue with the state to revise this DEIS. I believe that 
existing state regulatory processes can and should be used to meet the 
intent of the original scoping document. State and the federal agencies 
merely need more collaboration on land management issues. We do not 
need to devise a confusing, new layer of bureaucracy, as this DEIS 
proposes. Public processes such as the Bull Trout Conservation Plan and 
the State Water Quality Plan for developing TDL's should be utilized 
whenever possible instead of creating a new federal process to 
accomplish the same task. If collaboration is truly the goal of the 
project this ought to be your primary objective.
    ``I look forward to your response to these comments.''
            Very truly yours,
                                            Philip E. Batt,
                                                          Governor.
            [excerpt from director mealey's april 27 letter]
    ``There is a corresponding matter regarding the legal architecture 
in place for decision-making on federal lands in general. Simply put, 
the legal architecture now in place for federal lands makes effective, 
balanced and integrated federal policy-making nearly impossible. Three 
federal acts in particular--the Clean Air Act (CAA), Clean Water Act 
(CWA), and Endangered Species Act (ESA) make integrated federal land 
management extremely difficult. These laws are basically single-
purpose, functional laws that can be used to `trump' all other resource 
needs. They can be interpreted by agency administrators to permit or 
allow for `no short-term, fine-scale risk, or minimum short-term, fine-
scale risk' to air and water resources and to listed species. They 
appear to have been interpreted in this manner in the UCRB DEIS. Such 
interpretations prevent consideration of the relative risks of proposed 
actions (i.e., the short-term risks of action and the long-term, broad-
scale risks of inaction; this could be the short-term risks of forest 
health restoration, and the long-term, broad-scale risks of no such 
restoration--long-term, broad-scale risks can often outweigh short-
term, fine-scale risks). Such narrow or short-sighted interpretations 
appear to permit little or no `decision space' to meet other resource 
needs and opportunities. This appears to be true of all alternatives: 
The decision space for Alternative 4, in particular, appears to be so 
limited by aquatic/riparian standards and required watershed analyses 
that many other essential ecological restoration needs appear difficult 
to meet.''
    Gentlemen, this concludes my formal comments. I'll be pleased to 
answer any questions you may have.
STATEMENT OF JULIE LAPEYRE, NATURAL RESOURCE POLICY 
            ADVISOR, OFFICE OF THE GOVERNOR, STATE OF 
            MONTANA
    Senator Gorton. Ms. Lapeyre.
    Ms. Lapeyre. Chairman Gorton, Chairman Craig, thank you for 
the opportunity to provide comments on the Interior Columbia 
River Basin draft environmental impact statement.
    Governor Racicot appreciates the opportunity to share our 
thoughts, and regrets he cannot personally be here today.
    We are convinced we can do a better job managing our 
natural resources, including fish and wildlife populations, 
while providing more predictability to our communities. As a 
result, the State of Montana has attempted to contribute 
constructively to this project, which, in our understanding, is 
to provide for the long-term sustainability of economic, 
social, and biological systems in the basin.
    We recognize and believe that only by accomplishing these 
goals will local communities be able to better manage our 
shared resources and achieve the predictable levels of products 
and services from Federal lands. We believe there is a great 
need to change the current approach that Federal agencies have 
been taking in management decisions. However, we have 
significant reservations whether this EIS will result in 
bringing about more stability to the economic, social, and 
biological systems in the basin.
    It has been our experience and observation that the real 
driving force behind management decisions today are the actions 
taken by regulatory agencies, like the U.S. Fish and Wildlife 
Service, NMFS, EPA, and the Army Corps of Engineers. While we 
understand these agencies have been involved in the EIS, the 
EIS does not reveal how these regulatory agencies will adapt 
their individual and collective regulatory regimes to provide 
the assurance of and equilibrium for long-term sustainability. 
For instance, the EIS does not provide any definitive direction 
as to how these agencies will appropriately deal with 
threatened and endangered species.
    Our concern in this instance is that a massive and entirely 
new management approach that applies to 144 million acres will 
be adopted, but the existing statutory and regulatory framework 
will not be adjusted to allow for the flexibility and 
discretion necessary to implement this new approach on the 
ground. The issuance of a final EIS and a ROD could actually 
result in more litigation in the future, because the document 
is so vague and could be interpreted in so many ways. Issuing a 
massive programmatic EIS may, in reality, provide more tools 
for more litigation and administrative appeals instead of 
bringing about better and more expeditious management actions.
    Things are not good now. Under this scenario they could get 
worse, worse for the people and worse for our shared natural 
resources.
    The EIS mentions the conflicts regarding the Columbia River 
management issues. However, it does not resolve those 
conflicts. We have serious questions about how a record of 
decision would be affected by river management or how river 
management would be affected by the EIS.
    Management of native and anadromous fish cannot help but be 
affected by the issuance of a record of decision, and therefore 
related river management activities will be affected. We simply 
cannot endorse an alternative without knowing the impact of 
that alternative on river management.
    We are also concerned that the EIS will not create 
predictability for forest managers. In fact, we believe it 
would result in the opposite of its stated purpose. In the 
background material published by the EIS team it states: What 
you will not find in this plan is a one-size-fits-all 
direction. Yet the proposed standard and guidelines, if 
adopted, will create a one-size-fits-all presumption that will 
diminish the discretion of local forest managers to work toward 
restoration and a sustainable production of goods based on the 
unique circumstances of individual forests.
    We also have grave concerns over the cost of implementing a 
record of decision. The EIS states that if full funding does 
not occur, then the rate of implementation will be decreased 
appropriately. What does this mean? Would one forest or region 
be deemed more important than another? Would one community's 
economic stability be more important than another? Would one 
species be more important than another?
    While we do appreciate the Federal agencies taking a new 
look at the socioeconomic analysis included in the DEIS, we 
still believe there are many unanswered questions. The 
supplemental report provides a general overview of basin 
communities. However, it avoids the discussion of specific 
socioeconomic impacts to each community. A complete analysis of 
socioeconomic impacts for each community under each alternative 
is a necessary prerequisite to the issuance of a final EIS and 
record of decision. That is what the law, in simple fairness, 
contemplate.
    The effort expended on this project is significant and 
appreciated. The information produced as a result of this 
extraordinary inquiry is invaluable. Nonetheless, for the 
reasons mentioned, we do not believe this project should 
proceed to a record of decision. Instead, goals and objectives 
based on the information and analysis produced should be 
formulated to guide the development of forest plans pursuant to 
the National Forest Management Act.
    By drawing this conclusion, we do not intend to diminish 
the effort invested to produce this analysis, nor the 
competence of the professionals responsible for its creation. 
And importantly, we believe the body of information synthesized 
as a result of the scientific analysis inquiries will greatly 
assist in making better management decisions in the future. Our 
best recommendation, however, is to use that information to 
guide the development of forest plans suited to the unique 
characteristics of individual management units.

                           Prepared Statement

    To proceed to the adoption of a preferred alternative and a 
final EIS and the issuance of a record of decision would, for 
the reasons expressed, achieve the opposite of what the purpose 
and need statement sets out to accomplish.
    Mr. Chairman, thank you for the opportunity to provide our 
thoughts, and I would be happy to answer any questions.
    Senator Gorton. Thank you.
    [The statements follow:]
                  Prepared Statement of Julie Lapeyre
    Chairman Gorton and Chairman Craig, thank you for the opportunity 
to provide comments regarding the Interior Columbia River Basin draft 
environmental impact statement (EIS). I am Julie Lapeyre, Natural 
Resource Policy Advisor in the Office of the Governor for the State of 
Montana. Governor Racicot appreciates the opportunity to share our 
thoughts and regrets he cannot personally be here today.
    Mr. Chairman, I would like to request that the formal comments 
submitted by Governor Racicot on behalf of the State of Montana to the 
EIS team be made a part of the record.
    We are convinced we can do a better job managing our natural 
resources--including fish and wildlife populations--while providing 
more predictability to our communities. As a result, the State of 
Montana has attempted to contribute constructively to this project, 
which in our understanding, is to provide for long-term sustainability 
of economic, social and biological systems in the basin. We recognize 
and believe that only by accomplishing these goals will local 
communities be able to better manage our shared resources and achieve 
predictable levels of products and services from federal lands.
    We believe there is a great need to change the current approach 
that federal agencies have been taking in management decisions. 
However, we have significant reservations whether this EIS will result 
in bringing about more stability to the economic, social and biological 
systems in the basin.
    It has been our experience and observation that the real driving 
force behind management decisions today are the actions taken by 
regulatory agencies, like the U.S. Fish and Wildlife Service, the 
National Marine Fisheries Service, the EPA and the Army Corps of 
Engineers. While we understand these agencies have been involved in the 
EIS process the EIS does not reveal how those regulatory agencies will 
adapt their individual and collective regulatory regimens to provide 
the assurance of and equilibrium for long-term sustainability. For 
instance, the EIS does not provide any definitive direction as to how 
these agencies will appropriately address threatened and endangered 
species within the context of the EIS.
    Our concern in this instance is that a massive and entirely new 
management approach, that applies to 144 million acres will be adopted, 
but that the existing statutory or regulatory framework will not be 
adjusted to allow for the flexibility and discretion necessary to 
implement this new/approach on the ground.
    The issuance of a final EIS and record of decision could actually 
result in more litigation in the future because the document is so 
vague and could be interpreted in so many different ways. Issuing a 
massive programmatic EIS may in reality provide more tools for more 
litigation and administrative appeals instead of bringing about better 
and more expeditious management action. Things are not good now, but 
under this scenario, they could get worse--worse for people and worse 
for our shared natural resources.
    The EIS mentions the conflicts regarding Columbia river system 
management issues. However, it does not resolve those conflicts. We 
have serious questions about how a record of decision would be affected 
by river management or how river management would be affected by the 
EIS. Management of native and anadromous fish cannot help but be 
affected by the issuance of a record of decision and therefore related 
river management activities will be affected. We simply cannot endorse 
an alternative without knowing the impact of that alternative on river 
management.
    We are also concerned that the EIS will not create predictability 
for forest managers. In fact, we believe it would result in the 
opposite of its stated purpose. In the background material published by 
the EIS Team it states ``What you won't find in this plan is a one-
size-fits-all direction.'' Yet the proposed standards and guidelines if 
adopted will create a ``one size fits all'' presumption that will 
diminish the discretion of local forest managers to work toward 
restoration and the sustainable production of goods based on the unique 
circumstances of individual forests.
    We also have grave concerns over the costs of implementing a record 
of decision. The EIS states that ``If full funding does not occur, then 
the rate of implementation will be decreased appropriately.'' What 
exactly does this statement mean? Would one forest or region be deemed 
more important than another? Would one community's economic stability 
be more important than another? Would some species be more important 
than others?
    While we do appreciate the federal agencies taking a new look at 
the socioeconomic analysis included within the DEIS, we still believe 
there are many unanswered questions. The supplemental report provides a 
general overview of Interior Columbia Basin communities. However, it 
avoids the discussion of specific socioeconomic and economic impacts to 
each community. A complete analysis of socioeconomic and economic 
impacts for each community under each alternative is a necessary 
prerequisite to the issuance of a final EIS and record of decision. 
That's what the law and simple fairness contemplate.
    The effort expended on this project is significant and appreciated. 
The information produced as a result of this extraordinary inquiry is 
invaluable. Nonetheless, for the reasons mentioned, we do not believe 
the project should proceed to the issuance of a record of decision. 
Instead, goals and objectives, based upon the information and analysis 
produced, should be formulated to guide the development of forest plans 
pursuant to the National Forest Management Act.
    By drawing this conclusion, we do not intend to diminish the effort 
invested to produce this analysis, nor the competence of the 
professionals responsible for its creation. And importantly, we believe 
that the body of information synthesized as a result of the scientific 
inquiries will assist greatly in making better management decisions in 
the future. Our best recommendation, however, is to use that 
information to guide the development of forest plans suited to the 
unique characteristics of individual management units. To proceed to 
adoption of a preferred alternative in a final EIS and the issuance of 
a record of decision would, for the reasons expressed, achieve the 
opposite of what the purpose and need statement sets out to accomplish,
    Again, Mr. Chairmen, thank you for the opportunity to share our 
thoughts and I will be happy to answer any questions.
                                 ______
                                 
     Prepared Statement of Marc Racicot, Governor, State of Montana
    Dear State Directors and Regional Foresters: Thank you for the 
opportunity to comment on the Interior Columbia River Basin draft 
environmental impact statement (EIS). We fully recognize that as part 
of the EIS, the scientific teams have conducted unprecedented 
scientific analysis of conditions in the Interior Columbia River Basin. 
We have appreciated the briefings by various federal officials and the 
opportunity for the State of Montana to analyze and address different 
aspects of the EIS.
    As a preface, let me make it plain that we are convinced we can 
better manage our natural resources, including wildlife and fish 
populations, while providing more predictability to our communities, 
than we are doing now. By ``we,'' in this instance, I mean all of those 
involved in managing public resources. As a result, the State of 
Montana has attempted to contribute constructively to this project, 
which in our understanding, is to provide for long-term sustainability 
of economic, social and biological systems in the basin. We recognize 
and believe that only by accomplishing these goals will local 
communities be able to better manage our shared resources and achieve 
predictable levels of products and services from Forest Service and 
BLM-administered lands. Unfortunately, in recent years sustainability 
and predictability for these communities have been unpredictable and 
unsustainable,
    Unquestionably we believe there is a great need to change the 
current approach that federal agencies have been taking in management 
decisions. As a threshold matter, however, we have significant 
reservations whether this environmental impact statement will result in 
bringing about more stability to the economic, social and biological 
systems in the basin.
    Some of our reservations arise because it has been our experience 
and observation that the real driving force behind management decisions 
today are the actions taken by regulatory agencies, like the U.S. Fish 
and Wildlife Service, the National Marine Fisheries Service, the 
Environmental Protection Agency and the Army Corps of Engineers. While 
we understand these agencies have been involved in the EIS process, the 
EIS does not reveal how those regulatory agencies will adapt their 
individual and collective regulatory regimens to provide the assurance 
of and equilibrium for long-term sustainability of economic, social and 
biological systems to occur. For instance, the EIS does not provide any 
definitive direction as to how these agencies will appropriately 
address threatened and endangered species within the context of the 
EIS.
    The EIS does not mention changes to the Endangered Species Act even 
though changes would most likely be required to meet the entire purpose 
and need statement. An example of our concern is on summary page 2, 
where it is claimed that the record of decision will ``Establish 
general direction for management of habitat for threatened or 
endangered species or for communities of species that require 
management across broad landscapes to assure viability.'' However, the 
only direction that the EIS provides is to implement recovery plans 
(HA-S14) or conservation strategies (HA-S15) following recovery. This 
direction is no different than what is currently mandated by existing 
law. The EIS analysis indicates that only the reserve blocks proposed 
in alternative 7 provide the large areas, connectivity and isolation 
that are likely to benefit many of the wide ranging carnivores and 
ungulates that are threatened, endangered or sensitive.
    One ``purpose'' of the EIS (1-6) is to ``Identify where current 
policy, regulation, or law may act as barriers to implementing the 
strategy or achieving desired conditions.'' The EIS also states (1-15) 
that ``The ROD(s) will identify necessary changes to policy or suggest 
modifications to existing laws as needed to implement the decision.'' 
What changes or modifications to what policies or laws? In our review 
of the related documents, we do not see any mention of proposed 
changes. How can we possibly offer cogent analysis in this regard if we 
don't know which statutory or regulatory changes will be necessary for 
changes on the ground to occur?
    Our concern in this instance is that massive and entirely new 
management approach that applies to 16 Bureau of Land Management 
districts, 30 National Forests, 104 counties and 144 million acres will 
be adopted, but that the existing statutory or regulatory framework 
will not be adjusted to allow for the flexibility and discretion 
necessary to implement this new approach on the ground. What has been 
achieved if that were to occur? It appears to us that in such a 
situation the field of litigational possibilities will be expanded 
exponentially thereby directly and tragically undermining the stated 
purpose of and need for the EIS. What assurance do we have that such 
will not occur when there is no identification of necessary policy or 
statutory modifications that are a necessary prerequisite to 
implementation? As mentioned above, the issuance of a final EIS and 
record of decision could actually result in more litigation in the 
future because the document is so vague and could be interpreted in so 
many different ways. Issuing a massive programmatic EIS may in reality 
provide more tools for more litigation and administrative appeals 
instead of bringing about better and more expeditious management 
action. As noted above, things are not good now, but under this 
scenario, they could get worse--worse for people and worse for our 
shared natural resources.
    It is alleged that within the EIS (1-18) there is a specific 
``aquatic conservation strategy''. The EIS mentions (2-106) the 
conflicts regarding Columbia river system management issues and 
includes a `sidebar' (2-151) on the topic. However, it does not resolve 
those conflicts and we have serious questions, after review of the 
alternatives and the objectives and standards, about how a record of 
decision would be affected by river management or how river management 
would be affected by the EIS. Management of native and anadromous fish 
cannot help but be affected by the issuance of a record of decision and 
therefore related river management activities will be affected as well. 
We simply cannot endorse an alternative without knowing the impact of 
that alternative on river management.
    Regarding river governance issues, we remain concerned over the 
substantial and sometimes destructive drawdowns of reservoirs within 
our state for downstream fish and wildlife interests. As you may know, 
the State of Montana has filed suit in federal court regarding the 
noncompliance of state water quality standards by federal agencies. 
Contrary to the view of the EIS (4-153) where it states, ``The goals of 
States' natural resource agencies are generally not specifically aimed 
to protect aquatic ecosystems and biodiversity, but to meet societal 
needs while disrupting ecological processes and conditions as little as 
possible'' and that ``Implementation of State requirements for 
protection of aquatic ecosystems are uncertain,'' the State of Montana 
has a profound and abiding interest in protecting our natural resources 
and assuring compliance with applicable law.
    We are also concerned that the EIS will not create predictability 
for forest managers. In fact, we believe it would precipitate the 
opposite of its stated purpose. The publication ``Considering All 
Things'' (page 4) states ``What you won't find in this plan is a one-
size-fits-all direction.'' Yet the proposed standards and guidelines if 
adopted in a final EIS and record of decision will create a ``one size 
fits all'' presumption that will diminish the discretion of local 
forest managers to predictably work toward restoration and the 
sustainable production of goods based upon the unique circumstances and 
conditions of individual forests.
    We also have grave concerns over the costs of implementing a record 
of decision. The EIS projects some of the potential costs of 
implementing the various alternatives. The costs do not include those 
which would be required under section 7 of the Endangered Species Act 
and they do not include the costs of wildfire suppression and 
rehabilitation. The preferred alternative, for example, would cost 
$138,234,000 compared to the status quo (Alternative 2) of $73,675,000. 
While annual agency funding is set by Congress, how do the agencies 
anticipate securing additional funding? The EIS states (1-18) that ``If 
full funding does not occur, then the rate of implementation will be 
decreased appropriately.'' What exactly does this statement mean? Would 
one forest or region be deemed more important than another? Would one 
community's economic stability be more important than another? Would 
some species be more important than others? What criteria will be used? 
What about staffing implications? Currently, Region One of the Forest 
Service is facing difficult choices in how to fund existing needs due 
to decreases in financial resources attributed to decreases in timber 
sales. How much more will the implementation of a record of decision 
add to this already existing problem?
    As acknowledged by the authors, it is impossible to tell what 
impacts might accrue under the various alternatives contained in the 
EIS. This is partly a matter of scale, partly due to unfamiliar 
descriptions, and partly the challenge of bureaucratic prose that 
allows almost any interpretation to fit almost any alternative.
    While we fully understand the Interior Columbia Basin Ecosystem 
Management Project is a programmatic EIS and is not designed to 
specifically address individual environmental, social and economic 
consequences, the EIS visibly lacks explanation of how it will achieve 
the purpose and need statement.
    Let me offer an example. Representatives of the Montana Department 
of Natural Resources and Conservation and the Montana Department of 
Fish, Wildlife and Parks attended a Kootenai National Forest 
presentation on the EIS. While the Kootenai Forest staff made a good-
faith effort to answer questions raised by the public, they could not 
determine the impacts of the alternatives at the forest level. They 
took several months to look at just one alternative (Alternative 4 was 
presumed to be the preferred alternative) and tried to compare it to 
existing management plans to determine comparative impacts. The result 
of that comparison was that there would probably be fewer roads, larger 
buffers around streams, about the same wildlife habitat, slightly less 
timber harvest than in 1996, and timber or vegetation growth would 
continue to grow about three times beyond the utilization rate, 
increasing the role of prescribed burning and natural fire to control 
fuel levels. The Kootenai Forest analysis basically provided a 
comparison between Alternative 1 and Alternative 4. It said nothing 
about the other five alternatives. In addition, we have no other 
knowledge from the other national forests in western Montana that an 
analysis similar to the Kootenai Forest has been undertaken.
    The jargon problem is monumental. While ecosystem management is not 
new in the scientific literature, it is significantly new in the public 
realm, and even though the EIS appears to be written by competent 
scientists intimately familiar with the ecosystem management concept, 
frankly, even a sophisticated and educated reader would have trouble 
understanding the meaning and context of many of the terms used in the 
EIS. The definitions and use of key terms within the EIS reflect the 
anxiety, uncertainty and confusion swirling about the EIS. As an 
example (5-38), the definition for ``ecological integrity'' seems to be 
more subjective than objective. What is the scientific basis for the 
phrase ``the quality of being complete; a sense of wholeness''? Many of 
the terms used are not in the glossary and some of the definitions in 
the glossary require looking up additional terms in order to understand 
the original definition. How many years will it take for those terms to 
be construed by various courts and through administrative appeals 
before they will receive settled definitions? And in the process how 
will our shared resources and those who provide stewardship of there be 
impacted?
    In order to make confident recommendation for a preferred 
alternative, the state is faced with the almost impossible task of 
trying to decide what alternative is best for Montana, without the 
tools or information to know what one alternative means, much less the 
tools and information necessary to understand a comparative analysis 
between alternatives. The Kootenai Forest, taking several months and 
utilizing professionals already familiar with the ecosystem management 
concept and who also contributed to the EIS, could explain only the 
comparative difference between no action (alternative 1) and the 
preferred alternative (alternative 4). Even then, they could not break 
down impacts to anything more than a Kootenai Forest level analysis. 
They could not speak to what would occur to the local economy or forest 
conditions in communities like Libby or Trout Creek, for example.
    Also, many of the projected outputs require the investment of a 
high degree of faith by the public, who may be justifiably skeptical 
that these outcomes could actually be realized. For example, the 
Preferred Alternative 4 proposes to:
    (1) increase the volume of timber harvested compared to current 
levels (Page 3/186);
    (2) increase acres of timber harvest by 154 percent compared to 
current levels;
    (3) increase precommercial thinning by more than 2-times current 
acres;
    (4) increase prescribed fire by 150-335 percent; and,
    (5) simultaneously reduce road densities in most forest types by up 
to 50 percent.
    Where is this going to occur? According to the Kootenai National 
Forest analysis, it's not going to occur there. And, even without the 
reality of limited budgetary constraints, the EIS does not provide an 
explanation of how apparent contradictory goals can be accomplished?
    While we do appreciate the agencies taking a new look at the 
socioeconomic analysis included within the DEIS as originally released, 
we still believe there are many unanswered questions. The Economic and 
Social Conditions of Communities report (Report) provides a general 
overview of Interior Columbia Basin communities. However, it avoids the 
issue of what the specific socioeconomic and economic impacts would be 
to each community under each of the different alternatives. This is due 
in part to the fact that the EIS, which the Report supplements, uses a 
``broad-scale'' approach and therefore prevents the estimation of local 
effects. However, a complete analysis of socioeconomic and economic 
impacts for each community under each alternative is a necessary 
prerequisite to the issuance of a final environmental impact statement 
and record of decision. That's what the law and simple fairness 
contemplate. Even though in our understanding the National Forest 
Management Act requires an individual analysis for each of the 104 
counties to be impacted by the EIS, the Report, at the least, should 
have provided a range of potential socioeconomic and economic impacts 
for the Bureau of Economic Analysis (BEA) regions and a more detailed 
discussion of how the communities in each of the BEA regions would 
potentially be impacted under each of the different alternatives. 
Several assumptions are used in the Report in order to allow for a 
simplification of the analysis. However, the ``broad-scale'' approach 
of the EIS must be narrowed and the socioeconomic and economic impacts 
at the BEA region level must be analyzed.
    We are concerned by language (1-14) regarding ``adaptability of 
plans'' that indicates reinitiation of consultation under the 
Endangered Species Act may result from this project. We suggest any 
such action be done in a manner that does not unreasonably delay or 
alter previously approved site-specific projects or projects close to 
decision. Adaptive management occurs though predictable and reasonable 
processes that do not cause an undue burden in the process of balancing 
development with appropriate levels of environmental protection.
    We were pleased to see the importance weed management was given in 
the EIS. Implementation of an integrated weed management strategy on 
identified noxious weeds is a component of each of the alternatives 
listed except Alternative 1 [No Action]. A coordinated weed management 
approach is paramount as we look at emerging management issues.
    The effort expended on this project is significant and appreciated. 
Similarly, the information produced as a result of this extraordinary 
inquiry is invaluable. Nonetheless, for the reasons mentioned herein, 
we do not believe the project should proceed to the issuance of a 
record of decision. Instead, goals and objectives, based upon the 
information and analysis produced, should be formulated to guide the 
development of forest plans pursuant to the National Forest Management 
Act.
    By drawing this conclusion, we do not intend to diminish the effort 
invested to produce this analysis, nor the competence of the 
professionals responsible for its creation, We also appreciate the many 
opportunities offered for collaboration throughout the preparation of 
the EIS. And importantly, we believe that the body of information 
synthesized as a result of the scientific inquiries will assist greatly 
in making better management decisions in the future. Our best 
recommendation, however, is to use that information to guide the 
development of forest plans suited to the unique characteristics of 
individual management units. To proceed to adoption of a preferred 
alternative in a final EIS and the issuance of a record of decision 
would, for the reasons expressed herein, achieve the opposite of what 
the purpose and need statement sets out to accomplish.
    Thank you for consideration of our comments.
STATEMENT OF CAROL JOLLY, EXECUTIVE POLICY ADVISOR ON 
            NATURAL RESOURCE POLICY, EXECUTIVE POLICY 
            OFFICE, STATE OF WASHINGTON
    Senator Gorton. Ms. Jolly.
    Ms. Jolly. Thank you, Senator Gorton, Senator Craig. I 
appreciate the opportunity to be here today to represent 
Washington Governor Locke.
    For the last 4 years, Washington State has been 
participating with the Federal agencies and working with the 
Eastside Ecosystem Coalition of Counties on the Interior 
Columbia Basin Ecosystem Management Project. A number of State 
agencies--our Department of Fish and Wildlife, Ecology, and 
Community Trade and Economic Development--have reviewed 
documents, met with Federal officials, and discussed the 
related issues with one another and with their constituents. We 
have consulted regularly with our Department of Natural 
Resources, which manages State lands, and with the staff of 
Oregon Governor Kitzhaber.
    Public Lands Commissioner Jennifer Belcher submitted 
comments to the Federal agencies, supportive of this project. 
And with your permission, I would like to submit today Governor 
Kitzhaber's testimony for the record, since Governor Kitzhaber 
was not able to be represented here.
    Senator Gorton. Yes; we did invite an Oregon 
representative, and they have written testimony. We will be 
happy to have you submit it, and it will be a part of the 
record.
    [Clerk's note.--The information was not received in time to 
be included in the hearing record.]
    Ms. Jolly. Thank you very much. I appreciate that.
    Based on our involvement and on our evaluation of the 
project's draft environmental impact statement, Governor Locke, 
earlier this month, submitted comments to the Forest Service 
and the Bureau of Land Management. And I have provided a full 
copy of that letter as part of my testimony, but I will try to 
highlight for you today the main points that we made.
    We see the project as an ambitious and innovative approach 
to broad-scale Federal land management. And we appreciate the 
Federal Government's commitment to finding new ways to address 
deteriorating conditions throughout the basin, while supporting 
the region's social and economic needs. We do endorse the 
project's approach of considering watersheds the basic unit of 
landscape ecology, and using tremendous amounts of digitally 
stored and manipulated data to evaluate options for managing 
land differently within each watershed. We see this approach as 
an asset to local, State, and tribal planning and resource 
management agencies throughout the project area.
    We are hopeful that the Forest Service and BLM will work 
with agencies at all levels of government to make the extensive 
scientific data that has been gathered more easily and readily 
accessible and usable. We would also like to see continuing 
efforts to coordinate its refinement, and to identify any gaps 
that would require additional research. We see substantial 
value in the Federal agencies committing to maintaining, 
updating, and distributing this data.
    In light of the listings of anadromous and resident fish in 
numerous Washington waterways under the Endangered Species Act, 
we see the watershed and basis analysis approach projected in 
the EIS as complementary to our expanding efforts at the State 
and local levels to restore fish populations. We hope that the 
application of this approach in landscape-level decisionmaking 
will be pursued cooperatively with the State as we increase our 
emphasis on water quality management by establishing and 
allocating total maximum daily loads under the Federal Clean 
Water Act.
    However, Washington has continuing concerns about the 
adequacy of the socioeconomic assessments completed for the 
project. We understand from previous conversations and from 
what Mr. Williams said this morning that the project team is 
continuing to work with the Eastside Coalition of Counties. And 
we are glad that they are doing that, because we want to see 
substantial improvement before the final EIS is completed.
    We are concerned to see that the draft EIS lacks and 
discussion of a strategy to address the economic distress of 
the communities and tribes within the project area. With much 
of that region already economically troubled, it is our hope 
that the project could serve as a springboard for improvements 
for these communities and tribes. We know that the land 
management agencies do not have a legal mandate to provide 
economic stability to rural communities, but the Forest Service 
and BLM have been key participants in the President's forest 
plan economic adjustment initiative in western Washington, and 
we would like to see a similar effort undertaken on the State's 
eastside.
    We are going to look to the final EIS for clarification on 
the mechanisms that will be established to ensure interagency 
coordination among the land management and the regulatory 
agencies--an issue of some concern to us--and also for 
coordination between the Federal Government and State, local, 
and tribal agencies.
    Our resource agencies continue to view some combination of 
alternatives 4 and 6 presented in the draft EIS, aggressive 
restoration combined with a conservation reserve design and 
adaptive management, as holding the best prospects for success. 
Given the poor ecological integrity throughout much of the 
basin, it is essential that the Federal agencies make strong 
efforts to restore and protect the aquatic, riparian, and 
terrestrial components of the ecosystem.
    We support the judicious use of prescribed burning, as 
described in alternative 4, because we think that will reduce 
severe air quality and dangers from future wildfires. We hope 
that that prescribed burning will be done in close consultation 
with the States, so we can protect our air quality.

                           Prepared Statement

    I would just note in closing that Governor Locke has 
repeatedly endorsed Governor Kitzhaber's proposal that 
implementing this plan should focus first on the less 
controversial locations, avoiding activities in areas that are 
roadless, have priority fish habitat, or contain old growth 
timber. We could then monitor the results of harvests and 
determine how best to go into these more sensitive areas.
    Thank you for the opportunity to appear here today to 
present Washington's views on this important project. I would 
be glad to answer any questions.
    Senator Gorton. Thank you, Ms. Jolly.
    [The statement follows:]
                   Prepared Statement of Carol Jolly
    For close to four years, Washington State has been participating 
with the federal agencies and working with the Eastside Ecosystem 
Coalition of Counties on the Interior Columbia Basin Ecosystem 
Management Project (ICBEMP). Several state agencies, including our 
departments of Fish and Wildlife, Ecology, and Community, Trade and 
Economic Development have reviewed documents, met with federal 
officials, and discussed the related issues with one another and with 
their constituents. We have consulted regularly with the Department of 
Natural Resources, which manages state lands, and with the staff of 
Governor Kitzhaber of Oregon.
    Based on this involvement and on our evaluation of the Project's 
Draft Environmental Impact Statement, Governor Locke earlier this month 
submitted comments to the Forest Service and the Bureau of Land 
Management. While a copy of his full comment letter is attached, I will 
try to highlight his main points.
    We see ICBEMP as an ambitious, innovative approach to broad-scale 
federal land management and appreciate the federal governments 
commitment to finding new ways to address deteriorating conditions 
throughout the basin while supporting the region's social and economic 
needs.
    We strongly endorse the Project's approach of considering 
watersheds the basic units of landscape ecology and using tremendous 
amounts of digitally stored and manipulated data to evaluate options 
for managing lands within each watershed. We see such an approach as an 
asset to local, state and tribal planning and resource management 
agencies throughout the project area.
    We hope the Forest Service and Bureau of Land Management will work 
with agencies at all levels of government to make the extensive 
scientific data that has been gathered through the project more easily 
useable. We would also like to see continuing efforts to coordinate its 
refinement and identify gaps requiring additional research. We see 
substantial value in the federal agencies committing to maintaining, 
updating and distributing the data.
    In light of the listings of anadromous and resident fish in 
numerous Washington waterways under the Endangered Species Act, we see 
the watershed and basin analysis approach projected in the 
Environmental Impact Statement as complementary to our expanding 
efforts at the state and local level to restore fish populations. We 
hope that application of this approach in landscape level decision-
making will be pursued in cooperation with the state as we increase our 
emphasis on water quality management through establishing and 
allocating Total Maximum Daily Loads under the federal Clean Water Act.
    Washington has continuing concerns about the adequacy of the socio-
economic assessments completed for the ICBEMP. We understand that the 
Project Team is continuing to work with the Eastside Ecosystem 
Coalition of Counties to more clearly quantify impacts on rural 
communities. We would hope to see substantial work between the draft 
and final Environmental Impact Statement, especially on the review of 
recreation employment and wage data assessment.
    It is troubling to note that the Draft Environmental Impact 
Statement lacks any discussion of a strategy to address the economic 
distress of the communities and tribes within the Project area. With 
much of that region already economically troubled, it is our hope that 
ICBEMP can serve as a springboard for improvements for these 
communities and tribes. While we recognize that the land management 
agencies have no legal mandate to provide economic stability to rural 
communities, the Forest Service and Bureau of Land Management have been 
key participants in the President's Forest Plan Economic Adjustment 
Initiative in Western Washington. We would like to see a similar effort 
undertaken on the state's Eastside.
    We will look to the Final Environmental Impact Statement for 
clarification on the mechanisms that will be established to ensure 
inter-agency coordination among federal land management and regulatory 
agencies and between the federal government and state, local and tribal 
agencies
    Our resource agencies continue to view some combination of 
Alternatives 4 and 6--aggressive restoration combined with a 
conservation reserve design and adaptive management--as holding the 
best prospects for success. Given the poor ecological integrity 
throughout much of the basin, it is essential that federal agencies 
make strong efforts to restore and protect the aquatic, riparian and 
terrestrial components of the ecosystem.
    We support the judicious use of prescribed burning as described in 
Alternative 4 as advantageous to reducing severe air quality impacts 
and dangers from future wildfires. Washington's Smoke Management Plan 
will help to ensure compliance with federal health standards and 
protect visibility without precluding the increases ire forest health 
burning projected in the Environmental Impact Statement.
    Governor Locke has repeatedly endorsed Governor Kitzhaber's 
proposal that implementation of the ICBEMP should focus first in less 
controversial locations, avoiding activities in areas that are 
roadless, have priority fish habitat, or contain old-growth timber. 
Comparisons of these areas with more intensively managed areas can 
provide an important gauge of success or failure of ecosystem 
management techniques.
    Significant changes in management strategies, are needed for 
rangelands and grazed forest lands throughout the basin. We think 
stronger conservation measures, such as adequate standards and 
guidance, approaches for wildlife/livestock interactions, and livestock 
grazing and stocking rates for streams and riparian areas, would be 
appropriate in the final Environmental Impact Statement.
    Thank you for the opportunity to appear here today to present the 
state's views on this important Project. I would be pleased to answer 
any questions you might have.
    Attachment.
                                 ______
                                 
         Letter From Gary Locke, Governor, State of Washington
                                                   April, 29, 1998.
Mr. Bob Williams,
Regional Forester,
USDA Forest Service, Region 6
Ms. Elaine Zielinski,
State Director,
Bureau of Land Management
    Dear Mr. Williams and Ms. Zielinski: I am writing to convey the 
views of Washington state on the Draft Environmental impact Statement 
(DEIS) for the Interior Columbia Basin Ecosystem Management Project 
(ICBEMP). Representatives of several state agencies have worked 
intensively with your staffs over the past four years on this 
ambitious, innovative approach to broad-scale federal land management. 
We appreciate the federal government's commitment to finding new ways 
to address deteriorating conditions throughout the basin while 
supporting the region's social and economic needs.
    The tiered analysis approach used in the ICBEMP is one of the 
project's most important contributions, not only to future management 
of the millions of acres of federal lands in the basin, but also to 
those managing lands outside federal control. This approach--based on 
considering watersheds the basic units of landscape ecology and on 
tremendous amounts of digitally stored and manipulated data--will be an 
asset to local and state planning and resource management agencies 
throughout the project area.
    We hope the Forest Service and Bureau of Land Management will work 
with state and local agencies to make the extensive scientific data 
that has been gathered through the project more easily useable through 
the Internet. We also would like to see continuing efforts to 
coordinate its refinement and identify gaps requiring additional 
research. We see substantial value in your agencies and the our federal 
participants committing to maintaining updating and distributing the 
data.
    In light of the current and anticipated listing of anadromous and 
resident salmonids in numerous Washington waterways under the 
Endangered Species Act, we naturally have a strong interest in ensuring 
that federal lands are managed to protect water quality and habitat. We 
see the watershed and basin analysis approach projected in the EIS as 
complementary to our expanding efforts at the state and local level to 
restore fish populations. We would also hope that application of this 
approach in landscape level decision-making will be pursued in 
cooperation with the state as we increase our emphasis on water quality 
management through establishing and allocating Total Maximum Daily 
loads under the federal Clean Water Act.
    Washington has continuing concerns about the adequacy of the socio-
economic assessments completed for the ICBEMP. We understand that the 
Project Team, in response to issues raised by the Eastside Ecosystem 
Coalition of Counties, is continuing to work to clarify DEIS data on 
``effects of alternatives or human uses and values'' and more clearly 
quantify impacts on rural communities. The Project report on economic 
and social characteristics issued in February 1998 falls short of 
addressing our concerns. We would hope to see substantial work between 
the draft and final EIS, especially on the review of recreation 
employment and wage data assessment.
    It is troubling to note that the DEIS lacks any discussion of a 
strategy to address the economic distress of the communities and tribes 
within the Project Area. While one of the ICBEMP objectives is to 
provide more predictability on federal land use, particularly for 
timber harvest, it is generally recognized that many of the region's 
communities are already suffering as a result of past federal 
decisions. It is our hope that this Project can serve as a springboard 
for improvements for these communities and tribes. While the DEIS is 
correct in stating that the land management agencies have no legal 
mandate to provide economic stability to rural communities, the Forest 
Service and Bureau of Land Management have been key participants in the 
President's Forest Plan Economic Administration Initiative in Western 
Washington. We would certainly like to see a similar effort undertaken 
on the east of the state.
    We are disturbed about the validity of the document's explanation 
of the impacts of various alternatives on rural communities and the 
absence of a strategy to address them. But of even greater concern is 
the breadth of objections the DEIS has elicited. With virtually every 
sector of the public perceiving adverse impacts from the project's 
implementation, we wonder whether and how you can proceed to a final 
EIS without reducing this negative perception.
    The issues associated with effective implementation are of great 
interest to us. Clearly, the Final EIS will have to foster a lease of 
support for the Project if there is to be any likelihood of 
congressional funding. And we will look for clarification in that 
document on the mechanisms that will be established to ensure inter-
agency coordination among federal land management and regulatory 
agencies and between the federal government and state, local and tribal 
agencies.
    Our resource agencies continue to view some combination of 
Alternatives 4 and 6--aggressive restoration combined with a 
conservation reserve design and adaptive management--as holding the 
best prospects for success. Given the poor ecological integrity 
throughout much of the basin, it is essential that federal agencies 
make strong efforts to restore and protect the aquatic, riparian and 
terrestrial components of the ecosystem.
    As Governor Kitzhaber has frequently stated, there would be 
significant advantages in an implementation strategy that focuses first 
in less controversial locations, avoiding activities in areas that are 
roadless, have priority fish habitat, or contain old-growth timber. 
Recognizing that there are areas in the basin that contain species 
strongholds and biodiversity-rich areas, we see the need for low-risk, 
scientifically managed activities (e.g., weed control, thinning, light 
underburning, or recreation) that can be undertaken in these areas 
without diminishing their value. Comparisons of these areas with more 
intensively managed areas can provide an important gauge of success or 
failure of ecosystem management techniques.
    We support the judicious use of prescribed burning as described in 
Alternative 4 as advantageous reducing severe air quality impacts from 
future wildfires. Washington's Smoke Management Plan will help to 
insure compliance with federal health standards and protect visibility 
without precluding the increases in forest health burning projected in 
the EIS. This type of fuel management combined with mechanical 
techniques for fuel reductions offer an acceptable tradeoff to mitigate 
the impacts of more severe, smokier, and long-lasting wildfires that 
can destroy homes and lives or harm public health.
    Significant changes in management strategies are needed for 
rangelands and grazed forest lands throughout the basin. The current 
major environmental problems in grazed ecosystems--degraded or non-
functioning streams, rapid spread of noxious weeds, replacement of 
grasslands by shrublands, and establishment of destructive fire 
regimes--are severe and widespread in Washington and elsewhere in the 
basin we think stronger conservation measures, such as adequate 
standards and guidance, approaches for wildlife/livestock interactions, 
and livestock grazing and stocking rates for streams and riparian 
areas, would be appropriate in the final EIS.
    Your currently anticipated timeline expresses an intent to release 
a final EIS in about a year. Our agency staff will do their best to 
work with you in the interim to help you produce a useful, effective 
document with a supportive constituency that will serve our citizens 
and our public lands and demonstrate the value of the huge investment 
made in this project.
            Sincerely,
                                                Gary Locke,
                                                          Governor.
STATEMENT OF JAIME A. PINKHAM, TREASURER, NEZ PERCE 
            TRIBAL EXECUTIVE COMMITTEE
    Senator Gorton. Mr. Pinkham.
    Mr. Pinkham. Thank you, Mr. Chairman. Senator Craig and 
Senator Gorton, thank you for this opportunity and for allowing 
me to sit in on behalf of Mr. Ted Strong, the executive 
director for the Columbia River Intertribal Fish Commission.
    While I do not want to be confused here as a representative 
of the State, I do thank you for sitting me amongst fellow 
sovereign governments.
    Long before written history, the Nez Perce had exclusive 
use and occupancy on over 13 million acres of land. We traveled 
to the Plains to hunt for buffalo, and traveled down the 
Columbia River to fish for salmon. And our ancestors maintained 
a sacred relationship with the land, and our physical and 
spiritual livelihood depend on nature's bounties. And to us, in 
the language of land management, our ancestors practiced 
multiple use on these lands, relying on them to provide 
sustenance, spiritual connectivity, and recreation.
    We entered into a series of treaties with the U.S. 
Government. And in our treaties we ceded a vast area of our 
homeland, but we expressly reserved our rights to hunt, gather, 
and pasture livestock on open and unclaimed land, and to take 
fish at all usual and accustomed places outside the 
reservation. In the language of land management, Nez Perce 
forefathers ensured that the treaty provided sustainability for 
future generations of Nez Perce.
    The Nez Perce Tribe's reservation and our treaty area is 
located in the heart of the territory being analyzed by this 
project. And my remarks today will predominantly focus on the 
project draft EIS and the concerns we have specifically to 
rebuilding the salmon populations.
    For many years, the BLM and the Forest Service have been 
implementing logging and grazing programs that were harmful and 
threatened the sustainability of other important resources, 
such as fish, wildlife, and the plants that make up our 
traditional foods and medicines. And over the years, when water 
quality standards were neglected or were not met, Columbia 
Basin salmon runs continued to decline. Yet, during this time, 
the Nez Perce Tribe and other Columbia River treaty tribes have 
been doing more than their share to conserve salmon.
    For example, the tribes have not had a commercial fishery 
on summer chinook since 1964. Spring chinook did not fare much 
better, for we have not had a commercial fishery since 1977. 
Even so, the tribe's sacrifices for spring and summer chinook 
have not prevented their continuing decline. And the salmon 
habitat is scattered throughout much of the land managed by 
both the Forest Service and BLM in the Columbia Basin. And much 
of this land has been subjected to decades of logging and 
grazing that have resulted in severe impacts on salmon habitat.
    And we think that there is no way that fish habitat and 
water quality degradation can be stopped, much less reversed, 
by maintaining or increasing the activity levels. If salmon are 
to survive, much less rebuild, the Federal Government and the 
industries that feed off the Federal lands are going to have to 
learn that ecosystem management means more than applying fancy 
new words to business as usual.
    And unless dramatic changes are made, more salmon runs are 
going to go extinct. Even the project scientists believe that 
there is no room for further degrading the habitat. With 
respect to salmon, they made the following declaration in their 
draft EIS:
    Rehabilitation of depressed populations cannot rely on 
habitat improvement alone, but requires a concerted effort to 
address causes of mortality in all life stages. To prevent 
extinction of the anadromous fishes in the Snake River Basins 
and maintain population resiliency until other causes of 
mortality are reduced, it is essential that existing high-
quality habitats be maintained.
    And aside from the explicit recognition that there is no 
further room for degradation of habitat, their statement also 
points out that the Federal land managers cannot continue to 
work on habitat management issues or make decisions in a 
vacuum. Management of salmon habitat must be coordinated with 
all other efforts affecting salmon rebuilding. No doubt, a 
coordinated approach is necessary. And pointing fingers between 
hatcheries, habitat, harvest, and hydropower does not alleviate 
any one individual or agency from meeting their own obligation 
for contributing to the recovery of the dwindling salmon runs. 
In fact, as I stated earlier, the tribes have already weighed 
in to do what they can to conserve salmon populations.
    In addition to proposing management that conflicts with 
other Federal and tribal salmon recovery efforts, the Federal 
land managers have taken a step backward. With respect to 
providing harvestable populations, which is also a part of the 
Pacific Salmon Treaty, the Northwest Power Act, and the tribes' 
treaties, the project draft EIS envisions having harvestable 
populations in 50 to 100 years. This is totally unacceptable.
    Unfortunately, under the guise of ecosystem management at 
the watershed scale, Federal land managers can modify fish 
habitat and water quality objectives without regard to the 
biological needs of salmon. Similarly, the draft EIS makes 
monitoring to determine compliance with water quality standards 
optional. Without monitoring, the Federal land managers cannot 
assure that they are in compliance with applicable law. If 
monitoring is optional and fish habitat objectives can be 
changed without regard to rebuilding goals, legal obligations 
and the biological requirements of fish, then local land 
managers are left with virtually unfettered discretion.
    We do not need less accountability. We need more. Mere 
viability of salmon and other listed fish and wildlife 
populations is not good enough. We need harvestable salmon 
populations. Fishermen from the tributaries of the Snake to 
southeast Alaska have made sacrifices to protect Columbia Basin 
salmon. It is time that Federal land managers stepped up to the 
plate, in an accountable manner, and implement the lessons that 
we have been learning over the last 30 years.
    There are a variety of fundamental laws that must be 
followed in the management of these lands, such as the Organic 
Act, the National Forest Management Act, and the National 
Environmental Policy Act. But there is another fundamental law 
that predates any of these acts, and that is our treaties. And 
we would hope that when we talk about grazing leases or timber 
sale contracts that we cannot ignore the fact that there is a 
higher dignity that is given to the solemn pledges made to the 
treaties and the rights that exist upon these Federal lands.
    We see the Nez Perce Tribe and other Indian tribes as 
perhaps being the most local of local communities. The Federal 
lands within our treaty area are our ancestral homelands and 
remain a vital part of our life to this day and into the 
future. We have lived here well beyond human memory and have no 
intentions of abandoning these lands to relocate elsewhere. 
Sustainability must recognize the holistic management 
philosophy, where we acknowledge that no one part of the 
ecosystem can live in isolation of another. The resources whose 
future is outlined in the draft EIS is sacred and fundamental 
to our livelihood and to our religious expressions.

                           Prepared Statement

    And I thank you for this opportunity to provide testimony. 
I would be happy to answer questions.
    Senator Gorton. Thank you, Mr. Pinkham.
    [The statement follows:]
                 Prepared Statement of Jaime A. Pinkham
    I am Jaime A. Pinkham, Treasurer for the Nez Perce Tribal Executive 
Committee, the governing body of the Nez Perce Tribe. Senator Craig and 
Senator Gorton, thank you and the subcommittee for allowing me to take 
the place of Mr. Ted Strong, Executive Director for the Columbia River 
Intertribal Fish Commission, at this field hearing on the Interior 
Columbia Basin Ecosystem Management Project.
    In 1877, in debates preceding our war with the US Army, a Nez Perce 
leader said: ``The Earth is part of my body . . . I belong to the land 
out of which I came. The Earth is my mother.''
    These words reflect the enduring relationship between the people 
and the land. They did not simply indicate an opinion, but rather point 
to a way of life. We are a part of this land and this land is a part of 
us. Our activities reflected our understanding of the natural cycles 
turning upon the land and water.
    Long before written history, the Nez Perce had exclusive use and 
occupancy on over 13 million acres of land in what is today north-
central Idaho, southeast Washington and northeast Oregon. We traveled 
to the plains to hunt buffalo and we fished for salmon on the Columbia 
River. Our ancestors maintained a sacred relationship with the land and 
our physical and spiritual livelihood depended on nature's bounties. In 
the language of land management, our ancestors practiced ``multiple 
use'' on these lands, relying on them to provide sustenance, spiritual 
connectivity and recreation.
    As the non-Indians, laboring to settle in the west, sought to 
occupy our lands, the US Government entered into treaties with the Nez 
Perce Tribe. In our treaties we ceded a vast portion of our homeland 
but we expressly reserved our rights to hunt, gather and pasture 
livestock on open and unclaimed land and to take fish at all usual and 
accustomed places outside the reservation. In the language of land 
management, Nez Perce forefathers ensured that the treaty provided 
``sustainability'' for future generations of Nez Perce people.
    The Nez Perce Tribe's reservation and our treaty area is located in 
the heart of the territory being analyzed by the Project. And, my 
remarks today will predominantly focus on the Project draft EIS and the 
concerns we have regarding rebuilding the salmon populations.
    For many years, the BLM and the Forest Service have been 
implementing logging and grazing programs that were harmful and 
threatened the sustainability of other important resources, such as 
fish, wildlife and the plants that make up our traditional foods and 
medicines. For years and through all available means, the Nez Perce 
Tribe has urged federal land managers to start paying attention to the 
results of applicable research and monitoring programs. Throughout this 
time, our recommendations have generally been ignored. We were told 
that our recommendations that logging and grazing activities be 
required to comply with water quality standards as soon as possible was 
``too extreme'' and that the impacts on local communities would be too 
great.
    Over the years as our recommendations were ignored and as water 
quality standards were neglected, Columbia basin salmon runs continued 
to decline. Yet during this time, the Nez Perce Tribe and the other 
Columbia River treaty tribes have been doing more than their share to 
conserve salmon. For example, the tribes have not had a commercial 
fishery on summer chinook since 1964. Ironically, the reason why the 
summer chinook run has been so depressed for the last 34 years is that 
their primary spawning ground, the South Fork Salmon River in central 
Idaho, was choked by sediment sliding into the river after a 1964 
winter storm caused a series of logging roads to fail. Although logging 
and road construction in the South Fork were subsequently halted for 
several periods during the last three decades, the Forest Service 
relaxed their already inadequate forest plans enough to allow road 
reconstruction and salvage logging even though sediment reduction goals 
(and water quality standards) had not been met. Both the road 
reconstruction (paving the South Fork road) and the salvage logging 
were clothed in the guise of ``ecosystem management'' and ``sediment 
reduction,'' yet sediment levels are as high as ever and summer chinook 
are not rebuilding. If salmon are to survive, much less rebuild, the 
federal government and the industries that feed off the federal lands 
are going to have to learn that ecosystem management means more than 
applying fancy new words to business-as-usual.
    Spring chinook are not in much better shape than summer chinook. 
The tribes have not had a commercial fishery on spring chinook since 
1977. Even so, the tribes' sacrifices for spring and summer chinook 
have not prevented their continuing decline. Spring chinook habitat is 
scattered throughout much of the land managed by the Forest Service and 
BLM in the Columbia basin.
    Much of this land has been subjected to decades of logging and 
grazing that have resulted in severe adverse impacts on salmon habitat. 
Instead of cutting back on logging and grazing, the Interior Columbia 
Basin Ecosystem Management Project preferred alternative will maintain 
or increase logging and will maintain status quo grazing. There is no 
way that fish habitat and water quality degradation can be stopped, 
much less reversed, by maintaining or increasing activity levels. If 
you want to rebuild the runs and comply with legal obligations 
including the Clean Water Act, the federal land managers must stop 
conducting the activities which harmed fish habitat and water quality 
in the first place.
    Unless dramatic land management changes are made, more salmon runs 
are going to go extinct. Even the Project's scientists believe that 
there is no room for further degradation. With respect to salmon, they 
made the following declaration: Because of the habitat and populations 
losses associated with dams, only the most productive populations may 
retain the resilience to persist in the face of natural and human 
caused disturbance. Any changes in the environment that influence 
survival and productivity of remaining stocks, including improvements 
in rearing habitats, harvest, predation, and mainstem passage, will 
improve chances for persistence in stochastic environments. Simply put, 
with current conditions in migrant survival, many stocks are at serious 
risk. The differences between those that persist and those that do not 
will include chance events and the survival and productivity of the 
stocks as they are largely influenced by freshwater habitats. Without 
substantial improvement in migrant survival, securing and restoring the 
quality of freshwater habitats may make the critical difference in 
persistence for many of the remaining populations. In the short term, 
conservation and/or rehabilitation of habitats available to or directly 
associated with remaining populations will be key. In the long term, 
assuming mainstem conditions are resolved, it will be necessary to 
conserve and restore broader habitat networks to support the full 
expression of life histories and species. Rehabilitation of depressed 
populations cannot rely on habitat improvement alone but requires a 
concerted effort to address causes of mortality in all life stages.  .  
.  . To prevent extinction of the anadromous fishes in the Snake River 
subbasins and maintain population resiliency until other causes of 
mortality are reduced, it is essential that existing high-quality 
habitats be maintained.'' \1\
---------------------------------------------------------------------------
    \1\ ICBEMP, An Assessment of Ecosystem Components in the Interior 
Columbia Basin and Portions of the Klamath and Great Basins, Volume III 
(June 1997) at 1345.
---------------------------------------------------------------------------
management of salmon habitat must be coordinated with all other efforts 
                      affecting salmon rebuilding
    Aside from the explicit recognition that there is no further room 
for degradation of habitat, the above statement of the obvious by the 
ICBEMP scientists makes clear that federal land managers cannot 
continue to make salmon habitat management decisions in the vacuum they 
have traditionally occupied. Management of salmon habitat must be 
coordinated with all other efforts affecting salmon rebuilding.
    No doubt, a coordinated approach is necessary. Pointing fingers 
between hatcheries, habitat, harvest, and hydropower does not alleviate 
any one individual or agency from meeting their own obligation for 
contributing to the recovery of the dwindling salmon runs. In fact, as 
I stated earlier, the tribes have already weighed in yet we continue to 
carry a disproportionate share of the burden.
    It is painfully obvious that the federal land managers are not 
coordinating with other salmon managers. While the National Marine 
Fisheries Service (NMFS) and the managers of the Federal Columbia River 
Power System (FCRPS) all claim that it is necessary to take strong 
measures to reduce short-term risk to salmon populations, the Project 
draft EIS proposes an alternative which the federal government concedes 
increases short-term risk to salmon. NMFS and FCRPS have used short-
term risk to justify massive capital expenditures which may be rendered 
superfluous by the ``1999 decision'' that must be made, pursuant to the 
FCRPS biological opinion, regarding the long-term configuration of the 
FCRPS. While the ratepayers, the tribes, the taxpayers, and the salmon 
give with one hand, the federal land managers take with the other. 
Similarly, while the rest of the nation is supposed to meet the 
requirements of the Endangered Species Act and the Clean Water Act, the 
Project proposes a framework that allows salmon recovery and Clean 
Water Act compliance to be postponed for decades at the whim of 
individual national forests and BLM districts.
    In addition to proposing management that conflicts with other 
federal and tribal salmon recovery efforts, the federal land managers 
have taken a major step backwards from their previous position on 
salmon rebuilding. At the Salmon Summit convened by Senator Hatfield in 
1991, the Forest Service committed to implementing the Columbia River 
Basin Anadromous Fish Habitat Management Policy and Implementation 
Guide. Signed on January 25th 1991 by the Regional Foresters for 
Regions 1, 3, and 6, the Policy Implementation Guide (PIG) stated that 
the Forest Service is committed to ``fully support and participate in 
the achievement of Columbia basin anadromous fish restoration goals . . 
. reflected in a variety of laws, documents, and plans including but 
not limited to: the US Canada Pacific Salmon Interception Treaty and 
the Pacific Northwest Electric Power Planning and Conservation Act of 
1980.'' Now the Forest Service focuses on whether it will be able to 
provide habitat for viable populations of listed species. With respect 
to providing ``harvestable populations,'' which is what the Pacific 
Salmon Treaty, the Northwest Power Act, and the tribes' treaties are 
all about, the Project draft EIS envisions having harvestable 
populations in 50 to 100 years. This is not acceptable.
    Another way in which the Interior Columbia Basin Ecosystem 
Management Project has taken a major step backwards is in the area of 
accountability. It appears that the federal land managers are unwilling 
to make any sort of commitment to which they might be held accountable. 
This is a significant contrast from the Forest Service's position at 
the time of the Salmon Summit where it stated in its Policy 
Implementation Guide that ``an explicit description of the physical and 
biological characteristics of riparian and aquatic habitats'' was 
necessary to meet forest plan fish objectives. In addition, the Forest 
Service declared that this explicit description ``is central to 
measuring achievement, and/or maintenance, of habitat levels compatible 
with Forest Plan direction.'' \2\ We agree.
---------------------------------------------------------------------------
    \2\ U.S. Forest Service, Columbia River Basin Anadromous Fish 
Habitat Management Policy and Implementation Guide (January 25, 1991) 
at 6.
---------------------------------------------------------------------------
    Unfortunately, under the guise of ``ecosystem management at the 
watershed scale,'' federal land managers can modify fish habitat and 
water quality objectives without regard to the biological needs of 
salmon.\3\ Similarly, the draft EIS makes monitoring to determine 
compliance with water quality standards optional.\4\ Without 
monitoring, the federal land managers cannot assure that they are in 
compliance with applicable law. If monitoring is optional and fish 
habitat objectives can be changed without regard to rebuilding goals, 
legal obligations, and the biological requirements of fish, then local 
land managers are left with virtually unfettered discretion.
---------------------------------------------------------------------------
    \3\ See e.g., Eastside DEIS Appendix 3-4 at 331 discussing RMO 
revision without reference to the biological needs of fish.
    \4\ DEIS at Appendix 3-1 at 931. A similar approach by the Corps of 
Engineers to monitoring of total dissolved gas at its mainstem projects 
would not be tolerated.
---------------------------------------------------------------------------
    After spending over $40 million, the Project has come up with a 
process that is out of step with basin-wide salmon management, that 
maintains the activities which have harmed so much fish and wildlife 
habitat, that is unaccountable, that does not even try to manage for 
restoring harvestable salmon runs, and that makes federal land 
management even more expensive.
    We don't need less accountability; we need more. Mere ``viability'' 
of salmon and other listed fish and wildlife populations is not good 
enough. We need harvestable salmon populations. Fishermen from the 
tributaries of the Snake to Southeast Alaska have made sacrifices to 
protect Columbia basin salmon. It is time that federal land managers 
stepped up to the plate in an accountable manner that implements the 
lessons we have learned over the past 30 years. We don't need an 
unaccountable process that allows local managers to deviate from the 
well-known biological requirements of salmon merely because it would be 
convenient. We don't need hundreds of expensive, wasteful, and 
duplicative little ``ecosystem analysis processes'' where we have to 
re-debate the biological requirements of salmon and this country's 
obligations under the Clean Water Act and under treaties with Indian 
tribes and the government of Canada.
    The Project has developed a product that is unacceptable from many 
points of view. The tribes have submitted well-considered suggestions 
as to how many of these defects might be remedied in a manner that is 
consistent with existing federal laws, state laws, and treaties.
    We are ready to work with the federal government to implement these 
recommendations. We even stand ready to work as co-managers of these 
resources. Our success in managing our own lands and our success in the 
gray wolf recovery program in the state of Idaho offers testimony to 
our leadership and scientific and technical capabilities.
    There are a variety of fundamental laws that must be followed in 
the management of these lands such as the Organic Act that established 
the federal forest reserves, the National Forest Management Act, and 
the National Environmental Policy Act. Another fundamental law that 
pre-dates these acts are our treaties. Our treaties have created a 
unique relationship between the federal land managers and the Tribe 
which is unlike a special interest group or any classification found 
among the general public.
    The Nez Perce Tribe is perhaps the most ``local'' of local 
communities. The federal lands within our treaty area are our ancestral 
homelands and remain a vital part of our life to this day and into the 
future. We have lived here well beyond human memory and have no 
intentions of abandoning these lands to relocate elsewhere. 
Sustainability must recognize a holistic management philosophy where we 
acknowledge that no one part of the ecosystem can live in isolation of 
another. The resources, whose future is outlined in the Project draft 
EIS, is sacred and fundamental to our livelihood and our religious 
expressions.
    We do not have the option of exhausting resources in search of 
short-term profits and then moving on to a different part of the 
country and exhausting the resources there. We must live within the 
limits of the land and water that constitute our homeland. Even today, 
many of our tribal members, myself included, rely upon fish and game as 
a mainstay for human sustenance.
    In closing, we walk a tight rope: environment and economy--finding 
balance (easy to say, difficult to do). Some may be looking to embrace 
the philosophy of state land managers or private, industrial land 
managers as an option for federal land management. It is important, 
however, to never lose sight of what these federal lands are: a 
national asset providing economic and social benefits; we who live here 
have the responsibility of being the caretakers of these lands. And, we 
can never lose sight of what these federal lands can do: we look to 
them, as we should look to other lands, to not only build strong 
economies but also to help reverse the decline of species vital to the 
survival of a healthy ecosystem and vital to the identity and diversity 
of this region's heritage.
STATEMENT OF BOB MORTON, STATE SENATOR, VICE PRESIDENT 
            PRO TEMPORE, WASHINGTON STATE LEGISLATURE
    Senator Gorton. Senator Morton.
    Mr. Morton. Thank you very much, Senator Craig, Senator 
Gorton. I appreciate the opportunity to testify on behalf of 
the Western Legislative Forestry Task Force.
    As you both are aware, we were in Washington, DC, recently, 
and we left with you a green packet then. It has been updated 
and it is before you now. This packet contains the signatures 
and the resolutions of more than two-thirds of the counties of 
those involved in ICBEMP, which are opposed to this particular 
plan and process. And those are documented in the green.
    I have also presented you with a blue packet. That is put 
together by a group of foresters, and I have come to regard 
that as the most concise examination and analysis of this 
particular plan of anything that I have seen. And I would 
advise you to give it to your staff. We have more than ample 
copies here for you--trying to fulfill the number of 50 that is 
required.
    I am going to stray a little bit from my written testimony, 
which you also have there before you, because I am greatly 
concerned about some of the testimony that I have heard already 
and I would like to direct some of my comments to that.
    We had a hearing on ICBEMP in Colville earlier this year. 
And at that hearing there were over 200 people who were 
present. There was a newspaperman there whom I did not know, 
but in that packet you will find his comments pertaining to the 
hearing that was held. And the headlines are: ICBEMP in 
Colville--Colville being the heart of the Colville National 
Forest--Public Opinion Irrelevant. And that is what we have 
experienced all along in this process. And I think that is what 
we will experience if this plan goes into action--public 
opinion irrelevant.
    This group of people have continued to just plow ahead--as 
some of your questions illuminated today--plow ahead without 
public input. And certainly they do not want any public vote or 
any public real decisionmaking on the part of the final 
decisions. I call your attention to Bob Williams' own testimony 
here. And I am referring on page 4, where he has: public 
comments to date. And in here, I interpret this to mean that he 
is blaming the public for not understanding their own document 
because of its vagueness and ambiguities and so on. And he even 
goes on to say here in his testimony this morning that he would 
have to spend up to 2 years to get his own people to understand 
it.
    Cannot this agency write something in plain English that 
could be properly understood, such as, Senator Craig, your good 
bill, which I testified on in Washington, DC, which is very 
understandable, and which I had the privilege of adding a few 
comments to then. I do not see why we have to come up with such 
a convoluted bunch of phrases here that are just words and 
completely meaningless.
    Now, there is another aspect to this, and it is one of the 
key phrases. And that is ecosystem management. What does that 
mean? Has that ever been defined?
    Well, Jack Ward Thomas made this comment--and I would like 
to quote it--in 1993. And it is documented where and when in 
the document you have. Pertaining to ecosystem management: ``I 
promise you I can do anything you want to do by saying it is 
ecosystem management. It is incredibly nebulous.'' That is what 
they are on. And that is what we have got to guard against.
    What I am very concerned about is the lack of ability for 
input at the community level, at the local level of government. 
Because what we are seeing here, as I hear and as I read, is 
that those people out there are ignorant and that only agency 
people can make the decisions. These people that I associate 
with in my district have been able to have a voice in the 
management of these forests in the past, and that is why we 
have today as good a forest as we have.
    Now, where are the best forests? I ask you to ask the 
question. Where are the best forests in the United States 
today? They are private forests. They are private forests. We 
are ashamed that it is not our public forests.
    Where have we had the best disease control that has been 
put in practice? It is in the private forests. These are issues 
that I think you need to address.
    When the Forestry Task Force met in Boise in December, we 
had Andy Burnell and we had Susan Giannettino there. We spent 
over 2 hours with them. And when we finished there were 13 
legislators there, representing five States. We then spent 2 
hours in an analogy of what their comments have been, in their 
dog and pony show, attempting to convince us how good this 
program was. Not one legislator--not one--representing those 
five States could come into agreement with it. And that is why 
we have published this issue here for you to have.
    I would like to conclude then with our comments as to what 
we think is the best approach at this point. It is the request 
of the Western Legislative Forestry Task Force that the ICBEMP 
project should be terminated with no record of decision being 
approved, and that financing the project should cease, and all 
records, all data, all information be given to the Bureau of 
Land Management district managers and to the National Forest 
supervisors. Federal lands within State and county boundaries 
must be comanaged with local stakeholders have not just input--
where it is regarded as irrelevant--but a vote in the decision.
    The area that we are talking about, gentlemen, as you have 
heard, is 144 million acres. How much is that? It is 225,000 
square miles. And I am sorry I do not have it for you. Here is 
a list of 14 States that could fit in that area--14 of our 
States could fit in that. That is how big an area we are 
talking about. It has a serious impact. And for Bob Williams to 
sit here and say it has no impact is beyond my understanding.

                           Prepared Statement

    Today, whatever the Forest Service does in Ferry County, 85 
percent publicly owned, any minute of the day or night the 
Forest Service has impact on that county. We have 50 percent 
public ownership of this plan that has been put together. It 
will have a very important impact in whatever they do or do not 
do, as far as disease control, for example, to the National 
Forest.
    I am sorry I went over time. Thank you. I would be glad to 
answer questions.
    [The statement follows:]
             Prepared Statement of State Senator Bob Morton
    It is an honor and privilege to come before you on behalf of the 
Western Legislative Forestry Task Force on this extremely important 
issue of the Interior Columbia Basin Ecosystem Management Plan.
    At our December meeting in Boise, Idaho, we invited the officials 
of ICBEMP from the Boise office, Andy Brunelle and Susan Giannettino, 
for a presentation to our group on ICBEMP. Thirteen members of the task 
force, representing five states and one Canadian province, were present 
at that meeting. Following the 45-minute presentation of Mr. Brunelle 
and Ms. Giannettino, we spent more than 1\1/2\ hours in a question/
answer period discussing ICBEMP with them. Following their 
presentation, we spent more than two hours discussing and analyzing its 
ramifications. We then drafted a resolution (which is attached) on our 
position concerning ICBEMP. Not one legislator from the five states and 
Province favored the ICBEMP plan. Returning to our homes, our contacts 
with the counties involved and contacts with other legislators caused 
us to compile these documents in the attached folder in response to the 
resolution we had drafted. This document contains additional 
resolutions adopted by various counties, letters from other officials, 
and letters from the speakers of the House of the four states of Idaho, 
Montana, Oregon, and Washington, all in opposition to the present 
ICBEMP proposed plan. The common theme of these resolutions and letters 
I can best summarize is that ICBEMP should be terminated with no record 
of decision being approved, that the ecosystem management data 
developed by the project should be communicated to the National Forest 
Supervisors and the BLM district managers for consideration, that the 
entities signing these documents are strongly supportive of natural 
resource planning and environmental management featuring site-specific 
management decisions made by local decision makers, local citizenry, 
and the parties directly and personally affected by the environmental 
land and resource management areas.
    The Western Legislative Forestry Task Force sent a delegation of 
its membership to Washington, D.C. in April, we shared information and 
our resolution with numerous members of congress, and met with the 
general counsel, Dinah Bear, of the Council on Environmental Quality of 
the Executive Office of the President, Bill Clinton.
    We wish to thank you members of congress who listened to our 
concerns and have now again honored us with the privilege of sharing in 
these presentations today.
    On behalf of the forestry task force, I bring to you several items 
from other interested groups and individuals for addition to the public 
record: a detailed document of some 63 pages from the Inland Empire 
Society of American Foresters, outlining their review and comments on 
ICBEMP, recommendations by the Eastside Forest Management Subcommittee 
of the Washington Forest Protection Association and the Washington Farm 
Forestry Association, and then what I believe to be the most complete 
and analytical summary of conclusions and response to the ICBEMP 
proposal with contributions by local citizens and compiled by the staff 
of Maurice Williamson, Consulting Forestry, Inc. This document is 52 
pages in length, having explicit footnotes and documented references as 
to page and chapter that will be very helpful in addressing specific 
concerns in the ICBEMP proposal. In addition, Mr. Williamson himself 
drafted a three-page response to the February, 1998 document by the 
project leaders and signed by Robert Williams, Dale Bosworth, Jack 
Blackwell, Martha Hahn, Elaine Zilinski and Larry Hamilton. Mr. 
Williamson's comments respond to their documents entitled ``Economic 
and Social Conditions of Communities Concerning ICBEMP.''
    The Task Force has requested I lift before you some of our 
concerns. We have received comments from our constituents throughout 
our legislative districts that the public hearings conducted by the 
project were not recorded, and there is very little record thereof. I 
can personally testify that the one conducted in Colville, at which 
there was no tape recording, there were no detailed notes taken by the 
presenters, and the audience was told only written testimony was of 
value. This is quite well portrayed in an attachment to my comments 
here from the Idaho newspaper, whose editors I have never met, but 
whose headlines and article I find to be very factual in portraying the 
essence of that particular hearing conducted by the ICBEMP personnel. 
The headline states ``ICBEMP in Colville: Public Opinion Irrelevant.'' 
The fundamental concerns lifted out in that hearing, and I find it true 
of other hearings, was that the NEPA process has not been followed by 
the project personnel, not even at the county level. When the ICBEMP 
officials were questioned requesting why they did not receive the 
comprehensive plans from the 104 counties, their response was that 
although NEPA technically requires this, they felt it was too 
cumbersome and, therefore, they had determined to take only random 
samplings.
    Now beyond the counties, however, we have other legislative and 
taxing groups that have their plans which need to be addressed in any 
formulation of a project of this scope. I refer specifically to the 
cities, the public utility districts, the water districts, all have 
legislative authority and taxing ability, and their projects will be 
greatly impacted if such a program is enacted. They should and are 
required to be consulted.
    If there is to be any further activity by the ICBEMP project, we 
feel they should go back to Square One and obtain and analyze the 
impact of the local government entities by this project.
    Of considerable concern is the lack of definable, measurable terms, 
considerable vagueness, ambiguities, and controversial concepts and/or 
partial definitions. For example, what is ``ecosystem management?'' 
Jack Ward Thomas, former chief of the forest service, probably answered 
this question in the best way possible when he addressed agency public 
affairs personnel in 1993 and made this statement: ``I promise you, I 
can do anything you want to do by saying it is `ecosystem management' . 
. . it's incredibly nebulous'' (speech delivered in Washington, D.C., 
April 11, 1993). The vagueness of this term and numerous others are a 
lawyer's dream come true and will create more contentious areas of 
appeals and litigation in the future.
    At this point, I wish to put in a plug for Senator Larry Craig's 
bill, number 1253, Public Lands Improvement Act, which deals with 
forest health and habitat health. Such terms are much more 
understandable and definable. The language used in the Eastside Draft 
Environmental Impact Statement addressing ICBEMP is based more on 
flowery terms than fact and science. We wish to note the benefit of the 
data collected to the local resource managers, who do an excellent job 
when they have been given not just input but a voice and a vote in 
clear management objectives and adequate funding at the local level. 
Because of the great difference in the geography and the environment of 
these seven states and 104 counties, governance at the local level 
needs not only the data collected but the flexibility for adopting this 
data to their local needs. This proposed plan does not provide local 
flexibility, nor does it provide a meaningful accountability. Also, the 
plan would lead these communities in a non-market direction that would 
virtually eliminate the desired levels of goods and services for these 
rural communities. We feel the opposite needs to take place with any 
such plan whereby the resource managers have the capability of 
providing predictable and sustainable levels of goods and services 
produced through the natural resource arena. Any renewable resource 
program must be based on multiple use of public and private forests, 
range lands, and tillable lands, with local officials having voice and 
vote in the development of such programs.
    It is of great concern to the Task Force that 50 percent of the 
study area is under federal ownership. Limiting the use of these lands 
to wilderness conditions will have severe consequences on the local 
economies. The real fact is that the growth of merchantable timber on 
national forests today far exceeds the harvest levels. By not 
harvesting in a manageable way, this escalates the fuel build-up and 
increases the risk of catastrophic insect epidemics and uncontrollable 
wildfire. The assumption of the project plan is that the perfect 
landscape results in an entirely natural process that nature is the 
ideal model. Therefore, the landscape of the interior Columbia Basin is 
to revert to pre-European era, the assumption being that nature knows 
best. Our contention is that the idea of nature knowing best is not 
scientific. Those who wish to revert to pre-European era would do well 
to review the conditions of that era. Therefore, I would like take a 
brief moment and read from the journal of Lewis and Clark of 1805, 
reflecting some of the conditions of that era:
 [from the journal of lewis and clark, edited by bernard devoto, 1953 
                               copyright]
September 14, 1805
    Lewis and Clark are at the head of the Clearwater River.
    ``I could see no fish and the grass entirely eaten out by the 
horses. We proceed on two miles and encamp opposite a small island at 
the mouth of the bridge on the right side of the river, which is at 
this place, 80 yards wide, swift and stony. Here we are compelled to 
kill a colt for our men and selves to eat for the want of meat. We have 
named the south folk Colt Killed Creek. The flathead name is Boos Koos 
Kee, which is the name of the Clearwater River. The mountain which we 
passed today is much worse than yesterday, the last excessively bad and 
thickly strewn with falling timber and pine, spruce, fir, hackmatack 
and tamarack, steep and stony. Our men and horses much fatigued.''
    On the 15th, they shot another colt and consumed the whole thing.
    It goes on to the 16th, where he has seen four deer and never gets 
a shot. This is in September. He sends Clark ahead. As of the 19th, 
Clark finally finds game, it's a stray horse, which they kill, eat part 
of, and hang the rest in the tree for Lewis and the rest of the party 
to come along. As far as wild game, all they have shot to this point is 
two grouse, from the 14th to the 19th. On the 20th, Clark stumbles into 
a Nez Perce village, where they are given dried salmon and dried camas 
root, which he eats and sends some back to Lewis. They all get 
dysentery. They don't write any more until September 29th, and the 
entire company has dysentery.
    They don't start down the Clearwater until the 4th of October.

    Senators, one of my legislative constituents summarized in a 
sentence what I have found to be an often-expressed response to ICBEMP 
by other constituents: ``This is a national environmental strategy 
being played out to wrestle control from the local communities of the 
west most affected by public land management.'' I continually hear from 
my constituents expressions of anger over what has been termed ``a war 
on the west.'' Their concerns have caused me to analyze how much land 
are we really talking about in the ICBEMP project: 144 million acres, 
which equals 225,000 square miles, encompassing all or a part of 104 
counties in a portion of all or part of seven states. How large really, 
in relationship to our nation, is 225,000 square miles that ICBEMP 
would directly impact people and property? In doing my homework, I 
found that 225,000 square miles is equal in total area to the combined 
area of 14 of our states. They are listed with the square miles of each 
on the addendum to this report. Beyond that, how much of the United 
States Forest Service land lies east of the Mississippi River? There 
are 26 states and, therefore, a majority of the U.S. senators and 
representatives whose states lie east of the Mississippi River. The 
total square miles of United States Forest Service property east of the 
Mississippi is 25,285 square miles, or 1/10 of the amount of property 
of the ICBEMP project here in the Northwest, not counting all of the 
other United States Forest Service land that lies south and east of the 
ICBEMP proposal.
    It is the request of the Western Legislative Forestry Task Force 
that ICBEMP project should be terminated with no record of decision 
being approved, that financing of the project should cease, and all 
records, data and information be given to the Bureau of Land Management 
district managers and the National Forest supervisors. Federal lands 
within state and county boundaries must be co-managed, with local 
stakeholders having not just input but a vote in final decisions.
    Thank you for your attention.
                western legislative forestry task force
                            resolution 97-2
                            december 7, 1997
          interior columbia basin ecosystem management project
    WHEREAS, the President of the United States, by executive order, 
initiated Interior Columbia Basin Ecosystem Management Project (ICBEMP) 
and to create a scientifically sound, legally defensible ecosystem 
management plan, and,
    WHEREAS, ICBEMP was to be a broad-scale, 12-month project that 
would give general direction to public land managers for ecosystem 
management, but has become a touchdown, highly prescriptive set of 
management directives, and,
    WHEREAS, ICBEMP will directly affect management of 16 Bureau of 
Land Management districts and 30 national forests administered by USDA 
Forest Service, all located in western states, and,
    WHEREAS, ICBEMP covers 104 counties, 144 million acres (including 
72 million acres of private land) and will directly and indirectly 
affect the livelihoods of millions of citizen in the planning area, and
    WHEREAS, the citizens of western states have a direct interest in 
the management of public lands that produce payments in lieu of taxes 
that contribute significantly to funding of public schools and roads, 
and
    WHEREAS, the citizens of the United States and communities 
throughout the western states depend on the managed stewardship, 
sustained-yield, even flow production of goods and services from 
multiple-use management of public lands located in those states, and,
    WHEREAS, there is increasing demand within the United States and 
the world for renewable, recyclable goods and services including 
recreation, wildlife, fisheries, food, fiber, clean air, clean water, 
and
    WHEREAS, ICBEMP draft documents fail to adequately and truthfully 
disclose the economic, environment and social effects of implementation 
of ecosystem management practices embodied in the Draft EIS documents, 
and,
    WHEREAS, ICBEMP represents a top-down management paradigm which 
reduces or eliminates effective local input in natural resource 
management and environmental decision making, and,
    WHEREAS, ICBEMP has become a six-year, $35 million project, with no 
end in sight,
    NOW THEREFORE, BE IT RESOLVED: ICBEMP should be terminated with no 
Record of Decision being approved; the ecosystem management data 
developed by the project should be communicated to BLM district 
managers and National Forest supervisors for consideration of public 
input in statutorily scheduled environmental land and resource 
management plan revisions, and
    BE IT FURTHER RESOLVED, that the Western Legislative Forestry Task 
Force strongly supports natural resource planning and environmental 
management featuring site-specific management decisions made by local 
decision makers, local citizenry and parties directly and personally 
affected by environmental land and resource management decisions.
    Unanimously adopted by the Western Legislative Forestry Task Force 
at its meeting in Boise, Idaho.

                   IMPLEMENTING A RECORD OF DECISION

    Senator Gorton. Well, Bob, I can say that you expressed 
your views with great clarity. [Applause.]
     You expressed your views with great clarity. And we 
appreciate them.
    I would like to go back now to Mr. Pinkham, and ask you the 
question: Do you feel that this process should go through to a 
record of decision, and should be implemented in the way that 
is outlined by the Regional Forester?
    Mr. Pinkham. Senator Gorton, with the way that it is 
outlined, we would have to say no. We would only support it 
moving forward if we saw what we felt were some better 
guidelines on assuring that we would be able to rebuild 
harvestable populations of salmon. Then we would support it 
going forward.
    Senator Gorton. You do not think it leads to that at this 
point?
    Mr. Pinkham. As presently written; no, sir.
    Senator Gorton. Thank you.
    Mr. Mealey, I guess you have one advantage, from my notes 
here, that no one else has. You started out working for this 
project. Do I understand that correctly?
    Mr. Mealey. Senator, I was the Project Manager for the 
Upper Columbia Basin EIS at its beginning. I was in that 
position for 3 years.
    Senator Gorton. And when did you go to work for the State 
of Idaho?
    Mr. Mealey. January 1997.
    Senator Gorton. Where do you think--with your criticism of 
the process--where do you think it got lost? Where do you think 
it got off track?
    Mr. Mealey. Senator, this is very difficult for me. I need 
to tell you that it embodied my very passionate hopes and 
expectations. And I also want to say that the people who have 
continued in the project retain my deep affection and respect.
    Perhaps the best answer I could give to that question is 
probably why I left the project. And, essentially, I left the 
project because I became ineffective and I lost the confidence 
of the Executive Steering Committee. That is probably true 
because I became a disruptive influence.
    I had very vocal differences with the National Marine 
Fisheries Service, the Fish and Wildlife Service, and the 
Environmental Protection Agency over aquatic standards and 
guidelines, which I judged to be overly prescriptive, and their 
necessity was questionable in light of the science, the 
landscape-scale science. I was concerned about the effects of 
those standards and guidelines on our ability to meet the 
purpose and need, which was to restore ecosystems and support 
people.
    I was very concerned about the effects on an appropriate 
decision space for the alternatives, which meant you could 
achieve some balance. And in fact, I believe that alternative 
4, whose intent was aggressive restoration, was not obtainable 
with these overly prescriptive aquatic standards. And on those 
issues, as I said, there was significant disruption of our 
ability to proceed and a lack of harmony, and it was 
appropriate for me to leave.
    Senator Gorton. So, you do not feel that if we went ahead 
and finished the record of decision and implement it as the 
Forest Service recommends that, in fact, in the next decade we 
would reach those restoration goals?
    Mr. Mealey. Well, my concern, Senator--and I hope that I 
said so in my testimony--this is not about good people or bad 
people. It is about laws that are very ambiguous. Frankly--and 
I hope I do not sound like I have indicted the regulatory 
agencies--the laws that they have to administer--the Clean Air 
Act, the Endangered Species Act, the Clean Water Act--do not 
specify the degree of risk they should accept in the short 
term.
    It turns out that the science documented that we had broad 
landscape-scale risks, and many of them were long term. And the 
question is, can you construct a road across a stream that will 
have predictable short-term effects to forestall a predictable 
long-term effect? And the laws are not clear. And I think well-
intended regulatory folks would say, goodness, we cannot accept 
that short-term risk, even though it may be needed to forestall 
a longer-term risk of large-scale fire.
    And those are issues that are not clear in the laws. And it 
was extremely difficult, extremely difficult, to reconcile 
those differences. And, frankly, the laws did not help much.
    And so I would simply say that retaining balance, to try to 
assure that we provide integrity in aquatic systems, as well as 
integrity in forest and range systems, that restore those 
ecosystems and provide for people in a balanced way, simply 
became increasingly elusive as regulatory agencies who had a 
small piece of the pie--that is, to assure water integrity, a 
high certainty that endangered species would be protected--
insisted on those highly prescriptive, highly certain, if you 
will, standards, which essentially trumped the others. And that 
is why balance was unobtainable. And if the project got off 
track, in my own opinion, that is why.
    And I want to emphasize again it was not because of good 
people or bad people. It had to do with very mixed charges and 
responsibilities and laws that make it quite difficult to sort 
through those tough challenges. If I had been sitting there as 
a National Marine Fisheries Service representative, I am not so 
sure that I would not have been perhaps as aggressive as they, 
given the charter that they have.
    Senator Gorton. Ms. Jolly, is it the position of the State 
of Washington, through the Governor's office, that this process 
should go through the record of decision and should be 
implemented as has been outlined by the Forest Service?
    Ms. Jolly. I apparently am in a distinct minority here, 
because indeed it is the view of the State of Washington that 
the project should carry through to completion, to the issuance 
of a final EIS that will address many of the issues not 
appropriately yet addressed in the draft, and that a record of 
decision should be issued that will allow plan amendments, in 
consultation with the State and with localities and with 
tribes, so that indeed forest management and BLM management can 
move forward.
    Senator Gorton. And should be implemented in the way that 
the Forest Service recommends?
    Ms. Jolly. No; I do not think I would say that we would 
endorse the preferred alternative as it stands. I think a 
number of changes will be needed. And it is my hope that the 
Federal agencies will be consulting closely with all of us and 
with the other people you will be hearing from today in moving 
between the draft and the final EIS, so that their final record 
of decision is better than the preferred alternative displayed.
    Senator Gorton. All right. One more question. And I just 
want from each of you a quick answer, and then I am going to 
turn it over to Senator Craig.
    Leaving aside where we are with respect to the result at 
this point, do you feel that the State or the agency or the 
groups that you represent have been appropriately consulted in 
the process so far?
    Mr. Mealey. I think Governor Batt would feel that our 
prospects for consultation are improving, and he is satisfied 
that that will get better.
    Ms. Lapeyre. I would concur with Steve.
    Ms. Jolly. Yes; I think Washington State feels we have been 
given many opportunities and adequate opportunities for 
consultation during the process.
    Mr. Pinkham. Senator, actually, we are still going through 
some consultation processes. As Mr. Williams noted in his 
testimony earlier, members of the Executive Committee are 
meeting with different representatives of tribal governments to 
try to get the final issues hammered out that we have in the 
plan.
    Mr. Morton. And I would say an unequivocal no, that they 
have not. And this is based on the NEPA process, which Senator 
Craig brought up. It has not been addressed. When we asked at 
our legislative meeting with the proponents, Have you followed 
the NEPA process? They said, no. We said, Have you contacted 
all the counties on their plans? They said, no. We certainly 
could not be expected to contact all 100 or 104. We have done 
randomly. And this is a random thing. No; they have not 
appropriately contacted local entities.
    Senator Gorton. OK.
    Senator Craig.
    Senator Craig. Thank you very much, Mr. Chairman.
    Bob, the Western Legislative Task Force, how is it 
constituted?
    Mr. Morton. How is it composed?
    Senator Craig. Yes.
    Mr. Morton. It is composed of the legislators, selected by 
their leadership on both sides of the aisles, from the Western 
States. Currently, the most active ones are Alaska, Washington, 
Oregon, Idaho--who have I left out--California and Montana on 
occasion.
    Senator Craig. And it is bipartisan?
    Mr. Morton. It is bipartisan, yes, an equal number from 
each State as to parties.
    Senator Craig. And your statements and your presentations 
will be made a part of the record for this hearing. I thank 
you.
    Steve, you answered a question to Senator Gorton that is 
going to ask you. Because I think it is important for the 
record that you and I have had longstanding consultation over 
this effort from, actually, day one, when you felt it was a 
necessary and an appropriate approach toward resolving the 
issues at hand within the region. And it is important that the 
record show that Director Mealey and I had lengthy and ongoing 
conversation. As I became disenchanted, he remained not so and 
encouraged me not to become disenchanted until such time as he 
recognized what I think all of us were clearly recognizing, 
that problems were at hand.
    Steve, in relation to all of that, at one point I was very 
concerned when it appeared we were ready to see a publication 
of alternatives and they were pulled back. At that time I 
called the Chief of the Forest Service, Jack Thomas, because I 
was afraid that the Forest Service was losing control of their 
process. And he assured me that while he was the Chief of the 
Forest Service that would not happen, that the land management 
agencies would retain decisionmaking authority on the document, 
and ultimately decisionmaking authority on the public lands.
    Is the project presently constituted to maintain that 
commitment?
    Mr. Mealey. Well, Senator, first of all, I appreciate your 
acknowledgement of the long relationship we have had. And maybe 
I was too passionate an advocate for the project, because I was 
greatly concerned about the risk to forest health and their 
long-term effects for all the things that depend on forests. 
And I always appreciated your support in that, even when I was 
Forest Supervisor of the Boise Forest.
    Bob Williams, I think, made it quite clear about the way 
the authorities are structured within the Executive Steering 
Committee. And that is that the regional foresters and the 
Bureau of Land Management and the State directors would sign 
the records of decision. In that sense, I think the commitment 
that Chief Thomas made would be correct, in terms of 
technically how the decision would be structured.
    I think--and this is difficult for me--however, the way the 
Executive Steering Committee operates, on a collaborative 
basis, often reaching consensus about the contents of the 
alternatives that can be acceptable to the regulatory agencies, 
as well as the land management agencies, to reach a position 
where the regional foresters and State directors might be 
comfortable signing such a decision sort of makes the area 
gray, in terms of the overall influence on the final outcome.
    And now I well know the reasons for that. It is sort of pay 
now or pay later. Regulatory agencies can affect the decision 
in their development stage or affect it after a decision is 
made in the consultation processes. And I know that the intent 
here is well meaning.
    As far as Jack's commitment, though, that the decision 
would be made locally, I do not think that is--as opposed to 
being made in Washington, if you will, by assistant secretaries 
or whatever level there--I think his commitment would still be 
intact with the regional foresters and State directors signing 
the record of decision.
    Senator Craig. Well, Bob Williams' statement indicates that 
the MOU's with the regulatory agencies have not been completed. 
Won't these MOU's be where the rubber really meets the road?
    Mr. Mealey. Yes, Senator.
    Senator Craig. And the reason I ask you that question is 
because I think, in light of that, I am not sure any of us can 
say that Jack Ward Thomas' commitment will be sustained.
    Mr. Mealey. Well, Senator, I did say, at a technical level, 
the appearances would probably make him comfortable in terms of 
how things operate within that framework, though it gets 
somewhat gray.
    I will say this, too, now in a new job, as director of a 
fish and game department, I would say that the responsibility 
and the actual authority that States have in regulating fish 
and wildlife is acceleratingly minimal, if that is a useful 
term. I hope I did not coin a new one.
    But I still have to sort of wave my hand to get invited to 
meetings that affect fish and wildlife in the State of Idaho.
    Senator Craig. And that kind of atmosphere is in direct 
conflict with everything the Congress of the United States has 
intended and planned for over 200 years--of the States' 
authority to determine management of fish and wildlife.
    Be that as it may, Ms. Jolly, do you support, or does the 
State of Washington support, the current approach of signing 
the record of decision and simultaneously amending all 48 
Forest Service and BLM land management plans?
    Ms. Jolly. The State of Washington does support having a 
record of decision for the EIS.
    Senator Craig. But there are consequences to that record of 
decision.
    Ms. Jolly. Yes; and we do believe that the 74 BLM and 
Forest Service plans should be amended. But we do also believe 
that as the tiered analysis is done in each setting, at the 
local consultation and the local work with the residents, with 
the resource users, with the business communities in those 
locations, needs to proceed so that they are implemented on a 
site-by-site rather than ecosystemwide basis. That is, the idea 
of a tiered approach is that as you get down to the ground you 
are----
    Senator Craig. I am sorry for interrupting, Carol, but that 
is not what I asked. The plan is not that. The plan is----
    Ms. Jolly. Yes; the plan is a single----
    Senator Craig. I do not see consultation in that. I do see 
a process. But I do not see it in a way that really gets us to 
the level of concern that you and I are both concerned about. 
And that is that local community of interest and a variety of 
interests--some that Jaime has spoken to, and others--that 
really sensitize this stack of documents to local concerns, 
consistent and within the broader goal.
    Ms. Jolly. We are convinced, in the State of Washington, 
that this project and the plan that will result do not result 
in a one-size-fits-all outcome; that it sets objectives and it 
sets guidelines that have to then be implemented on a watershed 
and a landscape basis, incrementally; and that within that 
framework there does need to be consultation.
    Senator Craig. OK. Because I see a difference between an 
incremental approach and a simultaneous approach. And I agree 
with you on incrementalism as it relates to allowing a diverse 
stakeholder of interest to be a participant in the ultimate 
application of this.
    Ms. Jolly. The Federal land managers that we have been 
working with as this plan has been developed have assured us 
that the Okanogan National Forest and the Colville National 
Forest and the other forests within Washington State will not 
all wind up with the same watershed prescriptions with the same 
cutting regimens, with the same prescribed fire outcomes; that 
these will be determined forest by forest, as, in our view, 
they should be.
    Senator Craig. Thank you.
    Mr. Chairman, thank you very much.
    Senator Gorton. I want to thank all the members of this 
panel for enlightening testimony. And I will say to you, as we 
have to the rest, if there is any way in which you wish to 
supplement your testimony in the next few weeks to help us out 
we would appreciate it.
    Thank you very much for being with us today.
    Senator Craig. Thank you, all.
STATEMENT OF DALE WHITE, JUDGE, HARNEY COUNTY, OR, AND 
            CHAIR, EASTSIDE ECOSYSTEM COALITION OF 
            COUNTIES
    Senator Gorton. Our third panel are representatives of 
county commissioners from each of the four States: Mr. Kennedy, 
from Montana; Mr. Enneking, from Idaho; Ms. Frey, from 
Washington; and Mr. White, from Oregon.
    I understand the four of you may have worked together and 
may wish to speak in a different order than I called off your 
names. And if that is the case, you can set your own order.
    And, Mr. White, you wanted to go first, fine.
    Mr. White. Yes; thank you, Mr. Chairman.
    I am Eastside Ecosystem Coalition of Counties Chairman Dale 
White, County Judge of Harney County, OR.
    The EECC has been working with the Interior Columbia Basin 
Ecosystem Management Project since its inception. I will 
describe why we got involved and have stayed involved, and tell 
you why we are at an unfortunate sticking point in our 
relationship with the project. My colleagues will then speak 
about specific topics.
    Idaho County, ID, Commissioner George Enneking will discuss 
the resolution adopted by the Idaho Association of Counties, 
which the other States and counties have chosen not to adopt, 
and describe criteria to make the project's EIS acceptable to 
us.
    Missoula County, MT, Commissioner Michael Kennedy will 
discuss the need for appropriate investments and 
implementation.
    And Klickitat County, WA, Commissioner Joan Frey will 
discuss the reasons why we remain focused on this project.
    Counties organized themselves to participate in the project 
for several reasons. First, it is our rightful place to be at 
the table when the Federal Government begins to set policies 
for management of its lands within our counties. County 
government represents the local population and its concerns 
about the long-term health of the ecosystem.
    Second, we learned from the recent painful experience west 
of the Cascade Mountains. There was no broad-scale approach to 
difficult threatened species issues that extended across the 
boundaries of national forests and O&C lands. A Federal judge 
ordered the development of a broad-scale plan before activities 
could continue on these Federal lands.
    Third, we need resolution of interim directions that were 
supposed to be short-term, but continue even today--PACFISH, 
INFISH, and the Eastside screens. Among other effects, these 
top-down, one-size-fits-all prescriptions have basically shut 
down the harvest of Federal timber and devastated the economies 
of many of our counties, and have prevented some valuable win-
win restoration work.
    We have engaged actively and responsibly in the project, 
investing considerable time, expertise, resources, political 
capital, and absorbing some extremely negative feedback from 
certain interest groups.
    Why have we done this? In helping develop the purpose and 
need statement for the project, we were excited for five 
reasons:
    First, by the potential of legal defensibility of the 
project and removing land management decisions from the Federal 
courts; second, by long-term, community-based solutions to 
forest and rangeland restoration; third, by long-term 
predictable and sustainable supplies and products and services 
from Federal lands; and fourth, by active, adaptive management, 
which would make it less likely that the basin's ecosystems 
would unravel again; and, fifth, by replacing PACFISH, INFISH, 
and the Eastside screens with more effective site-specific 
management.
    We supported the selection of alternative 4 as the 
preferred alternative, with conditions, because its theme 
stated the widest range of values, with priority on health of 
the forest lands, rangelands and watersheds, and that healthy 
streams, wildlife populations and economic and social benefits 
will follow. Its call to aggressive, responsive, on-the-ground 
action, given the scientific assessment, is to us practical, 
realistic, and gives the basin a win-win opportunity.
    We have been concerned where the content of alternative 4 
moves away from its theme. This appears too often. But, 
unfortunately, a more fundamental problem has recently arisen 
that will cause the EECC to reconsider its relationship with 
the project. We are at a sticking point.
    As I mentioned, the Federal project was promised to us to 
be different--a regional solution based on scientific findings 
about regional ecosystems. This promise was broken in four ways 
by the moratorium on roadless areas proposed by the Forest 
Service.
    First, the project cannot succeed if it is overridden by a 
piecemeal approach toward Federal land management. The project 
is to resolve these very kinds of issues for the region--such 
as proper treatment of roadless areas and forest health.
    Second, this moratorium would be an edict applied 
nationwide regardless of local ecosystems. It is not based on 
science. It is based on politics.
    Third, this policy is not a regional solution. It is a 
national edict.
    And, fourth, this moratorium was proposed without any 
consultation whatsoever with county partners who have held this 
project together. Before its release, we asked to be included, 
but were not. Since its release, we have offered three 
productive alternatives to a moratorium.

                           Prepared Statement

    We hold the project staff and the regional executives in 
the highest regard. We believe that the Forest Service Chief 
Mike Dombeck is in a political box. The EECC has been the only 
partner at the table to consistently promote active management 
and community-based solutions. Nevertheless, if the moratorium 
is imposed, the EECC will find itself in an untenable position, 
one that we have sought very hard to avoid.
    I would ask Commissioner Enneking to continue, and I would 
be happy to answer any questions at the appropriate time, 
Senator.
    Senator Gorton. Thank you, Mr. White.
    [The statement follows:]
                    Prepared Statement of Dale White
    Mr. Chairman, members of the Senate subcommittees on Interior and 
Forests & Public Land Management, and other Members of Congress, thank 
you very much for the opportunity to present the perspective of the 
Eastside Ecosystem Coalition of Counties. I am EECC chairman Dale 
White, County Judge of Harney County, Oregon. The EECC has been working 
with the Interior Columbia Basin Ecosystem Management Project since its 
inception. I will describe why we got involved, and have stayed 
involved; and tell you why we are at an unfortunate sticking point in 
our relationship with the project.
    My colleagues will then speak about specific topics. Idaho County, 
Idaho, Commissioner George Enneking will describe criteria to make the 
project's EIS acceptable to us. Missoula County, Montana, Commissioner 
Michael Kennedy will discuss the need for appropriate investments in 
implementation. And Klickitat County, Washington, Commissioner Joan 
Frey will describe the reasons why we remain focused on the project.
    Counties organized themselves to participate in the project for 
several reasons. First, it is our rightful place to be at the table 
when the federal Government begins to set policies for management of 
its lands within our counties. County government represents the local 
population and its concerns about the long-term health of the 
ecosystem, the reasonable integration of uses on the landscape, the 
vitality of communities that are neighbors of federal lands, and the 
long-term partnership between counties and federal land management 
agencies.
    Second, we learned from the recent painful experience west of the 
Cascade mountains. There had keen no broad-scale approach to difficult 
threatened species issues that extended across boundaries of national 
forests and O&C lands. A Federal judge ordered the broad-scale plan 
before activities could continue on federal lands in western 
Washington, western Oregon, and northern California--the range of the 
spotted owl.
    Third, we needed resolution of interim directions that were suppose 
to be short-term, but continue even today--PACFISH, INFISH, and the 
Eastside screens. Among other effects, these top-down, one-size-fits-
all prescriptions have prevented some valuable win-win restoration 
work. The project was promised as a means of permitting treatment of 
the landscape in a way that made sense to the regional ecosystems.
    The state associations of counties of Washington, Oregon, Idaho, 
and Montana formed the EECC to represent local communities in the 
interior Columbia basin over the course of the project. It may well be 
that the EECC will continue.
    We have engaged actively and responsibly in the project--investing 
considerable time, expertise, resources, and political capital--and 
absorbing some extremely negative feedback from certain interest 
groups, the EECC is widely credited--or blamed--for saving the project 
from termination by the 104th Congress.
    Why have we done this?
    In helping to edit the purpose and need statement for the project. 
We were excited for five reasons:
    First, by the potential of legal defensibility of the project (and 
therefore no gridlock in the basin);
    Areas proposed by the forest service:
    First, the project cannot succeed if it is overridden by a piece-
meal approach toward federal land management. The project is to resolve 
these very kinds of issues for the region--such as proper treatment of 
roadless areas and forest health.
    Second, this moratorium would be an edict applied nationwide 
regardless of local ecosystems. It is not based on science; it is based 
on politics.
    Third, this policy is not a regional solution, it is national 
edict.
    And fourth, this moratorium was proposed without any consultation 
whatsoever with county partners who have held this project together. 
Before its release, we asked to be included but were not. Since its 
release, we have offered three productive alternatives to a moratorium.
    We hold project staff and the regional executives in the highest 
regard. And we believe that Forest Service Chief Mike Dombeck is in a 
political box. And the EECC has been the only partner at the table to 
consistently promote active management and community-based solutions. 
Nevertheless, if the moratorium is imposed, the EECC will find itself 
in an untenable position, one that we have sought very hard to avoid.
    I would ask Commissioner Enneking to continue--or if the Chair 
prefers, I can answer questions.
    Second, by long-term community-based solutions to forest and 
rangeland restoration;
    Third, by long-term predictable and sustainable supplies of 
products and services flowing from federal lands;
    Fourth, by active, adaptive management, which would make it less 
likely that the basin's ecosystems would unravel again;
    And fifth, by replacing PACFISH, INFISH, and the Eastside screens 
with more effective site-specific management.
    We supported the selection of alternative as the preferred 
alternative--with conditions--because its theme stated the widest range 
of values--that is, with priority on health of forestlands, rangelands, 
and watersheds that healthy streams, wildlife populations, and economic 
and social benefits will follow.
    Its call to aggressive, responsible on-the-ground action, given the 
scientific assessment, is to us practical, realistic, and gives the 
basin a win-win opportunity.
    We have been concerned where the content of alternative 4 moves 
away from its theme. This appears too often. Nevertheless, we have 
supported the process of the project, and so far have intended to stay 
with it until we give up hope of fixing the critical flaws.
    But, unfortunately, a more fundamental problem has recently arisen 
that will cause the EECC to reconsider its relationship with the 
project. We are at a sticking point.
    As I mentioned, this federal project was promised to us to be 
different--a regional solution based on scientific findings about 
regional ecosystems. This promise was broken in four ways.
                                 ______
                                 
                      Letter From Judge Dale White
                                                       May 1, 1998.
    Dear ICBEMP Executive Committee and Project Team:
    The Eastside Ecosystem Coalition of Counties is pleased to submit 
our comments to the Draft Environmental Impact Statements for the 
Eastside and Upper Columbia River Basin.
    We hope that our comments will be taken very seriously. We are 
convinced that they represent the best approach for long-term 
protection of all values of federal lands, as stated by the Propose and 
Need of the Project.
    If you have any questions about our comments, or need further 
information, please contact Gil Riddell at AOC, Lorna Jorgensen at IAC, 
or Bill Vogler at WSAC.
            Sincerely,
                                          Judge Dale White,
                                                 Harney County, OR,
                                                        EECC Chair.
      Interior Columbia Basin Ecosystem Management Project, Draft 
  Environmental Impact Statements for the Eastside and Upper Columbia 
River Basin, Comments of the Eastside Ecosystem Coalition of Counties, 
                              May 1, 1998
                                the eecc
    The Eastside Ecosystem Coalition of Counties, representing the 
state associations of counties of Washington, Oregon, Idaho, and 
Montana, has been involved with hands-on participation since the 
beginning of the Interior Columbia Basin Ecosystem Management Project 
(ICBEMP). The EECC has made significant investments in time, resources, 
and political capital toward making ICBEMP a viable project. Although 
strongly interested in the vitality of affected counties and 
communities, the EECC has also sought healthy and productive ecosystems 
over the long-term, sound site-specific management that can adapt to 
increasing knowledge of natural processes, significant reduction of the 
potential for catastrophic fires and other such events, a stable and 
reasonable supply of forest and public land products, and protection of 
employment opportunities, while being sensitive to private property 
rights. The EECC has sought win-win solutions for the region, which are 
good for the ecosystem and good for communities. In other words, the 
EECC wants clean water, clean air, healthy federal lands, vital 
communities, and a blossoming of federal/county relations.
    Members of the EECC are not experts on specialized issues, such as 
soil productivity and the like, so our comments will leave discussion 
of many of those issues to others. Members of the EECC are public 
policy leaders of our local jurisdictions. As county judges and 
commissioners, we set policy and implement it, and administer the day-
to-day details of government closest to the people. Through experience 
as well as training we can recognize clarity and lack of it, and 
procedures and plans that are do-able and those that are dubious. We 
have devoted our energies to try to make the work products of the 
ICBEMP clear, do-able, and understood by citizens of the region.
       general comments (purpose and need: preferred alternative
    The EECC has appreciated being able to work with federal agencies 
on the Project. And we have taken our responsibility seriously. We want 
to see active management take place to ensure healthy ecosystems. In 
that spirit of good faith, we offer these comments.
    Our original understanding of the outcomes sought by the ICBEMP was 
to assess ecosystems in the Basin using the best science, identify 
desired ranges of future conditions, state objectives to attain those 
ranges, and provide an array of means for federal unit managers to meet 
those objectives using the tools that make the most sense for that 
landscape. Knowing that natural systems are dynamic and not static, the 
EECC has strongly supported adaptive management with a strong component 
of monitoring, so that we can continue to learn about natural 
processes.
    In light of this understanding, the EECC helped ensure that the 
ICBEMP Purpose and Need statement achieved a balanced direction. The 
EECC believes that Purpose #2 (Support economic and/or social needs of 
people, cultures, and communities, and provide sustainable and 
predictable levels of products and services) holds the exciting 
potential for long-term, community-based solutions. And Purpose #5 
(Emphasize adaptive management over the long term) stated the on-the-
ground and monitored flexibility counties sought. Also Purpose #8 
(replace interim strategies) was keenly important to us.
    The EECC applauds the selection of Alternative 4 as the Preferred 
Alternative. While pleased with its selection, the EECC has 
conditionally supported its content because of concerns we stated that 
need to be addressed between the Draft and Final Environmental Impact 
Statements (EIS). We repeat those concerns here.
    The call of Alternative 4 to aggressive, responsible on-the-ground 
action, given the scientific assessment, is practical, realistic, and 
gives the Basin a win-win opportunity. The Theme of Alternative 4 best 
speaks to the widest range of values. We agree that with priority on 
health of forestlands, rangelands, and watersheds, healthy streams, 
wildlife populations, and economic and social benefits will follow. The 
EECC begins to have trouble, however, where the Objectives and 
Standards move Alternative 4 away from its Theme. An example of reason 
for our concern is at page 4-62: ``No alternative would have a high 
enough level of active restoration to reverse wildfire trends''.
    Because of the structure of procedures created for Alternative 4 
(and other Alternatives), budget implications loom intimidatingly 
large. Is Congress willing to pay for sub-basin review, ecosystem 
analysis at the watershed scale, forest plan revisions, access and 
travel management plans, analysis to replace the default standards, 
road condition/risk assessments, revising vegetation classifications, 
and monitoring? Are all of these needed for the legal sufficiency the 
ICBEMP promises?
    The EECC is pleased that the DEIS again states that regulation of 
private lands is not within the jurisdiction of the U.S. Forest Service 
or the Bureau of Land Management (see, e.g., ES p. 1-15). We suggest 
that the FEIS state that even more prominently, so as to help end the 
persistent confusion on that point.
                            management focus
    Federal land managers have been saddled with conflicting 
directions, and this DEIS is no exception. The EECC recommends that the 
ICBEMP direct the administrative units to define the emphasis or 
priority of management of each sub-basin, based on findings of the 
scientific assessment. That is, state the most important management 
outcomes or accomplishments for that sub-basin.
    This emphasis or focus would not be to the exclusion of other 
activities. Uses would continue to be integrated to the extent 
practicable. The management focus, however, would direct how conflicts 
in Objectives and Standards are to be resolved on-the-ground. It also 
would give managers public understanding and legal support for their 
activities. This could be particularly important with the Preferred 
Alternative, because of its call to aggressive action.
    The notion of a management focus is not without precedent in the 
DEIS. See page 4-181 [ES] and 4-164 [UC], which provides a focus to 
concentrate restoration within wildland/urban interface (a focus with 
which we disagree; see below).
                           too many standards
    Purpose No. 5 emphasizes adaptive management. Our understanding was 
that that involves stated objectives, implementation, and monitoring. 
It implies that at least on a pilot basis reasonable risks will be 
taken to reach the objective and to learn in the process. An aggressive 
emphasis on Standards violates Purpose #5.
    There are 166 Standards in the DEIS. Many constrict reasonable and 
monitored flexibility, work directly against the Theme, and clearly 
indicate a lack of trust in the abilities of professional field staff. 
If a Standard prohibits local adaptive management, the EECC recommends 
that they be removed, reworded, or recast as Objectives.
    Terms often used in the Standards indicate they are more 
appropriate as Objectives; they are prescriptive but vague, effectively 
operating as Objectives. See, e.g., ``minimize'' (HA-S20); 
``minimized'' (AQ-S18 & AQ-S24); ``where no practicable alternative'' 
(AQ-S19); ``should be avoided where practicable'' (AQ-S18); ``large 
trees'' (AQ-S7).
    The EECC recommends that the ICBEMP limit Standards to process, 
including collaboration, and to facilitate and implement analysis. 
Regarding process, the Standards should assure it is appropriately 
open, complete, efficient, and understood by governments, stakeholders, 
and the public. For example, intergovernmental collaboration is a 
critical feature throughout the DEIS. It gives grounding in, and a 
stake to, local communities. Two fine examples of process Standards are 
HU-S1 (memorandum of understanding required within two years) and A-S3 
(participation in implementation oversight). But collaboration needs to 
be efficient so that on-the-ground work can go forward. See, e.g., AQ-
S6--``timely opportunities shall be provided to intergovernmental 
partners''. This Standard needs more precision.
    Regarding facilitating and implementing proper analysis, efficiency 
again is important. Analysis cannot be permitted to block and 
unreasonably slow proper action. Analysis processes in the FEIS, 
including interagency consultation, must be focused, timely, and 
efficient.
    With the scientific assessment, Desired Ranges of Future 
Conditions, Objectives, and monitoring, the federal unit managers could 
potentially have the flexibility to develop new specific Standards that 
fit their ecosystems.
    For an illustration of the style the EECC recommends, see 
``Standards For Rangeland Health And Guidelines For Livestock Grazing 
Management For Public Lands Administered By The Bureau of Land 
Management In The States of Oregon And Washington, August 12, 1997'', 
approved by Interior Secretary Bruce Babbitt.
                               monitoring
    The EECC is convinced that the proper emphasis of this broad-scale 
project should not be on prescriptions but rather on providing 
guidance, monitoring and accountability. Let the on-the-ground 
professionals work under the science-based guidance of the ICBEMP, 
while refining and adjusting direction through monitoring.
    We are fully aware that monitoring is traditionally the first 
program to be cut when there are budget problems. For the ICBEMP that 
would be tragic. With the proper emphasis, monitoring is the very 
element that can move the EIS away from excessive numbers of Standards.
    Two of the Standards on monitoring and accountability need 
clarification. First, AM-S7 states that if the ICBEMP Objectives are 
not being met due to natural conditions or to processes or actions 
outside management control, ``new Objectives should be developed on the 
basis of new information''. How is this to be done?
    Second, A-S4--are the measurable Standards to be ``implemented'' or 
``adopted?'' Is this done at the unit plan level?
    Regarding baseline monitoring (Appendix 3-1 at page 227 [ES]), why 
limit conditions to those relatively unaffected by human activities? 
Some specific Objectives require using environments affected by humans, 
e.g., Human Uses.
              core concepts: ecological integrity & health
    The EECC is a little uneasy with two of the core concepts in the 
DEIS. ``Ecological integrity'' is difficult to define. Can the ICBEMP 
develop a clear ecological performance measurement or criteria to 
determine when it is attained or degraded? This may well become 
important for legal defensibility.
    Similarly, the core term ``health'' is used throughout the DEIS 
(see, e.g., AQ-04). Can you clarify how it will be measured 
objectively, e.g., by forest structure and composition?
                           tables and outputs
    The Purpose to provide sustainable and predictable levels of 
products and services will require consistent, aggressive restoration, 
as directed by the Theme of the Preferred Alternative, because there is 
no official allowable sales quantity and production is a by-product of 
restoration. Where Alternative Four moves away from its Theme, it moves 
away from the ICBEMP Purpose. This is highlighted at page 4-173, which 
states that Table 3-6 ``did not provide projections of timber volume 
outputs that could be interpreted as sustainable or predictable by 
conventional methods''. See also Table 4-54 at page 4-174. This begs 
the question of how to measure whether Purpose #2 is met, short of 
staying true to the Theme of the Preferred Alternative.
    The EECC is alarmed by the report of the Inland Empire Society of 
American Foresters (9/25/97) that the estimated percentage of forested 
land in Riparian Conservation Areas for Alternative Four is not 24 
percent (Table 4-55), but rather an average of 35 percent. This data 
conflict needs to be resolved.
    Moreover, the DEIS states at page 4-175 that the RCAs would ``in 
some cases render land between these areas inoperable''. At a minimum, 
crossings--under strictly controlled conditions--should be permitted 
for restoration and production.
    We are also alarmed by the report of the Oregon Society of American 
Foresters (12/97) that the per acre harvest volumes in Table 4-50 are 
too high, particularly in dry forest areas. They find that very few dry 
forests have seven thousand board feet (MBF) per acre standing, much 
less removable. They estimate that current restoration activities will 
produce in the range of one to three MBF/acre. This data conflict must 
be resolved.
    Regarding cost of implementation, Table 4-65 sells the Preferred 
Alternative short. Its stated cost of over $118 million is imposing, 
with grave budget implications. A more accurate table would net out the 
savings from wildfire suppression no longer needed and include 
ecosystem values gained and risk factors reduced. Not only would this 
be more accurate, but it also emphasizes the need to be true to the 
Theme of aggressive restoration by reducing fuel loads through thinning 
and other treatments. The more this is done, the more costs are saved.
    Table 4-51 does not include commercial thinning or other harvest as 
a means to restore forests. With the acknowledged increase of 
catastrophic fires, why eliminate an efficient, environmentally sound 
tool of fuels management, particularly given the Theme of Alternative 
Four and Purpose #2?
                            sub-basin review
    From the beginning, the EECC has understood Sub-Basin Review to be 
a brief, tightly controlled validation of existing data, as a means to 
tier down to more fine-scale activities. Indeed, EM-03 states that it 
is a two- to three-week process.
    Reviewing the Objectives and Standards causes us to doubt our 
understanding.
    Even setting aside the very real budget constraints, Sub-Basin 
Review seems exceedingly difficult to deliver and assumes a greater 
order of importance. With use of existing information from various 
sources, data inconsistencies inevitably will confound aggregation and 
tiering. Indeed, how can the reviewer validate all the disparate 
information used? Can this really be accomplished in two to three 
weeks?
    This question is critical, because EM-S1 prohibits management where 
Sub-Basin Review is scheduled in the current year. That is, at least 
one-third of the landscape is off-limits to active restoration during 
the first three years. Has this Standard ignored the duties that must 
go on in the units, e.g., wildfire control, livestock grazing, and 
recreation?
    With its linkage to other functions, Sub-Basin Review assumes a 
greater importance than was our understanding. It is linked to 
identifying potential project opportunities (EM-S1); prioritizing 
allotment management plans and grazing permit revisions (AQ-S11); minor 
recreation construction (AQ-S24); state priority lists for Water 
Quality Limited Segments (AQ-S55); Road Condition/Risk Assessment (RM-
S3); and minor road construction at stream crossings (RM-S10).
    The EECC needs clarification as to the feasibility and importance 
of Sub-Basin Review. Are there other more efficient ways to tier down 
the broad-scale data? Is it more properly a function of the State 
Director and Regional Forester Offices? Does the unit plan, instead of 
Sub-Basin Review, provide a better context for Ecosystem Analysis at 
the Watershed Scale, given its data and information at the appropriate 
scale?
    Question. In EM-S3, should reference to ``local government'' be 
instead to county governments?
               ecosystem analysis at the watershed scale
    The EECC has always expressed deep concern about overkill of 
analysis. The DEIS indicates that the fear is well-founded.
    Ecosystem Analysis at the Watershed Scale (EAWS) has assumed 
critical importance in the DEIS. It is required to alter default 
directions of Appendix 3-4 [ES], mature/old growth structure stands 
(HA-S6), snag levels (HA-S7), and downed wood (HA-S8). That EAWS is 
required before project activity where there are species proposed for 
listing under the Endangered Species Act or their habitat (EM-S8), 
makes it critical that if this process is in the FEIS, it must be 
efficient and clearly understood by field personnel and consulting 
agencies. The EECC urges a complete, efficient, and clear set of 
directions for EAWS, if it is to be retained in the EIS. Also clarify 
that EAWS that has already been done can be used.
    The concept of EAWS raises a number of important questions. How 
will the inevitable budget constraints be handled so that all the 
Purposes of the ICBEMP will be realized in the short-term? Why is site-
specific NEPA documentation not adequate to make at least modest 
changes to the Riparian Management Objectives (RMO) and Riparian 
Conservation Areas (RCA) (EM-S13)? Will all units have adequate mapping 
on the watershed scale to make specific RMO or RCA recommendations by 
EAWS? RMOs and RCAs are site-specific and should be adjusted according 
to site-specific information. The level of detail expected from an EAWS 
to accomplish this site-specific Standard is unrealistic and could be 
too expensive to complete.
                         terrestrial strategies
    The EIS should also direct maintenance and promotion of desirable 
``non-native'' plant species (TS-01).
    The DEIS section on ``Rangelands'' is well structured, with a 
predominance of Objectives and a minimum of Standards.
    See also Fire, below.
                           aquatics/rcas/rmos
    The EECC is troubled by the approach of the DEIS toward riparian 
areas and confused by the scientific findings on which it is based. If 
active management is the best way to achieve ecosystem resiliency and 
integrity, why is it said that the risk of watershed degradation is 
directly related to the amount of management activity? For example, at 
``Summary of Key Effects and Conclusions for Aquatic Systems'': 
``Alternative 4, with its higher activity levels, could pose greater 
short-term risks to aquatic ecosystems than would the slower activity 
rates and amounts of Alternative 6 and the restrictive and passive 
approach of Alternative 7 * * *'' See also ``Cumulative Effects'' at 
page 4-154, col. 2, para. 1 [ES]; and EC-3, p. 3-189 [ES]. Does this 
conclusion consider all kinds of management activity, including 
restoration and strictly controlled and monitored activities? Is there 
not a linkage between the health of the uplands and that of the 
riparian area? We are not scientists, but this linkage makes common 
sense.
    The language of AQ-O10 is excellent and should not be eroded by 
one-size-fits-all restrictions: ``Manage riparian vegetation to restore 
and maintain structure, age, and composition consistent with site 
potential.'' And AQ-G39 (App. 3-2, p. 267 [ES]; App. H. p. 240 [UC]) 
acknowledges, at least with respect to Category 3 Sub-Basins, the need 
for management to reduce threats to riparian-dependent species due to 
natural disturbances outside natural ranges of variability.
    The EECC strongly encourages that the FEIS put emphasis on 
monitoring and efficient and streamlined consultation, rather than 
potentially long-term (given budget constraints), one-size-fits-all, 
default prescriptions. Especially considering the conflicting data 
regarding the sweep of RCAs (see, ``Tables and Outputs'' above), these 
prescriptions could threaten ICBEMP Purposes # 2, 5, & 8, and maybe 
others.
    We also have comments on specific Standards and Objectives. AQ-04--
clarify ``connectivity''. Can it be adequately analyzed at the 
watershed scale?
    AQ-S6 can be read to preclude any use of RCAs. Desirable 
activities, such as a temporary stream crossing to address forest 
recovery issues or an off-stream water facility for livestock, may not 
be allowed. If Alternative 4 directs active management, activities that 
contribute to ecosystem health in the long-term need to be permitted.
    AQ-S8 requires vegetation management in Zone 2 to move stands 
toward mature and old forest conditions. Is this realistic for all 
riparian areas? The EECC recommends instead that management strives for 
stand structure and variation that are sustainable under the historic 
range of variability.
    AQ-S11 would use Sub-Basin Reviews for a purpose not appropriate to 
a brief validation process.
    AQ-S12 seems to indicate the need for expensive data gathering to 
measure upward trend (``[RMOs] have either been attained or there is a 
measurable upward trend''). Should be clarified to require only that 
monitoring indicates movement toward proper functioning conditions.
    AQ-S13 and S14 could preclude grazing in vast areas of national 
forests. Can AQ-S13 (livestock handling to obtain RMOs) be implemented 
without a herder always present? Should it be limited to salting 
grounds and loading facilities? Livestock needs to be watered. 
``Trailing, bedding, and watering'' should be deleted. In S14, ``or 
closed'' should be deleted so that facilities will be relocated. The 
FEIS needs to give users of the land options where possible to continue 
their livelihoods.
    AQ-S24 needs to be clarified that a recreation facility ``to be 
constructed'' be located outside of RCAs if it will have adverse 
effects. Here again Sub-Basin Review seems to be used inappropriately.
    AQ-S26 (recreation facilities inside RCAs) and AQ-S27 (interpretive 
facilities inside RCAs) could require relocation or closing of water 
use facilities. Rather than a standard of adverse affects that ``cannot 
be avoided'', the EECC recommends ``cannot be mitigated''.
                                habitat
    HA-S6 provides default standards for forest stands. Should the EIS 
specify landscape patterns and sizes across the Basin? Is this 
appropriate for this scale?
    HA-S20 and HA-S21 seek to minimize conflicts between carnivores and 
livestock. Clarify how this is to be done. Provide alternatives in 
addition to eliminating livestock.
                                  fire
    Fire suppression and fuels management are treated together, 
beginning at ``Aquatic Standards--Fire Suppression/Fuels Management''. 
These are two separate concepts with different effects, goals, and 
activities. They should be separated.
    The Forest Service has reported dangerous fuel loading on their 
lands. Catastrophic fire threatens fish and wildlife. TS-02 states the 
sound objective to use prescribed fire. Yet, while other sections of 
the DEIS have specific Standards that go beyond the intent of a broad-
scale plan, this Objective offers no direction on what is expected. 
Moreover, as stated above under ``Tables and Outputs'' and ``Aquatics/
RCAs/RMOs'', the DEIS discourages many appropriate and strictly 
controlled treatments for fuel management. See, e.g., AQ-S29 (minimize 
disturbances of riparian ground cover and vegetation); Table 4-51 
(commercial thinning or other harvesting not listed as a means to 
reduce stand density and fuel loading); TS-G18, Appendix 3-2 [ES] and 
Appendix H [UC] (Guideline for thinning rather than fire is limited to 
mountain mahogany communities); and ``Cumulative Effects'' 
(``Generally, the greatest short-term improvement in threatened and 
endangered and native fish distribution and status on federal lands 
would occur under Alternatives 6 and 7, mainly due to greater riparian 
protection measures and lower rate of land disturbance''). The severe 
threat of catastrophic fire is ignored.
    Regarding specific Standards, PE-S4 lists eight key points of 
analysis for use of prescribed fire. Can some of this be done at the 
plan level rather than with each project NEPA document?
    TS-S4 requires resting burned areas from grazing until monitoring 
data indicates recovery. This seems to be a disincentive to the 
permittee to become a partner in the prescribed burn. It directly 
affects the permittee's livelihood, and the wording is too subjective 
to be helpful. Can the site-specific planning for a particular burn 
address how it will be done and its potential effects? The affect of 
fires on the landscape can vary, so treatment should be based on what 
has happened on the specific site. In addition, livestock grazing can 
be used to decrease competing vegetation.
                        road management/density
    RM-03 is well written: ``[Reduce] road density in areas where roads 
have been demonstrated to have an adverse effect'' (emphasis added). 
This indicates that measurement of density alone does not tell the 
story. Road quality, location, and maintenance are of at least equal 
importance as factors. Standards that stray from this objective should 
be rewritten to conform to it.
    RM-S3 inappropriately ties Sub-Basin Review to road assessment.
    RM-S6 refers to ``habitat effectiveness ratings''. Is this term 
defined?
    RM-S7 directs an exorbitantly expensive and monumental task, which 
could apply to most existing culverts and bridges. Directions for 
accomplishing this goal should be put in context of all the other 
duties to be performed on the landscape.
    RM-S8 inappropriately moves away from road-related effects as the 
measurement. There could be potential conflicts in collaboration if 
local decisions to leave important roads open prevent federal managers 
from meeting density requirements. Effective active management needs 
roads.
    RM-S13 is unrealistic. Rather than ``prevent sediment delivery'', 
it should read ``minimize sediment delivery''.
                community-based solutions and human uses
    The EECC disagrees strongly with the focus stated at pages 4-181 
[ES] and 4-164 [UC] to concentrate restoration investments within the 
wildland/urban interface, which generally is highly resilient, rather 
than within economically vulnerable areas. Job-producing restoration 
activities should receive priority in economically vulnerable counties 
and communities. Moreover, Guideline HU-G24, App. 3-2, p. 272 [ES] and 
App. H. p. 246 [UC], should be broadened to apply to all Alternatives.
    In addition, the EECC suggests the following Standards, which would 
enhance opportunities for community-based solutions to changes in 
management of federal lands. Because these items have been overlooked 
in the DEIS and because they will apply consistently across the Basin 
irrespective of other aspects of the ecosystem, the EECC believes that 
these are very appropriate as Standards.
    1. When at all practicable, the administrative unit shall contract 
for restoration work. Contracts shall be structured in ways that 
facilitate opportunities for local individuals and businesses to be 
competitive in their bids. Contract bid criteria shall be designed to 
support development of local expertise and experience in the labor 
pool, to sustain local business opportunities in restoration work, and 
to utilize as appropriate locally owned and operated equipment. The 
restoration program shall be structured to ensure, to the extent 
practicable, predictability of future bid opportunities to sustain a 
local work force and local businesses. This may mean, for example, 
bundling of work (e.g., combining into one contract a variety of work 
such as noxious weed removal, stream restoration, and thinning that 
relates to a specific geographic area); service contracts; an 
appropriate mix of small and large contracts to permit a variety of 
local businesses to compete; and training of local residents in the 
skills needed for restoration work.
    2. The administrative unit shall work with communities or 
geographic areas that are dependent on production of goods and services 
from federal lands in support of their efforts to enhance economic 
diversity and resiliency and local economic competitiveness.
    3. The administrative unit shall use a variety of programs 
available to the National Forest and BLM district for economic 
diversification, community development, and assistance in support of 
the communities' goals. Personnel shall be made available to assist 
communities, upon request, with the intent of building community skills 
and capabilities.
    4. The administrative unit shall provide facilities for community-
based groups to meet, within the constraints imposed by space and 
security.
    5. The administrative unit shall foster compatibility of land uses 
and management strategies with local community development goals 
through timely and frequent collaboration with local entities.
    Regarding TI-S7, clarify the meaning of ``habitat conditions 
capable of supporting harvestable resources''. Does this put an undue 
burden of fish resources on the Forest Service and Bureau of Land 
Management? Consider including an historical perspective for specific 
waterways, so that if there has been no fish present for an extended 
period and may never be again, the requirements for habitat conditions 
will be adjusted accordingly.
       economic and social conditions of communities (supplement)
    The EECC is pleased that the Executive Steering Committee agreed to 
our request that the socio-economic sections of the DEIS be reviewed, 
that there be further study, and that a supplemental report be 
published more accurately characterizing economic and social conditions 
of communities in the region.
    While we are elected community leaders, and not professional 
economists, we agreed with the Committee that the socio-economic 
sections in the DEIS did not give a fully accurate or realistic picture 
of the current condition of many Basin communities or the likely 
potential effects on these communities of significant changes in 
federal land management policies.
    Among the items in the DEIS that we agreed were misleading or 
incomplete were Tables 4-50 and 4-57. Table 4-50 used different means 
of measuring annual monetary benefits of goods and services from 
recreation than it did for livestock and timber. This table was 
intended to compare the different Alternatives to each other with 
respect to each of these economic activities. The problem is that the 
table forces a comparison of the three activities, even though methods 
of measurement were widely different.
    Table 4-57 used different measurements for job generation for 
recreation, on the one hand, and wood products, restoration, and 
ranching, on the other. It was intended to illustrate the effects on 
each sector separately of the seven Alternatives, but has been seen--
not surprisingly--as a comparison of the value of recreation versus 
other uses. As such, neither table comports with our experience and 
knowledge of our communities.
    We note that while there was agreement that a socio-economic 
supplement be prepared, this supplement does not include two tasks 
agreed to be completed. First, the supplement was to explore other 
methods of measurement to give a realistic picture of recreation 
employment in the Basin. The second task is presentation of tables that 
display income associated with various jobs in the region, in 
particular between recreation jobs and traditional employment 
opportunities.
    The EECC urges that for the FEIS these two tasks be completed and 
Tables 4-50 and 4-57 be deleted or corrected and misleading (and 
inflated) potential economic effects of recreation be corrected to 
provide a more accurate comparison among economic activities.
    Nevertheless, the supplement is a clear and important improvement 
over the original DEIS, for which the Project Team deserves praise.
    The supplement reflects some of what we know: Compared to the 
nation, this region is specialized in several industries, including 
forest products, ranching, and agriculture; and that within this 
specialized region, there are communities (some isolated, some not) 
even more specialized. The supplement does a good job of sharpening the 
focus on communities at risk when federal land management policies 
change. It confirms the general finding of the DEIS that one-third of 
the population is located in two-thirds of the counties, many of which 
are at the greatest risk due to specialization in multiple areas of 
employment most dependent on federal lands.
    The EECC notes, however, some surprising anomalies in the findings 
regarding specific counties, which will cause concern about the 
credibility of the methods used in the supplement. For example, Lincoln 
County, Montana (at Supp. p. 55), shows the bedroom community of 
Rexford as ``very high'' in agricultural services, while the 
agriculture center of Eureka, with its fertile Tobacco Valley, is rated 
``none''. Further, Eureka has had the most development activity in the 
county, yet is rated as ``none'' under construction and inappropriately 
rated lower than Troy.
    The EECC offers two suggestions to sharpen the analysis further. 
Our suggestions may also resolve at least some of the anomalies in your 
findings. First, for analysis of specialization of communities, use the 
nation rather than the Bureau of Economic Analysis regions as the basis 
of comparison. As pointed out by Arthur Ayre, Economist for the State 
of Oregon Economic Development Department, this analysis will permit 
comparisons between every community in the Basin, because all will be 
measured against the same national economy rather than against varying 
regional economies. Moreover, this will permit comparisons between a 
community and its BEA region, as well as a look at how the community's 
production in each industry compares to the most likely level of 
consumption in each industry. The latter point is important, because 
under the analysis of the supplement, if a community is specialized in 
an industry to the same degree as its BEA region, its location quotient 
would be 1.0. This LQ could imply that there is no net export or import 
of the products of that industry, even though we know that the 
community is specialized and an exporter. A glaring example of how an 
LQ can work this way to mislead appears to be Walla Walla, WA (Supp. p. 
61). Agriculture is the dominant industry, yet that is not reflected in 
Table 1-3.
    The second suggestion, also from Mr. Ayre, is to determine the 
economic importance of an industry by gauging the size of each 
community's export-oriented economic base and the percentage of this 
base that an industry contributes. This would further sharpen the 
socio-economic picture, because two industries with the same location 
quotient may not be equally important to the economic base. For 
example, a large industry with a lower LQ can be more important than a 
smaller industry with a higher LQ. Again, we wonder whether the 
agriculture industry in Walla Walla, WA, illustrates this example.
    The EECC recognizes that the ICBEMP is a broad-scale project, which 
may make this second suggestion unfeasible. If the data can be obtained 
without great difficulty, however, it may well help to satisfy Project 
Purpose #2. Short of that, the EECC strongly recommends a clear 
explanation of instances of what would appear to non-economists as 
anomalies.
STATEMENT OF GEORGE ENNEKING, COMMISSIONER, IDAHO 
            COUNTY, COTTONWOOD, ID, AND CHAIR, PUBLIC 
            LANDS COMMITTEE, IDAHO ASSOCIATION OF 
            COUNTIES
    Senator Gorton. Yes, Mr. Enneking.
    Mr. Enneking. Thank you, Mr. Chairman, Senator Craig.
    I am George Enneking. I am chairman of the Public Lands 
Committee for the Idaho Association of Counties. I want to 
thank you for the opportunity to testify here regarding ICBEMP 
today.
    The counties came into this project seeking healthy and 
productive ecosystems over the long term, sound site-specific 
management that can adapt, significant reduction of potential 
for catastrophic fires and other such events, a stable and 
reasonable supply of forest and public land products, 
employment opportunities while being sensitive to private 
property rights. In our view, the project did not meet these 
criteria.
    Because the project did not meet the counties' criteria, 
the Idaho Association of Counties Public Lands Committee 
unanimously passed a resolution in February, calling for the 
termination of the project with no record of decision. A copy 
of the resolution is attached. In addition, the IAC body also 
passed a resolution calling for the termination of the project.
    Although the Public Lands Committee passed the resolution, 
they recognized that it was important for Idaho counties to 
remain involved in the Eastside Coalition of Counties, and a 
motion was made to that effect. Idaho counties want to be 
involved with other counties in the Pacific Northwest not only 
in this project but for other issues that affect the counties.
    There are some reasons why IAC took that position. The 
project's draft environmental impact statement falls short in 
many areas. One of the most important areas is the stated 
needs. The plan has two stated needs. No. 1, restoration and 
maintenance of long-term ecosystem health and ecological 
integrity. And, No. 2, supporting the economic and social needs 
of people, cultures, and communities, and providing sustainable 
and predictable levels of products and services from the Forest 
Service and BLM administered lands.
    I get tongue tied on these big words that came out of this 
project. I have to apologize for that.
    Although the project team has been making more of an effort 
to focus on the human need, the draft needs go further, so that 
there is an equal treatment of the landscape and the human 
element.
    Sound, site-specific management that can adapt is 
problematic in the current draft. Many of the standards give 
site-specific direction that takes the one-size-fits-all 
approach. Management options, using the best information 
available, needs to be left to line managers.
    The draft also limits the flexibility of land managers to 
adapt to changing conditions, and indicates a lack of trust in 
the abilities of professional staff. This may be due to the 
restrictive standards that the regulatory agencies want to 
place on land management agencies. Many of the standards that 
we find unworkable were put in place by regulatory agencies, 
and appear not only in the draft EIS but also in the National 
Marine Fisheries Service recommendations for essential fish 
habitat.
    I think this is very important. A determination needs to be 
made as to who is responsible for managing Federal lands before 
any rational decisions can be made concerning national 
resources in the basin. Should the agencies manage it or should 
the regulatory agencies? And I think we need to make a 
distinction.
    The draft has very heavy emphasis on analysis prior to 
actions being taken. Analysis is an important aspect, but the 
health and productivity of lands should be of paramount 
importance. The amount of analysis should be limited so the 
actions can take place on the ground.
    Another problem with the project as a whole is that the 
project that was supposed to focus on an ecosystem focused on 
anadromous fish, and then built a plan around the fish. It is 
the IAC's contention that the plan will collapse because it 
failed to build on all the essential elements of an ecosystem.
    The Idaho Association of Counties and the EECC is seeking 
science-based, bottom-up, on-the-ground management, which we 
consider less risky than a one-size-fits-all, top-down 
management.
    There have been some positive outcomes from the counties' 
involvement in this project. One is that alternatives 3 through 
7 say direct involvement with State, county, and tribal 
governments will be used in planning, decisionmaking, and 
implementation of programs. This important concept of including 
all those who live in the area and have a stake in the health 
of the land is an important element that must be part of any 
natural resources decision.

                           Prepared Statement

    Another positive outcome is that there is a realization 
that counties represent their communities, not just special 
interests, and are making decisions that are in the best 
interest of their communities.
    Once again, thank you for this opportunity. And I would ask 
Commissioner Kennedy to continue, if that is OK, sir.
    Senator Gorton. Yes; thank you.
    [The statement follows:]
                 Prepared Statement of George Enneking
    Mr. Chairman, Members of the Senate Energy and Natural Resources 
and Appropriations Committees, and other members of Congress, thank you 
very much for the opportunity to testify regarding the Interior 
Columbia Ecosystem Management Project (The Project).
    Counties came into the project seeking healthy and productive 
ecosystems over the long-term, sound site-specific management that can 
adapt, significant reduction of the potential for catastrophic fires 
and other such events, a stable and reasonable supply of forest and 
public land products, employment opportunities while being sensitive to 
private property rights. In our view, the project did not meet these 
criteria.
    Because the project did not meet the counties criteria, the Idaho 
Association of Counties (IAC) Public Lands Committee unanimously passed 
a resolution in February calling for termination of the project with no 
record of decision. A copy of the resolution is attached. In addition, 
the IAC body also passed the resolution calling for termination of the 
project.
    Although the public lands committee passed the resolution, they 
recognized that it was important for Idaho counties to remain involved 
in the eastside ecosystem coalition of counties and a motion to that 
effect was made. Idaho counties want to be involved with other counties 
in the Pacific Northwest not only in this project but in other issues 
that affect our counties.
    The project's draft environmental impact statement falls short in 
many areas. One of the most important areas is in the stated needs. The 
plan has two stated needs:
    1. Restoration and Maintenance of Long-Term Ecosystem Health and 
Ecological Integrity and
    2. Supporting the economic and/or social needs of people, cultures, 
and communities, and providing sustainable and predictable levels of 
products and services from forest service and BLM administered lands.
    Although, the project team has been making more of an effort to 
focus on the human need, the draft needs to go further so that there is 
equal treatment of the landscape and the human element.
    Sound site specific management that can adapt is problematic in the 
current draft. Many of the standards give site-specific direction that 
takes the ``one size fits all approach.'' Management options, using the 
best information available, need to be left to line managers.
    The draft also limits the flexibility of land managers to adapt to 
changing conditions and indicates a lack of trust in the abilities of 
professional staff. This may be due to the restrictive standards that 
the regulatory agencies want to place on the land management agencies. 
Many of the standards that we find unworkable were put in place by the 
regulatory agencies and appear not only in the draft EIS but also in 
the national marine fisheries service recommendations for essential 
fish habitat. A determination needs to be made as to who is responsible 
for managing the federal lands before any rationale decisions can be 
made concerning natural resources in the basin.
    The draft has a heavy emphasis on analysis prior to actions being 
taken. Analysis is an important aspect but the health and productivity 
of the land should be of paramount importance. The amount of analysis 
should be limited so that actions can take place on the ground.
    Another problem with the project as a whole is that a project that 
was supposed to focus on the ecosystem focused on anadromous fish and 
then built a plan around the fish. It is the IAC's contention that the 
plan will collapse because it failed to build on all the essential 
elements of the ecosystem.
    The IAC and the EECC is seeking science-based, bottom-up, on-the-
ground management, which we consider less risky than one size-fits-all, 
top-down management.
    There have been some positive outcomes from counties involvement in 
this project. One is that alternatives 3 through 7 say ``direct 
involvement with state, county, and tribal governments will be used in 
planning, decision-making, and implementation of programs.'' This 
important concept of including those who live in the area and have a 
stake in the health of the land is an important element that must be a 
part of any natural resource decisions. Another positive outcome is 
that there is a realization that counties represent their communities, 
not just special interests, and are making decisions that are in the 
best interest of their communities.
    Once again, thank you for this opportunity. I would ask 
Commissioner Kennedy to continue, or if the chair prefers, I can answer 
any questions.
              iac natural resources and land use commitiee
Resolution 1
    Whereas, the Interior Columbia River Basin Ecosystem Management 
Project (ICBEMP) was to be a broad scale project that would give 
general direction to public land managers for ecosystem management, and
    Whereas, the draft Environment Impact Statements (DEIS) offer a 
prescriptive set of management directives that if modified could lead 
to a mutually agreeable record of decision, and,
    Whereas, Idaho counties were promised that this Project would be a 
collaborative effort, and
    Whereas, Idaho counties have been participating in good faith since 
the beginning of this Project, and
    Whereas, the recent roadless policy proposed by the Administration 
indicates there is no interest in a collaborative effort, and
    Whereas, recent actions indicate a reduction or elimination of 
local input in natural resource management environmental decision-
making, and,
    Whereas, Idaho Counties are concerned about forest health and want 
to see land management activities take place on the ground to increase 
forest health and decrease the threat of high intensity forest fire, 
and
    Whereas, the health of our forests is being sacrificed for more and 
more analysis, and
    Whereas, most Forest Service and BLM employees in the West 
understand land management issues and are willing to work with local 
officials in formulating solutions; and Therefore, be it
    Resolved, That the Natural Resources and Land Use Committee calls 
for a termination of the Interior Columbia River Basin Ecosystem 
Management Project with no Record of Decision being issued. Be it 
further
    Resolved, That BLM district managers and National Forest 
supervisors begin the process of amending their land management plans 
and begin actively managing the land they were entrusted to manage in 
consultation with local officials as required by current federal law.
    ADOPTED THIS 12TH DAY OF FEBRUARY, 1998
    RESOLUTION--
    Whereas, in July, 1993, the President of the United States directed 
the United States Forest Service and the Bureau of Land Management to 
develop an ecosystem-based management strategy for lands administered 
by those agencies within the Upper Columbia River Basin, and
    Whereas, no congressional authority or appropriation of funds 
exists for this on-going Interior Columbia Basin Ecosystem Management 
Project (ICBEMP) and there is no statutory prescription or definition 
for ``ecosystem management,'' and
    Whereas, the people of Idaho County will be directly and indirectly 
affected by the proposed Upper Columbia River Basin plan, and
    Whereas, the people of Idaho County rely and depend upon good 
stewardship, sustained-yield, the even flow of production of goods and 
services from multiple-use management of the public lands lying in and 
adjacent to Idaho County, and
    Whereas, ICBEMP draft documents fail to adequately and truthfully 
disclose the economic, environmental and social effects of 
implementation of ecosystem management practices set forth in the Draft 
EIS documents, and
    Whereas, the implementation of the proposed preferred management 
alternative (alternative 4) is unrealistic in terms of costs of 
implementation and its ability to restore forest health, and
    Whereas, ICBEMP attempts to force broad-scale regulations upon 
local decision makers and effectively eliminates local concerns and 
input for natural resource management, and
    Whereas, ICBEMP became a $35 million sinkhole of taxpayer money 
with no apparent termination date, now therefore, is it
    Resolved, The ICBEMP should be terminated and that no Record of 
Decision be issued. The scientific data developed by the project should 
be provided to local land managers for consideration in land and 
resource management plan revisions as are required; of the various 
national forests and BLM districts; be it further
    Resolved, That Idaho County supports natural resource management 
and planning that allows for site-specific management decisions made by 
local decision makers, local citizens and parties directly and 
personally affected by land and resource management decision.
    Unanimously adopted by the Idaho County Board of Commissioners this 
4th day of May 1998.
STATEMENT OF MICHAEL KENNEDY, COMMISSIONER, MISSOULA 
            COUNTY, MISSOULA, MT, AND MEMBER, EASTSIDE 
            ECOSYSTEM COALITION OF COUNTIES
    Senator Gorton. Commissioner Kennedy.
    Mr. Kennedy. Senator Gorton, nice to see you again. Senator 
Craig, thank you very much for this opportunity.
    Before I begin, I would like to acknowledge to you and also 
to Carol Jolly that she is not alone. I am a proponent of this 
project.
    As a member of the Eastside Coalition of Counties for the 
past 3\1/2\ years, I have become familiar with the project 
enough to discuss all aspects of it, and to reach an informed 
opinion about its value and its prospects for success. Without 
recounting the remarkable efforts by countless agency staff, 
citizens, and elected officials, I can report that this 
several-year project has resulted in an implementable option 
which has the highest probability of success in achieving the 
goal of long-term, multiuse sustainability on public lands 
within the Columbia River Basin.
    The project process has been open to input from all 
directions. And that openness has resulted in numerous 
substantive changes in approach and direction. That conducive 
atmosphere has been consistent throughout the process, and it 
remains the key element of the support received from the 
Eastside Coalition, although we do have some conditional 
problems with it.
    The purpose of my testimony is to offer wholehearted 
support for the project, and to urge funding for its 
implementation. The picture I see for the future of the basin 
is clouded by the prospect of restricted or delayed 
implementation because of a lack of funding. At a time when 
there are major and necessary cutbacks in funding on national 
programs, it may not be popular to say that this program is 
different and deserves the top priority for funding 
consideration, but that is exactly what I am saying.
    This project is different, and it is unlike any other 
program, and it involves stewardship of a major component of 
our national and natural resources, which are in trouble--in 
deep trouble--and will not recover without substantial efforts, 
which only can be mobilized through the congressional funding 
process.
    What we notice on the land--and this is very important--is 
that the trees are smaller and the water is dirtier, the weeds 
are more invasive, disease is here, the habitat is more 
constrained, the fires are more catastrophic, the communities 
are in serious peril as never before. We also notice that 
expenses are up and productivity is down on public lands, and 
the prospect is for more of the same unless we do something.
    It is also important to note that none of these 
conditions--absolutely none of them--can be blamed on this 
project. In fact, this project resulted from those conditions 
and in acknowledgement of that and in hopes that we could do 
something about it. And it does offer an opportunity to address 
them.
    The scientific assessment and the subsequent 
recommendations for aggressive, on-the-ground management, are 
judged to be the best approach for ecosystem recovery over the 
long term. The benefits of this approach are clear and can be 
measured favorably in ecological, economical, and social terms. 
Restoring ecological balance will reduce pressures on 
threatened and endangered species, will support critical gene 
pools, and will reduce opportunities for ecological 
catastrophes due to cultural influences.
    Economic stability and predictability will add real meaning 
to the definition of sustainability, which simply has not been 
there heretofore. Repairing, improving, and preserving the 
social structure of resource-dependent communities will honor 
the commitment to families throughout the Interior in their 
quest for stability, a healthful environment, and a decent 
standard of living.
    The cost if implementation of the project is estimated to 
be--and I had here $125 million--I am glad to see someone has 
reduced that--you usually see the numbers go up--to $112 
million a year. If we examine only two of the ongoing expenses 
on public lands, that of fire suppression and road maintenance, 
we can see that this implementation investment will have 
reduced those costs in a very dramatic way and in a very short 
period of time.
    At the same time, the implementation investment will have 
accomplished a great deal of on-the-ground work. It makes more 
sense to us to restore the landscape ravaged by erosion or to 
thin a forest unit to allow room for trees to reach harvestable 
size than to spend money on fire suppression where there 
absolutely is no return. It also makes more sense to spawn new 
public land industries and to develop new ways of earning a 
living off of land than it does to waste money on roads which 
have no use. This project presents opportunities to do those 
kinds of things, and many more.
    Although some cultural impacts on public lands are severe, 
they are not at this moment in time irreversible. But we must 
act. We finally understand that our natural resources are not 
unlimited. And we also understand the urgency of pursuing 
aggressive restoration efforts as rapidly as possible.
    Each year, the problems grow worse, and will grow worse, 
and will be more difficult to overcome and more costly to 
address as time goes by. As an EECC member, as a career 
scientist and engineer, as an elected official, and, most 
importantly, as a citizen, the wisdom of investing in the 
implementation of the ICBEMP project is evident. I urge you to 
support and recommend investment in the future for full funding 
of this project and its implementation.
    And I would like at the same time now to respond to two 
questions, Senator Gorton, that you asked all the panelists to 
respond to. And the first has to do with will the project 
represent a legitimate solution to litigation? I cannot know 
that. And I do not know that anyone can know that.
    What we do know is that because of the 74 plans that exist 
out there, the inconsistency of those plans give rise to 
reasons for legal debate as to whether or not they are really 
accomplishing the right thing.
    What this project will do is add consistency. And it will 
remove that obstacle. It will remove that opportunity for 
lawsuit.
    So, I cannot say that it is going to remove all the 
lawsuits. Anybody with $75 can file a lawsuit, as you know. But 
it will reduce some of those barriers. And I think that is very 
important.
    Is there a better alternative? Well, I do not know. If 
there is one, I think we would all welcome that. In the 4 years 
I have been with the project, or nearly 4 years--and the Forest 
Service and the BLM have welcomed that--and I simply do not 
know whether there is a better one. If it comes forward, I can 
tell you, because of the openness of the project, we would all 
accept it.
    It kind of reminds me, though, of being in an airplane, 
where we acknowledge at 30,000 feet that there is a problem and 
the plane is going to crash and we are all given parachutes. 
And one of us says we do not want to use the parachute. Well, 
the alternative is we are going to head to the ground. We know 
that. And that is where this ecosystem is. It is going 
downhill, and we have got to do something about it.
    And it seems to me like we need to put the parachute on, as 
much as we dislike that opportunity, and get with it and fund 
this project so that we can restore this ecosystem and do what 
it is intended to do.

                           Prepared Statement

    I will only make one final comment, and that is about the 
cost. There is a lot of criticism about the cost. And I just 
want to make the comment that this overall project so far has 
cost roughly about 40 cents an acre. And I have to tell you 
that the forest plans that are out there right now, that 
sometimes take up to 10 years to prepare, cost up to $15 an 
acre. So, from an economical standpoint, this project so far 
has been an exceedingly economical project, and the benefit is 
clearly there, with all of the information that we have.
    Thank you very much. And I am available for questions.
    Senator Gorton. Thank you, Mr. Kennedy.
    [The statement follows:]
                 Prepared Statement of Michael Kennedy
    Thank you for this opportunity to present my perspective on this 
vital project of significant national importance.
    As a member of the Eastside Ecosystem Coalition of Counties (EECC) 
for the past three and one half years, I have become familiar with 
project enough to discuss all aspects of it and to reach an informed 
opinion about its value and its prospects for success. Without 
recounting the remarkable efforts by countless agency staff, citizens 
and elected officials, I can report that this several year project has 
resulted in an implementable option which has the highest probability 
of success in achieving the goal of long term multi-use sustainability 
on public lands within the Columbia River watershed. The project 
process has been open to input from all directions and that openness 
has resulted in numerous substantive changes in approach and direction. 
That conducive atmosphere has been consistent throughout the process 
and remains a key element of the support received from the EECC.
    The purpose of my testimony is to offer wholehearted support for 
the Project and to urge funding for its implementation. The picture I 
see for the future of the basin is clouded by the prospect of 
restricted or delayed implementation because of lack of funding. At a 
time when there are major and necessary cutbacks in funding of national 
programs, it may not be popular to say that this program is different 
and deserves top priority funding consideration, but that's exactly 
what I'm saying. This project is unlike any other program in that it 
involves stewardship of a major component of our national natural 
resources which are in trouble and will not recover without substantial 
efforts which can only be mobilized through the Congressional funding 
process. What we notice on the land is that the trees are smaller, the 
water dirtier, the weeds more invasive, the habitat more constrained, 
the fires more catastrophic, and the communities in serious peril as 
never before. We also notice that expenses are up and productivity is 
down on public lands, and the prospect is for more of the same unless 
we do something.
    The scientific assessment and subsequent recommendations for 
aggressive on the ground management are judged to be the best approach 
for ecosystem recovery over the long term. The benefits of this 
approach are clear and can be measured favorably in ecological, 
economic and social terms. Restoring ecological balance will reduce 
pressures on threatened and endangered species, will support critical 
gene pools, and will reduce opportunities for ecological catastrophes 
due to cultural influences. Economic stability and predictability will 
add real meaning to the definition of sustainability. Repairing, 
improving and preserving the social structure of resource dependent 
communities will honor the commitment of families throughout the 
Interior in their quest for stability, a healthy environment and a 
decent standard of living.
    The cost of implementation of the Project is estimated at $125 
million per year. If we examine only two of the ongoing expenses on 
public lands, that of fire suppression and road maintenance, we can see 
that the implementation investment will have reduced those costs in a 
dramatic way and in a short period of time. At the same time, the 
implementation investment will have accomplished a great deal of on-
the-ground work. It makes more sense to restore a landscape ravaged by 
erosion or to thin a forest unit to allow room for trees to reach 
harvestable size than to spend money on fire suppression where there is 
no return. It also makes more sense to spawn new public lands 
industries and to develop new ways to earn a living off the land than 
it does to waste money on roads which have no use. This project 
presents opportunities to do those kinds of things and more.
    Although some cultural impacts on public lands are severe, they are 
not, at this moment in time irreversible, but we must act. We finally 
understand that our natural resources are not unlimited and we also 
understand the urgency of pursuing aggressive restoration efforts as 
rapidly as possible. Each year the problems grow worse and will be more 
difficult and costly to address. As an EECC member, as a career 
scientist and engineer, as an elected official, and most importantly as 
a citizen, the wisdom of investing in the implementation of the ICBEMP 
is evident. I urge you to support and recommend investment in the 
future through full funding of project implementation.
STATEMENT OF JOAN FREY, COMMISSIONER, KLICKITAT COUNTY, 
            GOLDENDALE, WA, AND MEMBER, EASTSIDE 
            ECOSYSTEM COALITION OF COUNTIES
    Senator Gorton. Ms. Frey.
    Ms. Frey. Yes; Senator Gorton, Senator Craig, thank you for 
this opportunity.
    I am Joan Frey, and I am a Klickitat County Commissioner 
and one of the three commissioners representing Washington in 
the Eastside Ecosystem Coalition of Counties.
    I would like to thank you again for the opportunity to 
comment on the Interior Columbia Basin Ecosystem Management 
Plan. I have been personally involved in this project since 
April 1994, when the EECC was formed. In those early meetings, 
there was great anxiety over what the Federal land management 
agencies were proposing.
    Frankly, the Washington commissioners were not at all sure 
that we could trust the Forest Service or BLM. In fact, I was 
more interested in how we could derail the project.
    Now, after 4 years of working with the project team and the 
Executive Steering Committee, a level of trust has been 
developed, to the point that a frank rapport now exists between 
the county and the team.
    Reaching this trust has not been easy, because not all 
counties in Washington feel the same level of trust with the 
Federal agencies. This has caused intense debate between 
counties of our association. Many of these counties have taken 
a stance to terminate the project. This position became 
untenable for me and other Washington members of the EECC. 
Therefore, we met with all eastern Washington counties on April 
2, 1998, to discuss whether Washington should continue to 
participate through the EECC in this project.
    After thorough, and at times soul searching, frank 
discussion--and those are all real understatements--the 
counties of eastern Washington unanimously adopted the 
following position. And I will quote it verbatim:
    While the Eastern District--Washington--does not endorse 
the ICBEMP, as long as the project proceeds the counties of 
eastern Washington will be involved and direct their 
representatives to continue to participate in the Ecosystem 
Coalition of Counties and, further, their representatives are 
directed to negotiate with the Federal agencies responsible for 
the project and represent the concerns and issues identified by 
the counties. The EECC representatives are to report back to 
the Eastern District in September 1998 at the District meeting 
regarding the progress of this project.
    I would like to clarify that there are at last count 14 
counties out of the 20 eastern that have done resolutions to 
kill the project. And it was interesting, at that meeting, it 
was very clear that counties participation in this process was 
essential. And that is why the motion was unanimous. This 
motion passed unanimously by all but one county, which was not 
present at the meeting.
    While there was much concern about the concerns of the 
DEIS, the counties believe that they need to be at the table 
and continue helping shape a final plan. The EECC has submitted 
detailed comments on the DEIS, and this information is 
available for the committee.
    While I commented earlier that a level of trust had been 
developed with the team and the regional executives, the same 
cannot be said for the actions being proposed from Washington, 
DC. Judge White has outlined his concern about the Forest 
Chief's proposed roadless area moratorium. I would like to echo 
his concerns, and add that the trust we have developed was 
based on a promise from the former Forest Chief that this 
concern would be made here in the region, not at the 
Washington, DC, level.
    The roadless area policy tests that promise and raises 
serious concerns about where the decision will actually be 
made.
    With all that said, we need to remember that it was not too 
long ago that the spotted owl caused the Forest Service to 
adopt the Northwest Forest Plan, with no input from counties. 
This left out an important element in any Federal use plan: the 
impact to local communities. It is for that reason that 
Washington counties continue to stay at the table. We believe 
we give the best voice possible to our local communities.
    We do not want the Federal courts to make decisions on 
Federal lands. That did not work in the best interest of local 
communities in the Northwest Forest Plan and we do not believe 
it will work in the best interest of the local communities in 
the Columbia Basin.
    This project is very important. And when ecosystem 
management is described, we sometimes forget that people are a 
part of that ecosystem. Remember, counties represent local 
communities, and we need to continue to have a voice in the 
development of Federal land use plans. That is why the 
Washington counties have directed us to stay at the table.
    I hope you will urge the Federal agencies to listen to 
counties and make them an equal partner in managing our Federal 
lands.
    Thank you again for your time, and I would be glad to 
respond to any questions.
    May I add one more point, though?
    Senator Gorton. Yes; everybody else went over; you can go 
over.

                           Prepared Statement

    Ms. Frey. Your comment about the economic study was very 
appropriate. The counties have found great fault--another 
understatement--in the socioeconomic study. And the Coalition 
of Counties have responded--individual counties have responded 
to that. So, I am glad you raise the point in your opening 
statement.
    Senator Gorton. Thank you.
    [The statement follows:]
                    Prepared Statement of Joan Frey
    Mr. Chairman, and members of the Committee, I am Commissioner Joan 
Frey from Klickitat County, Washington and one of the three county 
commissioners representing Washington on the Eastside Ecosystem 
Coalition of Counties (EECC).
    Thank you for giving us this opportunity to comment on the interior 
Columbia Basin Ecosystem Management Plan. I have been personally 
involved in the project since April 1994 when the EECC was formed. In 
those early meetings there was great anxiety over what the Federal Land 
Management Agencies were proposing. Frankly, the Washington 
Commissioners were not at all sure that we could trust the Forest 
Service or BLM. In fact, I was more interested in how we could derail 
the project.
    Now, after 4 years of working with the project team and the 
executive steering committee a level of trust has been developed to the 
point that a Frank rapport now exists between the counties and the 
team.
    Reaching this trust has not been easy because not all counties in 
Washington feel the same level of trust with the federal agencies. This 
has caused intense debate between counties of our association. Many of 
these counties have taken a stance to terminate the project. This 
position became untenable for me and the other Washington members of 
the EECC. Therefore we met with all eastern Washington counties on 
April 2, 1998 to discuss whether Washington should continue to 
participate through the EECC in the ICBEMP.
    After thorough, and at times soul searching, frank discussion, the 
counties of eastern Washington unanimously adopted the following 
position:
    While the eastern district (Washington) does not endorse the 
ICBEMP, as long as the project proceeds the counties of eastern 
Washington will be involved and direct their representatives to 
continue to participate in the Eastside Ecosystem Coalition of 
Counties; and further, their representatives are directed to negotiate 
with the federal agencies responsible for the project and represent the 
concerns and issues identified by the counties. The EECC 
representatives are to report back to the eastern district at the 
September 1998 district meeting regarding the progress of the project.
    This motion passed unanimously and all but one county was 
represented at the meeting.
    While there was much concern about the contents of the DEIS, the 
counties believed they needed to be at the table to continue helping 
shape a final plan. The EECC has submitted detailed comments on the 
DEIS and this information is available for the committee.
    While I commented earlier that a level of trust had been developed 
with the team and the regional executives the same cannot be said for 
the actions being proposed from Washington DC. Judge white has outlined 
his concerns about the forest chief's proposed roadless area 
moratorium. I would like to echo his concerns and add that the trust we 
have developed was based on a promise from the former forest chief that 
this decision would be made her in the region, not in Washington DC. 
The roadless area policy tests that promise and raises serious concerns 
about where the decision will actually be made.
    With all that said, we need to remember that it wasn't too long ago 
that the spotted owl caused the forest service to adopt the northwest 
forest plan with no input from counties. This left out an important 
element in any federal land use plan, impact to local communities. It 
is for this reason that Washington counties continue to stay at the 
table. We believe we give the best voice possible to our local 
communities.
    We do not want the federal courts to make decisions on our federal 
lands. That did not work to the best interests of local communities in 
the northwest forest plan and we do not believe it will work in the 
best interests of local communities in the Columbia Basin.
    This project is very complex and when ecosystem management is 
described we sometimes forget that people are part of the ecosystem. 
Remember, counties represent local communities and we need to continue 
to have a voice in the development of federal land use plans. That is 
why the Washington counties have directed us to stay at the table. I 
hope you will urge the federal agencies to listen to counties and make 
them an equal partner in managing our federal lands.
    Thank you for taking time from your busy schedule to hold this 
hearing in Spokane. If you have any questions I will be happy to answer 
them.

                        PRIVATE PROPERTY RIGHTS

    Senator Gorton. I was about to say, Ms. Frey, that you make 
it very difficult for the Senator from Washington, covering so 
many different views, I am not really sure whether I would 
characterize your statement as yes, but or no, but. [Laughter.]
    Ms. Frey. Well, I have been kind of characterized as being 
in bed with the Forest Service. And I find that ironic, because 
the reason I want to stay involved is, I guess, because of 
basic distrust when Federal Government actions are taking 
place. And the cure to that is to get in there and try to have 
input.
    Senator Gorton. Let me ask each of you, as you represent 
constituents who are very close to you and from whom you hear 
all of the time--let me go into something that you did not 
cover, that is the province of the next panel--private property 
rights. Would your constituents be comforted at all if there 
were some kind of language in our authorizing this process to 
go through with respect to the impact of the final record of 
decision and implementation on private property rights? And 
each of you can answer that question, if you will.
    Ms. Frey. You are looking at me.
    Senator Gorton. Yes.
    Ms. Frey. Private property rights are a concern--probably 
the ultimate concern. And I have cattle on public lands. And I 
feel that is a right. And they are very vulnerable.
    I agree with Bob Williams that this plan will not be 
implemented on private property. But the influence is there. 
And there is something that I found has a definite impact on 
private property. And that is the ESA, National Marine 
Fisheries, U.S. Fish and Wildlife. This is a very educational 
process, because I know now where the, I guess, power is. And 
our property rights are at risk. But I do not feel it is just 
from this plan--or maybe not at all from this plan.
    Senator Gorton. Would any of the rest of you like to 
comment on that question?
    Mr. White. I do not think private property rights are a 
very sensitive issue with all of us, and people are very 
concerned about them. I guess I am personally convinced that 
this document on BLM and Forest Service land does not infringe 
private property rights. I would have to also say that one of 
the biggest issues that the county has had with developing this 
has been the intrusion of National Marine Fisheries, the 
Federal Fish and Wildlife, and EPA into the process.
    And as you well pointed out, Senator, where they may lead 
us, I do not know. But I do not believe we should let that 
interfere with the effective management of the BLM and Forest 
Service lands. But, for heaven's sakes, is there anything that 
we can do with those other agencies to minimize their effect? 
You have our wholehearted support.
    Mr. Enneking. Senator, I guess it has always been my 
concern, from the inception of this project, that it is 
impacting private property rights indirectly. There is not any 
way that this project, in the magnitude and scope that it is, 
does not encompass all private property along with public 
lands. Because you cannot draw an imaginary boundary, and then 
stop, and then move, and then go on, and again and again. The 
cumulative effects of what happens on one is going to follow 
through onto the next.
    And so, without a major revision or thought process of an 
ecosystem management plan of this magnitude, I do not think you 
can get away from that concern that I would have with private 
property rights.
    Senator Gorton. Mr. Kennedy.
    Mr. Kennedy. Senator Gorton, I think that personal property 
rights are certainly a volatile issue that transcend any 
discussion that we have here. And I think singling that out 
with language in this document, in my mind, might be 
inappropriate. I believe, as Bob Williams stated, that there 
will be some effect on private land, but I believe that effect 
will be positive.
    What we notice in the ecosystem, in this one-quarter-of-a-
million-square-mile area, is it is in decline. We know that. 
And it does not matter when you fly over, you cannot see the 
boundary between public and private land. We notice that there 
is decline in it. And so, to the extent that that is so, in a 
public way, if we acknowledge that and do something about it, 
it can only have good effect on private property. So, to the 
extent that that is so, the effect is positive and it will 
affect it.
    To the extent that you should put language in there, I 
think all it does is feed an emotional flame, and I think it is 
really inappropriate for this document.
    Senator Gorton. You may have already answered this 
question, but I will start with you and work across the line of 
witnesses on this question. What do you see, if any, as the 
potential downside of our stopping the project before a record 
of decision, and just telling each of these units to use the 
science that they have learned with respect to their own plans 
and their own management? And if you want to say there are some 
upsides, you can say that, too. But the consequences of 
stopping now, if you would comment on that, positive or 
negative.
    Mr. Kennedy. As a scientist, I always attempt to be as 
objective as I can. And that is not always 100 percent 
possible. And what I notice is that any time you have objective 
data you can take any number of people who look at those same 
data and arrive at different conclusions, slightly, and maybe 
even in a major way. My sense is that if you just disseminate 
the data to all of these different units, just as there are 
differences in the 74 plans, you will see differences in the 
interpretation of those data.
    And my belief is that you will increase the opportunity for 
lawsuits, rather than decrease it, No. 1. And, No. 2, there 
will be no consistency in the restoration effort within that 
basin. And I think that both of those are enormous downsides 
that we have to avoid. So, I think there is a definite danger 
in disseminating scientific data without some instruction as to 
how it should be used, where I should be used and when it 
should be used.
    Senator Gorton. Ms. Frey.
    Ms. Frey. I have thought about that constantly for the last 
4 years, because I did want to kill this plan. And my concern 
is that you have 74 forests and, deny it as we may like, they 
are interconnected. And perhaps that is where we come up with 
the word ``ecosystem.'' I think that by not acknowledging that 
we will be subject to more legal challenge.
    I feel I am battle fatigued. And National Marine Fisheries, 
I have learned through this process, needs to be reckoned with, 
as well as the other Federal regulatory agencies. They have the 
interim guidelines in place now, which are killing communities 
as we speak. They are devastating county budgets as we speak.
    I feel in my heart of hearts that those will be the 
regulating plans. They become more stringent. That concerns me.
    The administration--boy, I hate it when I get asked 
questions--the administration has seen this plan coming 
together. National Marine Fisheries and the other regulatory 
agencies saw us coming together in 1996 on a good alternative. 
They interfered. They changed its complexion. We are still 
moving forward. And this roadless moratorium set in.
    This plan is the least--it is not the right term, but this 
is not my greatest concern--I think that we have put in our 
comments on the DEIS. I feel that it will have to change 
dramatically for support. As I sit here now, as written, I do 
not support this. But it has to change. And we have worked hard 
to try to bring that about.
    This, to me, is the best approach. It has been a public 
process. That is why it has been so darned expensive.
    I will quit.
    Senator Gorton. OK. I guess I summarize your position as 
being well, I do not trust them one bit, and that is why I want 
to stay involved right to the end. [Laughter.]
    Ms. Frey. The closer you are to a cow, the less the kick 
hurts. You are right. [Applause.]
    Senator Gorton. Mr. Enneking.
    Mr. Enneking. Well, personally, I think that I would not 
have any problem at all with going back to the individual 
forest plans at this stage of the game and using the science 
that came out of this project. The reason being is that I do 
not believe that a forest in south Idaho, for example, is 
anywhere near what a forest in north Idaho or would be maybe up 
in Okanogan, or something like that.
    I think we need to be autonomous wherever we are at, and we 
need to do things based at a local level, based on what we have 
and how we do business. And when we make a plan or try to 
implement a plan across all of the landscape, then we bleed the 
wrong thing into that plan.
    So, I would say we would be better off to use what we can 
or what fits the situation at the local level and go forward.
    Senator Gorton. Thank you.
    Mr. White.
    Mr. White. I would just like to add to what Joan said. I 
think in October 1996 we had a much better plan than we have 
today. And after the meeting with the regulatory agencies there 
were 50 to 60 more standards added and replaced guidelines. And 
those are basically the issue that we now have with it, that 
there are too many prescriptive standards and there are not 
enough guidelines.
    But I guess, in direct answer to your question, I would go 
back to one of the reasons that we started in the project, is 
for the legal defensibility and our understanding of what the 
Federal judges have basically been saying, especially on the 
Endangered Species Act, is that you have got to look at the 
ecosystem--whatever that may mean, and we do not really know--
and then sustainability and the viability of the species. And I 
think that this would help us in the legal defensibility of it.
    I do not have any magic bullet that says that we win the 
war, but I think we have a much better chance of getting back 
to managing the forest. That is what we want to do: manage the 
forest, get some products, put our people to work, get our 
economies back on. And if somebody has got a better plan--we 
have offered that, as county people. For the last 3 or 4 years, 
we have got a lot of criticism and a lot of bricks, but nobody 
has ever given us an alternative that is better than this. And 
we are still open to that suggestion, Senator.
    Senator Gorton. Thank you.
    We have now been joined by Congressman Nethercutt. I am 
going to give him an opportunity to catch his breath and turn 
the questioning over to Senator Craig, and then we will hear 
from the Congressman.
    Senator Craig. While I do not think this comment fits all 
of you, I have got a growing suspicion that now that you are 
astride of the back of the tiger, you do not know how to get 
off; that you are a bit more enamored by the process than the 
product. That is very frustrating, because I have been there. 
And sometimes it is very difficult to cut, to break and to take 
a stand.
    Mr. White, would it be better for us just to legislate the 
plan prior to the breakdown when others became involved, and 
force the Forest Service to go back and change what you all had 
worked on?
    Mr. White. Well, certainly that would be, I think, the 
counties' position; yes, sir.
    Senator Craig. Let me ask this question of you, Dale, and, 
Joan. Have you seen any evidence that the President's Northwest 
Forest Plan has reduced regulations on private lands under ESA?
    Ms. Frey. I am kind of at a disadvantage here, but the 
information I have gathered is that with the Northwest Forest 
Plan, there have been tradeoffs. Bob Williams defined, if this 
plan were in place, it would maybe give more flexibility to 
private properties, while the habitat conservation plan and the 
Northwest Plan have that.
    Senator Craig. Have you seen evidence of that?
    Ms. Frey. I have had information to that level. I have not 
been in the forest to see it. But I have been informed that 
there are tradeoffs. And I could really get you that 
information. I would be glad to get you that information.
    Senator Craig. I would like to have that for the record, if 
you would, please.
    Ms. Frey. OK, you got it.
    [Clerk's note.--The information was not received in time to 
be included in the hearing record.]
    Senator Craig. Thank you.
    Mr. White. Senator, I am probably not the best one to 
answer that. Salmon have to carry their own water in Harney 
County, so I really have no information as to how it has 
affected the western Oregon counties.
    Senator Craig. OK. I have been to Harney County. I 
appreciate that.
    For all four of you, you indicated that if the moratorium, 
the road moratorium, is imposed you will have to release or 
reappraise your position. Well, let me put it this way. It is 
our opinion that the moratorium has already been imposed. It is 
in, or at, the interim rule stage. What will you do?
    Mr. White. Well, that will be for us to collectively 
decide. But if our read our constituents, we are probably going 
to pull out of the project as an act participant. [Applause.]
    Senator Craig. What would you have us do if the moratorium, 
now in an interim rulemaking stage, is brought through to 
completion?
    Mr. White. We have written the Chief. We obviously asked to 
be considered before he publicly issued his moratorium. We have 
since, as the Eastside Coalition of Counties, written him a 
letter, listing three alternatives that we think are viable. We 
have had no response, and I guess we will not know until we see 
the final decision.
    We did have a meeting with him a couple of weeks ago, in 
Portland. And these people were there and they can tell you, 
but I did not read that as that he was very responsive to our 
concerns. And I only have one letter, but if the Senator is 
interested we can share with you what our alternative is.
    Senator Craig. I would like that. I would like that not 
only for the record but for my personal use and for the use of 
the subcommittee that I chair, on forestry.
    [Clerk's note.--The information was not received in time to 
be included in the hearing record.]
    Senator Craig. Yes, Commissioner Kennedy.
    Mr. Kennedy. Senator Craig, thank you.
    I am feeling badly about the injection of Mike Dombeck's 
administrative order on the roadless area into this project, 
because they are two separate things.
    Senator Craig. So am I.
    Mr. Kennedy. And somehow they have got associated. And it 
seems like the tail wagging the dog. Yes, he did that. And yes, 
this project was going on well before he did it. And I would 
hate to judge this project by that. And I would like to keep 
them separate. And at the same time, I would like to address 
your question about the roadless areas, because I think it is 
not only an extremely volatile and emotional issue, but there 
is a lot of information that is going out there that I believe 
is not factual.
    I think it would be important for everyone to understand 
how much of production from the forests that would affect. And 
I think it is remarkably low. It is something like 2 percent. 
It is really very, very low.
    And there is another discussion that needs to be had with 
respect to that. No. 1, why did he do it?
    Well, we have got this ecomanagement project out there that 
suggests maybe there needs to be different kinds of 
considerations if we are going to change our policies and 
practices upon the land, and it makes sense to pause in order 
to examine what they are. Because this is not a permanent; it 
is 18 months. It is less than that now. And he has given 
assurances of that.
    But one last important thing about it is that there is a 
reason why those lands still remain roadless. And some of the 
reasons are that they are inaccessible, that they are very, 
very low in terms of productivity, and they are remote. And all 
of those are reasons why they simply have not been logged 
before or have not been accessed before. Those are some of the 
reasons. They are not all of the reasons, but they are some.
    So, I think to say that this moratorium really remarkably 
affects the wood products industry or any other industry, on 
the whole, throughout the region, is, at best, an inaccurate 
statement based on what it actually will accomplish and what it 
will not accomplish. So, I think that the emotion is much 
greater than the effect. And I would really hope that we would 
have a tendency to separate those, rather than to create a 
problem for this project, which has enormous potential for 
restoring jobs and restoring the environment.
    Senator Craig. Well, Commissioner, I appreciate that 
statement. I am as concerned as you are. The problem is we are 
dealing with the same lands.
    Mr. Kennedy. Yes.
    Senator Craig. And we are dealing with a very specific 
action on those lands. And I would agree with you that some 
roadless areas meet your definition. Others do not. And yet 
they are all blanketed by this effort.
    Something else that also frustrates me is about 3 months 
before this announcement, the Chief and I had a very lengthy 
discussion about it. And I suggested a couple of things to him: 
that we work together in a bipartisan way to establish a new 
policy consistent with the regional planning that was going on. 
He denied us that, as he appears to be denying you 
alternatives. And that is very frustrating. Because it appears 
to be more of a political statement than it does a wise 
management decision.
    And if we are all going to be a part of this process, then 
we all have to be a part of it. We cannot be asked to 
participate only on a selective basis. And I think that is 
where our frustration exists.
    Now, here is one of the difficulties, then. You heard the 
administration request an additional $112 million to implement 
the plan. Part of the administration's rationale is to 
stabilize commodity production and, consequently, payments to 
counties. At the same time, the administration is requesting 
$267 million for the permanent, indefinite appropriation to 
decouple assistance to counties from commodity receipts.
    That does not sound like anything temporary to me. That 
sounds like a very clear plan to move something in place 
permanently. One wonders why we would need the latter if the 
former is accomplished. But given the limited resources, we may 
have to choose. If so, what should we choose? That is a 
question to all of you.
    Mr. Kennedy. Well, I can answer that from a scientific 
standpoint and a long----
    Senator Craig. How about a commissioner's standpoint? How 
about a political commissioner?
    Mr. Kennedy. Well, our forestry seats and PILT money is 
down. It is clear. And we depend upon that. And our road system 
and our school system are nearly bankrupt. Those are all true 
statements.
    I do not know that this, or curing that bill, is going to 
change those conditions. It may inject a bit more if we do some 
things. It may do that. It may temporarily add a band-aid, but 
it is not going to solve the problem.
    What I am looking at are the long-term effects. Because, 
again, we are in a death spiral on the environment. There is no 
question in my mind about that. And that is the reason why the 
project got started.
    Sooner or later, we are going to have to bite the bullet 
and recognize that or it is actually going to be worse. So, my 
sense is we need to invest the money. We need to take that 
risk, because there is a good chance that it will succeed and 
everyone will be better off than they are today. That would be 
my position.
    Senator Craig. Would you support a decoupling?
    Mr. Kennedy. Yes; I would.
    Senator Craig. OK.
    Commissioner Frey.
    Ms. Frey. The whole decoupling discussion worries me. I am 
afraid that it is taking education out of the equation, so we 
can ignore our resources, which I feel are sustainable. I feel 
that they can, when managed properly, educate, build schools, 
and support communities. I do not support the decoupling.
    At our WIR meeting, we had some discussion on that. And we 
have a committee working to that effect. And if there is 
decoupling, it is in a short period of time, so that we can 
again be aware that we are a resource base and can continue to 
be a resource-based nation. And I think there was another 
question in there, but I got hung up on decoupling.
    Senator Craig. Close enough.
    Ms. Frey. All right.
    Senator Craig. Commissioner?
    Mr. Enneking. Senator, I am very much against decoupling as 
it is being proposed. I believe that any time that we do away 
with tying our 25 percent money coming for roads and schools at 
the local level from commodity production we, in essence, are 
surrendering to being a welfare state, so to speak. We then 
would be at the mercy of Congress every time that we needed an 
appropriation for 25 percent money. We would be just like the 
payment in lieu of taxes. We would be there every year, 
knocking on your door, running up and down the halls, trying to 
get that appropriation passed.
    In the short term, it would--a few of the counties are 
pretty happy with the situation, because it would--show a big 
windfall. But I think in the long haul it would be the wrong 
move, in my opinion.
    Senator Craig. Judge.
    Mr. White. And George and I perhaps have got a little 
advantage and also a disadvantage. Because what I am going to 
share with you just came out of our meeting in June, last week, 
and we have not shared it with our counties. And the 
representatives from the five largest national forest 
receipts--Idaho, Washington, Oregon, Montana, and California--
have appointed groups to discuss this very issue. And, 
basically, what we are tentatively proposing is that this 
coverage for a guarantee, if you want to call it that, or 
whatever the proposal is, for all national forests nationwide, 
that the payments are guaranteed at the 1997 level or 76 
percent of the 1986-90 average, that it include either/or 
language to allow for payments based on actual receipts if that 
amount is greater than the guaranteed amount. And that follows 
what everyone is concerned about.
    We are really interested in the productivity of these 
forests, so that they get back and produce the resources 
themselves. We think that it needs to be indexed for some CPI. 
We do not want a change of the 1908 Act. And, finally, we would 
ask that it be terminated in the year 2003, when the Pacific 
Northwest Forest Plan terminates.
    And I do not have a full answer to your whole question, 
Senator, because to get out of the guarantee--my county, we 
went from $5 million in receipts in 4 years to $500,000 in 
receipts. It cost $2 million a year just to run our road 
department without doing any capital, fortunately in the good 
years we built some reserves, we are going to be broke in 3 
years. And as you know, having been to Harney County, that is a 
big county. It takes lots of roads. And we are 76 percent 
federally owned. There is 4\1/2\ million acres there. Most of 
that land, those roads serve public lands, not private lands. 
So the Federal Government has some responsibility there.
    But I think all of our overall gut feelings is that we do 
not want a dole. We want to get our lands back producing. But 
we need some help in the interim, Senator.
    Senator Craig. George, did you have another comment?
    Mr. Enneking. Just another comment, Senator, if I may. What 
really happens or what makes communities viable, and counties, 
is people working. And if we could get away from this idea of 
staying off of lands to do production--we need to be there for 
forest health reasons. We need to be out there managing the 
forests, like private foresters do. When we do that, we create 
jobs. And when we create jobs at the county and the community 
level, then those people are buying homes, they are paying 
taxes, they are supporting schools and roads, and our problems 
then become moot--what we are talking about here today.
    So, I think that is where we need to head for, if we can. 
[Applause.]
    Senator Craig. I guess I can understand many of your 
expressions of uneasiness in terminating the project. But I am 
not sure anyone has suggested this. I heard from the State of 
Montana and the State of Idaho, suggesting that, instead of 
that, instead of signing a record of decision and amending 74 
plans in a single action, that the science documents be 
finalized and provided to the land managers to use to amend 
their plans, consistent with and tiered to science documents.
    Do you find this approach an unacceptable approach? And if 
so, why? This is for all of you.
    Mr. Kennedy. Well, for Montana, at least in the forests 
that I am associated with, what I notice in working with our 
foresters--and, by the way, we have an excellent relationship, 
and it is much different than when I worked for the Forest 
Service back in the fifties and sixties--that there is a lot of 
time consumed in either amending or revising these plans. And I 
can point to a couple of plans that have taken 10 years in 
their production.
    What this effort, to do it at one time, will do is it will 
save enormous human resources at a time when the Congress has 
decided that the Interior Department, and the Forest Service in 
particular, had to cut back. So, what you are going to do is if 
you allow those 74 plans to go, and just receive that 
information, and do the revisions themselves, you are going to 
be diverting enormous amounts of human resources to revision of 
those plans when those resources could be used on the ground.
    And I think that is a very, very important point. And so 
that is one reason why I am strongly in favor of this project. 
Because we get that one-time amendment. We develop consistency. 
We have on-the-ground work. And you heard that the investment 
is like 87 percent on the ground. And we avoid lawsuits. There 
are all kinds of good things that can come from that 
consistency and by doing it all at once.
    And this is not a one-size-fits-all by any means, but it 
does give guidance, it does give overall direction. For 
example, if you have a protocol for a heart transplant, it does 
not matter whether the person is in South Africa or Montana, 
there is a certain protocol that works. Then you have to, of 
course, do things differently because of the different patient, 
but the protocol is really what is important. And I think that 
single revision is what is most important here. And it will be 
the most efficient way to do it, to avoid unnecessary resource 
expense.
    Ms. Frey. I feel that taking the 74-forest-plan approach 
will be more expensive. I think it will be under challenge. I 
do not feel it will be as cost effective. And that is the 
simple answer.
    What concerns me is whenever I agree with Mike, I always 
worry. It took me 4 years just to get him to wear socks. 
[Laughter.]
    So, I am concerned.
    Mr. Kennedy. We used to be enemies, Senator. [Laughter.]
    Ms. Frey. That is where I am on that approach.
    Senator Craig. Well, now that you are friends. [Laughter.]
    Mr. Enneking. Senator, now you know why we love Joan. She 
is down to earth. [Laughter.]
    Senator Craig. I am beginning to understand, George. 
[Laughter.]
    Mr. Enneking. No; I do not think that that would be a 
problem. I think that that would be the proper way to do it--
would be to just amend the plans now, based on the new 
knowledge that we have, to fit the situation.
    Senator Craig. OK. Judge.
    Mr. White. I can certainly plead ignorance and have a lot 
of support for that position. I do not know. I guess I am 
betting that if we have a record of decision, that is going to 
get us back to manage the lands faster and quicker and with 
less legal challenge than if we do it 74 times. But if it can 
be done and get us back on the land, that is my concern.
    Senator Craig. Well, I have taken too much time, Mr. 
Chairman. I do have one last question that fits right into what 
they have just responded, and I would like to ask it.
    The Supreme Court has said that this plan may not be 
subject to judicial review. The Forest Service has told us that 
the plans are not rules, subject to congressional review under 
the Regulatory Flexibility Act. Does this give any of you any 
cause for concern: no judicial review, potentially no 
congressional review?
    Mr. Kennedy. I would like to address that.
    Senator Craig. Sure.
    Mr. Kennedy. I think that the nature of the plan, first of 
all, is macro in nature. And it is general enough that it does 
require supplemental work to be done. And the work that the 
EECC has done has really impressed the Executive Committee, in 
terms of it is going to be really a ground-up effort.
    So, what we are having is, is that the local land managers, 
the people whose kids go to school with our kids, are the 
people who we will trust to implement that plan. And so the 
very simple answer is, because of that, then that does not 
concern me.
    Senator Craig. OK.
    Mr. Enneking. Senator, I would be very much concerned 
without a congressional review of what goes on out in the 
woods. I do not think that the agencies should be--they are 
your arm of making things work, and Congress needs to have that 
oversight. I would hate to see that get away from you.
    Mr. White. I would agree with George on that. I think 
everybody has to have a boss someplace, and I view Congress as 
the boss for the guideline agencies. And that should never be 
terminated. That should always remain. And I guess I am just 
talking from what I heard about the Supreme Court decision, but 
I suspect that if you cannot challenge the plan, the first time 
you go to implement it, I suspect you are available for 
challenge. So, I think it will get challenged, one way or the 
other.
    Senator Craig. OK. Joan.
    Ms. Frey. And I feel the same way as these two do.
    Mr. Kennedy. We are not friends anymore?
    Ms. Frey. Not anymore, no. [Laughter.]
    Senator Craig. Thank you, all, very much.
    Mr. White. And, Senator Gorton, when she first came in, she 
was packing a .45. So, we really respect her. [Laughter.]
    Ms. Frey. It was a .357.
    Mr. White. Oh, excuse me. [Laughter.]
    Senator Gorton. Well, I would like to thank this panel very 
much. You have been both informative and immensely amusing and 
enlightening for us. We appreciate all your contributions. And 
while the next panel of private landowners come up, we are 
going to give Congressman Nethercutt an opportunity to make a 
few comments and to participate in the balance of the hearing.
    If the next panel will come on up, we would appreciate it.
STATEMENT OF HON. GEORGE R. NETHERCUTT, JR., U.S. 
            REPRESENTATIVE FROM WASHINGTON
    Mr. Nethercutt. Thank you very much, Senator Gorton. Nice 
to be with you and Senator Craig today.
    I got involved in this whole issue in the 104th Congress. 
And I am anxious to hear a little more testimony about the 
counties and the consistency of the feelings with regard to 
whether a majority of the counties feel that the project should 
be terminated or whether the counties feel that the project 
should not be terminated.
    Back in 1995 and 1996, Senator Hatfield and I had a series 
of meetings relative to deciding what the future of this 
project would be. And at that time, the House of 
Representatives passed a measure that was sponsored by me, in 
the Interior Subcommittee on Appropriations, that would limit 
the amount of money that was spent in this unauthorized 
project. It would distribute the science, and ultimately had 
approval to have more social and economic information provided 
by the counties. That was essentially lost in the budget debate 
to pass legislation for an omnibus spending bill.
    Since then, our efforts have been designed to extend the 
comment period, so that there could be an adequate review of 
all the information, social and economic, and the cost 
information that would attend this project. I think we know a 
lot more now about this project, Senator, than we did 2 years 
ago. And my sense is that there is not unanimous feeling among 
the county governments of the affected States and, in fact, 
there is a wide-ranging opinion in favor of termination of the 
project and the use of the science.
    I heard these commissioners talk about local control and 
management, and I could not agree more with regard to the 
importance of having local people make decisions about the 
implementation of this project, rather than have this project 
go to a record of decision and, frankly, be challenged in 
court. There is no guarantee, under the current program, that 
there would not be a challenge in court of any record of 
decision or findings.
    So, I am anxious to hear what the private side has to say 
about this, the private property side of this issue, as well as 
have, perhaps for the record, an indication of how many 
counties in each of the affected States are supporting 
termination of the project. Maybe that has been testified to 
already.
    Senator Gorton. As a matter of fact, Congressman 
Nethercutt, you reminded me of something that I had intended to 
do at the end of that panel that goes part way to satisfy your 
curiosity. I wonder if I could get all of the county 
commissioners or other county elected officials in the audience 
who were not a part of the previous panel to stand. How many 
county officials are there here? [Audience members standing.]
    Please keep standing. We would like very much to have your 
written testimony on this, but I just want to run a little poll 
right now. How many of you--and you can even vote twice if you 
want on this one--but how many of you felt most compatible with 
the testimony of Dale White from Oregon? Were his views closest 
to your own and the counties you represent? Just raise your 
hand.
    OK, I see one.
    How many felt closest to what Joan Frey testified to?
    How many felt closest to George Enneking?
    And how many felt closest to Michael Kennedy?
    All right. That is very unscientific, because there are 
lots of county commissioners with strong views who are not 
here. But thank you for that expression of your opinion. And as 
I say, we would love to hear from you in writing.

                           prepared statement

    George Nethercutt's statement about finding out what people 
who are elected, on the ground, to represent their own 
constituents in a local setting is very important. And we are 
going to want to do as broad scale a request for their opinions 
as we possibly can.
    Senator Gorton. And with that, we will begin with panel No. 
4. And we will begin with Sharon Beck.
    [Clerk's note.--The statement was not received in time to 
be included in the hearing record.]
STATEMENT OF SHARON BECK, PRESIDENT, OREGON CATTLEMEN'S 
            ASSOCIATION
    Ms. Beck. Good morning, Senators. My name is Sharon Beck. I 
am president of the Oregon Cattlemen's Association.
    Thank you for demonstrating your interest in this very 
serious issue, the Interior Columbia Basin Ecosystem Management 
Project. I wanted to thank you for holding this field hearing 
and thank you for inviting me to testify.
    The Oregon Cattlemen's Association, for 85 years, 
representing all the cattle producers of the State of Oregon, 
other State associations, and the National Cattlemen's Beef 
Association, who has represented the beef producers of the 
Nation for 100 years, have in their policy that the Eastside 
project should be terminated with no record of decision.
    The great author, Pearl S. Buck said: ``Every great mistake 
has a halfway moment, a split-second when it can be recalled 
and perhaps remedied.'' We believe ICBEMP's halfway moment is 
now.
    We believe there should be no record of decision, that the 
science should be carefully evaluated at the local level of 
land management agencies, using a common standard of scientific 
evaluation in order to separate true science from the plethora 
of opinion, literature reviews, and outright pseudoscience 
contained in the draft environmental impact statement.
    OCA has drafted a review of the DEIS, and we have 
respectfully submitted it to you today as our official 
testimony.
    Many of our 2,500 members have been involved in ICBEMP to 
varying degrees for all the years it has been meandering 
through its process. Our members are on resource advisory 
committees, watershed councils, county boards of government, 
the State legislature, and State boards and commissions. Our 
comments are based on this exposure, though few have had the 
stomach to read this massive set of documents in their 
entirety.
    A byproduct of each exposure to the DEIS has been 
overwhelming confusion and mistrust, and a recognition that the 
end product will be purely political. It is a master plan that 
accommodates top-down political agendas. It disregards local 
governance, communities, and individuals, and largely ignores 
economic integrity.
    We think Congress and the Eastside Coalition of Counties 
had the same concerns when they directed the project team to do 
an analysis of the economic and social implications of the 
plan. Many of our people read the resulting document. Dr. Fred 
Obermiller, of Oregon State University, a range resource 
economist, who has testified before these kinds of committees 
many times, has stated, and I quote:

    This report and the EIS is an attempt to obscure the 
negative impacts on local communities based on data that does 
not exist and assumptions that cannot be validated. I expect 
that implementation of this plan will lead to annihilation of 
rural communities within the scope of the Interior Columbia 
Basin Ecosystem Management Planning Area.

    With this panel before you, that represents essentially the 
entire agriculture and timber communities in our Northwestern 
States opposing the DEIS, how do you suppose it happens that 
the administration continues to try to implement this project? 
If you hesitate to drop the axe on this project because some 
county commissioners are indecisive, it should be abundantly 
clear that their constituents are willing to stand up and be 
counted. Those commissioners are not going to be thrown any 
crumbs of power by the Federal Government.
    The counties and the States must take back the power that 
is rightfully theirs, and begin to determine their own 
destinies based on the will of their people.

                           Prepared Statement

    This administration is running amok against natural 
resource users and the producers of food and fiber. We are 
being governed by administrative and bureaucratic decree. 
Congress must act to stop this administration running roughshod 
over Americans in their quest for centralized control of land 
management. A stand must be made here against the ICBEMP, for 
at stake is not just our ability to manage our own land for the 
benefit of our families and communities. At stake now, I fear, 
is the Republic.
    Thank you very much.
    Senator Gorton. Thank you. [Applause]
    [The statement follows:]
                   Prepared Statement of Sharon Beck
    Thank you for demonstrating your interest in this very serious 
issue, the Interior Columbia Basin Ecosystem Management Project by 
holding this field hearing and thank you for inviting me to testify.
    The Oregon Cattlemen's Association, for 85 years, representing all 
cattle producers of the state of Oregon, other state associations and 
the National Cattlemen's Beef Association who has represented the beef 
producers of the Nation for one hundred years, have in their policy 
that the eastside project should be terminated with no record of 
decision.
    The great author Pearl S. Buck, said ``Every great mistake has a 
halfway moment, a split-second when it can be recalled and perhaps 
remedied''. We believe ICBEMP's halfway moment is now. We believe there 
should be no record of decision, that the science should be carefully 
evaluated at the local level of land management agencies using a common 
standard of scientific evaluation in order to separate true science 
from the plethora of opinion, literature reviews, and outright pseudo-
science contained in the draft environmental impact statement.
    OCA has drafted a review of the DEIS and we have respectfully 
submitted it to you today as our official testimony.
    Many of our 2,500 members have been involved in ICBEMP to varying 
degrees for all the years it has been meandering through it's process. 
Our members are on Resource Advisory Committees, Watershed Councils, 
County boards of governments, the state legislature and state boards 
and commissions. Our comments are based on this exposure though few 
have had the stomach to read the massive set of documents in their 
entirety. A by-product of each exposure to the DEIS has been 
overwhelming confusion and mistrust and a recognition that the end 
product will be purely political.
    It is a master plan that accommodates top down political agendas. 
It disregards local governance, communities and individuals and largely 
ignores economic integrity.
    We think Congress and the Eastside Coalition of Counties had the 
same concerns when they directed the project team to do the analysis of 
the economic and social implication of the plan. Many of our people 
read the resulting document. Dr. Fred Obermiller of Oregon State 
University, a range resources economist, who has testified before these 
kinds of committees many times has stated, ``this report and EIS is an 
attempt to obscure the negative impacts on local communities based on 
data that does not exist and assumptions that can not be validated. I 
expect that implementation of this plan will lead to annihilation of 
rural communities within the scope of the Interior Columbia Basin 
Ecosystem Management Planning area.''
    With this panel before you, that represents essentially the entire 
agricultural and timber communities in our northwestern states opposing 
the DEIS, how do you suppose it happens that the administration 
continues to try to implement this project? If you hesitate to drop the 
ax on this project because some county commissioners are indecisive, it 
should be abundantly clear that their constituents are willing to stand 
up and be counted. Those commissioners are not going to be thrown any 
crumbs of power by the federal government. The counties and the states 
must take back the power that is rightfully theirs and begin to 
determine their own destinies based on the will of their people. This 
administration is running amuck against natural resource users, the 
producers of food and fiber. We are being governed by administrative 
and bureaucratic decree. Congress must act to stop this administration 
running roughshod over Americans in their quest for centralized control 
of land management.
    A stand must be made here, against the ICBEMP, for at stake is not 
just our ability to manage our own land for the benefit of our families 
and communities. At stake now, I fear, is the republic. Again, Thank 
you, Senators.
STATEMENT OF MIKE POULSON, NATURAL RESOURCE CHAIRMAN, 
            WASHINGTON STATE FARM BUREAU
    Senator Gorton. Our second witness is Mike Poulson, of the 
Washington Farm Bureau.
    Mr. Poulson. I thank you very much for this opportunity. 
And it is a great privilege for me to be here. And it is a 
privilege that I am testifying today on behalf of the 
Washington Cattlemen's Association, the Association of 
Washington Wheat Growers, as well as the Farm Bureau.
    After 4 years and $40 million, the ICBEMP management team 
failed to develop a draft plan that provides even a minimum 
framework for managing the resources in the project area. The 
draft writers diverted from the scientific ordering originally 
proposed and responded to public perception and a 
philosophical, nature-knows-best management plan. We have 
developed many critical comments to the DEIS; however, I will 
focus my comments on three areas our members believe is central 
to future resource management: the importance of local 
management responsibility, the reality of resource use; and 
regulation/regulatory agency gridlock.
    While the stated intent at the onset of the Columbia 
drainage assessment was to empower local decisionmakers, the 
proposed plan eliminates local discretion almost entirely. The 
flaw in this approach is that management needs are generally 
site-specific and those closest are best prepared to respond. 
At present, we have a situation where local managers and local 
citizens are unable to address simple and obvious problems, 
like fuel loads, bug kill, and noxious weeds. Those in the 
local area have the greatest interest in protecting and 
managing the natural resources around them and should be given 
the responsibility.
    Human resource needs were not discussed in the plan, other 
than in the context of their contribution to local economies. 
And even that is grossly inadequate. Throughout the draft, 
there is an overriding assumption that the area's resource 
economies can be converted to tourism and recreation economies 
with no net loss. This assumption ignores the role resource/
industry activities play in maintaining environmental quality, 
and the fact that humans are not becoming less dependent on the 
use of resources but more so.
    It does not recognize that limiting and eliminating 
resource use in the project area transfers that production and 
its uncalculated effects to other areas. It does not provide a 
formula to require humans to use less, but requires they be 
developed somewhere else.
    Given what we know today, resource needs are going to 
continue to increase. The only questions are: Where will they 
be produced? How will they be produced? And who will the 
producers be?
    We are fortunate to live in one of the best food, fiber and 
mineral producing areas of the world. We have evolved to be the 
best environmental managers in the world. And yet this plan 
would decrease domestic production and increase import of raw 
materials, while exporting environmental effects of their 
production. We do not need to become dependent on Indonesian 
timber or Brazilian wheat. To force this by locking up our 
resources is both environmentally and economically 
irresponsible.
    The issue of regulatory/regulation agency gridlock, often 
the greatest obstacle to resource protection and management, 
was not seriously appraised in the draft. We feel this is the 
most important challenge in addressing forest, watershed, and 
rangeland health in the project area. Regulation and regulatory 
agencies have evolved to a point that make objective science-
based land use management impossible.
    Many of the laws and regulations that were created to 
protect environmental interests are not compatible and, in 
practice, prevent protection. One example of this is the 
Endangered Species Act, which requires managers to focus on an 
individual species, even at the expense of all other 
environmental or human interests.
    A second and equally bothersome regulatory issue is the 
minority rule that has been given through appeals opportunity. 
Regardless of credibility, and with little or no 
accountability, a single individual can prevent resource use or 
management activity. If the goal is land management that 
results in long-term resource sustainability, it cannot be 
achieved without addressing these issues.
    There are serious flaws in present management practices of 
the Columbia drainage federally managed lands. The challenge is 
not in managing resources, but in managing the bureaucracy. And 
I think that you heard that from every panel that has been up 
here.
    As in welfare reform, if we are going to develop management 
practices that ensure long-term success, local agency directors 
and local governments must be given management responsibility. 
They also need a regulatory atmosphere that allows them to 
manage. It is imperative that Congress take an active role in 
resolving this management dilemma. We ask you to strongly 
consider the following course of action:
    Terminate ICBEMP for its lack of merit; return viable 
ICBEMP science to local agencies for implementation, with local 
citizen and local government involvement; and acquire an 
independent, cumulative effect assessment of all regulations 
that affect resource use and resource management. Without this, 
there can be no relief from management gridlock.

                           Prepared Statement

    I would also like to turn in from my constituents a couple 
of letters from county associations, as well as one that is 
signed on by 20 resource groups in six States.
    Senator Gorton. We will include those in the record.
    Thank you very much.
    [The statement follows:]
                   Prepared Statement of Mike Poulson
    My name is Mike Poulson and I represent the Washington State Farm 
Bureau. I am testifying before you today on behalf of the Farm Bureau 
as well as the Washington Association of Wheat Growers and the 
Washington Cattlemen's Association. Our organizations have followed the 
progress of the Interior Columbia Basin Ecosystem Management Project 
(ICBEMP) since it's inception. The Natural Resources and Environment 
committee I chair for the Washington Farm Bureau was established in 
part due to this project.
    After four years and 40 million dollars the ICBEMP management team 
failed to develop a draft plan that provides even a minimum framework 
for managing the resources in the project area. The draft writers 
diverted from the scientific ordering originally proposed and responded 
to public perception and a philosophical ``nature knows best'' 
management approach.
    We have developed many critical comments to the DEIS, however I 
will focus my comments on three areas our members believe essential to 
future resource management: The importance of local management 
responsibility; the reality of resource use; and regulation/regulatory 
agency gridlock.
    While the stated intent at the onset of the Columbia Drainage 
assessment was to empower local decision-makers, the proposed plan 
eliminates local discretion almost entirely. The flaw in this approach 
is that management needs are generally site-specific and those closest 
are best prepared to respond. At present we have a situation where 
local managers and local citizens are unable to address simple and 
obvious problems like fund loads, bug kill and noxious weeds. Those in 
the local area have the greatest interest in protecting and managing 
the natural resources around them and should be given the 
responsibility.
    Human resource needs were not discussed in the plan, other than in 
the context of their contribution to local economies and even that is 
grossly inadequate. Throughout the draft there is an over-riding 
assumption that the area's resource economies can be converted to 
tourism and recreation economies with no net loss. This assumption 
ignores the role resource industry activities play in maintaining 
environmental quality and the fact that humans are not becoming less 
dependent on the use of resources, but more so. This assumption does 
not recognize that limiting and eliminating resource uses in the 
project area transfers that production and its uncalculated effects to 
other areas. It does not provide a formula to require humans to use 
less, but requires they be developed somewhere else. Given what we know 
today, resource needs are going to continue to increase. The only 
questions are where will they be produced, how will they be produced 
and who will be the producers.
    We are fortunate to live in one of the best food, fiber and mineral 
producing areas of the world. We have evolved to be the best 
environmental managers in the world and yet this plan would decrease 
domestic production and increase import of raw materials, while 
exporting environmental effects of their production. We don't need to 
become dependent on Indonesian timber or Brazilian wheat. To force 
this, by locking up our resources is both environmentally and 
economically irresponsible.
    The issue of ``regulation/regulatory agency gridlock'' often the 
greatest obstacle to resource protection and management was not 
seriously appraised in the draft. Our organizations feel this is the 
most important challenge in addressing forest, watershed and rangeland 
health in the project area. Regulation and regulatory agencies have 
evolved to a point that make objective science based land use 
management impossible. Many of the laws and regulations that were 
created to protect environmental interests are not compatible and in 
practice prevent protection. One example of this is the Endangered 
Species Act that requires managers to focus on an individual species, 
even at the expense of all over environmental or human interests. A 
second and equator bothersome is the ``minority rule'' that has been 
given through appeals opportunity. Regardless of credibly and with 
little or no accountability a single individual can prevent resource 
use or management acting. If the goal is land management that results 
long term resource sustainability, it cannot be achieved without 
addressing these issues.
    There are serious flaws in present management practices of the 
Columbia drainage federally managed lands. The challenge is not in 
managing resources, but in managing bureaucracy. As in welfare reform, 
if we are going to develop management practices that insure long term 
success, local agency directors and local governments must be given 
management responsibility. They also need a regulatory atmosphere that 
allows them to manage.
    It is imperative that Congress takes an active role in resolving 
this management dilemma. Our organizations ask you to strongly consider 
the following course of action: Terminate ICBEMP for its lack of merit; 
return viable ICBEMP science to food agencies for implementation, with 
local citizen and local government involvement; acquire an independent 
cumulative effect assessment of all regulation that effect resource use 
and resource management. Without this there can be no relief from 
management gridlock
STATEMENT OF DAVID A. HALLEY, PULP & PAPERWORKERS' 
            RESOURCE COUNCIL AND UNITED PAPERWORKERS 
            INTERNATIONAL UNION
    Senator Gorton. Mr. Dave Halley, of the Pulp and 
Paperworkers' Resource Council.
    Mr. Halley. Thank you, Senators, Congressman. I would like 
to thank you for the opportunity to be here today and offer 
comments on behalf of the Pulp and Paperworkers' Resource 
Council and the United Paperworkers International Union.
    We were very fortunate in our mill that the leadership of 
our mills' local unions had the foresight, in 1993, to assign 
representatives from various locals to track the progress of 
this project from the start. It sure has not been easy.
    In addition to trying to follow the process while working 
full time, the volumes of information and the time taken to 
complete are simply mind boggling. Many of us have had varying 
opinions of the plan and the process, ranging from cautious 
optimism to disillusion. I like the fact that Congressman 
Nethercutt is here right now, so he can go ahead and tell me, 
``I told you so.'' [Laughter.]
    We believe that the draft EIS is severely flawed in its 
social and economic analysis. By clustering a number of 
counties together, and then analyzing the data based on a 
larger population base, the agency has skewed the data to give 
the impression that the wood products industry is far less 
important than it actually is. In the same manner, it gives 
recreation lands and roadless area lands completely unrealistic 
economic values. To suggest that the value of recreation lands 
is three times that of timber and the value of roadless lands 
is four times that of timber is absolutely ridiculous.
    Most people who travel, and therefore contribute to tourism 
statistics, have a decent, good-paying job back home that 
allows them the luxury to travel. This current unprecedented 
period of economic growth is likely to paint an unrealistic 
picture of how recreation contributes to an economy. It is an 
accepted fact that during downturns in the U.S. economy, 
domestic travel is the first thing that families do without.
    ICBEMP looks at wood products and other resource outputs as 
a secondary priority to ecosystem planning and, as such, the 
strategies outlined in the DEIS do not meet the stated purpose 
of providing predictable levels of commodity output to sustain 
resource-dependent communities. If humans are important in the 
planning, why didn't the socioeconomic analysis have the same 
priority as the other areas covered in the DEIS?
    I suggest that if the priority between the two were 
reversed in the DEIS, this plan would have been dead on 
arrival.
    A second area of concern is the establishment of basinwide 
standards which are required actions. The draft gives little or 
no justification for needing standards at the basinwide level. 
In a reworking of the draft in the summer of 1996, some general 
guidelines were removed and replaced by rigid standards. From 
testimony given at the May 15, 1997, hearing, it was said that 
that was done to tighten up the document and make it more 
resilient to legal challenge. This is likely to severely 
restrict forest managers to come up with innovative solutions 
based on their own on-the-ground expertise.
    Another of the promises that were made in the early stages 
of this project was that the excessive standards for anadromous 
fish protection found in the interim strategies of PACFISH, 
INFISH, and the Eastside screens would be eased. The ICBEMP 
contains more restrictive standards, in the form of riparian 
conservation areas, which in some areas might place up to 80 
percent of the land base off limits to logging.
    Significant restrictions on the kind of management that 
would be allowed in the RCA's is also put in place. For the 
most part, little or no harvest would be allowed, and limited 
vegetation management could occur. This could very well set us 
up for significant destruction of some of these areas in the 
future.
    Forest scientists agree that an aggressive program of fuel 
removal needs to be implemented in order to avoid repeating 
some of the catastrophic wildfires that have plagued the West 
in the nineties. But reducing fuel loads and reintroducing fire 
on the landscape needs to be done with a great deal of common 
sense. We do not need to see millions of board feet of good, 
merchantable timber go up in flames as the Forest Service has 
proposed for the North Locksaw Face, in Idaho.
    Our next major concern is cost. As taxpayers, the time that 
this has taken and the cost of the plan are totally 
unacceptable. Implementation of the preferred alternative would 
cost hundreds of millions of additional dollars--or billions, 
if it goes anything like the planning process. We really have 
to ask ourselves if we can afford to proceed.
    There is also widespread disagreement as to how this 
additional layer of analysis and planning will affect the 
ability of the Forest Service to meet NFMA and NEPA guidelines. 
I do not pretend to understand the full impact of these 
requirements, but I do know one thing: The working-class people 
who depend on a predictable and sustainable level of timber 
harvest from our national forests to support their families and 
commuities cannot afford for this plan to be tied up in court, 
as so many other Federal plans have been in recent years.
    A trememdous amount of time and effort were put into 
gathering the science and information needed to draft the EIS. 
We cannot ignore that fact. But I do think that there are other 
alternatives available to us, other than putting out a final 
EIS and issuing an ROD. Our recommendations are:
    The ICBEMP strategy should be withdrawn or, at the very 
least, narrowed in scope. ICBEMP should rededicate its 
commitment to balancing the economic and social needs of nearby 
communities with efforts to protect the Columbia Basin 
ecosystem. ICBEMP should utilize accurate and timely data to 
assess the DEIS's impacts on timber sales and, more broadly, to 
accurately estimate the strategy's economic impact. The DEIS 
should not set land management standards. Rather, it should be 
used by forest managers as a starting point for amending land 
management plans for each forest in the Columbia Basin.

                           Prepared Statement

    We appreciate the concern with which our congressional 
delegations have approach this matter. The fact that we are 
here today to discuss this again underscores that point with 
us. Please make sure that we end up with a plan that we can all 
live and work with.
    Thank you.
    Senator Gorton.  Thank you, Mr. Halley.
    [The statement follows:]
                 Prepared Statement of David A. Halley
    Mr. Chairman, Senators, Congressmen, ladies and gentlemen, my name 
is David Halley, and I am here today representing the Pulp & 
Paperworkers' Resource Council and the United Paperworkers 
International Union. I work as a recovery boiler operator at Potlatch 
Corporation's Lewiston, Idaho pulp & paper mill. I would like to take 
this opportunity to thank the members of the committee who invited me 
to be here today to offer testimony on the Interior Columbia Basin 
Ecosystem Management Plan's Draft EIS.
    We were very fortunate that the leadership of some of our mill's 
unions had the foresight in 1993 to assign representatives from various 
locals to track the progress of this project from the start. Let me 
assure you that it hasn't been easy. In addition to trying to follow 
the process while working full-time, the shear volumes of information 
compiled and the length of time it has taken to complete are absolutely 
mind-boggling. Many of us have had varying opinions of the plan and the 
process ranging from cautious optimism to disillusion.
    Two years ago this month, I had the opportunity to testify in front 
of the Interior Subcommittee of the House Appropriations Committee 
about the ICBEMP. In preparing today's testimony, I took the 
opportunity to review the testimony I gave then. It became apparent to 
me that I probably could have just recycled my testimony from that 
hearing. Here we are, two years later and not much has changed.
    As a representative of labor, my first areas of concern are jobs 
and community stability. These seem to be the areas in which the Draft 
EIS fails miserably. The stated goals for the ICBEMP were two-fold: a.) 
Restore and maintain long-term ecosystem health and ecological 
integrity, and b.) Support the economic and/or social needs of people, 
cultures, and communities, and provide sustainable and predictable 
levels of products and services from lands administered by the BLM and 
USFS.
    We believe that the Draft EIS is severely flawed in its social and 
economic analysis. By clustering a number of counties together and then 
analyzing the data based on a larger population base, the agency has 
skewed the data to give the impression that the wood products industry 
is far less important than it actually is. In the same manner, it gives 
recreation lands and roadless area lands completely unrealistic 
economic values. To suggest that the value of recreation lands is three 
times that of timber, and the value of roadless lands is four times 
that of timber, is ridiculous.
    With the exception of some wealthy retirees, I know of very few 
``full time tourists.'' Most people who travel and therefore contribute 
to tourism statistics, have a decent, good-paying job back home that 
allows them the luxury to travel. The U.S. is in an unprecedented 
period of economic growth that is likely to paint an unrealistic 
picture of how recreation contributes to an economy. It is an accepted 
fact that during downturns in the U.S. Economy, domestic travel is one 
of the first things that families do without.
    ICBEMP looks at wood products and other resource outputs as a 
secondary priority to ecosystem planning, and as such the strategies 
outlined in the DEIS do not meet the stated purpose of providing 
predictable levels of commodity output to sustain resource-dependent 
communities. If humans are important in the planning, why didn't the 
social-economic analysis have the same priority as the other areas 
covered in the DEIS? If the priority between the ecological and social-
economic factors were reversed in the DEIS, I believe this plan would 
have been dead on arrival.
    A second area of concern is the establishment of basin-wide 
standards, which are ``required actions.'' The draft gives no 
justification for needing Standards at the basin-wide level. According 
to one part of the Draft EIS, standards are effective at fine-and mid-
scale ranges, but not appropriate at a broad scale (Draft EIS, Appendix 
B. figure 2 and 3); however, the Draft EIS nevertheless intends to 
impose 166 Standards at the basin-wide level. In a reworking of the 
draft in the summer of 1996 some general guidelines were removed and 
replaced by rigid standards. It is my understanding from testimony 
given at a May 5th, 1997 hearing that this was done to ``tighten up'' 
the document and make it more resilient to legal challenge. This would 
severely restrict forest managers to come up with innovative solutions 
based on their own on-the-ground expertise. That leads me to believe 
that we are getting back to the old one-size-fits-all, cookie cutter 
approach to land management that has caused gridlock in our region for 
much of the last decade.
    One of the basic promises that were made in the early stages of 
this project was that the excessive standards for anadromous fish 
protection found in the interim strategies of PACFISH, INFISH, and the 
East-side screens would be eased. The ICBEMP contains more restrictive 
standards, in the form of Riparian Conservation Areas, which in some 
areas might place up to 80 percent of the land base off-limits to 
logging. This is a very important part of the DEIS to look at because 
of the significant restrictions on the kind of management that would be 
allowed in RCAs. For the most part, little or no harvest would be 
allowed and limited vegetation management could occur. One has to 
wonder if we wouldn't be setting ourselves up for significant 
destruction of some of these areas in the future.
    Forest scientists agree that an aggressive program of removing fuel 
(thick brush and debris) from forests needs to be implemented in order 
to avoid repeating some of the catastrophic wildfires that have plagued 
the west in the 1990's. They agree that the introduction of fire back 
to the landscape is a positive step in most cases. But reducing fuel 
loads and reintroducing fire on the landscape needs to be done with a 
great deal of common sense.
    We don't need to see millions of board feet of good, merchantable 
timber go up in flames, as the Forest Service has proposed for the 
North Lochsa Face in Idaho. There are modern, positive, silvicultural 
practices available to forest managers today that can and should be 
used to mimic what Mother Nature would do if she was left alone to do 
her job.
    Our next major concern is cost. As taxpayers, the time that this 
has taken and the cost of the plan are unacceptable. Implementation of 
the preferred alternative would cost hundreds of millions of additional 
dollars (billions if it goes anything like the planning process). The 
cost of ecosystem analysis at the watershed scale alone could cost 
nearly half a billion dollars. We really have to ask ourselves if we 
can afford to proceed.
    There is also widespread disagreement as to how this additional 
layer of analysis and planning will affect the ability of the Forest 
Service to meet NFMA and NEPA guidelines. I don't pretend to understand 
the full impact of these requirements, but I do know one thing. The 
working-class people who depend on a predictable and sustainable level 
of timber harvest from our National Forests to support their families 
and communities cannot afford for this plan to be tied up in court, as 
so many other Federal Plans have been in recent years.
    There are a lot of very dedicated and capable people working for 
the U.S. Forest Service. A tremendous amount of time and effort were 
put into gathering the science and information needed to issue the 
Draft EIS. We can't ignore that fact. But I do think that there are 
other alternatives available to us other than putting out a Final EIS 
and issuing a Record of Decision (ROD).
    Our recommendations are:
  --The ICBEMP strategy should be withdrawn or at the very least 
        narrowed in scope.
  --ICBEMP should rededicate its commitment to balancing the economic 
        and social needs of nearby communities with efforts to protect 
        the Columbia Basin Ecosystem
  --ICBEMP should utilize accurate and timely data to assess the DEIS's 
        impacts on timber sales and, more broadly, to more accurately 
        estimate the Strategy's economic impact.
  --The DEIS should not set land management standards. Rather, it 
        should be used by forest managers as a starting point for 
        amending land management plans for each forest in the Columbia 
        Basin.
  --Long-term water quality testing in the basin should be done by a 
        reputable third-party organization taking into account;
  --ICBEMP should consider the current and forecasted decline in 
        industry in the Columbia Basin. Such a decline will result in 
        declining emissions while EPA's new Cluster Rule should lead to 
        further reductions;
  --Emissions from various facilities upstream in Canada that could 
        threaten Ecosystem integrity should be monitored as well.
    We appreciate the concern with which our Congressional delegations 
have approached this matter. The fact that we are here today to discuss 
this again underscores that point with us. Please make sure that we end 
up with a plan that we can all live and work with.
STATEMENT OF LAURA E. SKAER, EXECUTIVE DIRECTOR, 
            NORTHWEST MINING ASSOCIATION
    Senator Gorton. Ms. Laura Skaer, of the Northwest Mining 
Association.
    Ms. Skaer. Thank you, Senator Gorton, Senator Craig, 
Congressman Nethercutt. It is a real honor and pleasure to be 
here to testify on behalf of Northwest Mining today.
    Our association is 103 years old, and we have 2,800 
members. And many of our members earn their living from the 
Federal lands, mining on the Federal lands, and supplying 
services and products to the mines on the Federal lands within 
the Interior Columbia Basin. We have been at the table, working 
with the agencies on this project for over 4\1/2\ years. And it 
was not until about 6 months ago that we finally reached the 
conclusion that this project should not go forward.
    And we reached the conclusion because, despite efforts that 
we made throughout the process to get the agencies to consider 
the impact of this project on mining, the two DEIS's that were 
issued are mute testimony that our suggestions and our efforts 
fell on deaf ears. Then the real concluding factor in our 
decision was the recent socioeconomic analysis, which did 
little more than take existing data and repackage it and put a 
new cover on it.
    And when I started going through that, and came to Spokane 
County, WA, the home of Pegasus Gold and a number of junior 
mining companies, and exploration offices for COMINCO and a 
number of mine service businesses, and found that, according to 
their analysis, there was no mining or mining-related 
employment in Spokane County, to me, that undermines the 
credibility of the entire process.
    Mining on the Federal lands provides the Nation's highest 
paid, nonsupervisory wage jobs. And these jobs are one of the 
cornerstones of our Western rural communities. They also 
provide substantial local, Federal, and State tax revenue. They 
create new wealth that gets spread throughout the economy. And 
they create a number of nonmining-related businesses within 
these communities.
    The ICBEMP analysis shows that mining's impact is one-half 
of 1 percent. Yet, a 1995 study commissioned by the National 
Mining Association on the combined direct and indirect impact 
of mining on the area within the Interior Columbia Basin is in 
excess of $18.2 billion. According to the analysis of the 
ICBEMP team, the nonuse of the land has a greater value than 
the $18.2 billion provided by mining-related activities.
    We think that the project should be stopped and the science 
should be provided to the local land management offices, to be 
used as they, working with people in the local community, deem 
best. There are a lot of reasons that we have set forth in our 
testimony for this, but I want to touch on two of them. They 
have to do with legal issues that we believe are fatal to this 
process.
    One is mining is virtually ignored. We heard Mr. Williams, 
earlier today, talk about that the standards of alternative 4 
would apply to the plan of operations. Yet, there is no 
analysis within any of the DEIS's of the impact of that or how 
these standards would be applied. There is no discussion of the 
relationship to the general mining laws. They seem to treat 
mining as a discretionary activity, which it is not. There is 
no discussion of the Mining and Minerals Policy Act of 1970, 
which require the Federal agencies to manage the Federal lands 
with a mind to the need of the Nation for the mineral resources 
from the Federal lands.
    But a more significant fatal flaw from a legal standpoint, 
we believe, is the complete failure of this document and of the 
ICBEMP team, in 4\1/2\ years, to consider or to analyze the 
impact on small entities, as required by the Regulatory 
Flexibility Act. And we are talking not only about small 
businesses, but we are also talking about small governmental 
jurisdictions. The act defines a small governmental 
jurisdiction as any governmental jurisdiction with less than a 
50,000 population.
    That law has been in effect since 1980, but it was not 
until Congress passed amendments in 1996, which provided 
judicial review, that this law had any teeth, because agencies 
routinely ignored the requirement. Well, on May 13, 1998, in a 
case that we at Northwest Mining Association are very proud of, 
entitled Northwest Mining Association v. Bruce Babbitt, the 
U.S. District Court for the District of Columbia, Judge June 
Green, who was an appointee of Lyndon Johnson in the sixties, 
ruled that the requirements of the Regulatory Flexibility Act 
were mandatory. And she invalidated and set aside some 
regulations that were promulgated by the BLM without compliance 
with that act.
    We believe that Judge June Green's decision is applicable 
to this process, and that the failure of the agencies to do a 
proper Regulatory Flexibility Act analysis dooms the ICBEMP 
process.
    Now, I think that we ought to terminate this project now, 
because the agencies have already admitted in the documents 
that they are unable to comply with that act. And the recent 
socioeconomic analysis that was put together in response to 
Congress' Interior appropriations bill, on page 89, estimating 
effects on communities, the document states: Estimating 
specific effects for every community in the Interior Columbia 
Basin is not practicable.

                           Prepared Statement

    Senators, Judge June Green has made it clear that the 
Regulatory Flexibility Act is not discretionary. It is not an 
issue of practicality. It is a mandatory requirement. And the 
cost--and if they have already admitted that they cannot do it, 
then we need to shut this down, not waste any more taxpayer 
money, and get the science into the hands of the local land 
management agencies.
    Thank you.
    Senator Gorton. Thank you.
    [The statement follows:]
                  Prepared Statement of Laura E. Skaer
    The Northwest Mining Association (NWMA) is a 103 year old 
organization based in Spokane, Washington. The Association is a non-
profit, non-partisan association with over 2,800 members, the majority 
of which depend on access to public lands in the West to earn their 
livelihood. Our membership represents every facet of the mining 
industry, including prospectors, operating companies, manufacturers, 
suppliers, and technical consultants. A significant number of our 
members do business on the federal lands administered by the Bureau of 
Land Management (BLM) and the U.S. Forest Service (USES) within the 
boundaries of the Interior Columbia Basin Ecosystem Management Project 
(ICBEMP). Many reside in neighboring communities affected by ICBEMP and 
other rulemaking activities that apply to federal lands.
    The public lands, including those directly affected by ICBEMP, 
provide a major source of domestic mineral production. Mining on these 
federal lands provides the Nation's highest paid non-supervisory wage 
jobs. These jobs are one of the cornerstones of Western rural economies 
and are the foundation for the creation of much non-mining service and 
support businesses found in or near federal lands in the Pacific 
Northwest.
    Hardrock mining on these federal lands provides substantial local 
and state tax revenues for infrastructure and services, as well as 
federal tax revenues. This is because development of hardrock minerals 
creates new wealth, which is distributed throughout the U.S. economy 
and society. According to an economic study conducted by the Western 
Economic Analysis Center (WEAC) in 1995, the combined direct and 
indirect economic impact of mining on the U.S. economy was $524 
billion. The combined direct and indirect economic impact on Idaho, 
Montana, Oregon and Washington (the states primarily affected by this 
project), was in excess of $18.2 billion.
    Many NWMA members and their families in the local communities are 
dependent on the many opportunities that multiple-use allows. 
Unencumbered access allows the ICBEMP lands to be used for resource 
development, hunting, fishing, recreation, and transportation. Our 
members have expressed serious concerns about ICBEMP impeding or 
denying access to the 72 million acres of federal lands found within 
the planning area. Unwarranted restrictions would interfere with their 
lawful use of the lands for legitimate Congressionally mandated 
purposes, such as mining.
                       the preferred alternative
    Implementation of the `Preferred Alternative' described in the two 
draft environmental impact statements (DEISs) would adversely affect 
the mining industry and resource dependent rural communities throughout 
the Pacific Northwest, and beyond. NWMA has previously been on record 
as being opposed to the project issuing a final EIS and Record of 
Decision unless the serious defects of the DEIS are fully remedied. 
NWMA is now convinced that these serious defects will not and cannot be 
corrected because of an agenda originating in Washington, D.C. that 
would use ``ecosystem management'' as an excuse to deny access to the 
public lands for mining, logging, grazing, and motorized recreation.
    The Association is left with little choice but to oppose this 
project going forward. There should be no Final EIS and no Record of 
Decision. The science that has been developed should be made available 
to the local land managers for use in implementing and improving 
existing land management plans in accordance with the principles of 
multiple-use as mandated by Congress.
    NWMA has been actively involved in this massive project since 
before it officially got underway. We have tried to play a constructive 
role by offering numerous comments and suggestions, both in writing and 
at the many public meetings that have been conducted over the past five 
years. The DEISs stand as mute testimony that our input has fallen on 
deaf ears.
    Please note that initially NWMA did not stand in opposition to this 
planning effort. Our organization recognizes that the current federal 
land management system needs improvement. We were hopeful that the 
original direction of ICBEMP would produce good science and sound 
policy that could be used at the local level to better manage our 
federal lands. The current direction of ICBEMP has created a 
frustrating situation for the mining community. The miners in our 
region have seen routine exploration activities disrupted and 
experienced lengthy permitting delays because of conflicting agency 
directives and federal court orders under the current management 
approach. Unfortunately, ``ecosystem management'' as currently 
described by the BLM and USFS will only make matters worse. Cumbersome 
procedures and new prescriptive standards will be imposed, adding to 
the delays and greatly increasing the costs to our industry without 
measurably improving environmental quality.
    Our analysis has revealed numerous technical and legal problems 
with the documents, including the fact that mining is virtually ignored 
in the overall analysis. Even though the BLM and USFS admit that this 
deficiency exists, it has been made clear that mining issues are not a 
priority for the Executive Steering Committee. This comes as little 
surprise given the public statements of USFS Chief Michael Dombeck and 
BLM Director Pat Shea. At a Symposium on Federal Land Policy held in 
Boise, Idaho on February 11, Chief Dombeck failed to mention any role 
for mining, logging, oil and gas, grazing, agriculture or multiple-use 
in discussing his agency's vision for the future.
    Director Shea told the audience that we are in the era of the ``New 
West'' where service industry and tourism jobs replace mining, and 
logging. In other words, our members should give up their $30,000 to 
$45,000 per year jobs with 30 percent benefits in return for $5.00 to 
$7.00 per hour jobs, with little or no benefits. It is imperative that 
the BLM and USES meet all legal mandates of the General Mining Laws of 
the U.S., the Mining and Mineral Policy Act of 1970, the National 
Forest Management Act (NFMA), the Federal Land Policy and Management 
Act (FLPMA), NEPA and other statutes applicable to mining in these 
documents.
                  deficiencies in the draft documents
    Our organization has reviewed the DEISs addressing the consequences 
of the ecosystem management project alternatives. While NWMA respects 
the great effort the agencies have devoted to the project, there 
remains a deep concern about the many serious inadequacies and the 
following fatal flaws found in the draft documents.
    1. Nowhere in the Preferred Alternative is it explained how the 
agencies will know when their goals have been achieved or how the new 
system would be implemented.--Further, it is presumed that the 
fundamental problem has been a failure to manage for ecological 
integrity. The truth of the matter is that many of the environmental 
concerns listed in the DEISs have been, in large part, created by 
present regulatory policies and laws which often work against each 
other and are counter productive to environmental protection. Also, 
virtually ignored is the fact that a primary contributor to the current 
situation is questionable allocation of available resources by the 
agencies in carrying out their mission, not the underlying management 
philosophy. There is little reason to believe that this will change any 
time soon. Furthermore, there is no reason to believe that a change in 
management philosophy will solve the more basic management problems.
    2. We are especially troubled by the complete absence of a 
substantive evaluation of the effects on mining and minerals.--It is 
very clear the DEISs in their current form do not meet the legal 
mandates set forth by NEPA, nor do they allow the affected public to 
meaningfully understand the results of implementing the proposal in 
regard to mineral development. Furthermore, there is no reference or 
discussion of the Mining and Minerals Policy Act of 1970, which 
requires the federal land management agencies to encourage the 
development of federal mineral resources. As written, the Preferred 
Alternative violates this law because the development of federal 
mineral resources will clearly be discouraged. Without reasonable 
access, exploration and development of mineral resources is impossible. 
Without significant revisions, such as defining key terms and 
correcting the socio-economic analysis, and a major expansion and 
revision of the mining discussion, the proposed program is not only 
legally insufficient, it is doomed to failure.
    As we have suggested several times before, the ICBEMP team should 
have properly integrated mineral related activities into the DEISs 
using the proven approach pioneered by the Tongass National Forest in 
Alaska. This approach meets the purposes of NEPA and NFMA (as well as 
FLPMA) because: (a) it provides clear direction to forest supervisors; 
(b) informs the public about probable environmental impacts; (c) 
describes a range of possible mitigating measures; (d) gives miners the 
information they need for sound project planning and greater 
predictability in regard to the plan of operation approval process.
    As it now stands, the DEISs are so inadequate that it would be very 
difficult for a forest district or resource management area to use them 
as the foundation to do an EA or EIS for any mining project. This 
situation will create confusion within the agencies and prevent timely 
consideration of even the most routine exploration proposal. Full-scale 
mining proposals will face even greater burdens than they do today.
    3. The documents assert that the Preferred Alternative presents a 
workable balance between ecological restoration and the provision of 
goods and services.--This is to be achieved through active management 
using an integrated ecosystem management approach. However, somewhere 
along the way the agencies forgot about Congress and the direction 
provided by NFMA and FLPMA. This points out another very fundamental 
problem. There is no convincing legal rationale for shifting from 
management for multiple-use based on human needs to an ecosystem-based 
management philosophy that places survival of human communities a 
distant second.
    The BLM and USES cite the Endangered Species Act that requires them 
to conserve listed species and the ecosystems upon which they depend. 
However, Congress declined making ecosystem protection the law of the 
land, despite several opportunities to do so in recent years. For 
example, the U.S. Senate refused to ratify the United Nations 
Convention on Biological Diversity, which requires governments to 
protect ecosystems as separate components of biodiversity. Neither 
FLPMA nor the NFMA provides for an ecosystem management philosophy. The 
U.S. Senate took no action on S. 93, the ``Ecosystem Management Act of 
1995.'' That bill would have amended FLPMA to state that ``It is the 
policy of the federal government to carry out ecosystem management with 
respect to public lands.''
    A 1994 GAO report entitled Ecosystem Management--Additional Actions 
Needed to Adequately Test a Promising Approach, concluded: ``Currently, 
there is no government-wide legal requirement to maintain or restore 
ecosystems as such. Moreover, there are no acts or regulations that 
define or delineate ecosystems.'' Nothing has really changed since 
1994.
    4. The entire legal basis for proceeding with the proposed 
management direction must be called into question, especially since 
specific statutory requirements pertaining to multiple-use and mining 
would be ignored or seriously compromised.--For example:
    A. The DEISs provide inappropriate, overly restrictive direction to 
forest and district planning efforts, especially in regard to non-
discretionary mining activities.--The preferred alternative relies very 
heavily on prescriptive approaches to management intended to mitigate 
possible impacts from logging and grazing activities. There is a 
notable emphasis on eliminating existing roads and limiting new roads. 
These rigid restrictions are to automatically apply to mining 
activities unless the mining company agrees to undertake a costly 
``watershed analysis'' at its own expense to prove otherwise. This is 
burdensome, even as part of a full mine proposal EIS, and completely 
unacceptable in regard to receiving an approval to conduct an 
exploration project. Exploration projects are very sensitive to delays 
and mitigation costs that are disproportionate to their actual 
environmental impacts. It is vital that specific examples illustrating 
the nature of operational changes expected to be imposed on miners are 
included.
    Mining remains an important activity in the Columbia Basin and the 
agencies have a statutory obligation to support mineral development. It 
is improper to treat all mining as if it were a discretionary activity 
on the part of the agencies. Both locatable and leasable minerals have 
their own unique statutes and regulations to minimize environmental 
impacts. The current EIS process is not a substitute for the legally 
mandated rulemaking procedure, and does not provide meaningful relief 
to interim management policies such as PACFISH and INFISH.
    B. The socio-economic analysis is biased and incomplete.--The anti-
development tone of the work in this section is obvious and undermines 
the credibility of the entire document. In our opinion, it is 
unscientific. The smoke and mirrors employed in comparing ``economic 
wealth'' to ``economic value'' is the most instructive. Somewhere along 
the line it was decided by the authors that comparing activities that 
create new wealth, like mining, logging, and ranching to activities 
that create good feelings, like sitting in an office in New York City 
and day-dreaming about roadless areas out West, was somehow unfair. 
After all, they reasoned, feelings have an intrinsic ``value'' which 
normal economic indicators do not measure. So, in the name of fairness, 
the dollar value of daydreaming had to be determined. People were asked 
how much it was worth to them to know that roadless areas (or 
wilderness or free-range salmon or whatever) simply existed. The people 
polled were not forced to do any kind of reality check such as actually 
sending in money to test the value of daydreaming. Nonetheless, a 
mathematical formula was developed and the result was declared to be 
the true economic ``value'' of non-use. This value was treated as being 
just as real as the more traditional concept of ``wealth'' in ICBEMP's 
economic analysis. It turns out that 42 percent of the total economic 
output from the BLM and USFS administered lands in the Columbia Basin 
is from ``non-use,'' and this ``imaginary value'' is greater than the 
economic value of timber, mining and recreation combined. The value the 
socio-economic studies attribute to mining is a fraction of the true 
value as determined by the WEAC study in 1995, which indicated mining 
contributed in excess of $18.2 billion.
    Taking the logic used by the agencies to its conclusion, the 
economic output of the region could theoretically go up if all natural 
resource industries were shut down. To make matters worse, these same 
politically charged anti-natural resource industry and anti-traditional 
rural community statements are now appearing in DEISs for specific 
mining projects. An example is the recently released Supplemental DEIS 
on ASARCO's Rock Creek Project near Noxon, Montana. A sampling is 
attached as Exhibit 2. This is one example of why there is so much 
distrust and skepticism about this project and its purposes being 
expressed by the public.
    The stated environmental objectives can be met through approaches 
that are less disruptive to the economies of local communities. 
Statements alluding to affected communities having ``largely completed 
the transition away from a timber based economy'' and that ``a limited 
amount of new mining is expected due to lengthy permitting delays that 
are driving investment overseas'' only serve to reinforce the 
impression that very real adverse economic impacts due to lackluster 
agency performance are being glossed-over. In other words, excessive 
regulatory processes that appear designed to delay and thwart 
legitimate natural resource development opportunities are creating a 
self-fulfilling prophecy. It is obvious that the open hostility of some 
public officials and special interest groups to natural resource 
development is designed to destroy the custom and culture of Western 
rural resource dependent communities and force them to change, whether 
they want to or not.
    Soon after the DEISs were released to the public, a consortium of 
county governments expressed serious concerns about both the methods 
and conclusions of the socio-economic section. In response, the BLM and 
USFS promised to do additional studies and thoroughly revamp this part 
of the documents. Congress also mandated a new socio-economic analysis 
in the 1997 Interior Appropriations Bill. Unfortunately, when the 
revision became available, it quickly became apparent that no 
substantive changes had been made and the same questionable conclusions 
were drawn. The traditional economies of Western rural communities are 
basically written off.
    NWMA member companies such as Cominco American Incorporated, 
Western Mine Engineering, Inc., Yamana Resources, Inc. and the other 
mining companies in Spokane County, and Battle Mountain Gold in 
Okanogan County, Washington would be surprised to learn that according 
to the revised report there is no mining employment in these counties. 
An examination of the revised report reveals numerous other examples of 
insupportable conclusions about the communities impacted by ICBEMP.
    C. The DEISs contain no analysis of the impacts on small entities 
as required by the Regulatory Flexibility Act and the Small Business 
Regulatory Enforcement Fairness Act (5 USC Sec. 601 et. seq.).--The 
Preferred Alternative would clearly have serious adverse impacts on 
small entities throughout the Interior Columbia Basin. Neither the 
DEISs nor the supplemental socio-economic analysis contain the required 
analysis of the impacts of the seven alternatives on small entities 
mandated by the Regulatory Flexibility Act (RFA), and the Small 
Business Regulatory Enforcement Fairness Act (SBREFA) 5 USC Sec. 601 
et. seq.
    Congress passed the Regulatory Flexibility Act in 1980 to address 
the failure of federal government agencies to recognize differences in 
the scale and resources of regulated entities has adversely affected 
competition in the marketplace, discouraged innovation, restricted 
improvements and productivity, and discouraged entrepreneurship. 
Congress also found that treating all entities equally led to 
inefficient use of regulatory agency resources, enforcement problems, 
and actions that were inconsistent with legislative intent. Congress 
decided that agencies should be required to solicit comments from small 
entities, examine the impact of the proposed and existing rules on 
small entities, examine regulatory alternatives that achieve the same 
purposes while minimizing small business impacts, and review the 
continued need for existing rules.
    The RFA requires federal agencies to prepare and publish a 
regulatory flexibility analysis ``whenever an agency is required by 
Section 553 of this title, or any other law, to publish general notice 
of proposed rulemaking for any proposed rule, * * *'' The RFA also 
requires a final regulatory flexibility analysis when issuing a final 
rule for each rule that will have a significant economic impact on a 
substantial number of small entities. The proposed action and ROD meets 
the test of being a rulemaking.
    The RFA defines small entity to have the same meaning as small 
business, small organization and small governmental jurisdiction. Small 
governmental jurisdiction means governments of cities, counties, towns, 
townships, villages, school districts or special districts, with a 
population of less than 50,000. Small organization is defined to mean 
any not-for-profit enterprise which is independently owned and operated 
and is not dominant in its field. Small business is defined to have the 
same meaning as the term small business concern under Section 3 of the 
Small Business Act. The RFA provides that an agency, after consultation 
with the Office of Advocacy of the Small Business Administration and 
after the opportunity for public comment may establish a different 
definition for each of those terms which are appropriate to the 
activities of the agency and publishes such definitions in the Federal 
Register.
    The original RFA exempted an agency from these requirements if the 
agency certified that the rule will not, if promulgated, have a 
significant economic impact on a substantial number of small entities. 
Note that this is the exception, not the rule. However, Congress found 
that many agencies simply ignored the RFA by relying on the 
certification of ``no significant economic impact'' in order to avoid a 
full regulatory flexibility analysis. Since agency compliance with the 
RFA was not judicially reviewable, agencies could not be held 
accountable for their non-compliance with the statute. Thus, 
recognizing widespread agency indifference, Congress amended the RFA by 
enacting SBREFA. SBREFA requires agencies to provide a statement of the 
factual basis for a certification of ``no significant economic 
impact.'' It is clear that Congress intended that the factual basis 
requirement would provide a record upon which a court may review the 
agency's actions. Thus, an analysis is required in order to provide a 
factual basis.
    SBREFA also provides for judicial review of an agency's final 
decision under the RFA. In addition, the judicial review provisions of 
the RFA now include review by a court of the certification by the head 
of an agency that the final rule will not, if promulgated, have a 
significant impact on a substantial number of small entities.
    On May 13, 1998, the United States District Court for the District 
of Columbia issued a favorable interpretation of the RFA as amended by 
SBREFA in Northwest Mining Association v. Bruce Babbitt, Secretary, 
Department of Interior and the Bureau of Land Management. The court 
invalidated hardrock mining regulations that were enacted almost six 
years after the close of the public comment period because the BLM 
failed to comply with the procedural mandates of the RFA in 
promulgating the rules. The ruling in this case affirms the RFA's 
mandate on federal agencies to use the procedures set forth when 
analyzing the proposed impact of agency actions on small entities. It 
is also important to note that the court acknowledged the agency's 
responsibility for maintaining the rights and protecting the interests 
of small entities in the rulemaking process. Judge Green, who was 
appointed to the bench by President Lyndon Johnson, concluded her 14-
page Decision Memorandum stating: While recognizing the public interest 
in preserving the environment, the Court also recognizes the public 
interest in preserving the rights of parties which are affected by 
government regulation to be adequately informed when their interests 
are at stake and to participate in the regulatory process as directed 
by Congress.
    The mandates of the RFA require the agencies to analyze the impact 
of the ICBEMP proposal on all small businesses, small organizations and 
small governmental jurisdictions. There is no question that this is a 
monumental task given the size of the area encompassed by the ICBEMP 
proposal. However, the language of the RFA is not discretionary. The 
size of the effort and the costs involved are not reasons to ignore the 
interests of small entities. A U.S. District Judge has made it clear 
that the failure to comply with the RFA will invalidate an agency's 
action. A copy of the court's decision in NWMA v. Babbitt, et. al. is 
attached to this testimony and incorporated by reference.
    Also attached to this testimony is a ``Dear Colleague'' letter from 
Congressman James M. Talent, Chair, Committee on Small Business, U.S. 
House of Representatives, acknowledging the significance of the courts 
ruling in NWMA v. Babbitt, et. al. In the concluding paragraph of his 
letter, Chairman Talent states ``When the Congress passed SBREFA in 
1996, the message was that federal agencies could no longer ignore our 
nation's small businesses. It's clear that the courts have begun to 
uphold the spirit and letter of the law.'' The federal government does 
not need to waste more taxpayer money on a process that is clearly 
fatally flawed and legally insufficient.
    The 144 million acres being addressed by the two DEISs of the 
ICBEMP contain numerous small entities. With relatively few exceptions, 
almost every county, city, township, village, school district or 
special district qualifies as a small governmental jurisdiction. 
Furthermore, it is estimated that more than 90 percent of all of the 
businesses affected by the ICBEMP proposal are ``small businesses'' as 
that term is defined by the Small Business Act. Furthermore, there is 
no question that ICBEMP, with its standards, rules and mandatory 
guidelines is an action required by 5 USC Sec.  553 to publish a 
general notice of proposed rulemaking.
    ICBEMP has failed to comply with the RFA, as amended by SBREFA, in 
that it did not prepare and make available for public comment an 
initial regulatory flexibility analysis. The RFA requires that the 
initial regulatory flexibility analysis be published in the Federal 
Register at the time of the publication of general notice of proposed 
rulemaking for ICBEMP. The agencies also are required to transmit a 
copy of the initial regulatory flexibility analysis to the Chief 
Counsel for Advocacy of the Small Business Administration.
    The RFA requires that each initial regulatory flexibility analysis 
contain:
    1. a description of the reasons why action by the agency is being 
considered;
    2. a succinct statement of the objectives of, and legal basis for, 
the proposed action;
    3. a description of and, where feasible, an estimate of the number 
of small entities to which the proposed action will apply;
    4. a description of the projected reporting, record keeping and 
other compliance requirements of the proposed action, including an 
estimate of the classes of small entities which will be subject to the 
requirement and the type of professional skills necessary for 
preparation of the report or record; and
    5. an identification, to the extent practicable, of all relevant 
federal rules which may duplicate, overlap or conflict with the 
proposed rule.
    Each initial regulatory flexibility analysis shall also contain a 
description of any significant alternatives to the proposed rule which 
accomplish the stated objectives of applicable statutes and which 
minimize any significant economic impact of the proposed rule on small 
entities. Consistent with the stated objectives of applicable statutes, 
the analysis shall discuss significant alternatives such as:
    1. the establishment of differing compliance or reporting 
requirements or timetables that take into account the resources 
available to small entities;
    2. the clarification, consolidation, or simplification of 
compliance and reporting requirements under the rule for such small 
entities;
    3. the use of performance rather than design standards; and,
    4. an exemption from coverage of the rule, or any part thereof, for 
such small entities.
    The RFA further requires a final regulatory flexibility analysis 
when an agency promulgates a final rule. Each final regulatory 
flexibility analysis is required to contain:
    1. A succinct statement of the need for, and objectives of, the 
rule;
    2. A summary of the significant issues raised by the public 
comments and response to the initial regulatory flexibility analysis, a 
summary of the assessment of the agency of such issues, and a statement 
of any changes made in the proposed rule as a result of such comments;
    3. A description of and an estimate of the number of small entities 
to which the rule will apply, or an explanation of why no such estimate 
is available;
    4. A description of the projected reporting, record keeping and 
other compliance requirements of the rule, including an estimate of the 
classes of small entities which will be subject to the requirement and 
the type of professional skills necessary for preparation of the report 
or record; and,
    5. A description of the steps the agency has taken to minimize the 
significant economic impact on small entities consistent with the 
stated objectives of the applicable statutes, including a statement of 
the factual, policy, and legal reasons for selecting the alternative 
adopted in the final rule and why each one of the other significant 
alternatives to the rule considered by the agency which affect the 
impact on small entities was rejected.
    It is clear that the ICBEMP Team has made no effort to comply with 
the requirements of the RFA. NWMA submits that the RFA requires the 
agencies to, at the very least, conduct an initial regulatory 
flexibility analysis and republish the ICBEMP proposal together with 
the initial regulatory flexibility analysis and seek public comments as 
required by law. It is legally indefensible for the agencies to attempt 
to issue a record of decision in this matter without complying with the 
requirements of the RFA. NWMA further submits that the agencies' 
failure to comply with the RFA and to prepare and publish an initial 
regulatory flexibility analysis compels the agencies to conclude that 
no record of decision should be issued, and the EIS process be stopped. 
The lead agencies, with the assistance of a peer review committee, 
should analyze the science that has been developed and provide it to 
the local land managers for utilization in implementing or amending 
local plans.
    D. Qualitative value judgments based on undefined terms, not 
quantitative science, are the primary drivers of the management 
direction outlined in the DEISs.--The documents admit that absolute 
measures of ecosystem integrity do not exist, and that it is difficult 
to measure. However, they go on to assert that pre-settlement ecosystem 
dynamics must be ``restored'' and imply that human activity is an 
undesirable environmental factor. What concrete direction is provided 
is prescriptive and restrictive. Examples include no activities in 
riparian areas, removal of existing roads, and limited construction of 
new roads. Such management standards are not science based and conflict 
with several statutes that mandate multiple-use and reasonable access. 
The following quotes are illuminating: ``The debate over ecosystem 
management is really about whose values will determine resource 
management. * * *'' Ron Johnson, Economist, Montana State University. 
``The goal of ecosystem integrity places the protection of ecosystem 
patterns and processes before satisfaction of human needs.'' Ed 
Grumbine, The Sierra Institute.
    E. The DEISs are fatally flawed because of over-reliance on 
unproven concepts whose definitions are vague, ambiguous, or non-
existent.--Two of the most important phrases in the documents, 
ecosystem integrity and within the capability of the ecosystem are not 
defined. The term `ecosystem' itself is not defined anywhere in the 
DEISs. Regional Forester Robert Williams, based in Portland, Oregon, 
has stated that an ecosystem is, ``*  *  *  whatever I need it to be to 
address the problem.'' Jack Ward Thomas, former Chief of the U.S. 
Forest Service said, ``I promise you I can do anything you want to do 
by saying it is ecosystem management  *  *  *  it's incredibly 
nebulous.''
    F. The DEISs assume that natural undisturbed systems are the ideal 
model for determining land management goals, that pre-settlement 
ecosystem dynamics must be ``restored'' and that human activity is an 
undesirable environmental factor.--The Preferred Alternative states its 
goal is to ``restore'' natural functions on a landscape scale, yet 
fails to tell how this idealistic goal will be implemented. Mimicking 
natural systems can provide us with more management tools. However, the 
assumptions that all natural forces are benign and nurturing, and all 
human activities must be classified as destructive, are false. Primae 
facie evidence is Mt. St. Helens, which wrecked havoc on the Columbia 
Basin Ecosystem. And, we might add, without the approval of the USFS, 
BLM, or any other federal agency.
    G. Effects on State, Local, Tribal and Private Land ignored.--The 
DEISs continually assert that the ROD will provide direction only for 
public lands administered by the BLM or USFS in the project area, and 
will make no management decisions for any state, local, tribal or 
private lands. However, since so much is undefined, the ICBEMP Team is 
not in a position to offer reassurances that decision-making on private 
lands or at the state and local levels will not be affected. After all, 
if all the ecosystem restoration objectives cannot be met by changes in 
how federal lands are used and managed, is obvious that USFWS and NMFS 
will be compelled to make up the ``difference'' elsewhere. The agencies 
have the legal and moral responsibility to include in the assessment 
the probable impacts the new federal management direction will have on 
non-federal lands in the Columbia River Basin. For example, if all the 
ecosystem restoration objectives for ESA purposes cannot be met by 
changes in how federal lands are used and managed, then how will this 
affect policies of agencies like USFWS and NMFS toward private, state 
and tribal lands?
                               conclusion
    In closing, NWMA believes there is a compelling need to improve the 
management approach used to by the BLM and USFS to administer the lands 
under their jurisdiction. An awful lot of time and money has been spent 
by federal agencies and the private sector over the past 5 years. The 
most regrettable aspect of all is that the ICBEMP process seemed to 
begin with a high level of integrity, but now appears to be falling 
prey to the whims of political appointees in Washington, DC. Political 
science has been substituted for good science throughout the DEIS. It 
is most blatant in the sections on socio-economics. It seems that the 
deep concerns our members, along with many other groups, had from the 
beginning about the ultimate outcome are coming to pass. We were 
assured that there would not be abrupt changes in management 
philosophy, and that details would be worked out at the local level. 
Instead, we have been presented with a classic command-and-control-
from-Washington, D.C. model for managing federal lands in the West. It 
is a plan that attempts to circumvent Congress and tells people, 
especially the people who live in the Interior Columbia Basin, that 
they are second class citizens. It is a plan that discourages, and in 
many cases, prevents the creation of new wealth. It is a plan that will 
ensure the economic destruction of our Western rural communities and 
have a significant adverse impact on the American economy.
    We believe a preview of what ``ecosystem management'' will really 
mean has been shown to us by the USFS in the form of a proposed road 
building moratorium for so-called roadless areas.--It seems ironic that 
much of the proposal addresses closing roads or not maintaining roads 
found in ``roadless'' areas. It is also interesting to note that the 
acreage potentially affected by the proposal is greatly expanded 
because the agency has taken it upon itself to redefine what 
constitutes a roadless area. The Moratorium, if implemented, will place 
more than 30 million acres off-limits not only to miners, loggers and 
ranchers, but recreational users as well. Carl Pope, executive director 
of the Sierra Club called the road moratorium a ``30 million acre 
withdrawal'' in the presence of Chief Dombeck, Director Shea and Deputy 
Secretary Bob Armstrong, and no one bothered to challenge or correct 
his statement.
    This USFS proposal stands as the perfect example of how the 
Administration, through the federal land management agencies, EPA and 
CEQ is becoming increasingly bold about circumventing the will of 
Congress.--The agencies are, in fact, attempting to change national 
policy through executive fiat and bureaucratic rulemaking, many times 
in direct contradiction to the laws passed by Congress. It is 
unfortunate that the Administration's agenda does not seem to include 
obeying Congress, maintaining natural resource industries or helping 
working people.
    It must be recognized that people are our most important resource 
and that poverty is the great polluter. Economic health and ecological 
health go hand in hand. Study after study has shown that you won't have 
strong support for ecological concerns if the economy is failing. It is 
said that the public lands are a national commons. Each one of us has a 
claim in this national commons, but those with the greatest stake are 
the people of the region, those who live in our resource-dependent 
communities.
    Almost one-third of the United States is public lands and well over 
90 percent of it lies west of the 100th Meridian. Our public lands 
contain vast quantities of minerals, timber, water, and grasslands as 
well as beautiful scenery and diverse wildlife. There is enough for all 
of us to share and use wisely. The preservationists have a right and 
proper share of this national commons in the form of National Parks, 
Wilderness Areas and other reservations. However, there must be a 
balance struck between use and non-use. Other stakeholders include 
everyone (preservationists too) who use the minerals, oil, natural gas, 
timber and food produced from the public lands. In order for each of us 
to share in the natural resource wealth of our public lands, we must 
rely on an intermediary: a mining company, an oil company, a timber 
company, a rancher or a farmer. They are the ones who live in the rural 
West and responsibly make their living from the land. They depend on 
the production of natural resources to support their families. These 
rural stakeholders who act on behalf of all who live in our great urban 
areas, must have access to produce the minerals, the timber, the 
petroleum and the food that the rest of society requires and demands. 
No one in the Federal Government has the right to tell them they are 
irrelevant and obsolete.
    Congress was very wise in providing that the public lands be 
managed according to the principles of multiple-use. Any other policy 
will reduce the economic diversity of our society and increase the 
likelihood that the United States will fight more resource wars. The 
battle over our ability to continue to develop our resources goes to 
the heart of what this country is about. It is a battle about the 
United States of America as we know it, as we knew it, and hopefully, 
as it will be.
    Based on the information contained in the DEISs, it is clear that 
the preferred alternative would greatly, and needlessly, restrict human 
economic use of the public lands (as measured by the flow of real 
dollars through the region). It would eliminate multiple-use, create 
new delays in land use decision-making, and increase the level of 
litigation and administrative appeals. At the same time, the documents 
indicate that the amount of measurable improvement in overall 
environmental quality would be relatively low under any of the 
alternatives.
    Given the enormous amount of work needed to resolve the major 
problem areas pointed out above, we believe it is a mistake for 
Congress to further allocate funds to ICBEMP. It is time to stop the 
project, dismantle the ICBEMP Team and allow the local land managers to 
utilize the good science, as opposed to political science, developed by 
the Project Team to help implement land management policy according to 
the laws passed by Congress and judicial decisions.
    Thank you for considering these comments in support of continuing 
to manage the federal lands within the Columbia River Basin according 
to the time tested principles of multiple-use.
STATEMENT OF ADENA COOK, PUBLIC LANDS DIRECTOR, BLUE 
            RIBBON COALITION, INC.
    Senator Gorton. Ms. Adena Cook, Public Lands Director of 
the Blue Ribbon Coalition, Inc., from Idaho Falls.
    Ms. Cook. Thank you, Senators, for inviting me here and 
giving me the opportunity to talk to you about recreation and 
how ICBEMP treats recreation.
    It is schizophrenic, like Dr. Jekyll and Mr. Hyde. And on 
one hand it acknowledges the importance of recreation to the 
region and that recreation on public lands is increasing, and 
that recreation contributes to local economies. Yet when you 
get down to the details of the document and its standards, Mr. 
Hyde is right there. A different, negative direction emerges. 
Mandated road density standards will eliminate access. Riparian 
conservation areas will close roads, trails, and campgrounds. 
And active restoration--the key theme of a selected 
alternative--is but a euphemism for closing roads.
    Yes; it acknowledges the importance of recreation and 
roads. It says recreation on public lands is important, that 
roads are essential and support recreation, and that recreation 
generates many jobs. And as you very aptly state, it says more 
than any other kind of jobs in the region. Well, you can 
dispute that or not, but it is there.
    And the guidelines support this in warm and fuzzy terms. 
For example, the guideline that says recreation opportunities 
are consistent with public policies and abilities. Well, I 
cannot disagree with that.
    And how about this support of tourism. It says: Tourism 
opportunities fit well into the ecosystem, and the natural 
environment is the central attraction.
    Well, Senator, I am a snowmobiler. And when I am 
vacationing in Stanley, ID, and I am skimming across the fresh 
powder, with the Sawtooth Mountains in the background, I assure 
you that the natural ecosystem is the central attraction.
    But this curious guideline makes me a little bit uneasy. It 
says: Construction, management, and visitation take place with 
the goal of minimizing energy usage, and encouraging people 
involved with the tourism opportunity to be environmentally 
sensitive.
    Now, what does this mean? Does this mean they are going to 
turn down the thermostats in the visitor centers? Well, I do 
not know.
    However, when you get down to the standards, it translates 
these vague guidelines into closures. The RM standards propose 
closures in every forest and range cluster. Broadly stated, it 
means that up to 50 percent of the roads on public lands in 
Idaho could be affected and closed.
    The riparian conservation area standards will close trails 
and campgrounds and access next to streams. Now, where do we 
like to go when we recreate on our public lands? It is next to 
a stream. We will not be able to take our children there. We 
will not be able to get there. The chosen alternative, active 
restoration, translates to road and recreation closures.
    But ICBEMP itself fails to analyze the effects of these 
standards on recreation and access, even though good data is 
out there. So, we need to pull the plug on this. We need to 
withdraw it. Do not throw good money after bad.
    We need to use the science that is out there. But 
recreation management is not rocket science. It is common 
sense. And land managers at the local level, right now, use 
this, and they use it in cooperation with State agencies and 
with other public entities, counties, and even individuals, 
even volunteers. These partnerships must be strengthened, and 
they must be elevated to the planning level.

                           Prepared Statement

    Now, it is ironic that Yellowstone Park, right now, has 
instituted a partnership among the participating agencies, 
among the States and surrounding counties for the planning of 
recreation management for winter. And I do not see why the rest 
of the forests and their surrounding counties, and the State 
agencies cannot participate in a similar way. That is where we 
need to go.
    Thank you.
    Senator Gorton. Thank you very much.
    [The statement follows:]
                    Prepared Statement of Adena Cook
    ICBEMP's treatment of recreation is schizophrenic, like Jekyll and 
Hyde. On one hand, it acknowledges the importance of recreation in the 
region, and that recreation on public lands is increasing. It states, 
in generally positive language, that recreation contributes to local 
economies. The guidelines are so vague as to appeal to nearly everyone, 
and are generally positive in tone.
    However, when the implementing details are sifted from the bowels 
of the document, a different, negative direction emerges. Mandated road 
density standards will eliminate access. Riparian Conservation Areas 
(RCA) standards will close roads, trails, and campsites. ``Active 
restoration'', the key theme of the selected alternative, is a 
euphemism for closure of roads and access.
    Finally, ICBEMP fails to acknowledge, let alone accommodate 
motorized recreation. Readily available facts are ignored. Its policies 
will result in the displacement of these sports, enjoyed by an 
increasing number of people in the region.
ICBEMP acknowledges the importance of recreation and the role that 
        roads play.
    ICBEMP presents these recreation facts:
  --Roads constructed for commodity use now are used 60 percent for 
        recreation.
  --``Roaded natural'' settings receive about 75 percent of all 
        activity days.
  --Roads supply or enable the majority of recreation use, including 
        winter recreation.
  --Area wide recreation supports 190,000 jobs (p. 186) or 
        alternatively 225,600 jobs (p. 178). Whichever figure is 
        accurate, ICBEMP states categorically: that recreation 
        generates more jobs than other uses of Forest Service and BLM 
        lands.
    From these statements, ICBEMP acknowledges and documents that, 
area-wide:
  --Recreation on public lands is important.
  --Roads support recreation.
  --Recreation generates many jobs, more than other uses of public 
        lands.
ICBEMP's guidelines are vaguely supportive of recreation.
    ICBEMP's recreation guidelines are broad, general and sound benign. 
However, they can be interpreted in many different ways.
    For example, the guideline, ``Supply recreation opportunities 
consistent with public policies/abilities,'' could mean that 
opportunities dependent on road access would decline if public policies 
demanded road closures. It could as easily mean the opposite: if public 
policy favored more access, then roads would increase.
    This guideline apparently supports tourism, ``The tourism 
opportunity fits well into the ecosystem and the natural environment is 
the central attraction.'' (Appendix H, p. 247) However, this statement 
could also be interpreted to mean that only ``tourism opportunities'' 
deemed compatible with excluding people from public lands would ``fit 
well into the ecosystem''.
    It could also mean the opposite. For example, when I snowmobile (as 
a tourist) in the Stanley Basin, skimming across fresh powder with the 
Sawtooth Mountains above me, I assure you that the natural environment 
is the central attraction.
    This curious guideline makes us uneasy, ``Construction, management, 
and visitation take place with the goal of minimizing energy usage and 
encouraging people involved with the tourism opportunity to be 
environmentally sensitive.'' Does this mean that thermostats will be 
turned down in visitor centers?
       icbemp standards translate vague guidelines into closures
    ICBEMP road density standards will reduce and eliminate public land 
access:
  --The standard RM-03 states, ``Reduce road density where roads have 
        adverse effects.''
  --The standard RM-S8 ``Decrease road miles in High and Extreme road 
        density classes.''
  --Standard RM-S8 (Chapter 3, Page 161) proposes road closures and 
        obliteration in every forest and range cluster. Low means a 0-
        25 percent reduction in road density, Moderate means a 25-50 
        percent reduction in road density, and high means a 50-percent 
        100-percent reduction in road density.
    Although these definitions of low, medium, and high have latitude, 
most areas in Idaho, for example, would fall into the moderate 
reduction category. This means that up to 50 percent of all roads 
within a particular area could be eliminated. Broadly stated, it 
translates to a 50 percent reduction in public access to public lands 
in Idaho.
    The standard RM-S4 mandates, ``Develop or revise Access and Travel 
management plans.'' In this revision mandate, the standard fails to 
identify recreation need as a priority for revision. By omitting 
recreation need, mandating these Access and Travel Management Plan 
revisions imply closures.
    The ICBEMP section on road management emphasizes reclamation. It is 
absolutely silent on road maintenance or improvement.
Riparian Conservation Areas (RCA) will close roads, trails, camping 
        areas.
    ICBEMP states that Alternatives 3, 4, 6, and 7 would establish an 
extensive network of RCA that would likely result in a reduction in the 
sustainable timber base and long-term sustained yield on National 
Forests. Establishing this extensive network of RCA will effect 
recreation resources as well. The document is silent on the effects of 
RCA on recreation in spite of the fact that most campgrounds and trails 
are within these areas.
    The recreation standards reinforce this direction. The standard AQ-
S24 states that recreation facilities should be located outside of RCA 
if at all possible. It states that if the effects to the RCA can't be 
minimized, then the recreation facility would be eliminated. 
Implementing this standards will close many roads, trails, informal 
campsites, and even campgrounds.
    ICBEMP fails to acknowledge that much public enjoyment of public 
land occurs next to water. It fails to analyze the effects of potential 
closures to streamside recreation, which occurs in many different ways. 
Its RCA standards address environmental impacts only and do not 
accommodate human use.
Chosen alternative that emphasizes ``Active Restoration'' translates to 
        road and recreation facility closures.
    ICBEMP has chosen an ``active restoration'' management prescription 
as its selected alternative. It states that this will mean decreasing 
the negative impacts of roads. In other words, ``restoring the 
landscape'' will mean road closures. This will limit public access and 
the recreation opportunities that access affords.
    Active restoration also states that recreation sites will be 
altered to improve streambank and sedimentation conditions. This means 
closing campgrounds and informal camp-picnic sites.
ICBEMP fails to analyze the effects of these standards on recreation 
        and access; ignores other available recreation data.
    ICBEMP, while imposing a wide range of standards that will reduce 
public access and recreation, fails to analyze how these standards 
affect recreation across the range of alternatives. Amazingly, it 
claims that there will be no change across the range of alternatives. 
This failure to accurately show how closures (of 50 percent or more 
area-wide) affect recreation and access in each alternative is a 
violation of the National Environmental Policy Act (NEPA).
    Amazingly, the new 30 million dollar social and economic report 
mandated by Congress also fails to address the impact of these 
standards on recreation. It merely states that the impacts of 
management direction on recreation across the basin is expected to be 
limited, and therefore the impacts on communities will be limited. This 
means nothing.
    If the impacts are limited, will there be no road closures? Will 
people be able to access their favorite streamside campsite? Will an 
increasing number of ATVers find trails to ride? That's not what the 
standards say.
    ICBEMP officials failed to use readily available data to accurately 
depict recreation activity and its economic contribution to the basin. 
For example:
  --Idaho's latest registration figures show that snowmobile use has 
        grown from 27,509 registrations in 1992 to 34,769 registrations 
        in 1997. This is a 26 percent increase in five years. It is 
        estimated that this is a $70 million dollar business in Idaho.
  --Off-road motorcycle and ATV registrations have grown even faster. 
        In 1992, Idaho had 14,196 registrations. In 1997, this grew to 
        30,868 registrations. This is an increase of 117 percent over 
        five years.
  --The Motorcycle Industry Council reports that off-road motorcycles 
        and ATVs generate 63 million dollars in the retail marketplace 
        in Idaho (1993).
    Other similar figures are readily available from the state agencies 
of the other states in the Basin. ICBEMP officials had been made aware 
that this information was available, yet it was not incorporated in the 
supplementary social and economics report.
         relationship of icbemp to forest service's new agenda
    On March 2, Forest Service Chief Dombeck announced a new ``Natural 
Resource Agenda for the 21st Century''. The agenda emphasizes four 
areas: watershed restoration and maintenance, sustainable forest 
ecosystem management, forest roads, and recreation.
    Discussing recreation, Dombeck said, ``Forest Service managed lands 
provide more outdoor recreation opportunities than anywhere else in the 
United States. We are committed to providing superior customer service 
and ensuring that the rapid growth of recreation on National Forests 
does not compromise the long-term health of the land.''
    The ICBEMP standards cited above tell us precisely what this means 
on the ground. We fully expect that 50 percent of national forest 
roads, much streamside camping, picnicking and general forest 
recreation will be eliminated through this new ``Natural Resource 
Agenda for the 21st Century''.
    ICBEMP is the tip of the iceberg. It tells us what administration 
officials have in mind for all of the national forests in the country.
                        icbemp must be withdrawn
    Numerous extensively documented and learned critiques on ICBEMP 
have been submitted by resource oriented organizations and businesses, 
such as Farm Bureaus, Cattle Associations, timber and wood products 
groups of the states in the region. Approached from diverse 
perspectives, all have concluded that it is a bad plan.
    From all these diverse points of view, all have observed that 
ICBEMP illegally imposes 166 standards and 398 guidelines uniformly 
across the region without adequately disclosing the effects. As I have 
described from a recreation and access perspective, there is a logical 
disconnect between ICBEMP's description of the area's activities, its 
vague guidelines, and the actual standards that it intends to 
implement.
    We urge the withdrawal of ICBEMP. Although some of the scientific 
information can be used in preparing other management plans on a more 
local basis, little of the scientific data pertains to recreation 
management. Good recreation planning integrated with productive use of 
our public lands remains to be developed.
                            recommendations
    Although the ICBEMP Science Study gathered some good information on 
the area's resources, very little was gathered on recreation even 
though excellent sources are available. These sources range from the 
Analysis of Management Conditions to Monitoring Reports on existing 
Forest Plans and LRMPs to information from state agencies and reports 
gathered from industries. They are routinely used by local federal land 
managers. These local managers often collaborate with state agencies 
and interested publics in these efforts.
    It is one of ICBEMP's major flaws that these sources and ongoing 
efforts are disregarded. Instead, the document proceeded in ignorance 
to impose standards that not only will deny the public access and limit 
recreation, but will disrupt these ongoing partnerships that have been 
productively managing recreation.
    Management emphasis must be returned to the local level, to the 
local Districts and Forests. These-partnerships can continue to 
flourish, providing access for the public while mitigating impacts to 
the resources.
    If planning on a larger scale is deemed worthy, then it must be 
with states and counties as participating partners. Recently, 
Yellowstone Park has taken this step in their recently announced 
Environmental Impact Statement on Winter Recreation in Yellowstone 
Park, Grand Teton National Park, John D. Rockefeller Memorial Parkway. 
The States of Wyoming, Montana, and Idaho as well as the counties 
surrounding the park, are all partners in this EIS. Yellowstone Park 
Managers have acknowledged that the surrounding states and counties 
have valuable expertise to bring to the table. Individual Forests and 
State BLM agencies need to do the same as their management plans are 
revised.
STATEMENT OF THOMAS K. GOODALL, ASSISTANT TIMBERLANDS 
            MANAGER, BOISE CASCADE CORP.
    Senator Gorton. We will go to Mr. Tom Goodall, of Boise 
Cascade, from La Grande.
    Mr. Goodall. Mr. Chairman, I want to thank you for the 
opportunity to present testimony regarding the Interior 
Columbia Basin Ecosystem Management Project. I am Tom Goodall, 
assistant timberlands manager for Boise Cascade's Northeast 
Oregon Region.
    Our company relies on raw materials from Federal lands to 
supply about 60 percent of the total required to keep our mills 
running, our people employed, and the demand for our product 
satisfied. Our facilities range from small field offices in 
inconspicuous places, such as Cascade, ID, and Kettle Falls, 
WA, to major paper and sawmill mills in regional employment 
centers, such as La Grande, OR, Hammett, ID, and Yakima, WA.
    A successful ecosystem management plan in the Interior 
Columbia Basin is important to us, including the 17,000 workers 
we employ and the people who purchase our products. Since 
January 1994, Boise Cascade has been following this Federal 
project. Our interest has been to proactively promote plans 
that streamline and improve consultation with regulatory 
agencies, provide professional support and management 
flexibility to local managers, actively address forest health 
issues, replace interim policies that are top-down and 
operationally prohibitive, and provide predictable and 
sustainable levels of timber.
    Our overall view is that the DEIS's fail to meet these 
important project expectations. The seriousness of these 
failures is such that the project purposes and needs cannot be 
met without a major overhaul of the DEIS's and the management 
plans they evaluate. If implemented today, and without a 
significant change, the project would fail, implementation of 
ecosystem management would be delayed, forest and range 
ecosystem health would continue to decline, and management 
gridlock would remain.
    Our general conclusions are that the ICBEMP fails to meet 
expectations for performance because forest restoration goals 
will not be achieved; the preferred management approach, which 
was an aggressive active management, will not be realized; and 
predictable and sustainable levels of goods and services are 
not provided. And as a consequence, the DEIS's need major work 
to be implementable.
    The projected rates of restoration under this plan will not 
achieve healthy forests in a reasonable period of time. Boise 
Cascade estimates that under the preferred alternative, only 1 
to 3 million acres of the 24 million acres needing restoration 
will reach high integrity in 10 years. The most aggressive 
alternative would not fully restore forest health in the 
project area until some 70 years, assuming full implementation 
of the plan.
    This is unacceptable. Therefore, none of the alternatives 
meet the purposes and needs of the project.
    A key feature of a forest ecosystem assessment should be to 
identify the types and locations of forests needing various 
types of silvicultural treatments or prescriptions. The DEIS's 
fail to provide sufficient analysis of these basis issues.
    The project should have provided an accurate inventory of 
forest ecosystem health conditions and a strategy for applying 
the various types of silvicultural treatments to improve forest 
ecosystem health. Instead, there is an over-reliance on 
prescribed fire plans to restore forest health. Most of the 
alternatives proposed to allow 20 to over 40 percent of the 
forests to naturally burn every decade, which is not 
sustainable. At a minimum, mechanical fuel reduction treatments 
are needed to reduce wildfire risk prior to prescribed fire 
treatments.
    Commodity outputs are too low to meet the needs. The extent 
of the projected reductions in timber supply will result in 
significant economic impacts, especially at some local levels, 
and probably cause the project to fail in meeting its social 
and economic goals. Low harvest will not be able to sustain 
many of the timber-dependent communities and mills that support 
them.
    A successful plan would have provided acceptable and 
predictable levels of timber resource flows at a reasonable 
cost to the industry as an element of ecosystem management. 
Depending on the action alternative chosen, projected 
reductions in timber availability on a volume basis could range 
from 17 to 73 percent in the DEIS project area.
    The budget assumptions that limit proposed spending on 
various programs contained within the alternatives are of 
significance to us. Arbitrary budget assumptions and caps 
should not limit proposed spending on programs containing 
forest health and ecosystem restoration strategies. The notion 
of assuming a budget cap is problematic, because the amount is 
based on old budget paradigms, not on current forest health 
needs and opportunities.
    The project should identify the needed activity levels, 
then allow policymakers and Congress to decide how or whether 
to fully fund them. Funding assumptions ought to be made at a 
level that is adequate to accomplish forest health restoration 
and maintenance within meaningful timeframes.
    In conclusion, we believe there is only one legally 
sufficient option for the project. And that is to revise or 
significantly amend forest plans without preparing final EIS's 
and records of decision. This could produce a win-win solution 
for all parties concerned. Our reasoning takes several factors 
into account.
    First, the ICBEMP has successfully published valuable 
products upon which plan amendments could be based. Second, 
State governors and Federal legislators, such as yourselves, 
have been promoting action-oriented strategies for Federal 
forest management during the extended lifetime of this project. 
Locally developed forest management plans and strategies, such 
as Oregon Governor Kitzhaber's forest health strategy, provide 
the political will and public acceptance of proposed ecosystem 
health actions.

                           Prepared Statement

    Finally, the advantage of revising or significantly 
amending forest plans without preparing ICBEMP final EIS's or 
records of decision are threefold. First, local planning 
decisions would be assured. Second, local communities would be 
considered. And, third, considerations for physical and 
biological resources on Federal lands would be addressed at 
multiple planning scales and across administrative boundaries.
    Thank you.
    Senator Gorton. Thank you, Mr. Goodall.
    [The statement follows:]
                Prepared Statement of Thomas K. Goodall
    Chairmen, members of the Subcommittees, I want to thank you for the 
opportunity to present testimony regarding the Interior Columbia Basin 
Ecosystem Management Project (ICBEMP). I am Thomas K. Goodall, 
Assistant Timberlands Manager for Boise Cascade Corporation's Northeast 
Oregon Region. Although Boise Cascade provides stewardship for more 
than 1.1 million acres of privately owned forest land in the Interior 
Columbia Basin, the company relies on raw materials from federal lands 
to supply about 60 percent of the total required to keep our mills 
running, our people employed, and the demand for our products 
satisfied. Our facilities range from small field offices in 
inconspicuous places, such as Cascade, Idaho and Kettle Falls, 
Washington, to major paper and saw mills in regional employment 
centers, such as Elgin, Oregon and Emmett, Idaho. A successful 
ecosystem management project in the Interior Columbia Basin is 
important to us, including the 17,000 workers we employ, and the people 
who purchase our products.
    Boise Cascade Corporation appreciates the interest expressed by the 
Senate Subcommittees during the current legislative session in 
addressing public lands management and the ICBEMP. By holding the 
hearing in Spokane, Washington, organizations and affected individuals 
with a stake in the management of our federal forests are given an 
opportunity to present testimony. We are encouraged that the 
Subcommittees are on the right track and hold the political will to 
make tough decisions, and are optimistic about working toward 
legislative solutions to improve forest management on federal land.
    Since January 1994, Boise Cascade has been following the federal 
Interior Columbia Basin Ecosystem Management Project to develop an 
ecosystem management plan for federal forests and rangelands in the 
Interior Columbia River Basin. Our interest has been to proactively 
promote plans that:
    Streamline and improve consultation with regulatory agencies.
  --Provide professional support and management flexibility to local 
        managers.
  --Actively address forest health issues.
  --Replace interim policies that are ``top-down'' and operationally 
        prohibitive.
  --Provide predictable and sustainable levels of timber.
    A series of documents has been produced by the ICBEMP related to 
two primary activities: (1) a scientific assessment on existing 
conditions, and (2) National Environmental Policy Act (NEPA) compliance 
for two management plans. Boise Cascade has submitted written comments 
to the project administrative record on two of the NEPA documents--the 
Eastside DEIS and the Upper Columbia River Basin DEIS (DEISs)--and 
other draft and final products of the project. This testimony presents 
some of the views expressed in those written comments.
    Our overall view is that the DEISs fail to meet several important 
project expectations. The seriousness of these failures is such that 
the project purposes and needs cannot be met without a major overhaul 
of the DEISs and the management plans they evaluate. If implemented 
today and without a significant change, the project would fail, 
implementation of ecosystem management would be delayed, forest and 
range ecosystem health would continue to decline, and management 
gridlock would remain. However, we believe that a win-win solution is 
possible.
    This testimony includes discussions of the following key project 
issues and concerns:
  --General Conclusions
  --The Projected Rates of Restoration Will Not Achieve Healthy Forests 
        in a Reasonable Period of Time
  --The Action Alternatives Do Not Meet the Project Purpose and Need
  --Options to Achieve a Legally Sufficient Plan
                          general conclusions
    The ICBEMP fails to meet expectations for performance because:
  --Forest restoration goals will not be achieved.
  --The preferred management approach--``Aggressive Active 
        Management''--will not be realized.
  --``Predictable and sustainable levels of goods and services'' are 
        not provided.
  --DEISs need major work to be implementable.
the projected rates of restoration will not achieve healthy forests in 
                      a reasonable period of time
    The proposed rates of forest restoration among alternatives are too 
slow and fail to meet restoration needs in a reasonable period of time. 
As a result, the DEISs fail to meet an important project the purpose 
and need; that is, to ``restore and maintain long-term ecosystem health 
and ecological integrity.''
Time Frame to Meet Restoration Needs
    The DEISs need to include alternatives that more aggressively 
pursue forest restoration. Generally, all alternatives fall short of 
meeting restoration needs in a reasonable period of time; that is, 
within the 10- to 15-year horizon of the plans. Boise Cascade estimates 
that, under the preferred alternative, only 1-3 million of the 24 
million acres needing restoration will reach high integrity in 10 
years. The following graph represents our estimate of the rate of 
restoration for each alternative. It shows that the most aggressive 
alternative would not fully restore forest health in the project area 
until some 70 years after plan implementation. This is unacceptable. 
Therefore, none of the alternatives meets the purpose and need for the 
project. 
[GRAPHIC] [TIFF OMITTED] T06MY28S.001

    Without aggressive action, catastrophic risk levels will remain 
high, and opportunities to restore high ecological integrity will be 
lost. If ecosystem management is to succeed in yielding a sustainable 
balance of ecosystem values, forest ecosystem health problems must be 
addressed. While the DEISs do recognize the existence of the forest 
ecosystem health problems, they do not give these problems the 
prominence they deserve, especially in the impact analyses (for 
example, no data on forest productivity impacts, mortality rates, or 
financial losses), nor do they propose the aggressive restoration steps 
that are required to solve these problems in a timely manner (i.e., 25 
percent of the forest land restored within 5 years, 50 percent within 
10 years, 75 percent with 15 years, and 100 percent in 20 years).
Identification of Forests Requiring Priority Treatments
    A key feature of a forest ecosystem assessment should be to 
identify the types and locations of forests needing various types of 
silvicultural treatments or prescriptions. The DEISs fail to provide 
sufficient analysis of these basic issues. For example, the stand 
structures that offer the greatest opportunities for forest ecosystem 
health risk reduction appear to be dense, intermediate-aged forests 
with multiple canopy layers in the high and medium risk categories. 
These are forest structures that provide the basic components for 
producing the older forest structures that are stated to be in 
relatively short supply. The Boise Cascade report submitted to the 
ICBEMP entitled, ``Forest Inventory Analysis to Identify Forest 
Ecosystem Restoration Priorities in the Blue Mountains,'' provides a 
method for assessing risks to forest health and displays risk ratings 
spatially.
    Through treatments to reduce health risks, these intermediate 
structures advance more quickly into the more complex structures that 
are currently underrepresented. Many of these intermediate structures 
offer commercial products as byproducts of forest ecosystem health 
treatments, thereby increasing the operational and economic feasibility 
of the treatments. The project should have provided an accurate 
inventory of forest ecosystem health conditions, and a strategy for 
applying the various types of silvicultural treatments to improve 
forest ecosystem health.
    An example of a misused forest health strategy is that there is 
over-reliance on prescribed fire plans to restore forest health. Most 
alternatives propose to allow 20 to over 40 percent of the forest to 
naturally burn every decade, which is not sustainable. At a minimum, 
mechanical fuel reduction treatments are needed to reduce wildfire 
risks prior to prescribed fire treatments.
    The consequences of not realizing aggressive active management and 
restoration are that:
  --Forest ecosystem health problems would not be given the prominence 
        they deserve.
  --Catastrophic risk levels of unhealthy forests would remain high.
  --Opportunities to restore high ecological integrity of forests would 
        be lost.
  --The vision for forest restoration does not embrace timber 
        production.
  --Timber outputs would not be realized as a product of forest 
        restoration.
Commodity Outputs Are Too Low to Meet the Needs
    The action alternatives lack acceptable levels of projected timber 
harvest. The levels apparently were driven by ecological integrity 
analyses and management emphasis designations that lacked socioeconomic 
input.
    The extent of the projected reductions in timber supply clearly 
will result in significant economic impacts, especially at some local 
levels, and probably will cause the project to fail in meeting its 
social and economic goals. Low harvests will not be able to sustain 
many timber-dependent communities and the mills that support them. 
Furthermore, there are no assurances of replacement industries to 
mitigate direct and indirect economic impacts of dwindling federal 
timber.
    A successful plan would have provided acceptable and predictable 
levels of timber resource flows at a reasonable cost to the industry as 
an element of ecosystem management. Depending on the action alternative 
chosen, projected reductions in supply (on a volume basis) could range 
from 17 to 73 percent in the DEIS project area. 
[GRAPHIC] [TIFF OMITTED] T06MY28S.002

    The graph above shows the projected reductions in timber supply as 
compared with the no-action alternative 1. These projections are 
compared to the volume of 2,800 million board feet that the existing 
land use plans allow to be cut, prior to interim guidance. It is 
disappointing to note that federal forest lands in the project area 
have not generated volume up to their potential over the last 10 years; 
they have only generated 1,564 million board feet, on average, or about 
56 percent of allowable. The amount of timber sold has rarely reached 
public expectations or the allowable sale quantity. The declining 
federal timber sale program is documented in Production Prices, 
Employment, and Trade in Northwest Forest Industries, Third Quarter, 
1996 by the USDA (1997).
    The timber volume sold during 1996 dropped precipitously to only 
756 million board feet, indicating further inability to meet plans and 
expectations. It is difficult to imagine future timber sale performance 
achieving the projections of the DEISs, based on past results and the 
current declining trend.
    What are not shown by the graph are the potential cumulative 
impacts to businesses and local economies of continued reductions in 
the federal timber supply, on top of those reductions that have already 
occurred. The problem of continued reductions is compounded by the past 
performance of the federal timber sale program.
The Budget Cap Is Arbitrary and Affects Timber Supply
    The budget assumptions that appear to limit proposed spending on 
various programs contained within alternatives are a significant 
concern. Arbitrary budget assumptions and caps should not limit 
proposed spending on programs containing forest health and ecosystem 
restoration strategies. The notion of assuming a budget cap is 
problematic because the amount is based on old budget paradigms, not on 
current forest health needs and opportunities. The proposed 
alternatives must be fully funded to remain true to their themes, and 
to successfully implement projects and achieve their objectives without 
jeopardy. Ecosystem goals, which include aggressive treatments for 
restoring forest patterns and processes to reduce the potential for 
large or catastrophic wildfire, may only be achieved under assumptions 
for full funding of recommended management activity levels.
    The project should identify the needed activity levels, then allow 
policy makers and Congress to decide how or whether to fully fund them. 
Funding assumptions ought to be made at the level that is adequate to 
accomplish forest health restoration and maintenance within meaningful 
time frames.
    Assumptions for ICBEMP program funding would be adequate if they:
  --Provide adequate levels of funding for implementing active 
        ecosystem management strategies and forest health treatments 
        without delay.
  --Lead to the desired level of forest health restoration projects.
  --Galvanize already completed forest health assessments and plans for 
        forest health treatments into action.
  --Enable timber sale programs to accomplish broad-scale and fine-
        scale planning goals.
  --Provide a workable stewardship contracting program.
  --Remove funding obstacles to implementing locally developed forest 
        management strategies, such as the Kitzhaber forest health 
        strategy ``Forest Health and Timber Harvest on National Forests 
        in the Blue Mountains of Oregon.''
  --Generate a natural resources investment account to ensure that 
        funds would be available to implement nonrevenue-generating 
        ecosystem management activities.
  --Fully anticipate the costs of subbasin reviews, ecosystem analyses 
        at the watershed scale, and forest plan revisions so that 
        activities to restore forest health are not delayed.
  --Prevent the diversion of funds for future forest management to 
        monitoring and analysis.
Skewed Range of Alternatives
    The rule set for assigning management emphasis among forest 
clusters appears biased against a full range of timber harvest 
alternatives. Of all the management emphases considered, only one, 
``Produce,'' permits a ``high'' level of timber harvest. However, it is 
uncertain whether a ``high'' level of harvest would yield even the 
amount allowable under current plans. Moreover. ``Produce'' was 
assigned as a management emphasis in only one case out of 30 possible 
action alternative and forest cluster combinations. This limitation 
contributes to the low projections for timber outputs.
    the action alternatives do not meet the project purpose and need
    One of the two project need statements reads, ``Supporting the 
economic and/or social needs of people, cultures, and communities, and 
providing sustainable and predictable levels of products and services 
from Forest Service- and BLM-administered lands,'' (Chapter 1). Boise 
Cascade offered conditional support for this project, largely because 
this need statement appeared to capture the intent of the scoping 
comments that were submitted. However, the DEISs fail to include an 
action alternative that would meet this need upon implementation.
    Sustainability.--The need for sustainability of the levels of 
timber products and services has not been addressed in the DEIS, either 
in the conventional sense or in a sense that includes ``all parts of 
the ecosystem and to account for the role of disturbance regimes in 
shaping how the ecosystem changes over time,'' (Chapter 4). Certainly, 
the definition of sustainability, as discussed during various stages of 
DEIS development, included the traditional definition. However, the 
document states that ``the Draft EIS did not account for the factors 
upon which conventional sustainability of timber supply is based,'' 
(Chapter 4). Therefore, the project has failed to meet the need by its 
own admission.
    Predictability.--Predictability of the levels of timber products 
and services is not addressed in the DEISs, either in the proposed 
standards and guidelines, or in the evaluation of environmental 
consequences. The document states that ``predictability of timber 
benefits will be determined when the Preferred Alternative is 
incorporated into local Forest Service and BLM land use plans,'' 
(Chapter 4). Deferral of programs addressing the predictability of 
timber production to future decisions substantiates the claim that the 
DEISs have failed to meet the project need.
Opportunities for Using Commercial Timber Harvest Are Not Adequately 
        Addressed
    Commercial timber harvest does not appear to have been a serious 
consideration in the DEISs. The topic was largely avoided despite the 
fact that commercial timber harvest, more than any other land 
management action, can treat large areas to improve forest health--
deliberately, programmatically, and with minimum net cost to taxpayers. 
Certainly, the issues related to timber harvest, more than any others 
that could be included under the discussion of ecosystem management, 
need to be coherently and comprehensively addressed by the ICBEMP. 
Management capabilities for timber harvest must be resolved through the 
decisions from this project without deferring decisions to future 
planning processes. The management capabilities must be explicitly 
reveled in the DEISs to reduce or eliminate the management gridlock 
affecting public land management, not contribute to it.
Commercial Timber Harvest Is Not Incorporated into Forest Restoration 
        Programs
    Commercial timber harvest is a forest restoration tool that should 
be recognized by the DEIS alternatives. It is wrong, both technically 
and symbolically, to imply that commercial timber harvest and forest 
restoration are incompatible. Restoration through commercial 
silviculture can be used to develop a socially accepted pattern of 
disturbance that would allow forests to be healthy and that the citizen 
can support personally and financially.
    The DEISs clearly state that commercial silviculture is not viewed 
as a restoration tool. But without that view, forest restoration 
activities do not provide sufficient flows of merchantable raw 
materials. Also, the ability to reduce fluctuations in supply that 
destabilize economic bases is lost. Furthermore, the DEISs' treatment 
of commercial silviculture is in direct conflict with land managers who 
recognize that without commercial incentives, restoration actions would 
not be implemented.
    The DEIS alternatives need to include commercial timber harvest in 
restoration strategies to increase the rate of forest restoration 
through vegetation management and the provision of funds for 
nonrevenue-generating restoration activities.
    A well-honed ecosystem management plan should provide for the 
production of commodities to simultaneously sustain local economies and 
achieve ecosystem objectives while avoiding elaborate transition 
strategies. The proposed objectives and standards for action 
alternatives lack innovative strategies to achieve ecosystem 
restoration using commercial timber harvest methods that could result 
in social and economic benefits.
    Economically viable timber sales for restoration of forest health 
would increase the percentage of bids awarded for restoration work, 
provide greater receipts, be easier to contract, achieve forest plan 
objectives, improve forest health, strengthen resource-based 
industries, and sustain resource-dependent communities.
Strategies for Minimizing the Cost of Implementing Ecosystem Management 
        Have Not Incorporated Commercial Silviculture
    The selected ecosystem management strategy should provide optimal 
achievement of ecosystem management goals with the least cost. The 
project has not objectively assessed how to achieve forest ecosystem 
health goals in a cost-effective manner. Commodity production could be 
an important means to offset restoration costs, while improving 
environmental quality. Under existing federal land use plans, many 
ecosystem management programs, such as road maintenance and recreation 
development, are paid for through the sale of natural resource 
commodities.
    Evaluation of Net Costs.--A balance between benefits and net costs 
is critical in assessing which alternative is best for taxpayers. Where 
more than one strategy provides the same level of benefits and 
services, the one with the least drain on taxpayers is best. However, 
there is no way to determine which proposed strategy is the most 
fiscally responsible from the DEIS evaluation of alternatives. True 
costs of alternatives including net costs, risk factors, ecosystem 
values, and opportunity costs are not accounted for.
    Timber Sale Program.--Economically viable timber sales are achieved 
when sales contain an optimal mix of products, flexible terms, defined 
results, timely sale, appropriate purchaser discretion, and mutual 
trust. Inclusion of large quantities of small trees (that is, 
government cost items to attain ecosystem management objectives) will 
not be economical without just compensation. Sufficient value needs to 
be included in sales, or options to reject low-value pulpwood and small 
diameter trees need to be provided when market demand is not favorable.
    Over recent years, federal land management agencies have modified 
otherwise viable timber sales to achieve pre-commercial thinning and 
other ecosystem management objectives. Potentially viable sales have 
been burdened with requirements such as: (1) excessive slash and downed 
wood treatments, (2) road obliteration, (3) sub-soiling, (4) high-cost 
and specialized equipment (for example, helicopters, skyline, 
forwarders) where ground-based equipment would yield acceptable 
results, (5) prohibitive seasonal restrictions, (6) low merchantable 
volumes, and (7) uneconomical isolated and small units. As a result, 
many otherwise viable sales are left unsold.
    The DEISs must address methods of preparing and offering timber for 
sale to be more cost effective and successful (that is, management 
directives to support the offering of economically viable timber sales 
to achieve forest health objectives). The funding of forest restoration 
activities that are not supported by timber harvest revenues (that is, 
overzealous KV plan costs, pre-commercial thinning requirements, 
wildlife reserve trees above the minimum scientific requirements for 
special status species) must be addressed. Land managers cannot rely on 
direct Congressional allocations to carry out these activities.
Important Constraints on Operational Timber Harvest Are Not Disclosed
    Reductions in the probable timber sale quantity, above and beyond 
the already significant reductions projected in Table 4-50, are 
expected, but have not been evaluated in the DEISs. The further 
reductions would result from standards and guidelines to meet non-
timber objectives. Examples of the environmental consequences of such 
guidance are: (1) reduced production from riparian areas caused by 
ambiguous protection standards and interagency coordination 
requirements; (2) inoperable slivers of commercial timberland stranded 
between riparian setasides; (3) reductions in the timber base from 
constraints aimed to create wildlife habitat; (4) limitations on per-
acre yields from standards that affect the size and amount of residual 
standing and down wood; (5) inaccessible timberlands resulting from 
road decommissioning or restrictions on new construction; (6) 
restrictions on harvest methods for steep slopes, landslide-prone 
areas, and sensitive lands; and (7) potential catastrophic losses of 
timberland due to passive management or management inaction.
    An Example.--The potential area of timber tied up in RCAs has not 
been reliably estimated, and no attempts have been made to determine 
the indirect effects of setasides. Our estimates show that the area in 
riparian setasides easily would be more than the 24 percent estimated 
in the DEISs. It is more likely to be over 40 percent for dry forest 
and up to 80 percent for moist forest on steep slopes. These estimates 
are important because significant management restrictions would be 
imposed in RCAs. For the most part, little or no harvest would be 
allowed and limited vegetation management would occur. The DEIS 
alternatives do not explicitly eliminate all active management options 
within these areas. However, the sad reality is that the burden of 
proof on land mangers to demonstrate anti-degradation performance is a 
barrier to action taken.
    In addition, the limitations on what can be done to maintain forest 
health and fire control in RCAs is a significant concern. One questions 
whether our zeal for protecting riparian areas and aquatic habitats may 
set the stage for their destruction.
    The direct and indirect consequences of other constraining 
management standards and guidelines would have similar results. 
Cumulatively, these constraints may lead to impacts that are greater 
than the sum of the individual effects.
New Timber Harvest Levels Will Occur without Adequate Analysis
    Timber harvest is an important driver in this ecosystem management 
project since it is a key tool in resolving forest health problems; in 
maintaining and sustaining healthy ecosystems; in facilitating vibrant 
economies and communities; and in providing a funding source for these 
vital functions. Consequently, the public and the decision makers will 
want to know what harvest levels can be expected from each DEIS 
alternative.
    Scale and Resolution.--The ability of this project to accurately 
estimate timber harvest acres and volumes is severely limited. The 
broad scale of the project focuses on coarse resolution estimates that 
lack spatial specificity. The timber harvest projections at this scale 
will have limited utility when high resolution or spatial specificity 
are required. Additionally, the forecasting tools have produced data of 
limited accuracy or unknown validity. It is critical that the EIS 
documents disclose the accuracy of the future timber harvest estimates.
    Future Decisions and Analyses.--It is important to ensure that the 
public and decision makers do not assume that the timber harvest 
projections are management targets for any of the basin's 
administrative units, or that they will be used in any future decisions 
beyond this broad-scale, programmatic NEPA process.
    The DEISs should make it clear that more accurate, fine-scale 
timber harvest estimates and decisions about the actual management 
activity and timber output levels will be made at the forest or 
district level. They should explain that fine-scale assessments of 
resource conditions and management opportunities should be based on a 
type and accuracy of data that is beyond what the ICBEMP produced.
    The proper place for timber supply decisions to be made is in the 
land use plan revision process, and during the planning of individual 
projects based on site-level inventories and assessments. 
Unfortunately, the DEISs set expectations for timber quantities, and 
establish a de facto upper limit on the production of goods and 
services, that is, a maximum threshold for production under all land 
use plans combined.
              options to achieve a legally sufficient plan
    In their current form, the ICBEMP DEISs contain a number of 
significant legal flaws that threaten the goals of the project. Legal 
issues have been raised throughout Boise Cascade's comments on the DEIS 
and its written correspondence to the ICBEMP administrative record 
during preparation of the DEIS. For example, one of the fundamental 
flaws is that the DEISs fail to provide targets for forest level 
resource outputs or to reveal how they will affect the existing 
schedule of forest level resource outputs.
    Actions are needed to remedy the legal insufficiency of the DEISs. 
The USFS and BLM must produce a legally sufficient and workable ICBEMP 
strategy. This leaves the agencies with only two options: (1) they can 
significantly change the DEISs and publish supplements; or (2) they can 
withdraw the DEISs and proceed with forest plan amendments as required 
by NFMA. Moving directly to publish final EISs is not an option given 
the major faults with the ICBEMP strategy and DEISs.
    The first option is to rewrite the DEISs and publish supplements. 
To be legally sufficient, the rewritten documents must move in one of 
two directions. The DEISs must either be rewritten as much more 
general, guiding documents to facilitate the detailed analysis that 
will follow in forest plans or the DEISs must be rewritten as much more 
detailed, site-specific EISs that contain the analysis needed to 
support the decisions being made. The more general DEIS supplements 
must not contain standards and must be like Regional--Guides rather 
than Regional Plans. More detailed DEISs must contain a forest-level 
analysis of suitable lands, allowable sale quantity, and sustained-
yield of timber to accompany any standards that the DEISs adopt. The 
latter task would require a huge sum of time and resources; therefore, 
Boise Cascade believes it is preferable to take the more general 
Regional Guide approach or to adopt the second option described below.
    The second option is to revise or significantly amend forest plans. 
This option would utilize ICBEMP information and published science to 
guide revisions/amendments to Forest and Resource Management Plans at 
the local level. In doing so, the need to produce FEISs and Records of 
Decision would be obviated. The ICBEMP has no way around significant 
amendments to the forest plans because the end of the 10-year life of 
the plans is fast approaching, and NFMA requires that the Secretary 
review the land classified unsuitable for timber production in the 
plans ``at least every 10 years and shall return these lands to timber 
production whenever he determines that conditions have changed so that 
they have become suitable for timber production.''
    We believe that the second option stated above--to revise or 
significantly amend forest plans without preparing FEISs or RODs--would 
produce a win-win solution for all parties concerned. Our reasoning 
takes several factors into account. First, the ICBEMP has successfully 
produced valuable products upon which plan amendments could be based. 
The products include the: (1) Integrated Scientific Assessment of 
Ecosystem Management; (2) Assessment of Ecosystem Components; (3) 
Framework for Ecosystem Management; and (4) numerous spatial databases 
for managing federal resources. The information could be utilized to 
proceed now with Forest and Resource Plan revisions at the local level 
within a regional context.
    Second, state governors and federal legislators have been promoting 
action-oriented strategies for federal forest ecosystem management 
during the extended lifetime of the ICBEMP. Locally developed forest 
management plans and strategies, such as Oregon Governor Kitzhaber's 
forest health strategy (Forest Health and Timber Harvest on National 
Forests in the Blue Mountains of Oregon), provide the political will 
and public acceptance of proposed ecosystem health actions. Most of 
these specifically address the forest health crisis. These strategies 
would be more readily implemented if incorporated into revised or 
significantly amended forest plans with their locally developed 
schedules for implementation.
    Finally, the advantages of revising or significantly amending 
forest plans without preparing ICBEMP FEISs or RODs are threefold. They 
are that: (1) local planning decisions would be assured; (2) local 
communities would be considered; and (3) considerations for physical 
and biological resources on federal lands would be addressed at 
multiple planning scales and across administrative boundaries.
STATEMENT OF KATHLEEN BENEDETTO, EXECUTIVE DIRECTOR, 
            MINERALS EXPLORATION COALITION
    Senator Gorton. We will now hear from Kathleen Benedetto, 
Executive Director of the Minerals Exploration Coalition.
    Ms. Benedetto.
    Ms. Benedetto. Thank you, Senator Gorton and Senator Craig, 
for the opportunity to speak.
    I was asked by a number of grassroots organizations to come 
and talk about the relationship of the Wildlands Project to the 
Interior Columbia Basin Ecosystem Management Plan. These groups 
include the Communities for a Great Northwest, Montana Resource 
Providers Coalition, Alliance for America, American Land Rights 
Association, and others.
    I think that from the previous panel members you have heard 
about specific issues or specific problems with the EIS. I 
think that if we look at it in the perspective from the 
Wildlands Project that it might explain why some of these 
problems exist. I think many of us in the room are familiar or 
have heard of the Wildlands Project, and we have been very 
reluctant to speak about it publicly because we might be 
accused of either having the lights on with nobody home or 
something along those lines, because it is a pretty wacky idea.
    In the words of the chairman of the project, Dave Foreman, 
he says it is an audacious plan. This plan, as currently in 
place, they envision that it will take 75 to 100 years to 
implement. Andy Kerr, in 1994, on the front page of the Region 
section of the Oregonian, articulated what this plan meant for 
Oregon, his vision of what Oregon should be: that they would 
reduce their population to 1 million people instead of 3 
million; they would increase public land ownership by at least 
20 percent; and reduce consumption of raw materials by 75 
percent. Their overall vision for the world is to reduce world 
population so that we have 2 billion people here.
    Though the primary purpose for this, they have melded the 
ideas of having this huge, great wilderness area that they 
perceive North America to have been prior to Columbus coming 
over and bringing Europeans to settle here. They want to take 
us back to that time period, or what they envision the 
situation was during that time period. They have gotten 
together with Reed Knauss and others, who have put forth the 
concepts of conservation biology.
    The concept is that in order to maintain biodiversity and 
enhance biodiversity, we need to rewild 50 percent of North 
America. That consists of core areas, with large buffer zones, 
where maybe some resource extraction and recreation activity 
can take place on the outer fringes of the buffer zones, where 
they are close to islands of human habitat. They currently look 
at the situation of wilderness areas and national parks as 
being islands that have been set aside, theoretically, to 
protect, to help or enhance biodiversity. And they want to 
reverse that trend.
    We see elements of conservation biology in the Wildlands 
Project in each alternative in the Interior Columbia Basin EIS. 
Alternative 7 would impose the Wildlands Project for the 
geographic area that is covered by this particular document. 
There are more than 35 organizations that are actively working 
to implement this program. Their primary tool for doing this is 
the Endangered Species Act. They have filed over 100 positions 
to list species as threatened or endangered, and have asked for 
a listing of over 2,000 species.
    So, they are extremely well organized and very effective at 
what they are doing. They have produced a manual as to how to 
begin to implement this program. Their core areas and buffer 
zones are supposed to be linked by biological corridors. We see 
this terminology showing up in many EIS's that have been 
produced for other areas of the national forest or BLM lands. 
There are several incidents in Montana, where we have seen this 
language occur.
    The Greater Yellowstone Vision Document was probably one of 
the first Federal documents that incorporated conservation 
biology as a management tool. And that was resoundly rejected 
by the people that would be impacted by that document.
    We see elements of this in the recent EIS's that were 
produced--final decisions on the Lewis & Clark and Helena Deer 
Lodge EIS's for oil and gas leasing in Montana. The Forest 
Service 50-year plan also incorporated elements of the 
Wildlands Project as part of their strategy.
    So, I think that we need to investigate this. I think it is 
important. And we need to look at some of the things that are 
happening, that the administration is doing, and these major 
ecosystem plans that have been proposed throughout the United 
States, as to what the real agenda is.

                           Prepared Statement

    I do not think that most of the people in this country 
would accept what their vision of the future is for us.
    Thank you.
    Senator Gorton. Thank you, Ms. Benedetto.
    [The statement follows:]
                Prepared Statement of Kathleen Benedetto
                              introduction
    My name is Kathleen Benedetto. I am the Executive Director of the 
Minerals Exploration Coalition (MEC), a non-profit advocacy group for 
the multiple use of public lands. Specifically MEC works to maintain 
access for mineral entry on these lands. Our membership, including 30 
corporations, represents a diverse group of professionals and companies 
engaged in mineral exploration and development.
    I have more than twenty years experience in the minerals industry 
as an exploration geologist and activist. In 1993 I co-founded the 
Women's Mining Coalition to work on responsible mining law reform. I 
have worked closely with the Western States Coalition, the Alliance for 
America and other grassroots organizations. The common thread for these 
groups is a commitment to improving and modernizing national 
environmental policy by promoting a strong conservation ethic that 
recognizes our most important resource, people, as part of the 
environment.
    Today I am pleased to testify before this joint committee hearing 
on behalf of MEC, The Alliance for America, the Montana Resource 
Providers Coalition, Communities for a Great Northwest and The American 
Land Rights Association, on the Interior Columbia River Basin Ecosystem 
Management Plan--Draft Environmental Impact Statement.
    I have been asked by these organizations to discuss the 
relationship of this ecosystem management plan to the ``Wildlands 
Project.''
    Many people have heard about the ``Wildlands Project,'' others are 
intimately familiar with it. However, most of us have made a conscious 
decision not to discuss the project publicly or include our concerns 
about the implementation of the project in comments we submit for 
proposed federal actions or congressional testimony. The decision not 
to discuss `Wildlands' stems from the outrageous nature of the project 
and the propensity of the media and others to castigate the messenger 
rather than proponents of an `audacious' project. In other words we're 
concerned that our credibility will be destroyed, that no one will take 
us seriously, that our words will fall on deaf ears.
    However, the ``Silence is Golden'' approach with the ``Wildlands 
Project'' is not working for the people that are opposed to the 
project. Many of the Clinton Administration's Executive Orders and 
Initiatives affecting management of federally administered and private 
lands help to facilitate the implementation of the ``Wildlands 
Project'' for different regions of the country.
    In the absence of public debate on the ``Wildlands Project,'' 
uninformed decisions are made on a daily basis by governments, 
businesses and the public to support or compromise on proposed projects 
that serve to implement the ``Wildlands Project.''
    The Interior Columbia River Basin Ecosystem Management Plan 
(ICRBEMP) is a good example. The Principles of conservation biology 
(the science behind the ``Wildlands Project'') have been used as a 
basis by the forest service in the development of ecosystem management 
planning (see attachment). The alternatives in the draft EIS 
incorporate these principles; Alternative 7 would impose the full brunt 
of the ``Wildlands Project'' for the geographic area covered by the 
ICRBEMP.
    ``Alternative 7: Emphasizes reducing risks to ecological integrity 
and species viability by establishing a system of reserves on Federal 
Land. Reserves are selected for representation of vegetation and rare 
animal species. Management activities are limited within reserves and 
are similar to Alternative 3 outside the reserves.'' (From Considering 
All Things: Summary of the Draft Environmental Impact Statement--Pg. 
35)
                       the ``wildlands project''
    The following quote from the ``Wildlands Project'' vision statement 
provides a graphic description of the `wildlanders' dream for the 
future of North America.
    ``. . . [W]e live for the day when Grizzlies in Chihuahua have an 
unbroken connection to Grizzlies in Alaska; when Gray Wolf populations 
are continuous from Durango to Labrador; when vast unbroken forests and 
flowing plains again thrive and support pre-Colombian populations of 
plants and animals; when humans dwell with respect, harmony, and 
affection for the land; when we come to live no longer as strangers and 
aliens on this continent.
    Our vision is continental: from Panama and the Caribbean to Alaska 
and Greenland, from the Arctic to the continental shelves . . .''
    Dave Foreman, co-founder of Earth First! and chairman of the 
``Wildlands Project,'' describes this project as ``audacious.'' He 
originally conceived of the idea in the early 1980's. With the help of 
Dr. Reed Noss and Dr. Michael Soule (co-founders of the theory of 
conservation biology) the concept was developed into a model based on 
the principles of conservation biology and published in the 1992 
special issue of Wild Earth. The basic concept is to re-create big 
wilderness areas throughout North America to preserve bio-diversity.
    Supporters of the ``Project'' (wildlanders) believe that fifty 
percent of North America needs to be set aside as wilderness, without 
influence from mankind. The main wilderness areas, CORE Areas, would be 
surrounded by buffer zones. These land packages will be linked with 
similar core areas and buffer zones through biological corridors. 
Highly restricted human activity, including recreation, mining, 
agriculture and limited timber harvest would be allowed in the outer 
fringes of the buffer zones near `islands' of human habitat (see 
attachments). `Wildlanders' propose to use existing National Parks, 
Wilderness, Recreation and other federal and state land designations 
that are surrounded by ``roadless areas'' as the CORE areas outlined in 
the ``Wildlands Project'' (In The Big Outside, Dave Foreman, catalogues 
federally administered lands that meet his definition of ``roadless.'' 
His inventory identifies Idaho as the state with the highest 
concentration of land that meets his `roadless' definition.)
    According to materials published by the Project, the objective is 
to establish a ``regional reserve system which will ultimately tie the 
North American continent into a single Biodiversity Reserve.'' 
Conservation biologist use `island biogeography', a theory of 
population biogeography, as a basis for their arguments for this 
`reserve system.' They consider National Parks, Wilderness, Wildlife 
Reserves and other federal and state land designations to be `islands' 
where biodiversity is supposed to be maintained. They believe that 
biodiversity cannot be maintained through the existing system of 
`islands.' The purpose of the ``Wildlands Project'' is to reverse what 
they perceive as the existing situation and create islands of human 
habitat surrounded by Wilderness. Wildlanders view the world 
``biocentricly.'' That means that everything is equal, viruses, 
landscapes, insects, plants, animals, rocks, etc. Their ``project'' is 
based on the philosophy of Deep Ecology and the Science of Conservation 
Biology.
    Andy Kerr, past executive director of the Oregon Natural Resources 
Defense Council, wrote one of the best personal descriptions of 
awildlanders vision of the future. It appeared on the front page of the 
Regional Section of the Oregonian Newspaper on September 11, 1994 (see 
attachment). In the editorial, Mr. Kerr described what he envisioned 
for the state of Oregon and the world over the next seventy-five to one 
hundred years under the implementation of the ``Wildlands Project.''
  --Reduce world population by 4 billion people. Reduce the population 
        of Oregon by 2 million.
  --To preserve the greater Oregon Ecosystem--transfer an additional 20 
        percent of privately owned land to the public sector bringing 
        the total percentage of lands administered by the federal 
        government in Oregon up to 80 percent.
  --Reduce consumption of resources by 75 percent, and
  --`` . . . end the dreaded capitalism.''
    The Oregon Natural Resources Defense Council is one of more than 35 
organizations working to implement the ``Wildlands Project.'' The 
principle tool at their disposal is the Endangered Species Act. 
Together these organizations have petitioned for the listing of over 
100 species as threatened or endangered and have filed lawsuits for the 
listing of over 2,000 species. They have been successful in severely 
restricting human activity, including motorized recreation and resource 
production, in geographic areas impacted by their lawsuits. Areas 
impacted by the listing of the spotted owl provide a good example of 
their success.
    Wildlanders have been influential in the development of several 
federal land management projects including:
  --``The Greater Yellowstone Vision Document,'' one of the first 
        federal documents that incorporated elements of the ``Wildlands 
        Project'' (This was rejected by the people that would have been 
        affected by the adoption of the proposed plan.);
  --The Fifty Year Strategic Plan for the Forest Service;
  --The Biodiversity Legal Foundation was successful in forcing the 
        incorporation of the principles of conservation biology into 
        the 1993 revised Grizzly Bear Recovery Plan for grizzly 
        populations in Montana and Idaho;
  --The EIS's for Oil and Gas Leasing on the Helena-Deerlodge and Lewis 
        and Clark National Forests in Montana; and
  --The Interior Columbia River Basin DEIS incorporates the principles 
        of conservation biology into each alternative. Alternative 
        Seven would implement the ``Wildlands Project'' for the 
        geographic area covered by the DEIS.
    In addition, three bills have been introduced into Congress that 
would impose the ``Wildlands Project'' for the geographic area covered 
by the proposed legislation:
  --The American Red Rocks Wilderness Act (H.R. 1500/S.773). This is a 
        Utah wilderness bill introduced by Rep. Hinchey (D-NY);
  --The Northern Rockies Protection Act (H.R. 1425). ``A bill to 
        designate as wilderness, wild and scenic rivers, national park 
        and preserve study areas, wild land recovery areas, and 
        biological connecting corridors certain public lands in the 
        States of Idaho, Montana, Oregon, Washington, and Wyoming and 
        for other purposes.'' This bill was introduced by Rep. Shays 
        (R-CT); and
  --The Northern Forest Stewardship Act (H.R. 971/S. 546).
    The organizations working to implement the ``Wildlands Project'' 
have had a strong influence on state governments as well. Florida is a 
prime example. Reed Noss and Larry Harris designed a nature reserve 
system for Florida that is being implemented by state agencies and the 
Nature Conservancy.
                              conclusions
    The Interior Columbia River Basin Ecosystem Management Plan Draft 
Environmental Impact Statement should not be allowed to come to a 
record of decision.
    Ecosystem Management is based on the principles of conservation 
biology, which stem from the philosophy of Deep Ecology. Deep Ecology 
is an extreme environmental perspective that attempts to force people 
to view the world biocentricly.
    The absurdity of this kind of thought process has been described 
best by Bruce Vincent, President of the Alliance for America, when he 
explained to an environmental activists class at the University of 
Montana at Missoula, ``I am hopelessly homocentric, I cannot think like 
a frog without that thought first going through my human brain.''
    People will ultimately reject the ``Wildlands Project.'' However, 
in the interim period, there have been and will be many casualties. 
It's time for main stream folks to begin talking openly about the 
project and start asking pointed questions. The proponents of the 
project have many Websites on the Internet. They have already published 
several regional maps illustrating their version of how the world 
should be (see Attachment for ICRBEMP area map). If there are no 
challenges from those of us with an opposing point of view the project 
will continue to move forward. Reversing what has already been done 
will be challenging at best.
    People asked a lot of questions during the 60's--no one had any 
answers. So we moved forward . . . today we pay the price of not having 
answers to legitimate questions. Debate is a critical part of the 
process of improving society. Those of us who are opposed to the 
``Wildlands Project'' and the world view of the Environmental extremist 
need to find the courage of our convictions and be willing to take on 
the slings and arrows directed at us if we are to move forward. This 
includes grassroots and industry leaders, and the Members of Congress 
that have oversight authority on our land management and environmental 
regulatory agencies. All silence does is create a vacuum to be filled 
by the proponents of this ``audacious'' plan to ``end . . . 
industrialized society.''
    ``Does all the foregoing mean that Wild Earth and the Wildlands 
Project advocate the end of industrialized civilization? Most 
assuredly. Everything civilized must go . . .''

                   IMPORTANCE OF SOCIOECONOMIC STUDY

    Senator Gorton. Thank you, all.
    There seems to be a remarkable degree of unanimity on this 
panel, more than on some of the other panels.
    Mr. Halley, you may have really put your finger on it. 
There are two things here: We have a socioeconomic analysis 
here that is a faulty analysis of the facts. That is something 
that ought to be corrected. That is a human failure within the 
study itself.
    But I think that, over and above that, we have what the 
representative of the State of Idaho talked about: by and 
large, good people making plans on the basis of statutes that 
do not allow those socioeconomic considerations, those human 
considerations, to play a significant role in the way these 
plans come out. So, even if the socioeconomic study is a good 
and a valid study, it is going to have only a subsidiary 
importance in the ultimate plan. Not because the people who are 
developing these plans are bad people, but because they are 
enforcing statutes that did not envisage the situation in which 
we find ourselves today, and which are too narrow in nature.
    And I guess that is where our frustration here comes. In a 
sense, the buck stops up on this side of the table, because we 
and our predecessors were the ones who passed those statutes. 
And I think we all have to recognize that those statutes are 
not going to be changed, at least in the next 2 or 3 years. And 
so the dilemma on the horns of which we find ourselves is 
simply whether or not, you know, your counsel that we ought to 
try to stop this process really will have any positive impact 
on the organizations that you all represent or if it just will 
result in more orders from other governmental entities, 
enforcing these statutes or from courts enforcing these 
statutes, that may not result in the cure being worse than the 
disease.
    And I sympathize with the testimony of everyone here. I 
still do not know that that gives me a course of action that I 
can follow that will result in you being more satisfied, at 
least short of being able to change the statutes. So, I do 
recognize the frustration of all of you. But do recognize that 
those of us who are up here are frustrated as well.
    And Senator Craig has done a mighty job in attempting to 
make even minor changes in some of the statutes. And he would 
be the first to admit he has not been very successful yet, nor 
have I. And that is where we find ourselves.
    Ms. Cook, you wanted to make a comment?
    Ms. Cook. Yes; we are all frustrated on a short-term basis. 
But we need to keep moving forward. And we need to keep 
nibbling at the edges. And if pulling the plug on--we recognize 
that pulling the plug on ICBEMP, not allowing it to go to a 
final decision will not bring us a new tomorrow, and that there 
will be legal challenges ahead, and there will be additional 
problems ahead of us. But it will stop this one-size-fits-all 
from immediately being implemented upon all of us. It will buy 
us a little time for some of these short-term and incremental 
solutions and progress, before we can get to the right reform 
that we all need, that Senator Craig is working on with his 
forest and land management reform legislation.
    For example, the Regulatory Flexibility Act implementation. 
Now, that is a tool. That allows us one more little step 
forward at the local level to make them do what they should be 
doing. The Ohio decision that just came out, now that is 
another thing that we can use incrementally.
    We will slowly move the picture forward to where we can get 
real reform. Real reform will not happen tomorrow, and we 
should not expect it to. But if we can keep moving forward 
until that day comes when we can finally have real reform, like 
Senator Craig has proposed, and other people have as well, then 
we are really making progress. And we have to congratulate 
ourselves for that.
    Senator Gorton. Thank you.
    One question, I think basically for Mr. Goodall and Mr. 
Halley. I assume both of you would be more than willing to 
admit to assert that we do have a very real challenge with 
respect to forest health. Do you think that this process has 
led us to focus more constructively on those forest health 
problems, or has it been a smoke screen that has really hidden 
those challenges and made them more difficult to meet?
    Mr. Goodall. Well, unfortunately, I do not think the plan 
is constructive in approaching forest health problems. And my 
reason for saying that is as we take a look at the standards 
that are contained in these plans and all of the restrictions 
that are going to be applied to active forest management kind 
of programs, we basically do not feel that programs are going 
to move forward.
    That is not only our view. We have visited with the field 
operation units at the Forest Service and the BLM. And when you 
get those folks aside, basically what they will tell you is 
that they are very concerned about what they are going to be 
able to do out of this plan. And when you add it all together, 
and basically I think that you take a look at the restrictions 
and the constraints of applying the standards that are in the 
plan, and we do think that we are going to really make much 
headway at all in the restoration of forest ecosystem health 
issues.
    And we see that just as we add up the programs that are in 
the plan. I think I mentioned earlier that the most aggressive 
strategy takes 70 years to restore forest health to the 25 
million acres that they have identified needs to be restored. 
We do not think that is a very aggressive program. And that 
assumes a full-plan implementation, and that has not been the 
case in the past.
    Senator Gorton. Mr. Halley.
    Mr. Halley. I have to agree with a lot of that. One of the 
main reasons that our local unions and the grassroots 
organizations that I am involved with were behind this plan in 
the first place was because of some of the people that were in 
charge of gathering the science and implementing forest health 
actions or taking this in the direction that we thought it 
should go.
    And one example of that is Mr. Steve Mealey and the work 
that he did in fire restoration after the Boise National Forest 
fires, where basically you had people on the ground who knew 
what to do. They had a fire; they went out and did what they 
had to do in an ecological, best management practice, and also 
wary that there were timeframes involved for extracting a 
resource there and also putting the land back to use and 
rehabilitating that land.
    I testified in front of the House Appropriations 
Subcommittee 2 years ago this month. And I said those same 
things. If you leave it in the hands of some people who you 
believe in and who can get the job done, and the job gets done, 
we do not have any problem with it whatsoever. And to just 
basically--reason, logic, and common sense is what it all comes 
down to. And then you add this--we have dealt with these layers 
of bureaucracy and the gridlock and the conflicting forest 
management laws and everything.
    And from my point of view, as an hourly worker in a 
factory, when there is something that needs to be done--I mean, 
I am an operator of a boiler that is 15 stories high and burns 
400 gallons a minute of fuel--fuel that comes from trees, to 
make paper and to generate steam--when something needs to be 
done, you go do it. And when we were talking--earlier panels 
were talking about the private property part of it, and how 
this will--you take a look at Clinton's Northwest Forest Plan 
and the fact that it stated right in it that it would ease 
restrictions on private property owners because it would 
assure--make more assurances of species protection on Federal 
land.
    And then, right after that, you came out with a decision on 
the 4(d) rule, that basically backed that up. And at the same 
time all this was coming down, you had Jennifer Belcher, the 
Commissioner of Public Lands in Washington, and the Forest 
Practices Board, running around like their pants were on fire, 
trying to institute an emergency owl rule of 500 acres. And 
what we need to do is while these plans are being implemented 
and while these decisions are being made, if there is somebody 
out there making random decisions or decisions that do not fall 
in line with what we are trying to accomplish, then somebody 
has got to put some heat on them to get back to what really is 
important and what really needs to be done.
    Senator Gorton. Thanks.
    Senator Craig.
    Senator Craig. Mr. Chairman, I will be brief.
    I have been sitting here doing some figures, Mr. Goodall. 
You had mentioned that most alternatives proposed allow 20 to 
40 percent of the forests to burn naturally every decade. You 
made that statement.
    Mr. Goodall. That is correct.
    Senator Craig. So, I was doing some calculations. That is 2 
to 4 percent annually. That is between 2.8 to 5.6 million acres 
in the region. In 1994, it was probably one of the worst 
recorded fire years we had here, at least in recent decades. 
And that year, within the region, we burned 1.2 million acres. 
That is an amazing figure.
    While I am supportive of fire as part of our natural 
ecosystems, and recognize that we get a forest that has a 
variety of uneven aged stands and the vitality that comes from 
fire, 2.8 to 5.6 million acres means that Spokane and Boise, 
and possibly La Grande and everybody else, are going to be 
under smoke most of the year. I do not think the Director of 
EPA is going to like that very much. [Laughter.]
    Senator Gorton. Well, it may reduce Oregon's population.
    Senator Craig. OK, we finally figured out, Kathy, how to 
reduce Oregon's population. [Laughter.]
    Time is short, so let me ask this based on a yes or a no. 
Speaking for your organizations and interests, are each of you 
willing to accept whatever consequence that might occur if the 
ROD is not signed and your recommendations prevail?
    Senator Gorton. Yes.
    Ms. Skaer. Unequivocally, yes.
    Mr. Halley. Yes.
    Ms. Cook. That is certain for me.
    Mr. Poulson. We would love that opportunity.
    Ms. Benedetto. Absolutely.
    Ms. Beck. Yes, absolutely.
    Senator Craig. Thank you, all.
    Mr. Goodall. Senator, if I may. Mike Poulson referred to a 
letter that was addressed to the county commissioners that you 
wanted to put into the record. If I may, I would like to read 
the three recommendations. They are very brief.
    Senator Gorton. Go ahead.
    Mr. Goodall. Thank you.
    This is addressed to the county commissioners in Oregon, 
Washington, Idaho, and Montana. It starts out, it says:

    Dear Commissioner, On behalf of the 19 organizations listed 
at the end of this letter, I want to express our concerns about 
the Interior Columbia Basin Ecosystem Management Project. The 
ICBEMP has taken 4 years and over $40 million to produce two 
draft environmental impact statements that we cannot accept.

    And I am going to skip to the recommendations. It says:

    We ask for your support in bringing the ICBEMP to closure. 
Our recommendation is, one, close the ICBEMP regional office 
without the completion of a final environmental impact 
statement and record of decision. Second, disseminate the 
scientific information to the local levels within the BLM and 
the U.S. Forest Service. And, last, direct the local levels of 
the BLM and the U.S. Forest Service to consider the scientific 
information in conjunction with site-specific information, and 
amend or revise their respective land management plans 
accordingly.

    Represented in this letter are the Washington Farm Bureau, 
the Idaho Mining Association, the Oregon Cattlemen's 
Association, the Blue Ribbon Coalition, Idaho State Grange, 
Oregon Farm Bureau, Washington Association of Wheat Growers, 
Wyoming Farm Bureau, Nevada Farm Bureau, Washington State 
Potato Commission, Northwest Mining Association, Intermountain 
Forest Industries Association, Idaho Cattle Association, Idaho 
Farm Bureau, Montana Farm Bureau, Utah Farm Bureau, Washington 
State Grange, Oregon Wheat Growers League, and the Washington 
Cattlemen's Association.
    Thank you.
    Senator Gorton. Thank you.
    Mr. Poulson. Could I make one comment?
    Senator Gorton. I am going to have to call for the next 
panel. We have one more whole panel.
    Mr. Poulson. I was real disappointed we were not asked 
about effects on private property, and I wanted you to know 
that we feel very strongly that there will be indirect effects, 
yes.
    Senator Gorton. OK. Good. That will be included in the 
record.

                           prepared statement

    Senator Craig. Mr. Chairman, I ask unanimous consent that a 
statement by a county agent from Owyhee County, in Idaho, a 
University of Idaho extension agent, become a part of the 
record.
    Senator Gorton. It will be.
    [Clerk's note.--The statement was not received in time to 
be included in the hearing record.]
STATEMENT OF MARK SOLOMON, EXECUTIVE DIRECTOR, THE LANDS COUNCIL
ACCOMPANIED BY SARA FOLGER

    Senator Gorton. Now, our fifth and last group, Gary 
MacFarlane, Friends of the Clearwater; Bill Haskns, The Ecology 
Center; Barry Carter, Blue Mountain Native Forest Alliance; 
Mark Solomon, The Lands Council, Sara Folger, The Lands 
Council. Would they come forward, please.
    Senator Craig. Mr. Chairman, let me apologize to the panel 
that is coming forth. I will commit to read your testimony. I 
have got to depart. And I want to thank all who have come 
today.
    And, Senator Gorton, let me tell you, your decision to have 
this hearing and to allow us to work cooperatively with you I 
think was extremely valuable for the region. I agree with you 
that we are at a sensitive point, in which decisions have to be 
made. And I think the testimony today was extremely valuable. 
And I thank you for that.
    Senator Gorton. My gosh, are you here all alone?
    Mr. Solomon. Well, Senator, it appears that you are, as 
well. [Laughter.]
    Senator Craig. Mark, I have got your statement; I will read 
it.
    Senator Gorton. We will hope that some of your colleagues 
come in. And if they do not, their written statements will be 
included in the record. But under those circumstances, I will 
not turn the light on, and you can try to represent all of 
them.
    Mr. Solomon. Thank you for that luxury.
    Senator Gorton, and, Senator Craig, in your absence, on 
behalf of the conservation community of the Inland Northwest, I 
would like to thank you for this opportunity to testify before 
this joint hearing.
    I am executive director of The Lands Council, a nonprofit, 
Spokane-based conservation organization, dedicated to 
protecting and restoring the lands included in the ICBEMP study 
north of the Salmon River, in Idaho. The other invited 
witnesses were unable to attend, but have provided written 
testimony for the committee's record.
    For your information, I am also a former county 
commissioner of Idaho.
    Senator Gorton. What county in Idaho?
    Mr. Solomon. For Latah County, in north-central Idaho.
    All copies provided to the committee have been printed on 
tree-free paper.
    Senator Gorton, as we approach the completion of the ICBEMP 
planning process, it is appropriate to restate the reason why 
it was initiated. Please remember the time, 1993. The 
President's Forest Conference had just concluded in Portland. 
The conference, attempting to develop a consensus for 
management of the spotted owl forests of the Westside. A 
similar train wreck scenario was developing on the Eastside, 
where various salmon runs were being listed under the 
Endangered Species Act.
    Eastside conservation groups, including The Lands Council, 
convinced then-Speaker of the House Tom Foley and the 
administration to seek to avoid that train wreck by preparing a 
Federal lands management plan before the crisis hit. Our 
communities, our forests, our watersheds were and still are at 
stake.
    Please allow me to read to you the words of retired Senator 
Jim McClure on this very subject, excerpted from his April 1995 
Endangered Species Report, under the letterhead of Givens, 
Purseley & Huntley, Idaho's most prestigious law firm, in which 
he is a partner.
    Senator McClure says:

    As you know, the Pacific Rivers Council scored a 
frightening and impressive victory before U.S. Federal District 
Judge Ezra, resulting in the injunction against all mining, 
logging, grazing, and road-building activities in Idaho 
national forests. This litigation focused on habitat management 
issues, specifically in respect to endangered salmon. The 
decision was quickly followed by the Biological Opinion issued 
on March 1, 1995, by the National Marine Fisheries Service on 
eight Idaho forest plans. This led to the lifting of the 
injunction on March 8th.
    Along a parallel and significant track, the U.S. Forest 
Service and Bureau of Land Management are in the process of 
preparing two unprecedented ecosystem management plans. The 
first is the Upper Columbia River Basin; the second is the 
Eastside Ecosystem Management Plan.
    In the words of one of this firm's regulatory lawyers, the 
March 1, 1995 National Marine Fisheries Service Biological 
Opinion on the LRMP's, or land management plans, is: one of the 
strangest I have seen, because, among other reasons, it cannot 
be readily classified as jeopardy or no jeopardy. The unique 
nature of this regulatory action is now evidenced by the fact 
that people are starting to describe it with a new label: 
conditional jeopardy.
    Although not a model of clarity, the Opinion seems to say 
that jeopardy will result if certain regulatory steps are not 
taken, but that actions now underway, such as the Eastside and 
Upper Columbia EIS's, will avoid jeopardy if carried to 
successful conclusion.
    In this way, the Biological Opinion contains a cleverly 
devised booby trap. For instance, if the Congress sought to 
suspend, streamline or terminate the Eastside System Analysis, 
environmental interests would be in a position to claim that 
the conditions in the Biological Opinion were not satisfied and 
that the injunction against ongoing actions should be 
reinstated.

    I reiterate, these are not my words; these are the words of 
Senator McClure.
    Senator, since the initiation of this process, there have 
been even more listings of salmon and steelhead stocks in the 
Basin. PACFISH and INFISH stream buffers have bought the 
Federal agencies a little breathing space between lawsuits, but 
only a little. PACFISH and INFISH were designed as interim 
protections while the science of the ICBEMP was being 
developed.
    If you wish to see Senator McClure's train wreck prediction 
come true, continue with the current congressional 
micromanagement of agency professionals and budgets. Many 
people may disagree with the conclusions that are being 
developed through the ICBEMP process, but it should stand on 
its own feet, not on the resource industry lobbyists' Gucci 
Gulch loafers.
    The salmon, steelhead, and now bull trout cannot wait. And 
neither will their advocates.
    Many of the panelists today were asked about the roadless 
moratorium and its interaction with the ICBEMP process. I guess 
I would offer that Chief Dombeck's moving forward at this time 
with a roadless moratorium is a direct reflection of the 
science that has been developed through the ICBEMP process that 
identified those remaining roadless areas of the Interior 
Columbia Basin as key core reservoirs of the biodiversity 
necessary to maintain the health of the endangered species 
stocks and those that are threatened.
    It is the politics of delay that have resulted in the 
necessity to engage in a moratorium prior to enactment of the 
ICBEMP EIS.
    I would also add to a question that Senator Craig had 
regarding property taxes and the effect of decoupling that is 
being proposed on the counties. And this is from the 
perspective of a former county commissioner. The last thing a 
county commissioner ever wants to do is raise the property tax 
to provide for the infrastructure needed in his or her county. 
I know. I was run out of office for one of those many same 
reasons.
    But I would also say that the county commissioner that does 
not make it plain to his constituents that they may be living 
beyond their means unless they accept that they have to be 
responsible for their own infrastructure is simply leading to a 
crisis that is now evident before you.
    I would be glad to stand for any questions.
    Senator Gorton. Yes; your reading of the McClure letter is 
very impressive. Since then, you have had the opportunity, for 
3 years, to watch the development of this plan and to see the 
preliminary EIS and all of the other documentation. You 
probably have a fairly good idea of even what a record of 
decision is going to look like. Comment for me, for yourself 
and your organization and, to the extent that you can, for the 
others, on the degree of acceptability of that process and of 
the direction of the planning from your perspective.
    Mr. Solomon. The motto of the conservation community of the 
week, as it were, is ``fix it or nix it.'' The community would 
ask that there be a supplemental EIS to address the significant 
flaws that have been identified not only by some of the many 
panelists here today but in the numerous comments that have 
been received on that draft. And that is appropriate--to spend 
more time developing a management plan that accurately reflects 
the underpinning science and, where the underpinning science 
still has information gaps, to provide those so a full record 
of decision may actually be based on the reality of the ground 
and not on the political considerations that drive the 
budgeting process.
    Senator Gorton. Is it your view that the apparent direction 
of the process so far with respect to the economic uses of the 
various forests, the level of harvest of timber, grazing uses, 
and the like, is true level is too great and that what you 
think the plan might be bends too much in the direction of that 
kind of use and not enough in the direction of preservation?
    Mr. Solomon. I would say that the vitality of our 
communities that depend on timber resources are less dependent 
these days on the amount of wood that is available on the 
Federal lands than they are on the corporate decisions that are 
made in the various corporate offices as to where they wish to 
invest for the best return on their moneys. The closure of 
mills throughout the region that we have experienced over the 
last number of years has not been directly related to the 
amount of timber available. It has instead been related to the 
type of timber that is available.
    As we move toward more and more of a second-growth or 
third-or fourth-growth stocking for the feed for our mills, 
there is just simply less return for the corporations. They are 
moving to other places where there are simply larger trees.
    Senator Gorton. Well, that is certainly an appropriate 
opinion, but it was not an answer to my question. And maybe my 
question was not clear enough. If Bob Williams says, when we 
get to this point, it looks like we will have a plan that will 
have less of an allowable harvest than present forest plans 
have, but considerably more than is being harvested at the 
present time, is that a conclusion with which you are 
comfortable?
    Mr. Solomon. You know, I look back at the experience we had 
in this region under the salvage rider and the amount of timber 
that was put up for sale and the amount that was actually 
harvested. And there was a vast disparity between those two 
numbers. There is a large difference between what is written in 
a plan, be it a forest plan or this record of decision should 
it ever come out, and how it will actually be implemented based 
on either the return to the agency from the sales, to allow 
them to continue to put forward more sales, or from a 
congressional appropriation.
    If there is not the driving force of mills in the area to 
harvest that timber, it does not matter what is in the plan 
regarding how much timber is available; it can be offered and 
it will not be bought. That was the experience in a large 
degree of the salvage rider. And that will probably be the 
experience of any attempt at a massive thinning to mimic fire.
    Senator Gorton. I still do not think I got an answer to my 
question, but I guess I am probably not going to. Would you 
comment on your views of the intense frustration that you heard 
here today from the representatives of various private 
interests, and even of local governments to a certain extent, 
what it stems from, what can be done to deal constructively 
with it?
    Mr. Solomon. There is a--I guess I would have to call it a 
truism, because it derives from many different religions and 
from secular trains of thought--and that is just simply that 
the resistance to change, a resistance to transformation, is 
always the greatest just before that transformation occurs. We 
are on the cusp of major change in the Western States, and 
particularly in this region. And the frustration is there, it 
is real, and has to be acknowledged and has to be mitigated to 
whatever sense is necessary to accomplish that change to a 
true, sustainable economy in this region.
    So, yes, it is there. I sympathize with it, and I work to 
see that it can be alleviated.
    Senator Gorton. How?
    Mr. Solomon. Well, when I was county commissioner, I had 
many more tools to be able to attempt to effect that change.
    Senator Gorton. How would you have us do it?
    Mr. Solomon. How would I have you do it? I would have you, 
first, embrace the concept that that change is going to occur, 
and then to offer your leadership to the communities through 
the transition. At this time, I sense more from the Congress a 
resistance to that change and, as such, the leadership to 
change is not available.
    Senator Gorton. Mr. Solomon, thank you very much for your 
testimony. And of course the statements of the others who could 
not get here will be included. And if you would like to 
supplement what you have said in any respect, the record is 
open for that supplemental.
    Mr. Solomon. Thank you, Senator.

                         conclusion of hearing

    Senator Gorton. Thank you very much. Thanks for being here. 
The subcommittee will stand in recess awaiting the call of the 
Chair.
    [Whereupon, at 10:30 a.m., Thursday, May 28, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


         Material Submitted Subsequent to Conclusion of Hearing

    [Clerk's note.--Additional material was received by the 
subcommittee subsequent to the conclusion of the hearing. The 
statements will be inserted in the record at this point.]
   Prepared Statement of Bill Haskins, Director, Ecology Center, Inc.
    Honorable Members of the Subcommittees: I would like to submit for 
the record the following comments regarding the Interior Columbia Basin 
Ecosystem Management Plan.
    As the director of a non-profit organization working to protect 
this country's invaluable public lands assets, I have interacted many 
times with agency personnel associated with ICBEMP, have extensively 
reviewed ICBEMP documents, and have worked at length with ICBEMP 
digital data products. In my experience, the ICBEMP process has been an 
exceedingly valuable exercise in gathering together some of the kinds 
of data that will be needed if this country's public lands are to be 
managed in a manner that will leave future generations any hope of 
having clean water and healthly wildlife and fish populations. The more 
successful aspects of the ICBEMP process brought together information 
from a remarkably broad spectrum of sources, and integrated it in a 
rather impressive manner.
    The task of figuring out the manifest effects of past, current, and 
future human impacts on the landscape is not an easy one, and is not 
one that can be accomplished on the cheap. In my opinion, some of the 
more conspicuous failings of the ICBEMP scientific data gathering 
process (eg. lack of decent road location and use data, and lack of 
revised roadless area data) can be linked directly to failure to secure 
adequate funding for accomplishment of some of the more basic research 
needs.
    It has become apparent that some members of the Committee, perhaps 
after having seen some of the more objective presentations of ICBEMP 
data and having seen the likely implications for modifications in the 
preferential treatment of extractive industries, have sought to divert, 
defund, and ultimately defeat the idea that large-scale, ICBEMP-style 
analysis is necessary and desirable for the long-term protection of our 
public resources. Such a defeat would not be in the interest of the 
vast majority of American citizens that have reasonably come to expect 
that their public lands would provide them with at least the potential 
for providing some of the host of environmental amenities associated 
with lands not given over to extractive uses. In fact, such a defeat 
would only lead to more squabbles over process rather than substance, 
more litigation over Threatened and Endangered species that were 
supposed to have been protected in part by the ICBEMP process, and more 
clumsy, crisis-oriented public lands management from Washington, DC.
    I urge the Committee Members to reconsider opposition they may have 
to science-based, objective, large-scale analyses, and divert their 
attentions instead to the refinement and adjustment of an ICBEMP 
process that has been relatively tall on scientific effort, but appears 
thusfar to have been very short on logic and foresight on the decision-
making and implementation end.
                                 ______
                                 
  Prepared Statement of Rick Brown, Resource Specialist, the National 
                          Wildlife Federation
    My name is Rick Brown, Resource Specialist in the National Wildlife 
Federation's Western Natural Resource Center in Portland, Oregon. I am 
pleased to have this opportunity to testify on issues associated with 
the Interior Columbia Basin Ecosystem Management Plan (ICBEMP or 
Project). The issues of Public land management raised by the ICBEMP 
process are of great interest to the National Wildlife Federation (NWF) 
and its state affiliate organizations. At NWF's Annual Meeting in 1995 
our affiliates passed a resolution supporting development of ecosystem-
based plans for the Columbia Region, and NWF staff have been actively 
involved in the ICBEMP's public processes since the Project's 
inception.
    NWF continues to believe that there is an important role to be 
filled by regional ecosystem planning for federal lands. Key issues, 
including viability of wide-ranging species, establishing default 
standards for management of important habitats and resources such as 
riparian areas, old growth forests and soils, and the setting of 
regional context for site-specific decisions such as fire management, 
all must be addressed through ecoregional analysis and planning. The 
ICBEMP represents the first attempt to accomplish ecoregional planning 
by the Forest Service and Bureau of Land Management (BLM).
    In some key respects, the ICBEMP has set a good example for 
ecoregional planning. The leadership of the Project has been committed 
to an open public process, and the willingness of the Project staff to 
share information with the public has been both refreshing and highly 
professional. The decision to establish separate science and EIS teams 
continues to appear to have been sound. However, adhering to the 
original plan for completing scientific analysis prior to EIS 
development, as well as achieving better integration among the science 
teams and more effective communication between the science teams and 
the EIS teams likely would have led to better results.
    The Project's scientific teams have provided a considerable amount 
of useful information and analysis, for instance the assessment of 
condition and trend of ecosystems the Basin in terms of ecological 
integrity, and discussion of issues relating to economics, soils and 
the ecological functions of animals and plants. However, there were 
also some major failings of the scientific effort, in particular the 
failure to rigorously examine either the efficacy of large scale 
thinning and prescribed fire in restoring ecological integrity or the 
potential detrimental effects of these management actions. 
Consequently, the assumptions in the DEISs that landscape-scale 
thinning and prescribed fire will be both effective and benign cannot 
be supported by the science teams' work. The science and DEIS teams 
similarly failed to examine the effects of livestock grazing on changes 
in forest structure and composition. Also, the Project's analysis 
relies too heavily on the CRBSUM computer model, which is flawed by 
untested assumptions and lack of adequate data.
    The greatest disappointments from the ICBEMP lie in the DEISs. 
These documents are flawed not only by the failure of the science teams 
to take a hard look at key issues pertaining to the relationships among 
thinning, burning, livestock and the integrity of forest and range 
ecosystems, but also by the failure to identify management strategies 
commensurate with the problems documented by the agencies' own 
scientists. That management decisions need to be tailored to site-
specific conditions is axiomatic, but it is nonetheless essential that 
ecoregional efforts such as the ICBEMP properly set the stage for local 
decisions by developing default management standards and establishing 
analytical processes and data standards for more site-specific 
decision-making. Almost without exception, the ICBEMP has failed to 
fulfill this crucial role. The DEIS's are also flawed by the failure to 
develop meaningful and reasonable alternatives; Alternative 7, the 
presumed ``conservation'' alternative is particularly offensive by its 
inclusion of a reserve system that is supported neither by the 
conservation community nor science.
    The challenges faced by the Forest Service and BLM as they look to 
completion of the ICBEMP process are considerable. Frankly, we do not 
envision a resolution that can be true to principles of public 
disclosure and sound decision-making without development and issuance 
of revised DEISs. While the agencies have not committed to this course, 
we believe that analysis of the comments received on the current drafts 
will support the conclusion that revisions will be necessary.
    Despite our disappointments in the process to date, NWF believes 
that ecoregional planning is sufficiently important that the agencies 
must be allowed to see the ICBEMP process through to conpletion. In 
addition to the basic function of oversight, the most important role 
for Congress at this point is to encourage completion of the project, 
consistent with sound science and full public involvement, and to 
provide the funding for the agencies to do so.
    Again, thank you for the opportunity to submit this testimony. We 
hope you will find these brief comments useful in your deliberations.
                                 ______
                                 
    Prepared Statement of Gary MacFarlane, Friends of the Clearwater
    I was informed I was invited to testify before this panel, but I 
was never officially notified when I was to appear. Thus, I submit this 
written statement regarding the Interior Columbia Basin Ecosystem 
Management Project.
    The draft environmental impact statement (EIS) process for the 
Columbia River Basin is very disappointing. The alternatives simply are 
inadequate and inappropriate to address the concerns which the 
scientific assessment team discovered. The prescriptions for the 
problems are ludicrous. The agencies have twisted the scientific 
assessment in order to accommodate continued logging, grazing, and 
mining.
    One option to fix this problem is to prepare new (supplemental) EIS 
for each of the two regions. However, this solution pre-supposes 
integrity on the part of the agencies in a process which has been 
tainted by a lack of honesty where the desire to produce commodity 
outputs from public lands masquerades as science. Any new EIS(s) would 
likely be subject to the same problems.
    Thus, we suggest these specific EISs be terminated. While the 
concept showed promise, the results have been disastrous. If a new 
effort is pursued--and there is much merit in incorporating ecological 
principles in federal land management policies--it must be far 
different from what has been proposed to date.
    Two facts emerge from the scientific assessment of the Columbia 
Basin. First, the areas with most ecological integrity are those that 
are roadless and undeveloped. Second, the factors that have most 
negatively affected the integrity of the Columbia Basin are roads, 
grazing, logging, dams, and perhaps fire suppression. More of the same 
won't restore the area.
    The Forest Service recently admitted in a report: ``the nation's 
forests are generally in a healthy condition. While each region does 
have a variety of health concerns in need of attention, a listing of 
these concerns should not be interpreted as a description of a forest 
health crisis.''
    Given this, there is no justification for massive thinning projects 
across the basin as proposed in the preferred alternatives in the draft 
EISs. The absurdity of the premise in the DEISs--thinning mimics 
natural fire but natural fire doesn't mimic natural fire and is bad--
would be laughable if it were not such an entrenched false dogma within 
the various federal agencies and especially the timber industry.
    The alternatives in the EIS's are far too narrow to be of any 
value. There is no discussion between goals and process. The EISs are 
so output oriented (acres treated, etc.) that they ignore the dynamism 
of natural processes. Years may go by with few fires, floods, or other 
natural events. Forest stands may change, rangeland plant composition 
may ebb and flow. These ecosystems have evolved for millennia without 
industrial human manipulation/management. While it is true indigenous 
people did light fires and interact with the system, it is highly 
doubtful they had the equivalent of the Forest Service, BLM, chainsaws, 
domestic cattle, bulldozers, or especially the Interior Columbia Basin 
Ecosystem Management Project. None of the alternatives addresses the 
issues of outputs (goals) versus process. Thus, no alternative was 
analyzed which adopted a process of minimal trammeling by industrial 
society to help restore some ecological integrity to our nation.
    Furthermore, there is no aternative that analyzes or adopts a 
process allowing natural events to occur unimpeded on undeveloped areas 
in conjunction with light-handed restoration (road removal, remove of 
exotic plant species, replanting and reseeding of native species, dam 
removal, allowing natured fires to burn) on roaded landscapes. Such an 
alternative would be much more ecologically sustainable and 
economically justifiable than the preferred alternatives in the two 
EISs. There is no alternative which analyzes or adopts the end of 
industrialization of public lands--commercial extraction and industrial 
recreation. Yet those are the very activities which have caused the 
ecosystem to become less stable, less diverse, and less desirable.
    Rather than recognize the vital impotence of undeveloped areas, the 
DEISs choose to develop or manipulate them. Rather than recognize the 
negative impacts of commercial extraction and industrial recreation on 
public lands, the EISs encourage them. The EISs fail to address the 
real issues in the Columbia Basin.
                                 ______
                                 
    Prepared Statement of Barry Carter, Blue Mountain Native Forest 
                                Alliance
    I would like to thank you for this opportunity to testify before 
the Senate Subcommittee on Interior and the Senate Subcommittee on 
Forests and Public Land Management on issues relating to the Interior 
Columbia Basin Ecosystem Management Plan.
    The Blue Mountain Native Forest Alliance is an alliance of 
individuals and small environmental groups who monitor public land 
management in eastern Oregon. As the Coordinator of the Blue Mountain 
Native Forest Alliance, I have taken a keen interest in the ICBEMP 
process. I have attended and participated in virtually every public 
meeting that the ICBEMP has hosted.
    I am gravely concerned that this project, which was directed to 
``develop a scientifically sound, ecosystem-based management strategy 
for lands administered by the BLM and Forest Service east of the 
Cascade Crest'', has become the political tool of Washington 
politicians in their efforts to micromanage western lands for the 
exclusive benefit of corporate interests; contrary to the wishes of the 
American public.
    I have watched the verbal abuse and public harassment of Forest 
Service decision makers by other Congressmen at a previous 
Congressional Committee hearing. I have watched as ICBEMP managers 
have, in the face of this type of harassment, changed their priorities 
from the implementation of good science to the implementation of a 
politically expedient final solution; the liquidation of our public 
forests and grasslands.
    This hearing is apparently part of the continuing effort to 
pressure the Forest Service and BLM people involved with the ICBEMP 
project into ``reinterpreting'' data and developing management 
solutions to so-called ``forest health'' problems. On one hand many 
Congressmen claim that they are interested in local control--but only 
when it means that local control will be cheaper to manipulate by 
corporate interests. On the other hand they are striving to implement a 
command-and-control management plan which would be designed by 
corporate lobbyists and mandated by Washington politicians. This is 
about as far from local control as you can get.
    Those who are responsible for this should be ashamed of themselves. 
They know what is right here but they continue to try to bully public 
land managers into implementing scientifically discredited land 
management schemes. The cost and time overruns in the ICBEMP project 
are the consequence of the pressures coming from Congress, they are not 
the fault of the ICBEMP management team. Continued Congressional 
meddling in the ICBEMP process has mucked up the science with politics 
so badly that the draft EIS looks like a politically motivated 
smorgasbord presenting the wish lists of corporate America. If those 
who are responsible in Congress would withdraw their threats, these 
land managers might feel free to come up with a scientifically sound 
supplemental draft EIS that we could all be proud of.
    I hope that you will take my criticisms in the constructive spirit 
in which they are offered. The people, land and creatures of our 
country will benefit if you take a principled stand to protect and 
restore Teddy Roosevelt's great legacy: the public lands of our nation. 
We will all benefit if you encourage your colleagues to allow a 
supplemental DEIS which actually reflects the science rather than 
reflecting the last grasping by the extractive industries for our 
public resources.
                                 ______
                                 
                  Prepared Statement of Ernie Horvath
    Since the beginning of 1994, the USDA Forest Service and the USDI 
Bureau of Land Management have been trying to develop a plan on federal 
lands in Eastern Oregon and Washington, Idaho, parts of Montana, Utah, 
Wyoming, and Nevada. The project has recently released two draft 
Environmental Impact Statements (EISs) that are intended to give 
direction on 36 national forests and 14 BLM districts in the region.
    After reviewing the draft EISs, I have concluded that the project 
has neither met it's objectives, purpose and needs, nor produced a plan 
to accomplish needed on-the-ground work to restore forest health. I 
have concluded that:
  --Proposed management direction is inappropriate for a broad basin 
        plan; it is too light on guidelines (should do) and too heavy 
        on standards (must do).
  --The draft EISs do not meet their stated purpose and needs.
  --Necessary evaluations are incomplete or missing.
  --Interpretation and inflexibility will lead to implementation 
        problems and the continuation of management gridlock.
  --Legal non-compliance problems exist with NEPA, the National Forest 
        Management Act (NFMA), and other federal laws.
  --There are 533 standards in both drafts. Some are vague, others 
        overbearing and restrictive with little or no multiple use 
        factors addressed. This will leave the forest to great risk to 
        wild fires. Along with big-reserves and ``Riparian 
        Conservations Strategies,'' this puts the federal forest lands 
        out of any type of multiple use programs.
  --The purpose and needs statement proposed ``rates of forest 
        restoration'' are so slow that even the most aggressive 
        alternatives will take 70 years to restore forest to high 
        integrity. The draft EISs fail to address the sustainability or 
        the predictability of products and services.
  --We need to have in place a workable plan for the local forester to 
        implement. This would put the right people in control of the 
        forest they have been running for years--which is what the 
        people have been saying at all the meetings. To ignore the 
        local knowledge is a waste of years of good forest practices.
    The list goes on about the things that are wrong with the plan, but 
to tell you the truth, if you take the politics out of the plan, you 
might have something to work with. The people came to the meetings and 
voiced their opinions. Their voices were not heard! The data taken 
didn't match what the people said they wanted. The outcry from the 
people is still there, but the political influences have won out again. 
Common sense and knowledge loose again!
                                 ______
                                 
Prepared Statement of Thomas E. Dayley, Executive Vice President, Idaho 
                         Farm Bureau Federation
    My name is Thomas E. Dayley. I am the Executive Vice President of 
the Idaho Farm Bureau Federation. Our organization represents 
approximately 50,000 member families in Idaho. This represents more 
than half of the approximately 22,000 farms and ranches in our state.
    I would like to thank those in Congress, especially the members of 
the Idaho Delegation, who have expressed concern regarding ICBEMP. It 
is refreshing to see Congress take seriously its responsibility for the 
oversight of government. The people of this country who know how 
important this is are very grateful.
    The subject, ICBEMP, is very serious and exemplifies the importance 
of oversight by the Congress on such matters. I would like to review 
two aspects of this issue, the process and the product.
    Let us first consider the process briefly, using the documents 
themselves. May 1993, President Clinton directed the Forest Service to 
``develop a scientifically sound and ecosystem-based strategy for 
management of the east side forests.'' August 1993, Assistant Secretary 
of Agriculture for Natural Resources and Environment, Jim Lyons 
announced the Forest Service would begin. Subsequently, the project was 
initiated. January 1994, Jack Ward Thomas, Chief of the Forest Service, 
and Jim Baca, Director of the Bureau of Land Management, jointly signed 
a charter directing the development of an ecosystem management 
framework.
    In June 1994, a decision was made to develop a second EIS for the 
Upper Columbia River Basin at the same time as the east side EIS. The 
region that is the subject of ICBEMP includes approximately 144 million 
acres. If it were a state, this area would be the third largest state 
behind Alaska and Texas. Seventy-five million acres are federal lands 
and the remaining 69 million acres are mostly private property. We are 
told that those private acres will not be impacted. On its face it 
seems ludicrous to suggest that could possibly be true. Certainly, 
experience tells us that any decision regarding federal lands impacts 
adjacent private property in dramatic ways.
    It should be noted that, for the most part, this has been a federal 
initiative directed from Washington, D.C. down. The last paragraph of 
the Briefing Paper from the project (attachment 1) tells the story 
about the process being used here.
    ``Coordination with affected state and Tribal government leaders is 
essential. In addition, local governments, key interested and affected 
parties, and other federal and state agencies will be encouraged to 
participate.''
    Is it appropriate that after millions of dollars and years of time 
that the affected parties would only be ``encouraged to participate?'' 
All public meetings held around the region were referred to as an 
``open house'' because no comments were taken down and information 
given from the public was not recorded.
    This process was initiated because a conscious decision was made in 
advance about what results were desired regarding the management of the 
lands in the pacific northwest. There has been an all-out effort to 
prove the goals as directed from above. This project has now taken us 
into year five having cost more than $40,000,000.00. However, this is 
not science and this is not the system of government that our founding 
fathers envisioned.
    Now I will take some time to discuss the product that has resulted 
from these many dollars and many months. I will be using the analysis 
of this project by Allan K. Fitzsimmons which I have submitted for the 
record (attachment 2).
    First, the DEIS represents a significant change in the direction of 
Federal land management. This entire project is based on the concept of 
ecosystem management, a term that has no clear agreed upon definition. 
Even the most ardent supporter of this term agree that there is no 
precise definition. Jack Ward Thomas, Chief of the Forest Service who 
signed the original charter directing that an ecosystem management 
framework must be developed said it this way in April 1993, ``I promise 
you I can do anything you want to do by saying it is ecosystem 
management . . . it's incredibly nebulous.'' (Speech ``Ecosystem 
Management'' delivered in Washington, D.C. April 11, 1993) The entire 
basis for this evaluation, ecosystem management, is in scientific limbo 
yet we are being asked to use it as the justification for radically 
changing how we manage these 144 million acres of public and private 
lands in the northwest.
    Ed Grumbine of the Sierra Institute said, ``the goal of ecological 
integrity places the protection of ecosystem patterns and processes 
before satisfaction of human needs.'' (Introduction to ``Environmental 
Policy and Biodiversity, Edward Grumbine) University of Vermont 
professors Carl Reidel and Jean Richardson said it this way, ``such 
revered principles as multiple use, sustained yield and even 
conservation'' must give way because they ``are no longer 
scientifically or politically valid.'' (``Strategic Environmental 
Leadership in a Time of Change,'' Inaugural Donion Lecture, State 
University of New York at Syracuse)
    The Keystone National Policy Dialogue on Ecosystem Management spent 
18 months trying to achieve a consensus on ecosystem management. This 
was more than 50 individuals from federal, state, and local land 
managing and regulatory agencies; tribal organizations; national, 
regional, and local environmental groups; forest, farming, ranching, 
and housing industries; think-tanks; congressional staff; and 
academics. The definition they came up with was, ``A collaborative 
process that strives to reconcile the promotion of economic 
opportunities and livable communities with the conservation of 
ecological integrity and biodiversity.'' (The Keystone National Policy 
Dialogue on Ecosystem Management--Final Report) The group did not 
define ecological integrity.
    The Ecological Society of America tells us that ``a dung pile and a 
whale carcass are ecosystems as much as a watershed or a lake.'' ``A 
scientifically defensible and comprehensive view of ecosystem 
management has yet to be articulated.'' Thus we see that an ecosystem 
can be anything that the speaker may want it to be.
    There is no federal statute that gives the Forest Service or the 
Bureau of Land Management the use of ecosystem management as a tool. 
Current law requires federal lands be managed for multiple use and 
sustained yield on the federal lands. For this to happen agencies are 
required to make plans and manage but not in the nebulas way that 
ecosystem management could and would allow.
    Ecosystem management is awash with uncertainty, ambiguity, and 
would allow land managers to be even more arbitrary and capricious than 
now because this system provides no measurable standards. It is based 
upon the vague concept of ``ecosystem health.'' The estimates used in 
this report indicating where we were 50 to 100 years ago, are out of 
whack. The projections were based on either faith or estimated 
information and makes these projections very risky. We would never 
think of making precise budget decisions for 100 years from now and 
certainly not using this type analysis and projection.
    The White House Interagency Ecosystem Management Task Force states 
it this way: ``No single federal statute contains an explicit, 
overarching national mandate to take an ecosystem approach to 
management, and Congress has never declared that a particular federal 
agency has the ecosystem approach as its sole, or even primary 
mission.'' (Washington, D.C. November 1995)
    This gives too much power to the federal regulators who will give 
the meaning to key, regulatory language and interpret what all of this 
ambiguity means. A new set of values not scientific findings, stand 
behind the assumptions that an unfettered nature produces ideal 
landscapes. Many of the scientific concepts elevated to the status of 
principles are in fact judgements reflecting the values of the 
scientists who define the principles. If this is allowed to become the 
basis for land management decisions in the northwest, it will increase 
the uncertainty for the resources of the land and the citizens who are 
the stewards of that land.
    Every ten years, as directed by the Constitution, this country 
conducts a census. Based on that census, the various states choose a 
certain number of representatives in the House of Representatives. 
Would this committee or the House of Representatives or the Congress 
accept a system where the number of Congressmen could be changed 
unilaterally, or the congressional district boundaries could be shifted 
at will by some higher bureaucratic authority?
    Why should we be forced to accept the premise that the well-being 
of nature should replace the well-being of people as the central 
premise of land management?
    Why should I accept the premise that placing protection of nature 
first will lead to the well-being of humans?
    If this plan had been in place one hundred years ago, what would 
this area be like today? Would our people and our land be better off?
    We get some insights into the answer to that question from the 
proceedings of a conference at Tufts University in November 1995 
(Attachment 3):
    ``Many accounts report on how many buffalo actually grazed the 
western plains. A reliable estimate is about 60 million. However, we do 
not need an exact count to visualize the impact the buffalo must have 
had on the riparian zones during the presettlement era. Their trampling 
of banks and the effects of their grazing must have been very great 
compared with what we observe today.''
    ``Evidence of their impact on riparian vegetation is supplied by 
trapper Osborne Russell . . .'' The bottoms along the rivers are 
heavily timbered with sweet cottonwood and our horses and mules are 
very fond of the bark which we strip from the limbs and give them every 
night as the buffalo have entirely destroyed the grass throughout this 
part of the country.
    Captain Fremont in July 1842 gave this report: ``We found no grass 
today at noon; and in the course of our search on the Platte, came to a 
grove of cottonwoods where some Indian village had recently encamped. 
Boughs of the cottonwoods, yet green, covered the ground, which the 
Indians had cut down to feed their horses upon. It is only in the 
winter that recourse is had to this means of sustaining them; and their 
resort to it at this time was a striking evidence of the state of the 
country"
    I have enclosed a copy of both of the studies that give extensive 
quotations from Lewis and Clark and others regarding what it was like 
100 years ago. The subject of the articles is how the environment has 
been enhanced through agriculture.
    These papers point out that the team has made assumptions that are 
incorrect about where we were 100 years ago. This has brought them to 
conclusions and recommendations that are almost 180 degrees off base.
    The document under consideration in this hearing is too large, too 
speculative, too nebulous and too non-scientific for any credibility or 
reliability. It imposes 166 new standards that must be followed by land 
management agencies and issues 398 new guidelines for management which 
will result in a huge burden for managers and countless opportunities 
for antagonists to issue court challenges affecting every facet of 
public and private land management and use.
    Idaho Farm Bureau does not feel that public involvement in the EIS 
process has even approached what could be considered adequate. All 
meetings have been informational only. There has been no public input 
allowed that questions the lack of creditably the science, the 
assumptions or the conclusions of the document. We cannot believe that 
a document as far-reaching and complex as this EIS did not have 
adequate summaries, public work sessions, broad analysis or peer review 
prior to being shoved on the public for comment.
    We strongly oppose the method of adoption of complex and far-
reaching proposals by federal agencies, and would recommend withdrawing 
this entire document and, if necessary, the process started over with 
adequate public involvement and more in-depth analysis by scientific 
experts.
    In our overall opinion, the draft Environmental Impact Statement 
does not provide an adequate basis for well-reasoned and scientifically 
sound management of federal lands. Quite frankly, we do not think this 
type of management plan will work and we will oppose any such move to 
implement management based upon this non-scientific approach. One of 
our major concerns is that the entire draft EIS is driven by individual 
value judgement. This is not science. An assumption that nature 
provides the perfect model is absurd, but it is one of the major 
recurring themes in this document. The use of vague and ambiguous 
concepts is constantly used in the document. Such concepts are neither 
explained nor defined but left to the reader's discretion. Standards 
proposed lack objective and quantifiable assessment and again will lead 
to major confrontation between managers and public land users. Court 
challenges by those who oppose multiple uses will be endless.
    Not even the term ecosystem is defined sufficiently to be 
understood in this entire massive document. There are no maps defining 
the ecosystem, there are no procedures defined to evaluate this so 
called ecosystem-based management, and there certainly is no rationale 
given for shifting from current scientific management objectives to an 
ill-defined, ecosystem-based procedure. If we don't know what it is or 
how to get there, when will we know if we're successful? These proposed 
management alternatives simply will not work in our estimation.
    Alternatives, 1 and 2 in the document are simply dismissed as not 
meeting their purpose, and each needs an explanation of the 
requirements for the new land management policies. However, 
Alternatives 1 and 2 are the only methods that actually have any 
scientific basis for implementation. The draft EIS represents a 
significant if not radical change in the direction of federal land 
management, and by dismissing the only two alternatives that have 
formed the basis for land management up to this time, this document 
moves us into uncharted territory without a map, without a means of 
evaluation. In the words of Jack Ward Thomas, this is ``a management 
technique that is incredibly nebulous and lacking a consensus.''
    Perhaps no part of the draft EIS is as upsetting to us as the 
blatant attempt to move land management into a process that eliminates 
human uses. The apparent purpose of this EIS is to protect nature by 
restricting or prohibiting human use of the earth. We strongly object 
to any such premise. The inescapable conclusion of this document is 
that whatever humans do that is inconsistent with shifting toward 
natural landscapes must be prohibited or limited by government as much 
as possible. We presume this envisions curtailing everything from 
logging to backpacking. Apparently the draft EIS moves management away 
from time-honored production of goods produced from natural resources 
toward, a goal of protecting ecosystems as though they were definable 
entities.
    This draft EIS would try to shift the landscape to a ``natural'' 
condition without the vaguest idea what a natural condition is or could 
be. Alternative 7 places 42 percent of the entire project area into 
strictly controlled reserves and the other Alternatives, although not 
so blatant as Alternative 7, do the same thing. Terms such as road 
closures, slope adjustment factors, prohibited and restricted uses, are 
very subjective. When these uses are restricted because they are not 
within the ``capabilities of the ecosystem'' it will only lead to major 
disputes on every point. We envision that within the ecosystem concept 
just about anyone in Idaho will be able to concoct some ecosystem whose 
capabilities are exceeded by virtually any human activity and would be 
declared outside the ``capabilities of the ecosystem!''
    The draft EIS administrative impacts on decision-making and 
planning will undoubtedly create uncertainty for land owners, increase 
appeals and litigation, delay decision-making and increase bureaucratic 
requirements. We envision a massive move toward never-ending 
bureaucratic requirements for every decision. Alternatives 3 and 7, 
just about eliminate any stability in the livestock industry, as owners 
will watch the implementation of the raft of new subjective standards 
and decreased rangeland activities. Costs of such implementation will 
be a constant threat to anyone trying to make a living grazing 
livestock on public lands.
    The same premise will follow the timber industry and what used to 
be sustainable yields will only be a memory under this draft EIS. As 
the nebulous standards are applied to ecosystem management, the meaning 
and measures associated with key terms as well as which ecosystems to 
protect and which to ignore, will surely lead to constant litigation 
and administrative challenges. This will totally tie the system in 
knots.
    In conclusion, the draft EIS represents a world view in which 
nature knows best. The ideal from this prospective is landscape shaped 
entirely by natural processes and uninfluenced by industrial or post-
industrial western society. The draft EIS indicates the landscape is 
impacted by non indigenous peoples and can cause a loss of ecosystem 
integrity and landscape health.
    The document fails to provide an adequate basis for well reasoned 
government decision making because of vague, ambiguous and imprecise 
concepts that lack objective standards and measures. The document has 
entirely too many standards, and at best, these should be guidelines 
without the force of law.
    The draft EIS lacks a definitive map showing every ecosystem the 
government is to protect and what health issues the government managers 
are supposed to restore. The maps most commonly associated with this 
EIS are hydrographic or water basin maps, geographic maps, fish 
prevalence maps, wilderness set aside maps, etc.
    An ecosystem map does not exist. No one can map an ecosystem since 
no one can define one.
    We feel this draft EIS is totally unacceptable and if adopted will 
lead to less public use and enjoyment of public lands, massive economic 
impacts to local communities, and reduced grazing, mining, recreational 
and timbering. Federal managers who are tied tightly in red-tape now 
will find themselves confronted with bureaucratic hurdles which will 
grind the entire process to a halt and make any positive outcome almost 
impossible.
    On page 13 of the Idaho Farm Bureau Federation policy book is a 
good summary of what Idaho Farm Bureau feels regarding the subject of 
this report:
    We ask that Congress investigate Interior, Forest Service, Fish and 
Wildlife and any other agency who has a compelling interest in 
promoting ecosystem management for misappropriation of taxpayer dollars 
in their planning process. Congress must restrict funding for ecosystem 
programs and prosecute those who are responsible for circumventing the 
authority of Congress.
    We therefore suggest abandoning the report and process.
                                 ______
                                 
    Prepared Statement of Dixie Riddle, State Secretary-Treasurer, 
                Washington Association of Wheat Growers
    The Eastside Ecosystem Management Project was divided and renamed 
the Interior Columbia Basin Ecosystem Management Project (ICBEMP) and 
the Upper Columbia Basin Ecosystem Management Project (UCBEMP). The 
ICBEMP and the UCBEMP are attempts by the federal government and 
environmentalists to control public and private lands, in Washington 
and Oregon.
    The federal government has effectively assumed local control of the 
Columbia River Gorge through the Gorge Advisory Commission, which 
advises the U. S. Forest Service on local land-use policy, without the 
advice and consent of local county commissioners. The ICBEMP and UCBEMP 
are being implemented under the control of federal agencies that, while 
operating under the guise of public hearings, desire to affect local 
private property land use through federal regulations. The ICBEMP and 
UCBEMP may be implemented by Presidential Executive Order, by-passing 
congressional input on the establishment of these projects.
    The ICBEMP and UCBEMP will be even more widespread than the 
Columbia River Gorge government takeover. It will be a devastating loss 
of your citizen vote, personal rights and property rights. It will 
implement a twenty federal-agency control between the Cascade Mountains 
and the Rocky Mountains. The original KEMP Charter states that 
``Decisions will only affect state and federal land.''
    WAWG will strive to insure that the government's decisions will not 
and cannot be extended to privately owned properties. WAWG will 
continue to actively educate its members and lobby various authorities 
to reach this goal at the grassroots level with input to the project 
and interested parties.
                                 ______
                                 
  Prepared Statement of the Northwest Timber Workers Resource Council
    The following is an overview of the Northwest Timber Workers 
Resource Council (NWTWRC) input to the Interior Columbia Ecosystem 
Management Project (ICBEMP). As described in its directional documents, 
the ICBEMP was intended to (1) Restore forest health, (2) support 
economic and social needs with sustainable and predictable levels of 
products and services, (3) update and amend Forest Service and BLM 
management plans with long term direction, (4) provide clear direction 
to local managers in the context of a broad ecological scale, (5) 
emphasize adaptive management, (6) restore and maintain wildlife 
habitat, (7) provide opportunities for cultural recreational, and 
aesthetic experiences, (8) provide long term direction to replace 
PACFISH, INFISH, and the Eastside Screens, and (9) identify where 
current policy prevents achieving desired future conditions.
    The NWTWRC finds that the ICBEMP Draft Environmental Impact 
Statements (DEISs) do not meet the nine major points iterated above.
Restore Forest Health
    All alternatives fail to restore ecosystem health in a reasonable 
length of time. This is because most of the principals mandated in the 
ICBEMP DEISs rely on passive management rather than active management. 
The DEISs badly underestimate the risk of forest health hazards from 
wild fires, insects, and disease.
    Many credible scientific studies have recommended forest management 
practices such as timber harvest as ways of improving forest health, 
but these are ignored by the DEISs.
Support Economic and Social Needs
    Economic considerations have not been adequately addressed in the 
DEISs. They fail to define sustainable and predictable levels of 
products. The cultures, economies, and social needs of the natural 
resource-based communities have not been accurately identified.
    The DEISs treat economic and social needs as impacts to the 
ecosystem, rather than legitimate parts of the ecosystem.
    Little or no consideration has been given to the fact that reducing 
the federal timber supply by at least 40 percent and in some cases up 
to 100 percent, as mandated by the DEISs, will drastically affect 
timber producing communities. In addition, the economic analysis 
regarding recreation is badly flawed.
Update and Amend Current Forest Service and BLM Plans
    Individual forest plans have been challenged in court so often that 
they provide little meaningful direction. Analyses indicate 
approximately 200 hard standards are mandated by the ICBEMP DEISs. 
These hard standards, when applied to local forests, will cause 
additional gridlock.
Provide Clear Strategies and Consistent Direction
    Many scientific questions have been left unanswered by the DEISs. 
However, hard standards that will mandate actions on-the-ground have 
been imposed anyway. For instance, the rationale for excessively wide 
riparian buffers has never been scientifically proven, yet expansive 
Riparian Conservation Areas are mandated in the DEIS.
    The DEISs mandate watershed analyses before projects can go 
forward. Yet such intricate analyses will take months or years to 
complete.
    The DEISs lack clear direction on how to minimize the gridlock with 
which the government is faced today.
Emphasize Adaptive Management over the Long-Term
    The DEISs provide little or no direction for adaptive management 
practices. There is no mechanism for changing standards or practices if 
management actions fail to bring expected results.
Restore and Maintain Habitat for Plant and Animal Species
    The entire project is driven by wildlife and fisheries concerns, 
with most emphasis placed on endangered species, rather than on the 
needs of thousands of more abundant species.
Provide Opportunities for Cultural. Recreational, and Aesthetic 
        Experiences
    The culture of rural, timber, and other natural resource producing 
communities has been omitted in the DEISs. The recreational 
considerations of the plan seems to be devoted to primitive recreation 
which is in conflict with demand for developed recreational facilities 
and increased access to resources. The DEISs over-dependence on passive 
(not on active) management, will cause more wildfires, and forest 
health problems and will degrade aesthetic quality.
Provide Long-term Management to Replace PACFISH, INFISH. and Eastside 
        Screens
    PACFISH, INFISH, and the Eastside Screens, were intended to be 
temporary, ``quick-ffxes'' in response to threatened litigation. 
However, the DEISs have incorporated regulations that are even more 
stringent than these three ``temporary'' directives.
Identify Where Current Policy Prevents Achieving Desired Future 
        Conditions
    The DEISs have greatly minimized the challenge of reaching the 
desired future conditions by not prescribing active management and 
underestimating funding needed for the studies proposed. Analysis shows 
that even the most aggressive management proposed in the DEISs will not 
restore forest health in a reasonable length of time. Within the DEISs 
there has been too much reliance on philosophy and theory and not 
enough emphasis on active restoration activities.
Recommendations
    The DEISs need to include alternatives to aggressively pursue 
forest restoration.
    Revise the DEISs to include an accurate estimate of social and 
economic impacts at the individual community level. Include 
environmentally sound commercial timber harvest to generate funds for 
ecosystem restoration and provide economic stability to rural 
communities.
    Revise the DEISs so that management direction is given to the 
individual forests in the form of general guidelines instead of hard 
standards.
    Eliminate the requirements for overly intensive watershed analysis 
prior to project implementation.
    Use silvicultural practices, including logging, to maintain and 
restore forest health in the most cost- effective manner.
    Provide a mechanism for changing and adapting management practices 
that will assure predictability in goods and services by giving local 
managers flexibility to implement projects on an as-needed basis.
    Management requirements should emphasize healthy ecosystems, and 
not be measured only by rare or endangered species populations.
    Standards without scientific proof should be dropped.
    The DEISs should contain provisions that more accurately meet the 
projected demand for increased developed recreation and access.
    Replace alternatives that are simply reiterations of PACFISH, 
INFISH, and Eastside Screens with performance based-objectives.
    Provide local public land managers with flexible guidelines rather 
than top-down, one-size-fits-all standards that do not meet the site 
specificity required by NFMA and NEPA.
Summary
    As written, the ICBEMP DEISs do not meet the direction given in its 
foundational documents provided by President Clinton, its Charter, or 
its Statement of Purpose and Need. Furthermore, the NWTWRC feels the 
DEISs are in violation of the National Forest Management Act (NFMA), 
and the National Environmental Policy Act (NEPA).
    The NWTWRC contend the DEISs are not in compliance with the 
planning structure required by either act. They fail to provide targets 
for resource outputs or reveal how the plan will affect the existing 
schedule of commodity production. NEPA mandates that DEISs must be 
limited to regional guide amendments, yet the ICBEMP DEISs will 
arbitrarily force amendments of individual forest plans Inventories and 
data on which the DEISs are based, appear to be legally insufficient, 
fail to assess the social and biological effects on the sustained yield 
of timber, and attempt to adopt management standards.
    The NWTWRC feels the ICBEMP should be stopped at this point, and 
the effort be re-directed to it's original intent, that of providing a 
guiding document for local managers' use in implementing local 
projects. Our organization is adamantly opposed to instituting the 
DEISs as written, and feel that forcing the ICBEMP implementation 
without significant changes will further undermine the credibility of 
the Forest Service and BLM, cause additional degradation of the 
ecosystem, additional bureaucratic gridlock, and increased social and 
economic problems for the rural citizens of the Interior Columbia 
Basin.
                                 ______
                                 
      Letter from Richard Bass, Chairman, Board of Owyhee County 
                             Commissioners
                                                      May 28, 1996.
Senator Slade Gorton,
Senator Larry Craig,
Senator Gorton Smith,
Senator Conrad Burns.
    Dear Senators: This letter is sent to you at a late hour because of 
the fact that we, as a Board of County Commissioners of a County which 
will be severely impacted by ICBEMP, did not receive information 
regarding your scheduled hearing until just prior to our weekly meeting 
of the Board on May 26, 1998. We as a Board representing our County are 
unanimously opposed to further funding of ICBEMP and to issuance of any 
Record of Decision under which ICBEMP can be implemented.
    It does not surprise us to learn that the only County officials who 
are scheduled to testify in your Spokane field hearing are members of 
the Eastside Coalition. From the inception of ICBEMP, the federal 
agencies have tried to evade the statutory mandate of coordination with 
local governments by dealing with the Coalition. From the inception, we 
in Owyhee County have opposed that process, pointing out repeatedly 
that coordination with local governments involved in the land use 
planning process means just that: coordination with the units of local 
government not with a coalition named by a state association. We have 
made our objections clear to the Idaho Association of Counties, to the 
Coalition itself, to the federal agencies involved in ICBEMP, and to 
Senators Craig and Kempthorne and Representatives Chenoweth and Crapo.
    But, repeatedly, the Eastside Coalition members have served as a 
shield for the ICBEMP process, falsely contending that they have served 
as the ``coordinators'' for local government. You might want to ask the 
testifying members of the coalition some specific questions about the 
content of this EIS as it effects Boise County, Owyhee County, Lemhi 
County, Elmore County, Adams County, Washington County, Valley County, 
or any other county in Idaho. For example, ask them what the effect of 
ICBEMP as outlined in the EIS will be on RS 2477 rights of way in Boise 
County, or what the effect of ICBEMP as outlined in the EIS will be on 
water rights in any of the Idaho counties which lie within the Snake 
River Basin which is currently under state adjudication. Then ask to 
see and review the testimony presented as to those issues at the recent 
field hearing conducted in Nampa, Idaho by Representative Helen 
Chenoweth. If you ask these questions, and make the comparison, you 
will learn as we have that the Coalition did not really take part in 
drafting the EIS but rather stood only as a shield against real 
coordination with the local government.
    The members of the East side Coalition do not speak for Owyhee 
County and its people. They have spoken for themselves at repeated 
meetings at which they have voiced their objection to ICBEMP. Most 
recently they spoke at the April field hearing conducted in Nampa, 
Idaho by Rep. Chenoweth: Twelve members of the Owyhee County multiple 
use Land Use Planning Committee testified as to the specific flaws in 
the ICBEMP EIS, and, joining representatives of every user industry 
including the Oregon Cattleman's Association, the Idaho Farm Bureau, 
and the North West Mining Association, I, as Chairman of the Board of 
Owybee County Commissioners presented the testimony which is attached 
to this letter. That testimony outlines the repeated protests which we 
have made as a county against the process used in developing ICBEMP.
    ICBEMP is not based upon sound science. If you ask to review the 
written comments presented to the ICBEMP team by such industry users as 
Boise Cascade and the North West Mining Association, and particularly 
those comments furnished in behalf of the Idaho Farm Bureau, you will 
see the deficiencies in development of the base for the ICBEMP EIS.
    ICBEMP does not include an adequate economic analysis. We heard 
testimony in Nampa that Dr. Fred Obermiller, a noted range economist at 
Oregon State University, has reviewed the economic analysis and 
determined that it is totally inadequate. We have the greatest respect 
for Dr. Obermiller and his objective analysis and opinion. We know the 
Congress shares that respect because it repeatedly calls upon him for 
advice. Please listen to him regarding ICBEMP. Hopefully he has been 
asked to testify at your hearing. If not, reach out to him and to other 
experts in range economics and range management.
    Dr. Neil Remby of the University of Idaho is a noted economist who 
has been called upon to conduct economic studies of the counties most 
impacted by natural resource industrial cuts. He is currently working 
on such a study in Owyhee County under an agreement with the BLM, 
Owyhee County and other groups. Call upon Dr. Remby as to his opinion 
of the economic analysis of ICBEMP.
    Dr. Chad Gibson of the University of Idaho is a noted range 
management expert whose expertise is utilized by ranchers and units of 
government in Idaho as the base for planning for the type range 
management which is mandated by federal statutes. Call upon Dr. Gibson 
as to his opinion of the range management subject content of ICBEMP.
    Dr. Wayne Burkhart, retired from the University of Nevada and 
currently a range management consultant for all the western states, 
would have been invaluable asset to those who developed ICBEMP. But his 
services were not called upon because his views of range management do 
not coincide with those of the federal agencies who would reduce all 
natural resource uses and gain control of all land and water throughout 
our western states. But, if you want to know the flaws in the substance 
of ICBEMP as to range management, call upon Dr. Burkhart. Senator Craig 
certainly is familiar with his work and would know how to contact him.
    Hopefully some of these experts are scheduled to appear at today's 
hearing. But we will not be surprised if they are not. Hopefully, some 
experts of the same caliber from Washington are scheduled to testify. 
If so, you will see that no one outside the federal agencies (and 
perhaps members of the Eastside Coalition) can discuss the specific 
substantive content of ICBEMP and support the soundness of the science 
upon which it is supposedly based.
    We urge you to listen to the people of the four most impacted 
western states and take every step necessary to stop ICBEMP in its 
tracks, with no further funding for issuance of a record of Decision 
and implementation.
            Very truly yours,
                                              Richard Bass,
                    Chairman, Board of Owyhee County Commissioners.
                                 ______
                                 
         Prepared Statement of the Owyhee County Commissioners
    Representative Chenoweth, members of the Subcommittee and Staff, it 
is my pleasure to have the opportunity to testify today regarding the 
Interior Columbia Basin Ecosystem Management Project. I want to 
specifically direct my testimony, first, to the failure of the federal 
agencies to coordinate the development of this Project with Owyhee 
County, and with other counties engaged in the local planning process.
    I know that the agencies have told Congress that they have 
extensively coordinated the Project with local government, and I know 
that the draft EIS makes the same representation. But, that 
representation is misleading and does not tell you, or the public, the 
truth about coordination, especially as coordination is required by 
federal statutes.
    As you know the BLM has been actively engaged in development of the 
Ecosystem Project. In fact, on at least two occasions the former 
manager of the Owybee Resource Area of the BLM's Boise District stated 
to me, and to members of the Owyhee County Land Use Planning Committee 
that he was upset because of the demands of the Ecosystem Project on 
his staff's time. He and other members of BLM's management staff 
confirmed to us that their staff was being used in development of the 
Project, and that the demands of the Project took up time that could 
otherwise have been spent in management work in the Resource Areas. He 
and other members of the BLM's management staff have also told us that 
land use management plans of the BLM would be amended to conform to the 
Ecosystem Plan when it was issued. But they also told us that they did 
not expect any major amendments to be necessary because the content of 
the Ecosystem Plan would be mainly consistent with the local Resource 
Area plans, even though the Resource Management plan for the Owyhee 
Resource Area was still being developed. So, it is clear that the BLM's 
Boise office was involved in the planning process which produced the 
draft EIS.
    Since the BLM was involved in this process, the agency had the 
statutory obligation to coordinate that planning process with Owyhee 
County, and with other Idaho counties engaged in the land use planning 
process. As the members of this Subcommittee are aware, the Federal 
Land Policy and Management Act requires such coordination.
    FLPMA specifically provides that the Secretary of Interior 
``shall'' ``coordinate the land use inventory, planning and management 
activities [of the Department of Interior] with the land use planning 
and management program of other federal departments and agencies and of 
the State and local governments within which the lands are located.'' 
(43 U.S.C. 1712(c)(9)).
    FLPMA further provides that if, after coordinated planning, a 
federal plan is inconsistent with a local county plan, the Secretary 
``shall'' assist in resolving the inconsistencies. The statute also 
provides that the Secretary must assure that the federal plan is 
``consistent with State and local plans'' to the maximum extent 
possible under federal law.
    The Forest Service was also extensively involved in development of 
the draft EIS, and in selection of a preferred alternative. Forest 
Service regulations require the same level of planning coordination 
with county governments which have a land use planning process as that 
required of the BLM.
    These mandates required coordination of the development of the 
draft EIS and the selection of a preferred alternative with those 
counties in Idaho which have a ``land use planning and management 
program''. Owyhee County is such a county. We adopted a Land Use Plan 
setting forth guidelines for management of the federal lands in our 
County in 1993. Our land use ``planning and management program'' as to 
the federal lands has been in existence, and actively developed, since 
1992. The BLM's Boise District the BLM state office, the Secretary of 
the Interior himself, the Forest Service, and Steve Mealey, the former 
Project Manager, were all specifically advised of the Owyhee County 
Plan and the ``planning and management program''.
    Having been advised of the Owyhee County planning program, it 
became the obligation of the BLM staff involved in development of the 
Project, the Secretary of Interior, and the Project Manager to assure 
that the congressional mandate of coordination with Owyhee County's 
program was carried out. They failed to follow the congressional 
mandate.
    Repeatedly agency personnel have told members of Congress that 
there was extensive coordination with local county government in the 
development of the draft EIS and alternatives. That simply is not true.
    The Ecosystem Project staff, working with the Associations of 
Counties in Washington, Oregon and Idaho established a Coalition of 
members of the Associations to work with the project staff in 
developing the draft EIS. But, such work with the Coalition did not 
include coordination with counties who have a ``planning and management 
program''. And, such work with the Coalition was not an adequate or 
even satisfactory compliance with the congressional mandate of 
coordination.
    The Association of Idaho Counties is simply a lobbying and 
informational association which counties may join on a voluntary basis.
    The Association has no authority to speak for the citizens of 
Owyhee County.
    The Association has no authority to substitute for Owyhee County in 
planning activities with the federal planning teams.
    The Association is not a county or even a local government which 
has a ``land use planning and management program.''
    The Association has no local land use plan to be made consistent 
with a federal plan, and has no authority to develop such plan.
    The Association does not represent the citizens of Owyhee County 
who do have a local land use plan and a ``land use planning and 
management program.''
    Owyhee County's views as to the objectives of the Ecosystem 
Project, the flawed process for gathering data, and therefore the 
flawed data, upon which conclusions were reached by Project staff, the 
negative bias against grazing which is dominant throughout the EIS, and 
the decisions made by Project staff were never adequately represented 
by the Association or the members of the Association who served on the 
Coalition.
    Owyhee County has repeatedly voiced its objection to the failure of 
the Ecosystem Project staff to coordinate with the County. It has 
repeatedly voiced its objection to the attempt by the Project staff to 
substitute the Coalition of Counties for the local government officials 
of Owyhee Counties and other counties which have land use plans and 
programs. I personally have stated our county's objections to the 
process used for development of the draft EIS on many occasions. I have 
personally stated and written our objections to the BLM staff, to Steve 
Mealey and other members of the Project team in Boise and in Walla 
Walls, to the Secretary of Interior, to the Association of Counties and 
to members of the Coalition.
    In spite of the repeated protests and objections, there has been no 
coordination with out County. We believe that the same failure to 
coordinate occurred with each of the counties throughout Idaho which 
have a local planning and management program for the federal lands.
    We made our request for coordination from the inception of the 
Project. When our request was ignored, we made demand for coordination 
and specifically set forth the statutory provisions requiring 
coordination. Now, we make our objection to the Project process to you, 
as oversight authority over management of the federal lands.
    The Project team responded to our request for, and demand for, 
coordination and involvement in the planning process by pointing out 
that the team was working with the Coalition. We pointed out that 
working with the Coalition was not the coordination specifically 
mandated by the Congress.
    Finally, we advised to the office of Rep. Chenoweth of the failure 
to coordinate, and apparently as a result of that contact, Mr. Mealey 
came to Murphy, the county seat, and met with our Land Use Planning 
Committee. He stated that he did not understand our position on 
coordination. He was aware of the Forest Service and BLM coordination 
requirement, but said that he did not understand our position that the 
Ecosystem Project had to be coordinated in the same way. With members 
of the Association of Counties in attendance, we carefully explained 
the FLPMA coordination requirement, as well as requirements in other 
statutes that the Secretary of Interior involve units of local 
government in planning. Mr. Mealey left the meeting after assuring us 
that he would see to it that Project planning was coordinated with 
Owyhee County's planning and management program.
    That coordination never occurred. He attended another meeting of 
the Committee, bringing with him an advance copy of what was 
represented to be the first draft of the EIS. He reviewed the document 
as he spoke to the Committee, voiced his dissatisfaction with what he 
determined could lead to a perception of negative approach to grazing, 
assured us that such was not the intent of the project team, and left 
the meeting. He did not leave a copy of the craft with our Committee 
for its review, saying that the negative overtones had to be removed 
before further review. He told us that when the first draft was 
finished, the Committee could review it and provide input before it was 
released for public review. In spite of several contacts by our 
Committee, we never saw that draft.
    Rather, we received a notice, as did all members of the interested 
public, that a draft of the EIS would be released for public review in 
the late spring of 1996. The notice assured us that counties had 
participated in the development of the draft and that the draft had 
been subject to ``internal'' review by various groups including 
counties. Owyhee County had not so participated. None of the other 
Idaho counties which have a planning and management program had so 
participated.
    Any ``county'' review was conducted not by the counties specified 
by FLPMA, but by the Coalition of Counties which did not deliver the 
draft to the planning counties for review. In fact, one of the members 
of the Coalition who knew that the law as to coordination was not being 
followed told us that the Coalition members were admonished not to 
share the preliminary drafts even with the counties which they 
supposedly represented.
    We know from summaries of the draft which we received from private 
companies that the companies were consulted and allowed to review the 
draft. We know from comments made by Mr. Mealey that the draft was 
submitted to hard negotiations with other federal agencies. We know 
also from comments made by Mr. Mealey that the Forest Service Employees 
for Environmental Ethics had reviewed the draft and made comments, both 
positive and negative. We also know that there is not the same 
statutory mandate for coordination with such employee groups as there 
is for coordination with counties. Yet, the counties such as ours were 
foreclosed from the planning process.
    At this point in the development of the draft EIS, I personally 
talked with one of the project team members and voiced our objection to 
the process. He told me that he was aware of the congressional mandate 
of coordination, and he agreed that there was no coordination with 
Owyhee County or the other Idaho planning counties as the law required. 
He stated to me directly that the team did not know how they could 
coordinate development of the plan with the individual counties which 
have a planning process. My response to him was simple: we are expected 
to follow the law, the ranchers and other users of the federal lands in 
our county are expected to follow the law, regardless of the 
inconvenience and cost involved. I told him that we expected no less 
than compliance with the law by this planning team which was developing 
a Project Plan which would effect all of us and our uses of the federal 
lands. I told him that I would take little, if any, extra time to 
furnish to all planning counties the draft EIS so that we could make 
planning input before the document was completed to the point of 
stating the alternatives. I told him that all the project team had to 
do was to provide us the draft and allow us to provide ``meaningful 
input'' during the development stages of the federal plan.
    In spite of this conversation, no coordination efforts were made by 
the Project team. So, we advised the Coalition of Counties that we 
intended to resist adoption of the EIS through litigation if necessary. 
We also advised that we would urge the Congress to end all use of funds 
for further development of the EIS.
    After this warning, Mr. Mealey advised that he would meet with our 
Committee to discuss meaningful participation. A meeting was scheduled, 
and our Committee went to Mr. Mealey's staff offices in Boise. During 
the meeting, Mr. Mealey told us that he knew that the grazing portions 
of the draft EIS were weak. He told us that he felt confident in the 
forest health provisions because of this background in forest science. 
But, he told us that he did not have the background in grazing that he 
did in forestry and needed and wanted our input.
    Mr. Mealey stated that he was concerned about dealing directly with 
our Committee because of the Federal Advisory Committee Act. We 
explained to him that FACA did not apply. We explained that the Owyhee 
County Land Use Planning Committee was not a committee established to 
advise the Federal Government; rather, it was a Committee established 
to advise the Owyhee County Board of Commissioners. He would not be 
seeking advice from the County committee, but rather would be 
``coordinating'' the planning effort as required by FLPMA.
    We then asked that Mr. Mealey share with us the data which had been 
used to develop the draft grazing portions of the EIS for our analysis. 
The former manager of the Owyhee Resource Area, Jay Carlson, was in 
attendance at this meeting and, during a recess in the meeting, he 
advised Mealey that the law would be complied with if the County were 
allowed to provide input during the public review process. One of our 
members overheard the comment and pointed out that such was not a 
correct statement of the law. Mr. Mealey responded that he knew that it 
was not a correct statement of the law and that he work work out a way 
for us to participate in a coordinate process.
    Mr. Mealey suggested that Owyhee County request that the Coalition 
establish a ``Pilot County'' project which would allow Owyhee County to 
actually participate in the planning process throughout further 
development of the EIS. He said that under such a project our planning 
Committee would be actually involved with the Project planning team. He 
said that he knew we were entitled to that involvement, but that it 
would be much easier for him if the Pilot project were established by 
the Coalition.
    We agreed to the procedure and we submitted a formal request for 
such Pilot County project status. The request was submitted to the 
Coalition and was never granted.
    As a result,the Owyhee County Board of Commissioners instructed the 
County Attorney to begin preparations or litigation. The Attorney 
contacted Mr. Mealey regarding his position on ``meaningful 
participation'' by and ``coordination'' with our County. Mr. Mealey 
personally contacted Fred Kelly Grant, the planning coordinator for the 
Board and our Land Use Planning Committee and advised Mr. Grant that he 
would provide us with the draft EIS for review. He assured Mr. Grant 
that any input which our County submitted would be considered by his 
staff before the draft was released for public review.
    Mr. Grant suggested that after the County completed its review the 
Committee could meet with Mr. Mealey's staff to discuss any concerns 
which was had and any contributions to the draft which we proposed. Mr. 
Mealey agreed to that process and said that we would certainly have the 
opportunity to provide input into the final writing of the EIS.
    But, even before the full draft had been delivered to the County, 
Mr. Mealey spoke to a meeting in Montana on May 8, 1996, and announced 
that his staff writers had stopped work and the editors were putting 
the finishing touches on the final product. His comments were reported 
in a letter written on May 9, 1996, by Dr. James Rathbun who attended 
the Montana meeting. Dr. Rathbun, an environmental consultant in 
Forestry and Public Land Policy, attended the meeting in Libby, Montana 
and reported that Mr. Mealey acknowledged at the meeting that the 
public would have a difficult time in reviewing and commenting on the 
draft EIS because of its complexity.
    I have gone into detailed because I want to provide you with enough 
specifics to assure you that we in Owyhee County have tried to 
coordinate planning with the Ecosystem Project Team. We have tried to 
follow our planning responsibility set forth in FLPMA. You may hear 
that Owyhee County has been unwilling to accept change, and that we are 
stubborn and bull-headed when it comes to change. We believe that the 
contrary is true.
    Owyhee County has actively participated in land use planning and 
management for the federal lands. We have developed an extensive plan 
for implementing the federal statutes which contain your Congressional 
mandates for management of the federal lands. We have offered 
coordinate status to all agencies and groups throughout the development 
and implementation of our plan.
    We have worked cooperatively with those agencies which have 
followed the statutory requirements of coordination. We have worked 
with the Bruneau Resource Area of the Boise District in the planning 
process which led to amendment of the Birds of Prey Plan, and we have 
played our coordinate role in developing AIE project throughout that 
Resource Area. We have always been willing to work cooperatively with 
the Owyhee Resource Area of the Boise District, and since the change in 
Managers we have cooperatively initiated, with BLM personnel, a new 
approach to the relationship between the Owyhee resource Area 
management and the County.
    We have worked cooperatively with the U.S. Fish and Wildlife 
Service regarding their inventory and study of the spotted frog in the 
County. We have worked cooperatively with the same Service in 
attempting to avoid further listing action regarding the Bruneau Hot 
Springs Snail. As late as this past Tuesday evening, April 7, 1998, our 
Committee agreed to work with Dr. Jim Munger of Boise State University 
as he conducts further study of the breeding sites of the spotted frog 
on private land located in the County. His study is being made in 
conjunction with the BLM.
    The only area in which we acknowledge being stubborn is that we do 
stubbornly insist that the federal law be followed by federal 
management agencies. Our Plan calls for such compliance, and we insist 
upon it. The Congress established the rule that the federal agencies 
coordinate planning with the Counties, and now we ask you in Congress 
to oversee the performance of such agencies to assure that coordination 
actually takes place. It has not taken place; the law has not been 
followed, in the development of the Ecosystem Project.
    What damage has been done by the failure of the agencies to 
coordinate their planning process? We believe that the lack of 
coordination with planning counties has contributed significantly to 
inclusion of flawed data regarding grazing, condition of the range, 
recreation uses, and welfare of wildlife. We believe that lack of 
coordination with planning counties has allowed the agencies to present 
inadequate economic and social data and analysis. We believe that the 
lack of coordination with planning counties has allowed the federal 
agencies to ignore the inconsistencies between the planning evidenced 
in the draft EIS and that evidenced in County Plans such as the Owyhee 
County Land Use Plan.
    Grazing use of the federal lands is critical to the economy and 
human environment of Owyhee County. Economic data gathered by personnel 
from the University of Idaho shows the following dramatic impact which 
grazing has on the County and on the surrounding area of Southwestern 
Idaho and Eastern Oregon:
  --Ranch budget analysis shows that the rancher annually spends 
        $325.00 per cow in operating money;
  --There are 46,500 cows in Owyhee County. 70 percent of those cows, 
        or the number 32,550 cows graze the federal land.
  --At the rate of $325 spent on each head, that means that $10.5 
        million dollars are spent into the economy annually by Owyhee 
        County ranchers who graze their stock on federal land.
  --Economists believe that a multiplying factor ``5'' is a safe factor 
        to use to determine the total economic impact of this 
        expenditure throughout the area of Southwestern Idaho and 
        Eastern Oregon surrounding Owyhee County. This means that the 
        annual economic impact of the dollars spent into the economy by 
        Owyhee County ranchers for cows which grade the federal lands 
        is $50 plus million dollars.
  --The asset value of a ranch in Owyhee County per cow unit is, 
        conservatively, $1,500.
  --Again, calculating by multiplying $1,500 by the 32,550 cows which 
        graze the federal lands annually in Owyhee County, the asset 
        value of that stock is $48.8 million.
    The magnitude of these economic facts is nowhere shown or 
considered in the draft EIS or in the document called the Economic and 
Social Conditions of Communities which was published in February 1998 
by the Project. Yet, the impact of the various alternatives, including 
the Preferred Alternative 4, on these economic facts may be severe.
    The Economic and Social Conditions report states that for the 
preferred alternative, Alternative 4, for example, there are levels of 
uncertainty which flaw the estimate of production under that 
Alternative. As a result, the conclusion stated at page 92 of the 
report is that the Alternative will have a negative impact. Any 
alternative which has a negative impact on productivity should have 
been openly discussed with Owyhee County, its Planning Committee and 
the economic, grazing and environmental experts available to them.
    We are subjected by this draft EIS to unknown, but negative impact, 
on productivity and on the economy of the County and its citizens 
without having the benefit of participating gin the development and 
analysis of data.
    We are subjected to such unknown, on the basis of negatively biased 
data and information regarding the condition of the grazing lands in 
Owyhee County. We know that the condition of the grazing lands in this 
County are nowhere near as bad as would be portrayed by those whose 
goal is to limit grazing on the federal lands. Involvement of the 
County in the planning process would have exposed the Project Team to 
information, data, and interpretation provided by well known experts on 
grazing whose expertise is available to the County but not used by the 
Project Team.
    The Project Team did not consult with such distinguished range 
management and economic experts as Dr. Chad Gibson, Dir. Neil Remby, 
Dr. Ken Sanders, all associated with the University of Idaho, and Dr. 
Wayne Burkhard, a range expert known and consulted throughout the 
western United States. All of these experts live and practice their 
trade within the area ``studied'' by the Project team. All of them are 
known to the Project Team.
    There are recreation use associations within the immediate 
surrounding area of Owyhee County whose leaders have studied carefully 
the condition of the federal lands which they use in Owyhee County. At 
least one of those associations conducts a national racing event in 
Owyhee County and has continually cooperated with the BLM in cleaning 
up and maintaining the land used for the races. None of these 
associations were consulted by the Project team as to recreation use 
levels or any other recreation analysis contained in the draft EIS.
    The ranchers in Owyhee County who have implemented the Proper 
Functioning Condition riparian area assessment process advocated by the 
interdisciplinary agency team headed by Wayne Elmore were not consulted 
about the condition of such riparian areas or the methods of management 
now being implemented. These ranchers who have embraced the PFC 
assessment as encouraged by Forest Chief Dombeck when he was head of 
the BLM, were ignored by the Project Team throughout the planning 
process.
    In short, local experts in grazing and grazing land management who 
have particularized knowledge of the federal lands located in Owyhee 
County were ignored along with the Owyhee County Board and Planning 
Committee.
    As a result, the draft EIS is filled with erroneous and flawed 
information and analysis. Comments regarding such erroneous and flawed 
data and analysis are being submitted by individuals, companies, and 
associations even as this oversight hearing is taking place.
    Coordination of planning would have required that the Project Team 
take a hard look at information, data and analysis provided by those 
who regularly use and known the resource. Without such information, 
data and analysis, the economic stability of Owyhee County is 
endangered by the draft EIS which can be used by management agencies to 
restrict grazing and recreation use regardless of the actual condition 
of the resource.
    That is not the result which we believe Congress intended for 
planning and management related to the federal lands. It certainly is 
not the result which should be reached under the clear coordinated 
planning language of FLPMA.
    We believe that it is an American Tragedy that so many millions of 
dollars have been spent on this project which was never sanctioned by 
Congress and which has not been implemented in accordance with law.
    One last point should be made to show the failure of the Ecosystem 
Project and the vast waste which it has caused. Steve Mealey led the 
Project Team right up to the point at which the draft EIS was ready to 
be released for public review. He believed in the soundness of the 
forest health contents of the EIS, even though he recognized the 
weakness of the grazing contents. But, the executive committee of 
federal agencies which controls the Project rejected the Project Team's 
recommendations and sent the document back for re-drafting of 
preference because the preference as presented by Mealey left too much 
discretion with local agency managers. That decision made it clear that 
there was never any intention on the part of the federal agencies to 
produce a scientifically sound document and plan. Mr. Mealey left the 
Project and now serves as Idaho's Director of Fish and Game. Even he 
could not stand the waste, or the obviously biased product of the 
Project. Perhaps he would have realized the actual goal of the 
executive committee of agencies earlier had he implemented coordination 
with the planning counties.
    We ask that the Congress stop this Project in its tracks, right 
now, by refusing to appropriate any funds for implementation of the 
draft EIS, any of the alternatives produced or any land use plan or 
regulation issued by an agency based upon the draft EIS or any of the 
alternatives included.
    Any project with such arrogant disregard of the law should not be 
blessed with Congressional approval.
                                 ______
                                 
   Prepared Statement of Arlene Montgomery, Friends of the Wild Swan
    I am submitting this testimony on behalf of Friends of the Wild 
Swan, a grassroots conservation organization located in the Swan Valley 
of northwest Montana. Friends of the Wild Swan has over 700 supporters 
and has been working on National Forest and endangered species issues 
since 1987.
Current Forest Conditions
    We believe that while a regional planning effort seems like a good 
idea, this particular effort is by no means comprehensive or complete. 
We would like to think that the agencies can address the flaws in the 
Interior Columbia Basin Ecosystem Management Project (ICBEMP) and 
produce something better, but we are extremely skeptical. Conditions in 
the Columbia Basin have deteriorated under current Forest Plans as 
evidenced by the current condition of these ecosystems. Following are 
examples from the Upper Columbia river Basin Draft Environmental Impact 
Statement (UCRB DEIS) which illustrate this fact.
    Soils: Generally stable to declining course woody debris has been 
list from logging, erosion has caused soil displacement, soils have 
been compacted, soil ecosystem function has been compromised, riparian 
soils have reduced abilities to absorb and regulate chemicals and water 
or have been lost to roads. (UCRB DEIS pgs. 2-9 and 10)
    Noxious Weeds: Invading forests and rangelands at an accelerated 
pace competing with native plant vegetation. (UCRB DEIS pg. 2-35)
    Aquatic Ecosystems: Management has affected the quantity and 
quality of water, sedimentation and erosion, production and 
distribution or organic material. The most pronounced changes are due 
to road construction, vegetation alteration, (silvicultural practices, 
fire exclusion and forage production) and improper livestock grazing. 
(UCRB DEIS pg. 2-104)
    Approximately 10 percent of streams and rivers are classified as 
``Water Quality Limited'' under the Clean Water Act from sedimentation 
and turbidity, flow alternation, and high summer water temperatures. 
(UCRB DEIS pg. 2-109)
    Road construction has had a major effect on runoff and streamflow. 
(UCRB DEIS pg. 2-109)
    Direct human impacts include channelization, wood removal, 
diversion, and dam-building. Indirect effects of past management 
activities are pervasive including logging, grazing, beaver trapping, 
and road building (UCRB DEIS pg. 2-112)
    Pool and wood frequency are generally less in areas with higher 
road densities and high logging emphasis. The percent of channel bed 
covered with fine sediment increases with road density. (UCRB VETS pg. 
112)
    Land management practices have caused an overall change in the 
scale and frequency of landscape disturbance altering the character of 
watersheds and their stream systems. Most watersheds contain stream 
channels and aquatic habitats that are now subject to continuing 
cumulative effects of watershed disturbance. (UCRB DEIS pg. 2-114)
    The extent and continuity of wetlands has decreased, riparian 
ecosystem function has decreased in most subbasins, most Forest Service 
and BLM riparian areas are ``not meeting objectives,'' ``non-
functioning,'' or ``functioning at risk.'' The frequency and extent of 
seasonal floodplain and wetland inundation have been altered by dams, 
diversions, groundwater withdrawal, sedimentation and erosion, roads, 
and railroads. (UCRB DEIS pg. 2-116)
    There is an overall decrease in large trees and late seral 
vegetation in riparian areas. (UCRB DEIS pg. 2-116) .
    Riparian areas have been reduced in abundance and there has been a 
significant increase in habitat fragmentation. (UCRB DEIS pg. 2-121)
    On Forest Service and BLM lands major factors contributing to the 
decrease in riparian area function are improper livestock grazing, 
logging; fire management, conversion to crop and pasture lands, roads, 
dams, and diversions/pumping. (UCRB DEIS pg. 2-122)
    The composition, distribution and status of fishes are different 
than they were historically with some native fishes extirpated from 
large portions of their historic range. Many native fish are vulnerable 
because of restricted distribution or fragile and unique habitats. 
(UCRB DEIS pg. 2-124)
    Most key salmonids have shown declines in abundance, loss of life 
history patterns, local extinctions, fragmentation and isolation. (UCRB 
DEIS pg. 2-124)
    Many species of native fish and other aquatic biota are considered 
imperiled. There are 47 special status species in the project area 
which include federally listed endangered or threatened species, 
candidate species for Federal protection and species recognized for 
special protection by states or managed as sensitive by the Forest 
Service. (UCREB DEIS, pg. 2-126)
    Bull trout are presently known or estimated to occur in 44 percent 
of historically occupied watersheds. Current information indicates that 
despite its relatively broad distribution, this species has experienced 
widespread decline. There is evidence of declining trends in some 
populations and recent extinctions of local populations have been 
reported. Distribution of existing populations is often patchy, even 
where numbers are still strong and habitat is good. Further isolation 
of populations will probably lead to increasing rates of extinction 
that are disproportional to the simple loss of habitat area. (UCRB DEIS 
pg. 2-136).
Alternatives
    One would think that given the current condition of forest and 
rangelands that the alternatives proposed would reduce output levels to 
facilitate recovery of threatened, endangered, and sensitive species 
however, that is not the case. With the exception of Alternative 7 
which has a ``conserve'' emphasis but is a strawman designed for 
failure because it does not include repairing the damage from past 
management through road removal, restoring connectivity for wildlife 
via corridors, repairing fish passage, identifying and fixing sediment 
sources in streams and actions (other than logging) which would 
actually restore the ecosystem. Instead we are served up more of the 
same impacts which caused the current degraded conditions with the 
addition of more discretion given to the Forest Service and BLM.
    It even appears that the Forest Service is planning to enter 
designated Wilderness areas to ``conserve/restore'' them in spite of 
the fact that the Science Integration Team has identified Wilderness 
and roadless areas as those with the highest ecological integrity and 
managed areas as those with the lowest ecological integrity.
    Following are examples from the UCRB DEIS which illustrate the 
inadequacy of the alternatives developed in this process.
    The vast majority of species analyzed would not have significant 
changes in viability status as a result of implemention of any action 
alternatives. (UCRB DEIS pg. 4-129)
    Implementation of any alternative would result in some risk of 
extirpation for some species because of cumulative effects. (UCRB DEIS 
pg. 4-96)
    Under alternatives one and five if a species were trending toward 
extirpation based on the changes from historical to current conditions, 
that trend would be continued. In comparison under alternatives 4 and 6 
predicted negative trends in habitat would tend to be stopped or slowed 
down. (UCRB DEIS pg. 4-96) So where is the improvement or recovery?
    Only one alternative (7) would actually improve conditions for the 
threatened grizzly bear. (UCRB DEIS pg. 4-96)
    Habitat conditions for threatened and endangered species would not 
change from current conditions. (UCRB DEIS pg. 4-130) As federal 
agencies, the Forest Service and BLM are charged with recovery of 
species by providing adequate habitat to meet their needs.
    In spite of the claims that more logging needs to be done to 
``restore'' the ecosystem the DEIS admits that the reduction in human 
activities and associated mortality risks to species are more important 
than the vegetation pattern and characteristics that may be present in 
the reserves [of alternative 7]. (UCRB DEIS pg. 4-130)
    Alternatives 1 and 2 would not likely provide watershed-scale 
consideration and protection of hydrologic and riparian area/wetland 
processes and functions. (UCRB DEIS pg. 4-132)
    The preferred alternative may have some potential to-benefit native 
fish species composition, distribution and status but uncertainty in 
the ability to prioritize management actions and evaluate risks, 
coupled with high levels of activities decreases confidence in 
successful ecological outcomes. (UCRB DEIS pg. 4-133)
    Alternative 4 would only benefit depressed populations of bull 
trout most when they overlap with Federally listed species such as 
steelhead and chinook salmon. Otherwise there is uncertainty regarding 
benefits expected for depressed populations. (UCRB DEIS pg. 4-144)
    However, the picture becomes much clearer when you compare the 
outputs for grazing, logging and roaded recreation. Alternative 2 
(current Forest Plans amended by INFISH and PACFISH) compared to 
Alternative 4 (preferred) offers no change in grazing animal unit 
months or roaded recreation and an increase in alternative 4 of 30,000 
acres treated by logging with an attendant volume-increase of .12 
billion board feet! This is restoration? We look upon this as the same 
business as usual which has resulted in environmental degradation.
Conclusion
    After years of work and a tremendous amount of taxpayer dollars it 
is perfectly clear that the Forest Service and Bureau of Land 
Management did not produce alternatives in their draft Environmental 
Impact Statement which remedy the current degraded condition on public 
lands or facilitate recovery of threatened, endangered and sensitive 
species. We are doubtful that they will produce a final Environmental 
Impact Statement which does this either. However, we are sure that 
Congress is no place for land management decisions to be made. The 
fiscal pressure and micromanagement it has exerted on the agencies to 
date is a contributing factor to the current degraded condition of our 
forest lands and agency dysfunction.
    We appreciate the opportunity to provide input to your Committees 
on this important issue on the management of our public lands.
                                 ______
                                 
       Prepared Statement of Governor John Kitzhaber, Spokane, WA
    Mr. Chairman, members of the Committee, thank you for holding a 
field hearing and providing an opportunity for some of those in the 
Basin to provide testimony on the Interior Columbia Basin Ecosystem 
Management Plan (ICBEMP).
    As you may know, one of my top natural resource priorities is 
restoration of ecosystem health in the forests of eastern Oregon. I 
have four goals that have guided my efforts on the eastside of Oregon:
    Restore the health of the forests themselves;
    Restore the health of streams and watersheds;
    Provide commodities to locate communities;
    Reduce the risk of catastrophic fire.
    These goals are embodied in a broadly supported 11-point ecosystem 
management strategy that I outlined before Chairman Bob Smith's House 
Agricultural Committee last January (1997) in Sun River and that I have 
attached for reference. They are also supported by ICBEMP.
    I believe these are goals that we all share. Today I want to 
address two main issues: how we can use ICBEMP as a tool to achieve 
these goals, and, the need for federal investment to finance the 
stewardship and restoration treatments needed for these lands.
    I believe that ICBEMP is an important and perhaps essential tool 
for achieving our ecosystem goals in the interior Columbia Basin. As 
you know, this effort emerges from the recognition that we as a society 
need a broad scale, scientifically-based understanding of the 
cumulative effects of activity on the public lands as well as the 
levels of sensitivity, risk, and benefits from treatments. We need this 
to guide our activities in the basin to ensure the future health and 
safety of our communities, as well as the future health of the 
resources that we depend on for resource use, recreation, wildlife 
habitat, water supplies, flood protection, hunting and fishing, 
aesthetic values, tourism income and economic support from federal 
resource-dependent industries. ICBEMP provides an impressive foundation 
for this.
    ICBEMP then provides both the regional direction for what we need 
to collectively adhere to as well as a process for stepping down the 
analysis to smaller units. These sub basin reviews are intended to be 
collaborative, interagency, intergovernmental process in which broad-
scale information from the ICBEMP Scientific Assessment is reviewed 
along with existing finer-scale data from BLM District and National 
Forest offices. This approach engages governmental agencies and 
stakeholders at a more local level and assists with prioritization of 
ecosystem analysis at the watershed scale within a subbasin.
    This stepping down process helps us as governments and helps our 
citizenry understand a more specific area. This area, in the context of 
the region, can then be evaluated for what it might provide in terms of 
resources, what is needed in terms of restoration and what the risks, 
benefits and sensitivities are from different actions. It also helps us 
establish priorities for our limited resources.
    From a legal perspective we also need this plan. We know from the 
courts that we need to replace the interim guidance (e.g. PACFISH, 
INFISH, and SCREENS). It is intended that ICBEMP will do this. We also 
learned during the spotted owl debate on the westside that large scale 
planning across the landscape makes these plans legally defensible in 
light of the need to protect species throughout their range and meet 
the requirements of the Endangered Species Act. The value of this 
cannot be underestimated.
    There is an additional advantage that comes from having a regional 
plan in place that may not be obvious to those who have not attempted 
what we in Oregon have done over the last three years. On the westside 
of Oregon we were able to put together a recovery plan for coho salmon 
and steelhead under what we call ``The Oregon Plan for Salmon an 
Watersheds.'' It is a different way of protecting and recovering 
species. Rather than the top-down, regulatory approach that follows 
listings under the Endangered Species Act, we have put together a 
collaborative, grassroots effort involving federal and state agencies, 
local governments, conservationists and thousands of private 
landowners. Our plan includes a significant component of voluntary 
efforts by private landowners on their lands as well as be watershed 
councils. The Oregon Plan was deemed adequate to defer an endangered 
species listing of coho slamon and steelhead. This deferral has allowed 
thousands of individual landowners and communities to retain greater 
control over their own destinies. The point that is critical to note 
here is that we were able to do this in large part because we have a 
broadscale regional plan in place for federal lands on the westside--
the Northwest Forest Plan.
    On the eastside we have no such regional plan. However, the one-
year clock has started for listing decisions on steelhead in the 
Deschutes River, John Day River, Umatilla River, and 15-Mile Creek. 
Clearly, we will have a much better chance of recovering these fish and 
preserving some level of control by private landowners and 
municipalities under The Oregon Plan if we have a legally defensible, 
regional plan for federal lands in the interior Columbia Basin either 
in place or coming on line. Without a regional plan, forest management 
on the eastside could easily become nothing more than the sum of court 
injunctions and court-ordered recovery plans.
    Within regard to the Interior Columbia Basin Plan itself, I favor a 
blending of the theme of Alternatives 4 and 6. My view of how to do 
this is shaped significantly by the recommendations of a diverse 
citizens panel from the east side and the work of a range of scientists 
who provided the foundation for my 11-point strategy for eastside 
ecosystem health restoration. It has been further reinforced by our 
experience in its implementation over the last 15 months.
    Given that we have 15 months of experience with an enduring forest 
health strategy, I am providing our experience as an illustration of:
  --how you in Congress could work to make forest policy less polarized 
        and more efficient, and
  --the significant pieces that you can provide that will support the 
        success of this major and important undertaking, the ICBEMP.
    The scientific document supporting my 11-point eastside strategy 
demonstrates the need to actively manage within many of the lower 
elevation forests on the eastside while acknowledging the fragile state 
of many of our aquatic and terrestrial resources. I consider active 
management to include thinning in overstocked stands, reduction of fuel 
loadings through harvest and prescribed fire, riparian area planting, 
reforestation road obliteration where appropriate, and stream 
rehabilitation. Further, these treatments should be done efficiently. I 
believe a fund should be available to help finance these activities on 
a priority basis. The sale should not be ``sweetened'' by the addition 
of valuable old growth timber that science tells us needs to be left 
behind for wildlife or improve stand structure. Also, light-touch low 
impact equipment should be used for the treatments. The benefits of 
these new technologies have been demonstrated in eastern Oregon. I am 
interested in providing incentives or finding funds to make it feasible 
for local operators to use this equipment.
    My strategy also acknowledges a strong social dimension that must 
be addressed--the lack of trust in public lands management that has 
developed over the last five years due to the continuing debate over 
federal forest policy. I believe this must be repaired over time by 
demonstrating that ecosystem health can be restored. Because of this 
lack of trust, however, active management should initially be targeted 
at lower risk areas, while staying out of controversial areas such as 
roadless areas, old growth stands and sensitive riparian habitat.
    My recommendation for going forward with ICBEMP is to go first to 
low-risk areas to demonstrate the effectiveness of active management in 
restoring the health of forests, streams and watersheds and providing 
commodities to local communities. The Scientific Assessment contains 
pioneering work on classification of watersheds, aquatic systems, and 
forest conditions that will be valuable in identifying areas with this 
potential. For treatments that are more risky and with uncertain 
outcomes, we should wait to learn from treatments to the lower risk 
areas before proceeding to higher risk areas.
    For areas that science indicates that active management poses a 
higher risk, we should take an adaptive management approach as 
described under Alternative 6. After learning from the success of the 
treatments on the less controversial areas, these areas may be 
appropriate for active management. The timing and expansion of such 
management adjustments will depend on the ability to apply treatments 
that restore the system; to evaluate the success of these treatments; 
and to mend public trust in land management capabilities.
    Finally, there are areas that are highly controversial for any 
level of activity and will requirement evidence of treatment success to 
gain public support for any significant treatment. I suggest that in 
roadless areas, habitat supporting salmonid strongholds, and old growth 
stands, activity be avoided in the near term unless a clear scientific 
case can be made for the urgent need for treatment. These are 
lightening rods for controversy and will lead back to gridlock if there 
is not broad support and a clear demonstration of the ability to treat 
these areas. I am confident that, over time, this support can be gained 
by learning and demonstrating competence at successfully treating less 
controversial lands.
    With the federal budget reduction efforts, this phased approach for 
levels of activity gives us greatest efficiency and certainty in 
meeting our objectives by targeting areas with high potential for 
improvement while steering away from the more controversial areas and 
the associated legal and time costs. It assures that ecosystem 
restoration activities will still proceed at the level that funding 
allows.
    I must also emphasize the need for ongoing effectiveness 
monitoring. In a stakehold discussion of ICBEMP there was broad 
agreement among representatives from the Oregon Farm Bureau, the 
Northwest Forestry Association, the East side Ecosystem Coalition of 
Counties, and a number of environmental groups that ongoing, long-term 
monitoring was fundamental to ongoing, successful implementation of 
ICBEMP. This will require a commitment to long-term funding for 
monitoring by Congress.
    Another missing piece that is outside the purview of ICBEMP but is 
needed for the communities in the Basin, is the same recognition of 
economic hardship and support for economic adjustment that the westside 
received under the Northwest Forest Plan. While the downturn for the 
eastside came some years ago, there has been no federal assistance to 
help these communities pursue new markets or other economic 
opportunities. While ICBEMP, when it finally comes on line, may provide 
some new opportunities and additional certainty to new industries for 
investment, it is still some time away and is unlikely to meet the need 
that exists. I appeal to you as Congressmen from the Basin to pursue 
economic adjustment funds to assist these communities vitality.
    Finally, I want to alert you today that unless we are willing to 
make the financial investment in our forests, we have no hope of 
recovering the health of these ecosystems. Many of the treatments these 
areas need--such as pre-commercial thinning, control of noxious weeds, 
and prescribed burning--are expensive and cannot be financed by timber 
sale receipts alone. I ask you in Congress to recognize this change 
from times passed, and find additional resources to support the needed 
investments on the public lands.
    Since I am not able to be with you in person today to discuss 
ICBEMP, our experience in Oregon, or the additional funding investments 
that I see such a need for, I encourage any follow up by phone or 
letter that may assist with your important exploration of forest health 
restoration and ICBEMP. Thanks again for this opportunity.
                                 ______
                                 
           ecosystem health for the forests of eastern oregon
                 a proposal by governor john kitzhaber
    The forest ecosystems of Eastern Oregon have been significantly 
altered by past management and fire suppression practices and in many 
places do not support healthy forests, streams, and watersheds. 
Sensitive species are at risk, and the threat of catastrophic fire 
constitutes a hazard to local populations. Timber dependent communities 
have seen drastic declines in their resource-based economies.
    Background.--Eastern Oregon, and much of the inland Northwest, was 
blessed with huge stands of old growth pine covering millions of acres 
when Europeans arrived during the last century. Over the past 80 years, 
forest management policy, characterized by active fire suppression and 
harvesting of valuable old growth pine, has transformed these forests 
to their present state. Today we are left with overstocked stands of 
young fir and pine, thousands of acres of dead and dying timber 
infested with insects, and an unacceptable risk of catastrophic fire. 
Thousand of miles of riparian areas have been damaged by harvest and 
grazing practices, as well as by road and urbanization.
    Four Goals for Eastside Forest Management.--Governor Kitzhaber has 
laid out four goals to guide restoration efforts on the eastside: 
Restore the health of the forests themselves; Restore the health of 
riparian systems and watersheds; Provide wood to local communities; 
Reduce the risk of catastrophic fire.
    Development of the Proposal.--In the spring of 1995 Governor 
Kitzhaber appointed a diverse group of highly respected scientists from 
throughout the Northwest to make recommendations on ways to restore 
ecosystem health and provide wood to communities in an environmentally 
sound manner. That panel issued a report that reflected a consensus 
among the scientists on what needs to be done to improve the health of 
the forests, streams and watersheds of the eastside.
    In May 1996 the Governor appointed an Eastside Forest Advisory 
Panel, consisting of a very diverse group of Eastern Oregon community 
leaders, to make recommendations on ways the United States Forest 
Service might implement the findings of the scientific panel. The panel 
has visited numerous sites throughout Eastern Oregon and has recently 
made recommendations to the Governor.
    The Governor's Proposal.--The main premise of the 11-point proposal 
is that there are key areas of agreement where we can move ahead now to 
restore ecosystem health and provide wood to local communities without 
threatening non-timber resources.
    One of the critical elements of the proposal is that we need to use 
active management to treat stands that are overstocked, or have been 
inappropriately converted from pine to fir. At the same time, the 
Forest Service should plan and implement operations first in less 
controversial areas, avoiding roadless areas, sensitive fish habitat 
and old growth areas.
    Monitoring of the effect of forest treatments is imperative, and 
will allow the Forest Service to learn from its efforts, establish a 
track record, and make adjustments where necessary.
    Where the proceeds from the sale of timber associated with a 
treatment strategy are not enough to pay for the work needed, the 
Forest Service should have access to money to fund the project. The 
income from a sale should not be enhanced by the addition of valuable 
timber whose harvest does not promote ecosystem health objectives.
Strategy for Establishing Governor's Program this year
    Work with Congress to secure funding to finance ecosystem health 
restoration efforts.
    Work with the U.S. Forest Service to ease administrative barriers 
to restoring ecosystem health in forests, streams and watersheds, 
reducing the risk of catastrophic fire and providing wood to local 
communities.
    Work with local Forest Service officials to focus forest treatment 
programs on ecosystem health restoration and away from projects that 
tend to hinder restoration or are not broadly supported by local 
stakeholders.
    Use the ``Oregon Option'' to identify obstacles to achieving 
ecosystem health restoration goals and to modify administrative 
procedures to aid in achieving these goals.
    Coordinate with the Interior Columbia Basin Ecosystem Management 
Project. Implement the Governor's proposal in a way that enhances the 
long-term planning effort contained in the Eastside Project.
    Request that the Forest Service report on an annual basis on the 
implementation of the Governor's proposal.
  proposed consensus approach to eastside ecosystem health restoration
    There are broad areas of potential agreement about goals for 
restoration of ecosystem health to the forests of Eastern Oregon.
    Ecosystem health includes the health of forests, streams, and 
watersheds.
    Ecosystem health may be improved through active management in 
overstocked stands which have suffered from fire exclusion and 
highgrading of large trees.
    Thinning of small diameter green trees is an important component of 
active management for forest health and will help make sales 
economically viable.
    Plan and implement operations first in less controversial areas. In 
the short run, avoid operating in roadless areas, near fish habitat and 
old growth areas.
    For ecosystem health restoration activities to truly succeed 
monitoring and learning from these efforts is essential. The Forest 
Service and the research community, Congress, the Administration and 
the Governor's Office should join together in assuring that we learn 
from the management strategy employed to restore ecosystem health. 
Monitoring actual results will be critical to justifying ongoing active 
management.
    Cumulative effects analysis should include all ownerships within a 
watershed, where possible. This may be accomplished by working with 
local watershed councils.
    Active management includes more than cutting trees. Riparian area 
planting, reforestation, road obliteration and stream rehabilitation 
are all key components.
    Use of low impact cost effective, equipment is an important element 
in effective restoration. The Forest Service, federal government and 
the state should provide incentives that encourage the use of such 
equipment.
    Timber salvage may be an important component of ecosystem health 
restoration and fuel reduction strategies to the extent that it 
promotes ecosystem health goals.
    Where the costs of ecosystem health restoration efforts are not 
paid for by timber sale proceeds, funds should be made available to 
finance these activities on a priority basis.
                                 ______
                                 
   testimony of governor john kitzhaber before the house agriculture 
                      committee--january 16, 1997
    Mr. Chairman, members of the Committee, thank you for the 
opportunity to testify on eastside ecosystem health issues.
    Today I bring you a message of hope and opportunity. Almost two 
years ago we began a process to assess the needs of eastside forests, 
streams and watersheds and the communities that depend on them. Over 
that time a number of citizens, scientists and government officials 
have worked tirelessly to produce recommendations to land managers on 
ways to improve ecosystem health. Today I would like to announce two 
major achievements of these efforts.
    First, we have identified a forest management strategy that will 
help restore ecosystem health while protecting forest resources, 
critical habitat for endangered salmon stocks, and the integrity of 
eastside watersheds.
    Second, and perhaps more significantly, we have brought together a 
diverse group of interests, from timber purchasers to 
environmentalists, who share common objectives and who endorse such a 
proposed strategy for eastside forests.
    Before I describe our proposal, I think it would be useful to 
outline the history of our efforts to address ecosystem health problems 
faced by forests east of the cascades.
    Oregon, and much of the inland Northwest, was blessed with huge 
stands of old growth pine covering millions of acres when Europeans 
arrived during the last century. Over the past 80 years, forest 
management policy, characterized by active fire suppression and 
harvesting of valuable old growth pine, has transformed these forests 
to their present state. Today we are left with overstocked stands of 
young fir and pine, thousands of acres of dead and dying timber 
infested with insects, and an unacceptable risk of catastrophic fire. 
Thousands of miles of riparian areas have been damaged by harvest and 
grazing practices, as well as by roading and urbanization. In addition, 
timber dependent communities that were established to support lumber 
mills have seen tragic declines in employment.
    Early in my administration I established four goals to guide our 
efforts to restore ecosystem health to eastside forests. These are: 
Restore the health of the forest themselves; Restore the health of 
riparian systems and watersheds; Provide wood to local communities; 
Reduce the risk of catastrophic fire.
    In the spring of 1995, I appointed a diverse group of highly 
respected scientists from throughout the Northwest to make 
recommendations on ways to restore ecosystem health and provide wood to 
communities in an environmentally sound manner. That panel achieved 
something that was nothing short of remarkable--a true consensus among 
the scientists on what needs to be done to improve the health of the 
forests, streams and watersheds of the eastside. Dr. Norm Johnson, 
chair of that panel, will testify before you today and describe his 
group's recommendations.
    Last spring I appointed an eastside forest advisory panel, 
consisting of a very diverse group of eastern Oregon community leaders 
to make recommendations to me on ways the U.S. Forest Service might 
implement the findings of the scientific panel. Under the able 
leadership of Dave Cash, the panel has visited numerous sites 
throughout eastern Oregon and has recently issued its first set of 
recommendations. A number of the panel members are present in the 
audience today.
    Over the last two months members of my staff, joined by various 
eastern Oregon stakeholders, have met with forest supervisors to learn 
about their goals for the land and about the constraints under which 
they must operate. I have been uniformly impressed with the 
professionalism and dedication to the health of the forests exhibited 
by these federal land managers.
    As a result of this almost two years of work, I am able to present 
here a broadly supported proposal for restoring ecosystem health. This 
basis of the proposal is that there are key areas of agreement where we 
can move ahead now to restore ecosystem health and provide wood to 
local communities without threatening non-timber resources.
    The key elements of the eleven point proposal are attached to my 
testimony. I would like to highlight a few of them here.
    We need to use active management to treat stands that are 
overstocked, or have been inappropriately converted from pine to fir. 
Understory thinning and commercial thinning are key components to this 
strategy.
    At the same time, we need to avoid activities in controversial 
areas, such as roadless areas and old growth stands. If the Forest 
Service continues to push for timber harvest in areas where there is 
not broad support for doing so, there is a risk that the entire 
ecosystem health effort will be derailed. That is unacceptable. The 
Forest Service needs to first establish a track record of success to 
show it can in fact employ active management techniques that actually 
restore forest health, while protecting other critical non-timber 
resources, such as fish habitat, water quality and wildlife habitat.
    Learning from our efforts through monitoring is critical to the 
success of this proposal. One of the tragedies of the continuing debate 
over Federal forest policy is the tremendous amount of public trust and 
confidence in the Forest Service that has been lost over the last five 
years. For this agency to be an effective manager of fully half the 
forest land in this state, it must have broad public support. Now is 
the time to rebuild that support. Effective monitoring by the agency of 
the impact of its land management treatments on key forest resources is 
the first place to start. The agency must demonstrate to the public 
that its actions are having the intended effect. This was the principle 
recommendation of the citizens panel that I appointed to study this 
issue.
    It is also important that we offer cost effective timber sales. 
Where the proceeds from the sale of timber associated with a treatment 
strategy are not enough to pay for the work needed, the Forest Service 
should have access to money to fund the project. The sale should not be 
``sweetened'' by the addition of valuable old growth timber that 
science tells us needs to be left behind for wildlife or improved stand 
structure.
    Restoration of riparian areas and watersheds will take money. I 
would ask Congress to change the way it allocates funds to the Forest 
Service so that money is available to do the work needed without 
depending on a profits from a timber sale.
    One of the greatest benefits of this strategy will be the reduction 
in risk from catastrophic wildfire. By thinning out overstocked stands 
and returning the forest to its historic range of variability, we can 
reduce the frequency of huge stand replacement fires. Although smaller 
fires will continue to be an important part of the ecosystem. I hope 
your committee will consider the benefits of investing in the proactive 
fire prevention measures embodied in our proposal and perhaps avoid the 
budget busting costs of stopping a 100,000 acre wildfire.
    Three people who have been essential in developing this broadly 
supported plan will be testifying later in this hearing. They are Dr. 
Norman Johnson from Oregon State University, Paul Dewey, a citizen of 
Bend who has been very active in forest conservation efforts, and Pat 
Wortman, a Wallowa County Commissioner. Wallowa County is heavily 
timber dependent. I would commend their testimony to you.
    In conclusion I want to emphasize that for any ecosystem health 
effort to succeed it must enjoy broad acceptance. You have before you 
today an action plan that has high credibility with the scientific 
community and is supported by many community leaders--both on the 
environmental and resource utilization side. Implementation of this 
proposal does not require changing the federal laws governing land 
management. What it does take is a clear vision by federal land 
managers and the will to implement that vision.
    Thank you for the opportunity to testify.
                                 ______
                                 
   forest health and timber harvest on national forests in the blue 
                          mountains of oregon
                     a report to governor kitzhaber
Major Points
    The east-side ``forest health problem'' should be defined broadly 
to consider forests, streams, and watersheds.
    Most of the forest in the National Forests of the Blue Mountains is 
alive, but much of it has recently experienced severe problems:
  --Sizeable amounts of certain species, such as Douglas-fir and true 
        firs, have died as a result of overcrowding on drier sites, 
        drought, and insects. Historical forest management practices 
        (fire exclusion, harvest practices) have contributed to the 
        problems.
  --Large stand-replacing (crown) wildfires have recently occurred, due 
        to a build-up in fuels, in forests where that type of fire 
        behavior was historically infrequent.
  --A major portion of the live forest is under stress because stands 
        are too dense, especially the true fir/Douglas-fir understories 
        beneath pines and larch, which increases the likelihood of 
        future mortality in both the understory and overstory.
    Restoration treatments, including thinning and fuel reduction, 
could reduce the risk of loss from insects and fire on large areas of 
these forests.
  --Forests at highest risk are primarily in the low and moderate 
        severity natural fire regimes (ponderosa pine, Douglas-fir, and 
        dry grand fir types). Forest restoration should start here, 
        with reduction in live tree density and fuel loadings, 
        concentrating on the smaller live tree component (eg., thinning 
        from below).
  --The more ``boom and bust'' types of fire disturbance regimes were 
        naturally a part of the cooler, higher elevation ecosystems, 
        with stand-replacing fires approximately every 100-300 years. 
        Intensive treatment there may actually move the ecosystems away 
        from natural (historical) conditions.
  --In general, treatment should begin in upland zones and work down to 
        lower-priority riparian zones.
  --Active management of forest stands can help recreate the historical 
        mosaic of stands in different conditions that offers natural 
        firebreaks and less concentrated food sources for insects.
    Time is of the essence to capture economic value and reduce risk of 
catastrophic losses in the future.
    The wood products industry, an important component of eastern 
Oregon's economy, depends heavily on timber from federal lands. Timber 
shortages can be relieved by a responsible, timely salvage and forest 
restoration program.
    Salvage and restoration treatments have the potential to pay for 
themselves and provide funds for other ecosystem restoration projects.
    True fir and Douglas-fir sawlogs and pulp logs will be the major 
wood products from these treatments, with little of the old-growth 
ponderosa pine that has been a staple of the east-side forest industry 
in the past.
    Opportunities exist to harvest timber with relatively little site 
disturbance:
  --Most treatment areas are already roaded and environmentally-
        sensitive logging methods are now available.
  --Road treatments, including reconstruction and closure, can be used 
        (and will be needed) to enable successful treatment without 
        causing unacceptable impacts to aquatic habitat.
  --The challenge will be to ensure that low-impact logging and roading 
        methods are employed on a broad scale in the treatments.
    There is relatively little environmental/ecological risk on the 
National Forests in the Blue Mountains from salvage and restoration 
treatments, which use low-impact logging and roading methods, 
undertaken in the context of Forest Plans, watershed analysis, East-
side Screens, PACFISH, and an active monitoring/review program.
    There are impediments to a timely response by the National Forests:
  --Difficulty in implementing interim guidelines for forest management 
        (East-side Screens, PACFISH). Problems such as changing 
        guidelines, the inherent complexity of the guidelines, their 
        rigidity in some cases, and the occasional overly-conservative 
        interpretation of them can all slow salvage and restoration 
        efforts.
  --Shortages of skilled specialists to plan and implement projects. 
        The Forest Service has lost many skilled people with local 
        knowledge and experience in recent years. Yet, the agency needs 
        skilled people more than ever before.
  --Cumbersome, overlapping processes to implement the laws that guide 
        National Forest management. The major environmental laws have 
        helped bring about a more ecologically-sound approach to 
        National Forest management. The current complexity in their 
        implementation, though, could unnecessarily slow salvage and 
        restoration work.
    With the environmental controls on timber harvest now in place, the 
major risks to aquatic systems come from other sources (such as 
sedimentation from existing roads and grazing in riparian areas).
    Monitoring and internal and external review will be important to 
ensure that management works toward desired goals.
                                 ______
                                 
 Prepared Statement of Tom Partin, General Manager, Malheur Lumber Co.
    Mister chairman and members of the subcommittees: I was unable to 
testify at the Field Hearing in Spokane, Washington on May 28, 1998 and 
submit this written testimony for your consideration and the Hearing 
Record. I am Tom Partin, General Manager of the Malheur Lumber Company 
in John Day, Oregon. Our Company harvests and manufactures timber that 
is grown throughout the Interior Columbia River Basin.
                              introduction
    The Malheur Lumber Company has followed and been an active 
participant in the development of the Draft Environmental Impact 
Statement for the Interior Columbia Basin Ecosystem Management Project 
(ICBEMP). We have focused on promoting an ecosystem management plan 
that would provide for aggressive active management that addressed the 
forest health problem and that would give recognition to all resources 
while providing for a sustainable and predictable level of timber 
harvest. Such a plan would need to provide enough flexibility that 
National Forests and BLM Districts would be able to properly apply the 
policies on site-specific locations at the local level. To our 
disappointment, such a plan has not been developed. Continued delays 
over the last four years and cost overruns have plagued the project. 
The $40 million spent on the project has come at the expense of other 
budgeted programs, primarily timber management, timber sales along with 
a multitude of other programs. The forest health problem has only 
worsened.
                               conclusion
    The performance record for the Interior Columbia Basin Ecosystem 
Management Project (ICBEMP)(Project) is less than satisfactory.
  --The Projects Purpose and Need Statement has not been accomplished.
  --Amending 72 Land and Resource Management Plans based on the 
        Projects broad analysis and not following the 36 CFR 219 
        planning regulations removes all opportunity for a legally 
        sufficient plan, and establishes ``one-size-fits-all, top-
        down'' direction.
  --Sustainable and predicable supplies of timber outputs have not been 
        identified.
  --Interim direction has been made more restrictive and ``rolled-
        over'' into Project without any supporting analysis.
  --The economic analysis has been repeatedly found to be inadequate 
        and misleading and does not adequately disclose the impacts on 
        the economy of the Project area.
    We ask that funding for the completion of the ICBEMP be 
discontinued and recommend that the following termination actions be 
taken:
  --Close the ICBEMP regional office without the completion of a final 
        environmental impact statement and record of decision.
  --Disseminate the scientific information to local levels within the 
        BLM and USES.
  --Direct the local levels of the BLM and USES to consider the 
        scientific information in conjunction with site-specific 
        information and amend or revise their respective land 
        management plans accordingly.
    We recognize that this action may not immediately correct the 
current policies that have stopped any active forest health management. 
However, we suggest that it will require that the BLM and National 
Forest management issue to be reevaluated in such away that we can once 
again attempt to influence the initiation of aggressive forest health 
management.
    The following testimony includes a discussion of the points and 
issues that have been presented in the Conclusion.
                            purpose and need
    The DEIS fails to accomplish and conform to the nine items 
presented in the Purpose and Need Statement. Of major significance, in 
both the purpose and need statements, is the lack of disclosure 
concerning actions that will restore and maintain long-term forest 
health. Bullet 1 in the Purpose Statement was doomed to fail from the 
start, because nowhere is ``restore'' identified or defined in a way 
that it can be understood or applied on the ground. Is this point 
attempting to ``restore'' or to develop a perceived condition that 
existed at some point in history? Or, is it attempting to restore to a 
desired future condition that may have never existed and which is based 
on a perceived vision of a desirable long-term conditions. As developed 
in the DEIS, restore appears as an intangible benefit, a value laden 
concept lost in the concepts of limited or no active management, 
included in a philosophy of limited access on the land. Bullet 1 goes 
on to say that ecological integrity is going to be ``restored''. 
Ecosystem integrity is not a tangible or scientific condition that can 
be restored. It is a concept or philosophy that is talked about, but 
cannot be used as a purpose for the development of alternatives and 
management direction in a DEIS. Even the DEIS glossary is elusive in 
its definition: ``In general, ecological or biological integrity refers 
to the elements . . . that . . . sustain the entire system; the quality 
of being complete; a sense of wholeness. Absolute measures of integrity 
do not exist. Proxies provide useful measures to estimate integrity of 
major ecosystems components . . .''
    Of equal significance is the failure of the DEIS to fulfill the 
purpose of Bullet 2 in the Purpose Statement. This bullet establishes 
the need to ``[S]upport economic and/or social needs of people . . . 
and provide sustainable and predictable levels of products and services 
. . .'' This failure is best shown by statements in the DEIS such as: 
``Evaluating how changes in timber harvest would affect particular 
communities or counties must await local implementation of regional 
strategies.''--``. . . the Draft EIS did not account for factors upon 
which conventional sustainability of timber supply is based.''--``It is 
unknown which factor would ultimately have the greater effect on long-
term sustained yield. . . . ``Clearly, the purpose and need statement 
does not drive the DEIS or the development and selection of 
alternatives. This is a fatal litigation point and does not provide the 
framework for a sound analysis.
                           interim direction
    The delay in completing the ICBEMP project is resulting in 
institutionalizing the Eastside Screens, PACFISH, and INFISH. The 
decisions from the EAs that implemented this interim direction were 
based on short term (12 to 18 months) over conservative assumptions 
with little or no analysis or supporting science. These actions were 
justified and documented with the assurance that the missing analysis 
and science would be accounted for during the development of the 
forthcoming ICBEMP and the subsequent EISs. This assurance has not been 
fulfilled, and the interim direction has been rolled-over into the 
DEIS. This action has resulted in numerous NEPA and NFMA violations. 
Current justification for continuing the interim direction is based on 
the assurance that both the short and long term effects will be 
evaluated and disclosed when Forest Plans are revised. Because the 
short and long term effects of the interim direction have not been 
analyzed, the ICBEMP EIS will amend Forest Plans and again 
institutionalize decisions and direction developed outside the NEPA 
process. It is clearly documented in the DEIS that the broad-scale 
design and analysis of the ICBEMP was never intended to fulfill the 
assurances documented in the EAs for the Eastside Screens, PACFISH, and 
INFISH. Only as recently as May 28, after the Field Hearing, the 
Project Manager informed us that they never intended to follow the 
Planning Regulations because it is not required when a Forest Plan is 
only amend and not revised. The NEPA and NFMA violations and the 
demonstrated lack of performance and accountability, clearly show the 
need to discontinue the Project. The ICBEMP publications and results 
should be finalized and published outside of and not identified with 
the NEPA process. These documents should then be made available as 
guidance for use in Forest Plan revisions and the resulting forest 
management. The NEPA process for the ICBEMP project needs to be 
formally terminated.
                           legal sufficiency
    The assumption that an FEIS and ROD can be released that will 
withstand litigation is seriously flawed and not realistic. An enormous 
amount of input has been provided in opposition to the completion of a 
FEIS and ROD. This information from all walks of life has been ignored 
and documents that the public has not accepted the flawed NEPA process. 
This opposition is supported by congressional efforts not to continue 
to fund the project. An enormous amount of information and 
documentation has been assembled in the format of an EIS that is 
outside the limits of NFMA and the implementing planning regulations 
(36 CFR 219). If published as a final EIS accompanied with a ROD that 
is designed to amend Regional Guides and Forest Plans, it will not 
withstand the appeals and litigation that are forthcoming. For example, 
the project managers have refused to recognize the need to follow the 
ten step planning process required in 36 CFR 219.12. No information is 
available to show that these planning steps were addressed. Many of 
these steps are progressive, support one another, and need to be 
accomplished in an orderly manner. The following is examples of 
documentation that has not been included in the DEIS:
  --Information showing how the same procedures were followed that were 
        used during the development and approval of forest plans and 
        regional guides. [36 CFR 219.12, 219.8(f), 219.10(f), & 219.1].
  --A display for each alternative that shows the changes in ASQ and 
        AUMs. [36 CFR 219.16(a)].
  --A revised timber sale schedule for each alternative. (36 CFR 
        219.16).
  --The tentative resource objectives for each planning area taken from 
        the current RPA Program. [36 CFR 219(a)(3)].
  --A display of specific changes in standards and guidelines in the 
        regional guides that show harvest cutting methods, size and 
        dispersal of created openings, utilization standards, etc. [36 
        CFR 219.9 (a) (5)].
    Existing forest plans provide direction to insure the coordination 
of multiple-use and sustained yield goals. The DEIS does not display 
how the changes that will amend forest plans will effect these goals. 
The Chief has held in administrative appeals, and the courts have 
adopted the Chiefs characterization, that plan approval results in:
  --Establishing forest multiple-use goals and objectives. [36 CFR 
        219.11(b)].
  --The establishment of forest-wide management requirements (standards 
        and guidelines) to fulfill the requirements of 16 U.S.C. 1604 
        applying to future activities--both resource integration 
        requirements (36 CFR 219.13 to 219.26) and management 
        requirements (36 CFR 219.27).
  --Establishment of management areas and management area direction 
        (management area prescriptions) that applies to future 
        activities in a particular management area--both resource 
        integration requirements and minimum specific management 
        requirements [36 CFR 219.11(c)].
  --Establishment of the allowable timber sale quantity and designation 
        of lands not suitable for timber management. (16 U.S.C. 1611 
        and 36 CFR 219.16) and [16 U.S.C. 1604(k) and 36 CFR 219.14].
  --Establishment of monitoring and evaluation requirements [36 CFR 
        219.11(d)].
    We have repeatedly pointed out this lack of attention to NFMA and 
the 219 planning regulations. The normal response has been that it is 
not required for this type of project. Our November 17, 1995 input 
letter regarding the Eastside Preliminary Draft EIS said in part:
    Chapter 1 does not discuss the need for a ``revision'' of current 
plans and guides, nor does it address the ``amendment'' process that is 
being followed. Terminology used to describe the new information and 
requirements for new long-term management direction suggests that a 
``revision'' is more appropriate than an ``amendment''. Either process 
requires following the same procedure that was required for development 
and approval of a forest plan or regional guide. The intention to 
follow the required ten planning steps and other requirements in 36 CFR 
219 is not shown; nor, can it be identified. Even more confusing 
Chapter 1 shows that ``[I]t is possible that an ecosystem management 
strategy identified in the EIS will conflict with one or more of those 
laws, policies, or regulations . . . An alternative that conflicts with 
existing law cannot be implemented unless. Potential conflicts are 
discussed in . . . Chapter 3. Few if any meaningful conflicts with law, 
regulation, or policy are discussed in Chapter 3. Conflicts with the 
foundation of NFMA and 36 CFR 219 planning regulations are shown in the 
discussions concerning ecosystems, restoration, trade-offs, ecosystem 
based management, in the seven Issues, and elsewhere in Chapters 1, 2, 
and 3. Much work remains to be done to show that the process and 
resulting alternatives meet the requirements of existing laws and 
regulations. ``This input has not been acknowledge nor used in the 
DEIS, and the same violation of law and regulation still exists.
                             timber output
    Because of the broad-scale nature of the analysis and the intent to 
amend individual forest plans, attempts have been made to include 
forest plan level data and then qualify it as not being final until 
forest plans are revised. This results in serious misrepresentation of 
information and fact. This concern is represented by the statement: 
``Timber outputs displayed in this Draft EIS are based on simulation of 
disturbance processes (including timber harvest) from which landscape 
effects were analyzed . . . but results were adequate for broad-scale 
analysis.'' (Chap. 4, pg. 171) It does not acknowledge that the 
standards used to develop this broad-scale analysis are being carried 
forward to the fine-scale analysis.
    Of particular concern is the display of Measured Annual Benefits in 
Table 4-50 and Timber Volume Offered in Figure 4-53. (Chap. 4, pgs. 168 
& 187). Table 4-50 and the associated narrative inflate actual 
boardfoot harvest volumes and values four fold. This is the result of 
using faulty volume per acre cut figures. Consequently, throughout the 
DEIS when natural disturbances or values from timber harvest are 
presented serious discrepancies are involved, and assumptions and 
conclusions are inaccurate. Timber volumes to be offered on a per acre 
basis range from 10,000 boardfeet per acre in Alternative 1 to 6,956 in 
Alternative 4. Realistic volumes per acre, as documented by timber 
sales offered under interim direction since August 1993 is in a range 
of 2,000 to 3,000 boardfeet per acre. Figure 4-53 displays timber 
volume offered for 1989 through 1995, and compares them to projected 
harvest volumes by DEIS alternative. These figures and the narrative 
leads one to assume that there will be an increase (from current 
harvest) in timber volumes and revenues as a result of implementing the 
Eastside EIS. However, the associated narrative states that: 
``Sustainability and predictability of timber benefits will be 
determined when the Preferred Alternative is incorporated into local 
Forest Service and BLM land use plans.'' (Chap. 4, pg.173).
    In an effort to correct this misrepresentation of information, an 
earlier draft of the DEIS was revised to include Alternatives la, 2a 
that presents offered volume. This immediately resulted in an ``apples 
and oranges'' mix of information in Table 4-50. A comparison of offered 
and harvested acres, volume, and values are presented. Alternatives la, 
2a are offered volumes, acres, and values, while 1 through 7 is 
harvested volumes, acres, and values.
    The measured annual timber benefits as shown in Table 4-50 and the 
associated narrative are grossly overstated. These over inflated 
numbers are used elsewhere in the DEIS and result in an inaccurate 
picture of the social-economic impact resulting from the significant 
reduction in volume and value of timber harvest from levels in the 
forest plans and current programs. Expected financial impacts to County 
Government, schools, employment, and financial impact to communities is 
grossly understated. Project Managers will not recognize that a problem 
exists, and they have taken the position that acres harvested is the 
governing element. They contend that volume and value adjustments will 
be made when individual forest plans are revised. This will be after 
the Eastside EIS is final and public input is finished. This 
information and direction (without public input) in the FEIS will then 
become the driving force behind further revision of the forest plans.
    We have been repeatedly told, and it is documented in the DEIS, 
that the broad-scale nature of the data does not allow for the 
identification of timber outputs from units of Federal land (National 
Forests and BLM Districts). The rational provided is that detailed 
information would be developed and presented when the forest plans are 
revised under direction of the FEIS and Record of Decision. Again, it 
is shown that the impacts of decisions are being develop without the 
benefit of public input. The Forest Service and BLM is under 
Congressional direction to provide estimated goods and services from 
each unit of Federal land for the first 5 years following the decision 
to implement FEIS. (H.R 2107, Sec. 323). This information is being 
developed exclusive of public input and involvement. The required 
report is being made between the Draft EIS and the release of the ROD. 
This report will be a significant action that requires the development 
and analysis of information directly effecting each management unit and 
all adjacent communities and concerned citizens. NEPA requires that if 
this type of information is used in the decision making process, public 
involvement, input, and comment must be obtained.
                         roads and road effects
    The DEIS continues the existing misconception that road density is 
the measure of the effects that roads have on the environment. It is 
frustrating not to find in the volumes of documents supporting this 
DEIS, information focusing on a risk assessment relating to the needs, 
benefits, economics, and environmental risks associated with roads. In 
stead we find a generic generalized statements about road density. It 
is not the miles of roads in the vicinity of streams that effect water 
quality, it is the amount of sediment and other pollution that get into 
the stream. Miles of road do not effect wildlife habitat, but wildlife 
could be effected by the use of these roads. It needs to be recognized 
and documented that the existence of roads is not the same thing as 
using roads. It is unacceptable to continue to use the unsupported and 
undefined concept that controlling the miles of roads per square mile 
is the answer to road management.
    Guidelines RM-G2 and RM-G8 in a suggestive way will address the 
question of risk at some point in the future. Road Standards RM-2 and 
the discussion of road standards in Chapter 3, page 78 references the 
Science Assessment and suggests that reduced riparian impacts may cause 
additional effects to other ecosystems over time. These are the types 
of direct and indirect effects that are not disclosed in the DEIS.
    Most of the recreation activities are predicated on the use of 
forest roads. We believe that recreation use and the related economic 
benefits have been grossly over-stated. However, DEIS Road Standards 
are designed around over conservative assumptions that result in 
closing or not constructing or reconstruction the very roads needed to 
support the inflated recreation use. Any reduction in the miles of 
roads or the drive-ability of these roads, reduces the projected trends 
in recreation use. Recreation activities and the resulting economic 
benefits have not been shown. Nor, has a projection been made that 
shows the miles of roads that will be available to support public use 
and the associated economic returns.
                               economics
    In an effort to obtain continued support from the Eastside 
Ecosystem Coalition of Counties (EECC), the Project agreed to provide a 
more complete and accurately described characterization of communities, 
including the potential impacts and effects of decisions. Also, Section 
323 (b) of the Department of the Interior and Related Agencies 
Appropriation Act of 1998 (Public Law 105-83) directed the Project to: 
``analyze the economic and social conditions, culture and customs, of 
the communities at the subbasin level within the Project area and the 
impacts the alternatives in the draft EISs will have on communities.'' 
The response to these requests is included in the Economic and Social 
Conditions of Communities (ESCC) report released on March 3, 1998. The 
very existence of this report makes suspect the validity of the social 
and economic information included in the DEIS. Of equal concern is how 
this questionable information was used in the development and analysis 
of alternatives. The only realistic assumption that can be made is that 
a reasonably accurate characterization of communities, including the 
potential impacts and effects of decisions needs to be avoided if the 
predetermined and predecisional concept of ecosystem management is to 
be supported.
    The response to the EECC and the Appropriations Committee as 
presented in the Economic and Social Conditions of Communities (ESCC) 
report does little to meet the requests from these governing bodies. 
However, it does further expose the deficiencies in the DEIS and the 
design of the ICBEMP. As stated in the Questions and Answers sheet 
accompanying the ESCC report: ``The community level results expressed 
in this report do not change the effects that were described for the 
county and regional levels discussed in the Draft EISs.'' After 
spending tens of thousands of dollars developing a report, this non-
responsive answer to the request for the potential impacts and effects 
of decisions is unacceptable. It is but another example of the Project 
failing to be responsive to the public, even at the Congressional and 
County level. It is clear the intent of the Draft EISs is to amend 
Forest Plans. It is also clear that EECC and the 1998 Appropriation Act 
language requested additional information focused on the impacts from 
decisions that result in amending Forest Plans or that direct how 
Forest Plans will be amended or revised in the future. Example of fatal 
flaws in the ESCC report or that exist in the DEIS and reinforced in 
the (ESCC) are:
  --The EECC had concerns that the potential impacts on communities be 
        accurately described, yet the effects that each alternative 
        could have at the community level are only described in terms 
        of trends. (ESCC transmittal letter).
  --Current impacts and effects from the existing interim direction, 
        that has been ``rolled-over'' into the DEISs, are not 
        disclosed. Consequently, the potential economic and social 
        impacts and effects are grossly misrepresented and understated. 
        It is obvious that the ESCC is designed to support the 
        direction to implement the existing perceived concept of 
        ecosystem management. This is supported by the statement that 
        ``community-level results expressed in this report do not 
        change the effects that were described for the county and 
        regional levels discussed in the Draft EISs.''
  --Prior to and during the development of Congressional and ESCC 
        report much concern was expressed over the social-economic 
        analysis in the Scientific Assessment. This assessment is being 
        used to provided the driving employment statistics in the 
        Columbia Basin. The Scientific Assessment determined that 
        recreation, timber, mining, and ranching produced 240,000 jobs. 
        Recreation accounted for the bulk of these jobs, totaling 
        225,600 jobs. Timber and wood manufacturing are shown as 
        accounting for 14,400 jobs. Of the 1.5 million jobs in the 
        Columbia Basin, only 15 percent are accounted for in resource 
        related jobs. The recreation sector is shown to account for 16 
        times more jobs than timber, mining, and ranching. This 
        relationship is totally unrealistic and needs to be revised. An 
        obvious flaw in the analysis is that both direct and indirect 
        employment was used for calculating recreation jobs, and only 
        direct employment was used for calculating timber, grazing, and 
        mining jobs. The preparation of the Economic and Social 
        Conditions of the Communities (ESCC) report was an excellent 
        opportunity to correct and explain this misrepresentation of 
        statistics. However it only continued the ``apples and 
        oranges'' comparison.
                                 ______
                                 
                 Letter From Barbara Evans Commissioner
                             Board of County Commissioners,
                                       Missoula, MT, June 18, 1998.
Senator Slade Gorton,
Room 730, Hart Senate Office Building,
Washington, DC.
    Dear Senator Gorton: I would like to take this opportunity to 
comment on the Interior Columbia River Basin draft environmental impact 
statement. At your recent field hearing, Commissioner Michael Kennedy 
of Missoula testified before you. It is my strong belief that 
Commissioner Kennedy does not represent the majority of the citizens of 
Missoula County. I have been a Commissioner here for almost twenty 
years, recently elected for the fourth time, with a sizable majority.
    Commissioner Kennedy testified that he favored a Record of 
Decision--I do not. I have enclosed a copy of Governor Marc Racicot's 
statement, wherein he calls for No Record of Decision. It is my 
understanding that the majority of Montana's western counties do not 
agree with Commissioner Kennedy, and they support a No Record of 
Decision.
    I hope you will give consideration to my concerns, and those stated 
in the Governor's testimony.
            Sincerely,
                                             Barbara Evans,
                                                      Commissioner.
                                 ______
                                 
 Prepared Statement of Marc Racicot, Governor, Office of the Governor, 
                            State of Montana
    Thank you for the opportunity to comment on the Interior Columbia 
River Basin draft environmental impact statement (EIS). We fully 
recognize that as a part of the EIS, the scientific teams have 
conducted unprecedented scientific analysis of conditions in the 
Interior Columbia River Basin. We have appreciated the briefings by 
various federal officials and the opportunity for the State of Montana 
to analyze and address different aspects of the EIS.
    As a preface, let me make it plain that we are convinced we can 
better manage our natural resources, including wildlife and fish 
populations, while providing more predictability to our communities, 
than we are doing now. By ``we,'' in this instance, I mean all of those 
involved in managing public resources. As a result, the State of 
Montana has attempted to contribute constructively to this project, 
which in our understanding, is to provide for long-term sustainability 
of economic, social and biological systems in the basin. We recognize 
and believe that only by accomplishing these goals will local 
communities be able to better manage our shared resources and achieve 
predictable levels of products and services from Forest Service and 
BLM-administered lands. Unfortunately, in recent years sustainability 
and predictability for these communities have been unpredictable and 
unsustainable.
    Unquestionably we believe there is a great need to change the 
current approach that federal agencies have been taking in management 
decisions. As a threshold matter, however, we have significant 
reservations whether this environmental impact statement will result in 
bringing about more stability to the economic, social and biological 
systems in the basin.
    Some of our reservations arise because it has been our experience 
and observation that the real driving force behind management decisions 
today are the actions taken by regulatory agencies, like the U.S. Fish 
and Wildlife Service, the National Marine Fisheries Service, the 
Environmental Protection Agency and the Army of Corps of Engineers. 
While we understand these agencies have been involved in the EIS 
process, the EIS does not reveal how those regulatory agencies will 
adapt their individual and collective regulatory regimens to provide 
the assurance of and equilibrium for long-term sustainability of 
economic, social and biological systems to occur. For instance, the EIS 
does not provide any definitive direction as to how these agencies will 
appropriately address threatened and endangered species within the 
context of the EIS.
    The EIS does not mention changes to the Endangered Species Act even 
though changes would most likely be required to meet the entire purpose 
and need statement. An example of our concern is on summary page 2, 
where it is claimed that the record of decision will ``Establish 
general direction for management of habitat for threatened or 
endangered species or for communities of species that require 
management across broad landscapes to assure viability.'' However, the 
only direction that the EIS provides is to implement recovery plans 
(HA-S14) or conservation strategies (HA-S15) following recovery. This 
direction is no different than what is currently mandated by existing 
law. The EIS analysis indicates that only the reserve blocks proposed 
in alternative 7 provide the large areas, connectivity and isolation 
that are likely to benefit many of the wide ranging carnivores and 
ungulates that are threatened, endangered or sensitive.
    One ``purpose'' of the EIS (1-6) is to ``Identify where current 
policy, regulation, or law may act as barriers to implementing the 
strategy or achieving desired conditions.'' The EIS also states (1-15) 
that ``The ROD(s) will identify necessary changes to policy or suggest 
modifications to existing laws as needed to implement the decision.'' 
What changes or modifications to what policies or laws? In our review 
of the related documents, we do not see any mention of proposed 
changes. How can we possibly offer cogent analysis in this regard if we 
don't know which statutory or regulatory changes will be necessary for 
changes on the ground to occur?
    Our concern in this instance is that a massive and entirely new 
management approach that applies to 16 Bureau of Land Management 
districts, 30 National Forests, 104 counties and 144 million acres will 
be adopted, but that the existing statutory or regulatory framework 
will not be adjusted to allow for the flexibility and discretion 
necessary to implement this new approach on the ground. What has been 
achieved if that were to occur? It appears to us that in such a 
situation the field of litigational possibilities will be expanded 
exponentially thereby directly and tragically undermining the stated 
purpose of and need for the EIS. What assurance do we have that such 
will not occur when there is no identification of necessary policy or 
statutory modifications that are a necessary prerequisite to 
implementation? As mentioned above, the issuance of a final EIS and 
record of decision could actually result in more litigation in the 
future because the document is so vague and could be interpreted in so 
many different ways. issuing a massive programmatic EIS may in reality 
provide more tools for more litigation and administrative appeals 
instead of bringing about better and more expeditious management 
action. As noted above, things are not good now, but under this 
scenario, they could get worse--worse for people and worse for our 
shared natural resources.
    It is alleged that within the EIS (1-18) there is a specific 
``aquatic conservation strategy''. The EIS mentions (2-106) the 
conflicts regarding Columbia river system management issues and 
includes a `sidebar' (2-151) on the topic. However, it does not resolve 
those conflicts and we have serious questions, after review of the 
alternatives and the objectives and standards, about how a record of 
decision would be affected by river management or how river management 
would be affected by the EIS. Management of native and anadromous fish 
cannot help but be affected by the issuance of a record of decision and 
therefore related river management activities will be affected as well. 
We simply cannot endorse an alternative without knowing the impact of 
that alternative on river management.
    Regarding river governance issues, we remain concerned over the 
substantial and sometimes destructive drawdowns of reservoirs within 
our state for downstream fish and wildlife interests. As you may know, 
the State of Montana has filed suit in federal court regarding the 
noncompliance of state water quality standards by federal agencies. 
Contrary to the view of the EIS (4-153) where it states, ``The goals of 
States' natural resource agencies are generally not specifically aimed 
to protect aquatic ecosystems and biodiversity, but to meet societal 
needs while disrupting ecological processes and conditions as little as 
possible'' and that Implementation of State requirements for protection 
of aquatic ecosystems are uncertain,'' the State of Montana has a 
profound and abiding interest in protecting our natural resources and 
assuring compliance with applicable law.
    We are also concerned that the EIS will not create predictability 
for forest managers. In fact, we believe it would precipitate the 
opposite of its stated purpose. The publication ``Considering All 
Things'' (page 4) states `'What you won't find in this plan is a one-
size-fits-all direction.'' Yet the proposed standards and guidelines if 
adopted in a final EIS and record of decision will create a ``one size 
fits all'' presumption that will diminish the discretion of local 
forest managers to predictably work toward restoration and the 
sustainable production of goods based upon the unique circumstances and 
conditions of individual forests.
    We also have grave concerns over the costs of implementing a record 
of decision. The EIS projects some of the potential costs of 
implementing the various alternatives. The costs do not include those 
which would be required under section 7 of the Endangered Species Act 
and they do not include the costs of wildfire suppression and 
rehabilitation. The preferred alternative, for example, would cost 
$138,234,000 compared to the status quo (Alternative 2) of $73,675,000. 
While annual agency funding is set by Congress, how do the agencies 
anticipate securing additional funding? The EIS states (1-18) that ``If 
full funding does not occur, then the rate of implementation will be 
decreased appropriately.'' What exactly does this statement mean? Would 
one forest or region be deemed more important than another? Would one 
community's economic stability be more important than another? Would 
some species be more important than others? What criteria will be used? 
What about staffing implications? Currently, Region One of the Forest 
Service is facing difficult choices in how to fund existing needs due 
to decreases in financial resources attributed to decreases in timber 
sales. How much more will the implementation of a record of decision 
add to this already existing problem?
    As acknowledged by the authors, it is impossible to tell what 
impacts might accrue under the various alternatives contained in the 
EIS. This is partly a matter of scale, partly due to unfamiliar 
descriptions, and partly the challenge of bureaucratic prose that 
allows almost any interpretation to fit almost any alternative.
    While we fully understand the Interior Columbia Basin Ecosystem 
Management Project is a programmatic EIS and is not designed to 
specifically address individual environmental, social and economic 
consequences, the EIS visibly lacks explanation of how it will achieve 
the purpose and need statement.
    Let me offer an example. Representatives of the Montana Department 
of Natural Resources and Conservation and the Montana Department of 
Fish, Wildlife and Parks attended a Kootenai National Forest 
presentation on the EIS. While the Kootenai Forest staff made a good-
faith effort to answer questions raised by the public, they could not 
determine the impacts of the alternatives at the forest level. They 
took several months to look at just one alternative (Alternative 4 was 
presumed to be the preferred alternative) and tried to compare it to 
existing management plans to determine comparative impacts. The result 
of that comparison was that there would probably be fewer roads, larger 
buffers around streams, about the same wildlife habitat, slightly less 
timber harvest than in 1996, and timber or vegetation growth would 
continue to grow about three times beyond the utilization rate, 
increasing the role of prescribed burning and natural fire to control 
fuel levels. The Kootenai Forest analysis basically provided a 
comparison between Alternative 1 and Alternative 4. It said nothing 
about the other five alternatives. In addition, we have no other 
knowledge from the other national forests in western Montana that an 
analysis similar to the Kootenai Forest has been undertaken.
    The jargon problem is monumental. While ecosystem management is not 
new in the scientific literature, it is significantly new in the public 
realm. and even though the EIS appears to be written by competent 
scientists intimately familiar with the ecosystem management concept, 
frankly, even a sophisticated and educated reader would have trouble 
understanding the meaning and context of many of the terms used in the 
EIS. The definitions and use of key terms within the EIS reflect the 
anxiety, uncertainty and confusion swirling about the EIS. As an 
example (5-38), the definition for ``ecological integrity'' seems to be 
more subjective than objective. What is the scientific basis for the 
phrase The quality of being complete; a sense of wholeness? Many of the 
terms used are not in the glossary and some of the definitions in the 
glossary require looking up additional terms in order to understand the 
original definition. How many years will it take for those terms to be 
construed by various courts and through administrative appeals before 
they will receive settled definitions? And in the process how will our 
shared resources and those who provide stewardship of them be impacted?
    In order to make confident recommendation for a preferred 
alternative, the state is faced with the almost impossible task of 
trying to decide what alternative is best for Montana, without the 
tools or information to know what one alternative means, much less the 
tools and information necessary to understand a comparative analysis 
between alternatives. The Kootenai Forest, taking several months and 
utilizing professionals already familiar with the ecosystem management 
concept and who also contributed to the EIS, could explain only the 
comparative difference between no action (alternative 1) and the 
preferred alternative (altemative 4). Even then, they could not break 
down impacts to anything more than a Kootenai Forest level analysis. 
They could not speak to what would occur to the local economy or forest 
conditions in communities like Libby or Trout Creek, for example.
    Also, many of the projected outputs require the investment of a 
high degree of faith by the public, who may be justifiably skeptical 
that these outcomes could actually be realized. For example, the 
Preferred Alternative 4 proposes to: Increase the volume of timber 
harvested compared to current levels (Page 3/186); increase awes of 
timber harvest by 154 percent compared to current levels; increase 
precommercial thinning by more than 2-times current acres; increase 
prescribed fire by 150-335 percent; and, simultaneously reduce road 
densities in most forest types by up to 50 percent.
    Where is this going to occur? According to the Kootenai National 
Forest analysis, it's not going to occur there. And, even without the 
reality of limited budgetary constraints, the EIS does not provide an 
explanation of how apparent contradictory goals can be accomplished?
    While we do appreciate the agencies taking a new look at the 
socioeconomic analysis included within the DEIS as originally released, 
we still believe there are many unanswered questions. The Economic and 
Social Conditions of Communities report (Report) provides a general 
overview of Interior Columbia Basin communities. However, it avoids the 
issue of what the specific socioeconomic and economic impacts would be 
to each community under each of the different alternatives. This is due 
in part to the fact that the EIS, which the Report supplements, uses a 
``broad-scale'' approach and therefore prevents the estimation of local 
effects. However, a complete analysis of socioeconomic and economic 
impacts for each community under each alternative is a necessary 
prerequisite to the issuance of a final environmental impact statement 
and record of decision. That's what the law and simple fairness 
contemplate. Even though in our understanding the National Forest 
Management Act requires an individual analysis for each of the 104 
counties to be impacted by the EIS, the Report, at the least, should 
have provided a range of potential socioeconomic and economic impacts 
for the Bureau of Economic Analysis (BEA) regions and a more detailed 
discussion of how the communities in each of the BEA regions would 
potentially be impacted under each of the different alternatives. 
Several assumptions are used in the Report in order to allow for a 
simplification of the analysis. However, the ``broad-scale'' approach 
of the EIS must be narrowed and the socioeconomic and economic impacts 
at the BEA region level must be analyzed.
    We are concerned by language (1-14) regarding ``adaptability of 
plans'' that indicates reinitiation of consultation under the 
Endangered Species Act may result from this project. We suggest any 
such action be done in a manner that does not unreasonably delay or 
alter previously approved site-specific projects or projects close to 
decision. Adaptive management occurs though predictable and reasonable 
processes that do not cause an undue burden in the process of balancing 
development with appropriate levels of environmental protection.
    We were pleased to see the importance weed management was given in 
the EIS. Implementation of an integrated weed management strategy on 
identified noxious weeds is a component of each of the alternatives 
listed except Alternative 1 [No Action]. A coordinated weed management 
approach is paramount as we look at emerging management issues.
    The effort expended on this project is significant and appreciated. 
Similarly, the information produced as a result of this extraordinary 
inquiry is invaluable. Nonetheless, for the reasons mentioned herein, 
we do not believe the project should proceed to the issuance of a 
record of decision. Instead, goals and objectives, based upon the 
information and analysis produced, should be formulated to guide the 
development of forest plans pursuant to the National Forest Management 
Act.
    By drawing this conclusion, we do not intend to diminish the effort 
invested to produce this analysis, nor the competence of the 
professionals responsible for its creation. We also appreciate the many 
opportunities offered for collaboration throughout the preparation of 
the EIS. And importantly, we believe that the body of information 
synthesized as a result of the scientific inquires will assist greatly 
in making better management decisions in the future. Our best 
recommendation, however, is to use that information to guide the 
development of forest plans suited to the unique characteristics of 
individual management units. To proceed to adoption of a preferred 
alternative in a final EIS and the issuance of a record of decision 
would, for the reasons expressed herein, achieve the opposite of what 
the purpose and need statement sets out to accomplish.
    Thank you for consideration of our comments.
                                 ______
                                 
   Prepared Statement of Hubert B. Sager, Vice President, Resources, 
                       Vaagen Bros., Lumber, Inc.
    Thank you for the opportunity to comment on the Eastside Draft 
Environmental Statement (DEIS).
    This has been a long and expensive effort and we commend the Forest 
Service and the Bureau of Land Management (BLM) for their attempt to be 
responsive to the Presidential direction issued in 1993. However, we 
find it unfortunate that the agencies decided to go totally beyond the 
President's direction to develop a scientific supported ecosystem 
strategy. This DEIS, if it becomes a FEIS with a Record of Decision, 
will be a site specific directional document mandated to the lowest 
field level. This effort goes completely beyond our understanding of 
what a ``strategy'' constitutes and beyond what was the intent and 
scope of the Presidential direction.
    We appreciate the agencies granting additional time for the DEIS 
public review and comment period. We still found the task extremely 
difficult and complex. To simply review the ``summary documents'' or 
the DEIS document, by themselves, does not constitute an adequate 
review. We found that the documents were numerous, voluminous and 
extremely complex in nature. The following material was received or 
obtained for review:

                        DEIS DOCUMENTS FOR REVIEW
------------------------------------------------------------------------
              Document                      Date               Pages
------------------------------------------------------------------------
Considering All Things...........  Undated............             56
Preferred Alternative............  5/97...............              4
Eastside DEIS:
      Vol I......................  6/97...............            731
      Vol II.....................  6/97...............            396
                                                       -----------------
      Subtotal...................  ...................          1,187
                                                       =================
Evaluation of EIS Alternatives by
 the Science Integration Team:
      Vol I......................  5/97...............            536
      Vol II.....................  5/97...............            558
Integrated Scientific Assessment   9/96...............            303
 for Ecosystem Management in the
 Interior Columbia Basin and
 Portions of the Klamath and
 Great Basins....................
An Assessment of Ecosystem
 Components in the Interior
 Columbia Basin and Portions of
 the Klamath and Great Basins:
      Vol I......................  Dated 6/97 but                 335
                                    received 10/97.
      Vol II.....................  ...................            720
      Vol III....................  ...................            658
      Vol IV.....................  ...................            353
Status of the Interior Columbia    11/96..............            144
 Basin, Summary of Scientific
 Findings........................
Highlighted Scientific Findings    5/97...............             34
 of the Interior Columbia Basin
 Ecosystem Management Project....
Framework for Ecosystem            6/96...............             48
 Management.
                                                       -----------------
      Subtotal...................  ...................          3,689
                                                       =================
      Total......................  ...................          4,876
------------------------------------------------------------------------

    Given this amount of information, even with the 240 days of review 
time, it requires an average reading of 20.3 pages per day. Virtually 
an impossible task to accomplish with understanding. The following are 
our specific comments:
    If the Objectives and Standards are implemented, they will result 
in the following:
  --A higher number of appeals and litigation actions;
  --Substantial delays in the local decision making process;
  --Substantial reductions in the levels of goods and services 
        produced, especially timber;
  --Substantial increases in road closures and resulting loss of public 
        access to their lands;
  --Less predictability of the levels of outputs to be produced, again 
        especially timber;
  --Reductions in authority and flexibility at the National Forest and 
        BLM local level; and
  --Higher costs of doing business which will result in either less 
        skills on the ground or less outputs since budget increases 
        will not keep up with the increased costs.
    The agencies cannot move toward meaningful ecosystem management 
until major terms, such as ecosystem, ecosystem management, forest 
health, landscape health, and ecosystem integrity are defined in an 
understandable, measurable manner.
    We agree that the agencies need to look at a scale larger than the 
``stand'' level but we totally disagree that analysis or direction 
should be done or established at the Columbia River Basin scale. There 
is too much variability at the Columbia River Basin scale for a ``one-
size-fits-all'' solution. The scale for analysis, with resulting 
Objectives, Standards and changes in management direction, should not 
be larger than sub-basin or 4th-field Hydrological Unit Code drainage.
    Agencies must provide a ecosystem boundary map which clearly 
reflects where the ecosystems to be managed are located and how these 
ecosystems relate to the other ownerships, especially the private 
lands.
    Although the documents stress that the requirements only apply to 
Federal land management, the scientific assessments were done for all 
ownerships. The resulting findings are mostly based on the total 
ownership pattern and therefore, any conclusions or direction 
established to ``restore'' ecosystems must include the private land. 
This will result in pressure being applied to the State regulatory 
agencies to also apply these standards to State and private lands based 
on ``science''.
    To shift to a policy where production of goods and services is a 
by-product of ecosystem restoration is not supported by law or 
regulations and is in violation of existing laws such as the Multiple-
Use, Sustained-Yield Act of 1960.
    NEPA requirements are not being met. For example, the Social/
Economic analysis is totally inadequate, the Implementation Plan has 
not been completed, and the Monitoring Plan has not been completed. 
Therefore, this document is incomplete (not a full disclosure of 
potential effects) and has not had adequate public review.
    The ``Desired Range of Future Conditions'' is based on scientific 
values, not findings, and have been developed without adequate 
stakeholder involvement.
    The direction of the DEIS is driven by trends established, for all 
ownerships, by comparing current conditions to conditions prior to the 
arrival of Europeans. The assumption is then made that nature is the 
ideal model and that future conditions should strive to regain the 
prior conditions or the Historical Range of Variability which existed 
in pre-European times. This whole concept is based on ``values'' not on 
scientific findings. We do not agree that these are the proper or 
desirable conditions for future Federal land management.
    Numerous Objectives and Standards are not understandable, 
measurable, or implementable based on our experience. The inclusion of 
``guidelines'' seems to be a ``wish book'' or ``brainstorming'' 
exercise and will only add confusion and misunderstanding in the 
future. We also don't understand whether ``rationale statements'' are 
mandatory statements of direction. For example, are the units required 
to complete sub-basin analysis in 2-3 weeks? This seems like an 
impossible task given the requirements of Appendix 3-1, the 
coordination/consultation required, and the lack of comparable data 
between agencies!
    We can not find the science which adequately supports the proposed 
Standards. We especially tried to find the scientific support for the 
riparian buffer zones and the degree of road density reduction. In 
neither case could we find adequate scientific support, in fact we 
found scientific evidence which supports the adequacy of PACFISH/INFISH 
buffer widths which are substantially less than those proposed in the 
DEIS. There is also new information coming out of the Washington State 
Timber, Fish, and Wildlife process that shows that even PACFISH/INFISH 
Standards are excessive for appropriate riparian functioning. The 
standards for road density, snag retention standards, and down woody 
material are not supported by science. It appears that these were 
established by the planning teams judgement or during negotiation with 
the regulatory agencies. We find this unacceptable and that the DEIS is 
not ``scientifically sound''.
    Neither the economic assessment or the social assessment adequately 
evaluates the effects to the local communities. In fact the document 
continues to refer to future local planning to determine these effects. 
Scientist predict mill closures and reductions in timber production, 
loss of road access, and even reductions in recreational use but we 
don't know where or the degree of impact expected at our local National 
Forest or BLM units. This is unacceptable and must be corrected prior 
to completion of a FEIS.
    Economic assessment is biased toward non-market production. This is 
evident in the way the values of goods and services were established. 
Commodity values were established based on the user prices paid e.g. 
stumpage or AUM values. Recreational values were determined using a 
questionnaire to determine what people would be willing-to-pay. This is 
ridiculous. What are people paying for manufactured lumber, paper, 
meat, metal, etc. There must be a comparability between values. This 
assessment is biased and misleads the public.
    DEIS discounts the issue of community stability. This has been a 
long standing policy of the Forest Service and BLM and has been 
reinforced through laws such as the Small Business Administration Act 
and the National Forest Management Act. This issue must be adequately 
addressed.
    Social assessment is totally inadequate to disclose potential 
effects to the local communities or area. Even the scientist threw in 
the ``towel'' and state ``this broad scale plan could not provide the 
understanding panelist felt they needed to evaluate social effects, 
except in the broadest terms''. Again, we find this unacceptable and it 
must be corrected.
    Implementation of the DEIS will result in significant amendments to 
the local National Forest Land Use Plans. This DEIS does not meet the 
requirements of the NFMA for this type of plan amendment.
    This plan is ``locking up'' roadless areas that have been released 
for management through the Washington and Oregon Wilderness Acts. This 
is in conflict with law and is an illegal action.
    DEIS does not adequately evaluate county and community Land Use 
Plans, Economic Development Plans, Zoning Plans, and other resource 
related plans.
    DEIS is not complete and therefore does not allow adequate public 
review and comment. Some examples are:
  --Ecosystems are not mapped and the relationship between Federal, 
        State, county, and private land management is unknown;
  --Implementation Plan has not been completed;
  --Monitoring Plan has not been completed;
  --Riparian Management Objectives are not complete for all 
        Alternatives;
  --Levels of goods and services and the resulting social/economic 
        impacts have not been determined for the local community/areas;
  --Integrated risk analysis will not be completed prior to the Record 
        of Decision, this may have significant impacts at the local 
        National Forest and BLM District level and therefore to the 
        local communities;
  --Effects to existing activities and the time frames for corrections 
        are unknown; and
  --Total funding needs, for all effected agencies, was known but was 
        not released for public review and comment (see chapter 4, page 
        218).
    Based on our review, we do not find this to be an acceptable 
document. We feel it must be revised and completed and then re-issued 
for additional public review and comment.
    Since we could not find the science to support the proposed changes 
in management, we do not support any Alternative other than continuing 
current management. In our judgement, the agencies should complete the 
missing portions of the DEIS, modify the DEIS based on the analysis of 
public comment, and then re-issue the DEIS for public review and 
comment. We seriously wonder what the merit is to complete this 
project; however, if the agencies elect to complete a FEIS, there 
should not be a Record of Decision and the FEIS should be issued as a 
``guideline document'' for the Forest Service and BLM units to consider 
during project planning and when they do their mandatory update of unit 
Land Use Plans.
                                 ______
                                 
Prepared Statement of the Franklin County Board of County Commissioners
    The Franklin County Board of Commissioners believes ICBEMP should 
be terminated and a clear and concise management plan developed by the 
communities directly affected. This information should be developed 
with local communities and private landowners working with Federal and 
state agencies and then go through the proper Congressional process.
    The current ICBEMP project gives little practical consideration to 
local communities, its people and the economic factors affecting those 
communities. The plan is based on negative historical information with 
little attention to positive impacts from the past and current 
agricultural practices which have led to an increase in survival of 
wildlife as well as increased vegetation in the forests.
    There needs to be a clear definition of ``ecosystem'' that is 
consistent with local plans and recognition that ecosystems are 
continually changing. It is ludicrous to try to restore what cannot be 
described.
    It is our grave concern that this ICBEMP project could result in 
duplication of the disastrous spotted owl issue.
    Until ICBEMP is terminated, it is our desire that the counties 
remain involved.
                                 ______
                                 
      Prepared Statement of Lawrence A. Dolezal, Chair, Board of 
            Commissioners, Lincoln County, State of Montana
    Thank you for providing this opportunity to submit comments to you. 
My name is Lawrence A. Dolezal. I am currently the chair of the Lincoln 
County, Montana Board of County Commissioners. I am also one of two 
county commissioners representing the Montana Association of Counties 
(MACo) on the Eastside Ecosystem Coalition of Counties (EECC) actively 
involved in reviewing the Interior Columbia Basin Ecosystem Management 
Project (ICBEMP).
    As you are aware, Lincoln County has been very active regionally 
and nationally in public land issues. We have testified before Congress 
on PILT and other legislation, attended various Committee hearings and 
meetings in Washington, D.C. during our tenure as county commissioners. 
Lincoln County is active in public land issues for many reasons. Our 
county consists of 3,750 square miles. 80 percent of the county is 
public land encompassed by the Kootenai National Forest, while 13 
percent is comprised of corporate timberlands. Only 7 percent is other 
privately owned land that provides the tax base to support our public 
services.
    The President of the United States, by executive order, initiated 
the Interior Columbia Basin Ecosystem Management Project (ICBEMP) to 
create a scientifically sound, legally defensible ecosystem management 
plan. ICBEMP was to be a broad-scale, 12-month project that would give 
general direction to public land managers for ecosystem management, on 
a landscape basis. We now feel that the project should be ended for the 
following reasons:
  --The management direction provided by ICBEMP does not achieve the 
        purpose and need for the EIS (i.e. Restore and maintain a 
        healthy forest and provide sustainable and predictable levels 
        of products and services and support economic and/or social 
        needs of people, cultures and communities).
  --Many experts also maintain that ICBEMP violates the following laws: 
        Multiple Use Sustained Yield Act of 1960, the National Forest 
        Management Act of 1976, the Forest and Rangeland Renewable 
        Resource Planning Act of 1974, the Organic Administration Act 
        of 1897, the Regulatory Flexibility Act of 1980 and the Small 
        Business Regulatory Enforcement Fairness Act of 1996.
  --ICBEMP was intended to be a scientifically sound management plan 
        but has become politically based upon ``selective science'' 
        which supports predetermined preservation goals with a top-down 
        one-size-fits-all highly prescriptive set of management 
        standards and objectives.
  --The recent interim roadless policy proposed by the administration 
        indicates a strong desire to create de-facto wilderness areas 
        and circumvent the authority of Congress in direct violation of 
        the aforementioned laws and indicates the political direction 
        provided to ICBEMP obfuscating the tireless efforts put forth 
        in good faith by counties engaged in the process.
  --ICBEMP has become a political document rather than a resource 
        management planning document.
  --ICBEMP draft documents fail to adequately and truthfully define and 
        disclose the economic, environmental and social condition of 
        our counties and communities and ignore the future effects to 
        our communities should implementation of the ecosystem 
        management practices embodied in the Draft EIS documents occur.
  --ICBEMP has evolved to reflect a top-down management paradigm which 
        reduces or eliminates effective local input in natural resource 
        management and environmental decision making.
  --ICBEMP has become a 6-year, $35 million project, with no end in 
        sight.
  --One driving force behind the initiation of this project was to 
        avoid potential litigation via a long-term strategy that would 
        bridge jurisdictional administrative boundaries when dealing 
        with broad-scale issues. Cumulative actions would be 
        incorporated into decisions crossing unit boundaries to avoid 
        jeopardy opinions. However, we are concerned that this project 
        may, in fact, simplify the litigation process and provide more 
        tools to those who are most likely to litigate.
    We would like to summarize for you what we sense is the most 
important issue to consider. It is the constant barrage of federal 
edicts enacted from above that are threatening our custom and culture, 
our traditional way of life in rural communities out west. We were 
encouraged to ``come to the table'' to negotiate and review forest 
management practices through the ICBEMP process. We have kept our 
promise and stayed active in this process under tremendous political 
adversity. Our constituents tell us ``You can't trust the federal 
government any more''. They tell us to look at the effects of the 
grizzly bear protection and other endangered species management. They 
see forests that are in dire need of help and could catastrophically 
burn this summer. They attend public meetings to voice their opinions 
but feel as if their input falls on deaf ears. We used to tell them 
that we still need to try to work for a common goal and work out our 
differences in a managed plan that can benefit all interests. We 
constantly appeal to them to attend one more meeting or write one more 
letter that will hopefully influence decisions. We are not sure that we 
can tell them that any longer. Anymore, we and our constituents see 
manipulation of public meetings to be used as a formal mechanism to 
validate the desired outcomes of the sponsoring agencies while ignoring 
the public's input.
    Lincoln County strongly supports natural resource planning and 
environmental management featuring site-specific management decisions 
made by local decision makers, local citizenry and parties directly and 
personally affected by public land resource management decisions. But 
every effort we have made to work together with federal agencies to 
solve the important management decisions with words of reason have been 
ignored by this Administration which continues to impose additional 
regulations with no understanding of the effects on rural America. We 
are being backed further and further into a corner and are fighting for 
our survival.
    After careful consideration, due to the reasons listed herein, we 
have a strong feeling that ICBEMP should be terminated with no Record 
of Decision being approved, and that the accurate ecosystem management 
data developed by the project and all public comments generated should 
be communicated to BLM district managers and national forest 
supervisors for consideration of further public input in statutorily 
scheduled land and resource management plan revisions. All public 
comments should become a part of the official record. These plan 
revisions should be coordinated with adjoining units to provide 
consistency and connectivity and consider cumulative impacts in dealing 
with broad-scale issues that overlap onto multiple jurisdictions.
    Thank you for allowing me to submit these comments to you today.
                                 ______
                                 
 Prepared Statement of Peter S. Test, Associate Director of Government 
                      Affairs, Oregon Farm Bureau
    The Oregon Farm, Bureau Federation (OFBF) is the State of Oregon's 
largest general farm organization representing over 21,000 producers in 
the state. A large portion of our membership depend on the resources 
provided by the Federal Lands within the Interior Columbia Basin. We 
appreciate this opportunity to comment on the Interior Columbia Basin 
Ecosystem Management Project (ICBEMP) Draft Environmental Impact 
Statements (DEIS). Although our comments will be directed more to the 
Eastside Draft EIS many of them will apply to both.
    The OFBF has a clear policy related to the ICBEMP and the Draft 
ElS's. The OFBF policy is as follows:
    ``The Oregon Farm Bureau opposes further federal expenditures to 
complete the Interior Columbia Basin Ecosystem Management Project 
(ICBEMP) as long as the plan is contrary to federally legislated public 
land management policy. We will not support any alternative that goes 
contrary to our national (federal) policy that sets multiple use as the 
goal for management of public lands.''
    The OFBF policy related to multiple use management is as follows:
    ``We favor the multiple use of public lands and publicly controlled 
or managed natural resources.''
    The preferred alternative deserts the multiple use goal defined in 
federal statute and replaces it with the unscientific, undefined value 
laden goal of ``ecosystem health'', through an undefined, unproven 
process, ``ecosystem management''.
    Other policy related to land use planning authority states that:
    ``We believe all lands including state and federal lands should be 
subject to all provisions of local land use.''
    This policy supports our belie that federal land management actions 
should support local land use planning and not contradict or work 
against local land use plans. ICBEMP's seriously threatens local land 
use planning goals, particularly as they relate to agriculture in the 
form of livestock production. The ICBEMP preferred alternative will 
reduce livestock use of public lands which in turn will threaten the 
local ranching community. The ICBEMP economic analysts projects loses 
in the agriculture community, forcing people out of business, thereby 
forcing their private lands to be used for other than the originally 
planned agriculture use.
    The entire ICBEMP project is unparalleled in both it's scope and 
it's reach. The project encompasses more that 144 million acres of land 
in portions of seven western states. Of that total, approximately 55 
million acres (38 percent) are privately owned and approximately 75 
million acres are lands administered by the Forest Service and BLM. The 
shear magnitude of size of the project can be illustrated by the fact 
the federal portion represents 24 percent of the total lands 
administered by the Forest Service, and 10 percent of the lands 
administered by the BLM nationwide.
    Despite the fact that the DEIS's profess only to effect management 
on federal lands, we cannot see how implementation of ICBEMP will not 
effect private lands. Attainment of federal standards and guidelines on 
federal lands, especially related to water, will certainly have an 
impact on privately owned lands and the manner in which they can be 
used.
    Our policy for National Forest Planning supports the present system 
outlined by Congress and supports it as long as it meets the following 
standards:
    ``We believe that the national forest planning effort should strive 
to maintain the present supply of timber from national forests to 
insure county support, employment and community stability. We are sure 
that this objective can be met without jeopardizing environmental 
concerns and without violation the intent of the National Forest 
Management Act''
    The framework by which Forest Service land is to be managed is 
primarily described in the National Forest Management Act (NFMA) and 
the Bureau of Land Management (BLM) in the Federal Land Management and 
Policy Act (FLMPA). In both acts agencies are charged with developing 
individual land use plans for each jurisdictional unit which provides 
the framework for site specific land use decisions. ICBEMP, 
particularly the preferred alternative short circuit and violates the 
intended framework for both of these acts. It will violate statute 
provisions related to amending and revising land use plans in the acts, 
and supersede both NFMA and FLPMA with respect to the management units 
affected by the project.
    The preferred alternative for the ICBEMP is in major conflict with 
our Farm Bureau policy and cannot be supported by our organization as 
currently drafted. The only alternatives OFBF could presently support 
are Alternative 1 and possibly 2.
    General concerns about the DEIS's identified by American Farm 
Bureau requested analysis by Allan K. Fitzsimmons, Ph.D., as well as, 
those of our own are summarized below.
Legal Basis for ICBEMP
    There is no legal basis for the process. As explained above, the 
process short circuits both NFMA and FLPMA and would in the end negate 
current statutory law. One of the goals of the project is to reduce 
litigation and its effects on the management of the land. Under the 
NFMA and FLPMA system of planning, litigants must litigate by planning 
unit but if ICBEMIP becomes a process overlaying the present system 
then activities on the whole 75 million acres could be stopped with one 
suit.
Lack of Definition of Key Terms Will Invite Litigation.
    The most basic term in the entire document ``ecosystem'' is not 
adequately defined, it can be as broad as the globe or as specific as 
the stomach of a cow. Specialists have made continuous efforts to adopt 
a definition of ecosystem. They have had some success with the 
``Keystone Dialogue'' but the resulting definition was totally ignored 
in the document. The document also makes no effort to address the scope 
of the term ``ecosystem'' leaving it open to value judgments, with the 
final decisions being made through litigation in the courts.
    Similar problems exist related to the terms ``ecosystem health'' 
and ``integrity''. Both terms are subjective and not base in science, 
The result will be a hidden, subjective value system being imposed as a 
basis for decision making. Since the system is value based on undefined 
scientifically subjective terms all decisions are open challenge by 
anyone unhappy with management decisions because their values or 
interpretations are different. This situation can only lead to conflict 
among managers and other interests which will result in litigation to 
clarify the plans basis of decision making, The management and planning 
out of the hands of professionals and science into the hands of the 
courts. In the mean time the terms can mean anything an administrative 
agency may want them to mean,
    Similar problems exist with other terms and concepts in the 
documents but the terms described here are most important because they 
form the basis for all management decisions.
Process Is Not Feasible
    The present authorized process for federal land management is based 
on science and being done over land areas the allow for proper site 
specific management decisions. ICBEMP is built around a concept ``that-
one-size-fits-all'' management prescribed, with standards and 
guidelines and objectives. If our present system of planning were 
properly funded it would produce more and better management results 
than the project is expected to do. The present system of management 
still functions with limiting funding but allows commodities to be 
harvested from the forest. Under the proposed process, if funding is 
not available then activities that would produce renewable resource 
commodities from the federal land stop. The many activities required by 
ICBEMP process will further delay needed land management, Assessments 
are called for that will repeat activities that have already been 
carried for the present forest planning process, leaving less funding 
available for much needed management on the ground.
    Even Forest Service managers for some of the National Forests in 
the area covered by the project have commented that the process is not 
feasible. The following came from a Umatilla National Forest review of 
ICBEMP and similar comments can also be found in a Wallowa-Whitman 
National Forest review.
    ``In our judgment, completion of all the analysis, and the Forest's 
planning and project work is probably not Feasible.''
    The Lower Grand Ronde Sub-basin Review, a pilot or trial of the 
analysis that was supposed to be limited to three weeks is still in the 
process of being completed after 6 months of full time work by a team 
of professionals. This pilot would seem to verify the comments found in 
the reviews just mentioned by Forest Service professionals, who 
indicated that the process would take a major effort in time and 
resources. The DEIS's claim that this effort would be short and easily 
done. The analysis, related to the assessment should, in light of the 
results of the pilot project and the review of the professionals (that 
will be expected to put it in action) be reevaluated.
Scientific Information Used For the DEIS ant many of the Assumptions 
        May be Seriously Flawed
    Vegetation cover types current and historical, as well as 
vegetation structural stages are part of the basic information that are 
used to develop the assumptions of the condition of the project area 
and develop standards, guides, objectives and management decisions. 
Ecosystem integrity is largely based on surrogate data, instead of 
actual data, related to man's activity on the land (road density is 
often used as a surrogate for watershed integrity) Human activity is 
considered hazardous to ecosystem integrity. If new growth vegetation 
cover types are over estimated the picture related to present 
``integrity.'' of the area will be skewed and assumptions related to 
management needs of the resource area and potential commodity harvest 
effects on the land become less than credible and cannot be 
substantiated.
    The people carrying out the Lower Grande Ronde Sub-basin Pilot 
Review found while reviewing and ground proofing the vegetation cover 
data have found errors, some major, related to the vegetation 
structural stages by diameter class/acreage in the Blue mountain ERU. 
Vegetation structural stages by diameter class/acreage were found to be 
as much as 64 percent off. Such errors in the base data cannot be 
tolerated and must be corrected before any assumptions or decisions 
related to ICBEMP can be made. Such errors should put the results the 
whole process in doubt and require serious and probably expensive 
reevaluated.
    Until such potential errors are addressed the OFBF cannot support 
going forward with the process.
Standards, Objectives and Guidelines Do Not Allow for Adaptive Site 
        Specific Management
    In general the standards, objectives and guidelines in the DEIS's 
are ambiguous, arbitrary, impractical and often inherently 
contradictory. The standards and objectives are vague, some of the 
standards even become the objective which is not conducive to good 
management. Because they are vague, they will likely be applied 
inconsistently throughout the project area. The standards are in many 
cases are not based on scientific principals and in fact have been 
adopted in spite if conflicting science. With the potential data errors 
found in the Lower Grande Ronde pilot work, some of the assumptions 
that were used to develop the standards, as well as the guidelines and 
objectives could be seriously flawed.
    Standards in one section often seem to conflict with standards in 
another. The standards in the Terrestrial Strategies seem to conflict 
with those In the Aquatic/Riparian Strategies.
    The main problem with the section and particularly the standards is 
that they are too restrictive and prescriptive for an area the size 
this process is to cover. They result in a ``one-size-fits-all'' 
management scheme which is sure to fail over the seven state area. 
Management must be site specific and any standards, objectives, or 
guidelines must be also specific to a site. Resource management by its 
nature is an art, as well as a science. Adaptive management is the rule 
and a large scope ``one-size-fits-all'' process excludes such 
management. Section three must be eliminated or seriously changed to 
objectives that can be changed to fit site specific situations.
    The impact of the interim strategies (PACFISH, INFISH, EASTSIDE 
SCREENS) have already negatively impacted thousands of jobs. These 
strategies are said to be discontinued with the acceptance of ICBEMP. 
They are, for all intent and purpose, incorporated into the standards, 
objectives and guidelines. We already have some history with the 
economic and social impacts of these strategies. Such Information, we 
believe, has not been completely or properly addressed in the economic 
analysis.
    Section three must be eliminated or completely redirected 
(rewritten) to be general objectives (including clear consumptive use 
objectives) capable of adjustment on a site specific level before the 
OFBF could support the project.
The DEIS's Do Not Adequately Analyze the Social and Economic Factors
    As would be expected, the DEIS's presume human activity to be 
harmful to ecosystem integrity. The economic and social aspects of the 
various alternatives, particularly the preferred alternative, treat all 
such factors as impacts (usually harmful) on the ecosystem rather than 
an integral part of the ecosystem. The economic and social issues were 
and are still not adequately addressed in the DEIS's, and in our 
opinion not properly peer reviewed. Such treatment of these factors as 
a threat to the environment concerns us because it means that efforts 
or permission to use the resources of the federal lands, in question, 
will be harder to acquire and therefore seriously threaten agriculture 
producers in the area of our state effected by the project.
    The economic analysis fails to consider the effects of increased 
development of lands previously used for agriculture. With their 
development comes more demand on the local government for goods and 
services. Recreation, the expected replacement to the resource based 
economic losses, will not provide the funds necessary for the county's 
to provide the infrastructure and deal with increased problems such 
development brings with it.
    The ICBEMP project is partially fashioned after the President's 
Forest Plan for most of the west side of Oregon. Promised flexibility 
and continued use of the resources of the federal lands were promised 
as was a decline in litigation. None of that ever happened. The courts 
have stopped almost all timber sales in the region. While management 
anions based on the plan have threatened and caused livestock producers 
to lose permits or had their permits reduced to a point that their 
economic and practical management values have been lost.
Other
    Besides our own review of the DEIS's materials we have reviewed 
many comments sent by other stakeholders, and interests. We agree with 
the analysis In comments from the following: Washington, Idaho, Wyoming 
and American Farm Bureaus; Wallowa and Grant County Court; Boise 
Cascade; North West Forest Resource Council; The Oregon Cattlemen's 
Association; and Eastside Ecosystem Coalition of Counties. (The OFBF 
actions related to the ICBEMP DEIS's will be different then many of 
these comments but we agree with their reviews and analysis of the 
issues.)
                               conclusion
    It is our belief that ICBEMP will not clear the problems and 
roadblocks that threaten the future of resource management and 
agriculture in the West. In fact it will add more paperwork, 
administrative roadblocks, and litigation into the management and use 
of our natural resources.
    While some of the stated goals of the project are commendable, we 
cannot support the process or the preferred alternative because they 
both go directly against OFBF's policies related specifically to the 
project, multiple use management, the forest management planning, as 
well as, parts of our land use planning policy.
    Alternative one in the process would be acceptable but it for all 
intent and purpose is the present system of management, which is 
generally more in tune with our policy. If the process could be brought 
into line with present federal laws and statutes, eliminate Section 3 
and/or replace it with a process that allows for well defined site 
specific objectives, we might be able to reevaluate our position 
related to the project.
    The social and economic analysis must be repeated. Ecosystem must 
be specifically defined and man's influence on it considered a part of 
the ecosystem function not an impact or threat to it's health or 
integrity (whatever they are). Both the ecosystem health and integrity 
concepts must be dropped from the process and, if desired, clear 
scientifically accepted, quantifiable (measurable concepts identified 
to replace them. Multiple sustained use of the resource should be one 
of the main objectives of the process.
    Local movement and residents must be real partners and participate 
in all decisions, particularly those that may effect their well-being, 
the local economies, private landowners, land use planning, customs, 
and culture of the area. If the moratorium on forest road construction 
and maintenance is any example of how the local partnership process is 
to work then it is not acceptable.
    The science and data used to develop the assumptions in this 
project must be reviewed and ground proofed and the DEIS's rewritten 
and alternatives reevaluated in light of the errors the pilot 
assessment discovered.
    At this time the OFBF feels these QEIS's and efforts to launch this 
project or management option into reality is premature. We cannot 
support its continuation. The scientific information, after being 
thoroughly reviewed and ground proofed should be distributed to the 
regions various management units and used to supplement the information 
necessary in their local, legally recognized planning process.
    Thank you for this opportunity to comment on these Inner Columbia 
Basin Ecosystem Management Project DEIS's. We reserve the right to 
comment further if the comment period is for any reason extended. If 
there are further questions please contact me.
                                 ______
                                 
  Prepared Statement of King Williams, Chairman, Board of Directors, 
                  Protecting Industries Now Endangered
    The following comments and information are respectfully submitted 
as an example of the need for the Interior Columbia Basin Ecosystem 
Management Project to be dismantled and defunded without going to a 
Record of Decision.
    The ``Interim Direction'' within this document should be withdrawn 
since the elements of Pacfish, Infish and the Screens have expired and 
their inclusion in this document were meant to be temporary and not of 
the long term.
    The so-called science portion of the document does not apply 
because it has not been tried, tested or proven to work on the broad 
scale that this document is supposed to be and, in most cases, cannot 
be applied in a site-specific manner necessary for sound natural 
resource management.
    The ICBEMP has, in many cases, completely shut down any resource 
management within current Forest Service Management plans from the day 
of its inception.
Aquatic systems
    Better riparian zones--many sub-irrigated for many years, due to 
the management practices utilized, maintained and improved the land's 
ability to filter and maintain an even water flow with cleaner water 
and lower temperatures to the streams. (Many of these practices have 
taken place on public lands because of the good management practices 
that are mandatory for grazing allotments and the silvicultural 
regulations that have made it possible for water to reach the ground 
and penetrate the soil, both in the form of rain and snow.) No logging 
and less grazing on public lands for the last several years is causing 
the loss of water by transpiration instead of its being added to the 
riparian areas and streams. This document does not recognize the need 
for coordinated management of our resources.
    Climatic conditions on the Eastside areas are not the same as in 
the coastal areas, but are being treated the same.
    Since most of the science team have not even seen the areas 
addressed, especially some of the authors of many of the reference 
documents (some are on the eastern seaboard and some are not even in 
the United States) it is very difficult to find any basis for some of 
the rhetoric used in much of the document, as well as in the rationale 
statements.
Terrestrial & Habitat
    Many species being treated as native or endemic to a region are, in 
fact introduced species, including vertebrates, many species of fish, 
trees, birds and many types of vegetation. The numbers of these species 
have increased dramatically since they were introduced and in some 
areas they are destroying their own habitats from sheer numbers and 
increased acres that they are inhabiting. This is partly due to the 
fact that, in the past, land management was ongoing and the habitats 
were being improved by good management practices, both on and off of 
public land. Regulations and shutdown of ongoing management on public 
lands has caused an undue economic impact on private lands, communities 
and counties within the affected basin area. Less grazing and little or 
no logging has taken a toll on the ability of public lands to sustain 
the numbers of animals, fish, vegetation and other resources. Grazing 
and logging have long been used as resource management tools. Since 
these lands have not been managed, for a number of years, they have 
deteriorated to the point that wildfires, noxious weed invasion, loss 
of water retention and less forage available (for both wild and 
domestic animals) is causing a lot of the so-called need for 
restoration. Restore to what or when--no specifics--only projections 
``Restore'' has never been defined.
    The fact that there were many fish hatcheries throughout eastern 
Oregon (we do not know about eastern Washington, but presume there were 
some) has been ignored. These hatcheries, many associated with and 
using natural hot springs as part of their rearing process, increased 
the numbers of salmon and steelhead dramatically prior to the 
introduction of dams in the Columbia river. many of these hatcheries 
closed in the late thirties and early forties, consequently the numbers 
of fish going to the ocean declined almost immediately. This was not 
caused by the advent of the dams, but by a war. These and other similar 
facts, such as climatic changes, have been conveniently left out of 
this document. These fish, by the way, were considered native.
    Aquatic objectives and standards, of which there are 14 objectives 
and 56 standards, are addressed in a manner that precludes land 
management, except for aquatic species. This does not allow for 
multiple use management of the resource base or make it possible to 
improve and restore the land in order to make management for aquatic 
species a practical and implementable part of any management plan.
    There are also aquatic objectives and standards throughout the 
other strategies within this document. There no science being put forth 
in this document that on the ground managers can apply to aquatic 
objectives and have balanced resource management program that will 
maintain or improve the natural resource base that is critical to our 
public lands.
Hydrology
    The amount of water on this earth is the same as it has always been 
and as it always will be. Changes occur in: Where it stored; What form 
it is stored in; When it is released; It's climatic distribution; When 
it is stored; What form it is released in; Where it is released; It's 
utilization--as available.
    None of the above are predictable over the long term so aquatic 
standards probably cannot ever be met on a sustained basis. When the 
amount of water available in a given spot at a given time cannot be a 
known quantity, it cannot be planned for a specific use--only if and 
when it is available can it be used. Storage behind dams is critical 
for the availability of water and for planning for its needed uses.
    Human needs are not specifically addressed in this document--Human 
needs should be taken into consideration before those of other species. 
We are also part of the ecosystem. The human body is 93 percent water. 
We have many more bodies that store water today than we have had in the 
past.
    Food, shelter and clothing are all resource based needs. These 
resource based needs must be planned for and this requires management 
of our natural resource base to its fullest potential. Set aside, lock-
up and no-use prescriptions cause degradation of the resources 
themselves, as well as the degradation of our society, cultural 
heritage and even our national security.
    Our natural resource base must be managed sensibly and economically 
to provide for all of our needs.
                                 ______
                                 
   Prepared Statement of Maurice Williamson, ACF, Consulting Forestry
    I wish to thank you for holding a field hearing in Spokane on May 
28, 1998, to get a better feel for the opinions of the various 
stakeholders on the Upper Columbia Basin Ecosystem Assessment. You are 
aware this document could have far reaching effects on regional and 
local economies and communities.
    I would like to address certain comments made by one of the 
panelists.
    (1) A statement was made by Bob Williams assuming that a record of 
decision would decrease private pressure on private lands under ESA. I 
do not agree with that assumption particularly in light of the current 
negotiations which I am involved in called TFW (Timber, Fish and 
Wildlife), these negotiations are to resolve water quality and 
salmonoid habitat concerns on private lands in the state of Washington. 
These negotiations will lead to a new set of Forest Practice (Option 9) 
regulations statewide. The ICBEMP is similar to the presidents plan for 
western Washington and Oregon. If Mr. Williams' assumption that these 
types of plans take pressure off of private lands under ESA is correct, 
we would not be having the TFW discussions, as the presidents plan 
addresses many of the anadromous Salmonoid habitat protection 
requirements.
    (2) Anadromonus Salmonoid habitat is primarily concentrated in 
lower gradient streams which are generally found at lower elevations 
than Federal ownership and in many cases lower elevations than 
industrial ownership. Many of the functions such as large woody debris 
recruitment and temperature are therefore not affected or protected by 
Federal land management. Hence the need for additional ESA protection 
on private lands. To put it more succinctly, science does not support 
the assumption that Federal protection efforts are adequate for many 
species. The recent examples include the spotted owl and marbled 
murrelet which also have required extensive efforts under ESA on 
private lands.
    (3) ICBEMP standards will influence private land regulations. The 
effect of any Federal land management schemes protection measures are 
that the standard set on Federal lands becomes the standard by which 
private land protection measures are judged. This is particularly 
burdensome when ``risk free'' standards are set over varied landscapes 
as large as the Upper Columbia Basin where, in many cases, the level of 
protection for a particular function is totally unnecessary and 
unjustified on significant portions of such a large landscape. I have 
enclosed an example which related to mass wasting (landslides). This is 
one of the parameters that is used to judge the effects of road 
construction/maintenance and placement of harvest units on habitat. You 
will note the mass wasting expressed in failures per square mile for 
northern Idaho is 1.94 versus eastern Washington at .45. Additionally, 
the east Cascade slope range averages 1.55 compared with western 
Washington at 6.65. This information was gathered from level 2 
watershed analysis done in the state of Washington and similar type 
studies done in the state of Idaho. I believe the implications of this 
data as it relates to prescription formulation is apparent. If a risk 
free prescription is applied to large areas such as the Upper Columbia 
Basin many areas are unnecessarily restricted.
    (4) To illustrate how public land policies ``wash'' into private 
property regulations, I have enclosed a letter from Chris Drivdahl, 
Washington State Department of Wildlife, dated October 10, 1994. This 
letter was in response to a ``white paper'' produced by the Washington 
Forest Protection Association and the Washington Farm Forestry.
    Association titled, ``The Role of Private Landowners and Improving 
Forest Health''. In that paper we differentiated between public land 
management for forest health issues versus private land management for 
the same issues. The bottom paragraph is self-explanatory and confirms 
our suspicions and concerns regarding the use of the ``science'' 
promoted for public lands on private lands.
    I have enclosed a copy of an article printed in the April edition 
of Western Forester, a Society of American Foresters publication. The 
article is a consolidation of several state societies review of ICBEMP.
    I hope you or your staff has had an opportunity to review the 
rather lengthy comments that were given to you by Senator Bob Morton 
which I and my staff produced. The draft EIS is severely flawed with 
regard to procedure, assumptions and legalities. Additionally, you may 
not be aware that the terrestrial wildlife component of the EIS has not 
been included in the draft. Therefore, the public is being asked to 
approve an incomplete document. In my opinion Senator Morton's request 
to terminate ICBEMP without a record of decision is the only 
appropriate alternative legally and for the welfare of local 
communities, as well as, the ecosystem that the document purports to 
protect.
    If you have questions please feel free to contact me.
                                 ______
                                 
Prepared Statement of Chris Drivdahl, State of Washington Department of 
                           Fish and Wildlife
    The Department of Fish and Wildlife (WDFW) appreciates the 
opportunity to respond to the Washington Forest Protection Association 
(WFPA) and Washington Farm Forestry Association (WFFA) document, ``The 
Role of Private Landowners in Improving Forest Health.'' While WDFW 
understands the severity of loss some landowners suffered during the 
recent eastern Washington forest fires, we are concerned with making 
blanket changes to eastside forest practices rules.
    It is your estimation that 15 percent of the private forest land in 
Washington is regulated such that forest management is either 
restricted or prevented. This would indicate that a very large 
proportion of private forest land exists on which management is not 
restricted or prevented. In addition, restrictions on forest practices 
are not necessarily incompatible with forest health management. 
Experimentation with specific forest management techniques to increase 
forest health and monitoring the effects of these techniques on 
wildlife habitat is acceptable when it does not violate forest 
practices rules and regulations. The WDFW welcomes the opportunity to 
work with WFPA and WFFA constituents in formulating a plan for their 
particular ownership with addresses fish and wildlife resource concerns 
as well as forest health.
    Improving the health of eastside forests is important. The Eastside 
Ecosystems Scientific Team is analyzing existing eastside forest 
conditions and will be making recommendations with the objective of, 
among other things, increasing forest health. Their document is 
expected to be released in the near future and will provide 
scientifically-based information regarding current eastside conditions 
and the effects of specific types of forest practices on fish and 
wildlife resources. It is in the best interest of all to evaluate 
potential revisions to the Forest Practices Act and rules and 
regulations in light of this information.
                                 ______
                                 
  Prepared Statement of Dale W. Williams, District 1, Flathead County 
                         Board of Commissioners
    I somewhat hesitate to write, but were it not for the embarrassment 
to MACo and the lack of Western Montana counties representation at the 
recent field hearing conducted by Senator Larry Craig (Idaho) and 
Senator Slade Gorton (Washington), I would let otherwise misrepresented 
positions lay on the table.
    Commissioner Kennedy sat at the table on a panel representing tide 
EECC with each panelist representing each of their respective state 
associations of counties.
    I am enclosing the full text of remarks submitted to the Senators 
by Commissioner Kennedy at that recent May 28, 1998 congressional field 
hearing. You will note his unequivocal support of ICBEMP and the 
process to date.
    As of this writing, I believe six of the twelve Western Montana 
counties affected have passed resolutions requesting a No Record of 
Decision. Three more have indicated sending letters requesting a No 
Record of Decision. Two counties positions remain unknown and one 
county--Missoula--apparently supports ICBEMP. Governor Racicot's 
representative on behalf of the State of Montana also called for a No 
Record of Decision.
    Taking this into consideration, the remarks of Commissioner Kennedy 
were absolutely outrageous in terms of representing Western Montana 
counties. Futhermore, he left Montana with a less than united position 
which we sorely need in this debate.
    The purpose and objectives of MACo as outlined in the January 1998 
director on Page iii clearly state, ``protection of the interest of 
Montana counties, to promote legislation as will be beneficial to the 
counties of the State, to do any and all things to benefit the 
counties'' and most pointedly #6, ``to secure harmony of action among 
counties of this state in matters that affect the rights and 
liabilities of counties.''
    I can only conclude from Commissioner Kennedy's remarks and actions 
his willingness to overlook his responsibilities to sister counties, 
his lack of effort to form reasonable, collaborative responses that 
represent and respect his sister counties, and a complete willingness 
to place personal thoughts, believes, and actions above and to the 
detriment of Western Montana counties.
    I therefore respectfully request that immediate steps be taken to 
remove, replace, and otherwise discharge Mr. Kennedy from his 
responsibilities on the EECC and other MACo committees.
                                 ______
                                 
 Prepared Statement of Michael Kennedy, Commissioner and EECC Member, 
             Missoula County Board of County Commissioners
    Thank you for this opportunity to present my perspective on this 
vital project of significant national importance.
    As a member of the Eastside Ecosystem Coalition of Counties (EECC) 
for the past three and one half years, I have become familiar with the 
project enough to discuss all aspects of it and to reach an informed 
opinion about its value and its prospects for succeess. Without 
recounting the remarkable efforts by countless agency staff, citizens 
and elected official, I can report that this several year project has 
resulted in an implementable option which has the highest probability 
of success in achieving the goal of long term multi-use sustainability 
on public lands within the Columbia River watershed. The project 
process has been open to input from all directions and that openness 
has resulted in numerous substantive changes in approach and direction. 
That conducive atmosphere has been consistent throughout the process 
and remains a key element of the support received from the EECC.
    The purpose of my testimony is to offer wholehearted support for 
the Project and to urge funding for its implementation. The picture I 
see for the future of the basin is clouded by the prospect of 
restricted or delayed implementation because of lack of funding. At a 
time when there are major and necessary cutbacks in funding of national 
programs, it may not be popular to say that this program is different 
and deserves top priority funding consideration, but that's exactly 
what I'm saying. This project is unlike any other program in that it 
involves stewardship of a major component of our national natural 
resources which are in trouble and will not recover without substantial 
efforts which can only be mobilized through the Congressional funding 
process. What we notice on the land is that the trees are smaller, the 
water dirtier, the weeds more invasive, the habitat more constrained, 
the fires more catastrophic, and the communities in serious peril as 
never before. We also notice that expenses are up and productivity is 
down on public lands and the prospect is for more of the same unless we 
do something.
    The scientific assessment and subsequent recommendations for 
aggressive on the ground management are judged to be the best approach 
for ecosystem recovery over the long term. The benefits of this 
approach are clear and can be measured favorably in ecological, 
economic and social terms. Restoring ecological balance will reduce 
pressures on threatened and endangered species, will support critical 
gene pools, and will reduce opportunities for ecological catastrophes 
due to cultural influences. Economic stability and predictability will 
add real meaning to the definition of sustainability. Repairing, 
improving and preserving the social structure of resource dependent 
communities will honor the commitment of families throughout the 
Interior in their quest for stability, a healthy environment and a 
decent standard of living.
    The cost of implementation of the Project is estimated at $125 
million per year. If we examine only two of the ongoing expenses on 
public lands, that of fire suppression and road maintenance, we can see 
that the implementation investment will have reduced those costs in a 
dramatic way and in a short period of time. At the same time, the 
implementation investment will have accomplished a great deal of on-
the-ground work. It makes more sense to restore a landscape ravaged by 
erosion or to thin a forest unit to allow room for trees to reach 
harvestable size than to spend money on fire suppression where there is 
no return. It also makes more sense to spawn new public lands 
industries and to develop new ways to earn a living off the land than 
it does to waste money on roads which have no use. This project 
presents opportunities to do those kinds of things an more.
    Although some cultural impacts on public lands are severe, they are 
not, at this moment in time irreversible, but we must act. We finally 
understand that our natural resources are not unlimited and we also 
understand the urgency of pursuing aggressive restoration efforts as 
rapidly as possible. Each year the problems grow worse and will be more 
difficult and costly to address. As an EECC member, as a career 
scientist and engineer, as an elected official, and most importantly as 
a citizen, the wisdom of investing in the implementation of the ICBEMP 
is evident. I urge you to support and recommend investment in the 
future through full funding of project implementation.
    Thank you for your consideration.
                                 ______
                                 
         Prepared Statement of Bob Playfair, Rafter Seven Ranch
    I want to thank you and Senator Craig for holding the hearing on 
the ICBEMP in Spokane last week. The information presented was very 
informative in how the various public groups view the document and its 
information.
    The only thing that disturbed me was that the NIPF (Non-industrial 
Private Forest) landowners were not recognized and represented on a 
panel. We probably have the largest ``Private Property Rights'' 
investment of any party that will be affected by any decision made by 
the EIS process for the following reasons.
    (1) Many of our properties are adjacent to or intermingled with 
National Forest lands. Any forest health problem that is not actively 
addressed by the USFS affects our land. This includes insect and 
diseases epidemics that move into our well managed forests and if a 
fire starts in an adjacent overstocked, unhealthy overstocked stand it 
does not stop at our boundary fence.
    (2) The ICBEMP and its Economic supplement did not address the 
direct affect of reduced USFS harvests on the viability of local 
Sawmills. For the last ten years we have continually lost Sawmills 
through closings. We are down to a bare minimum to maintain any form of 
local competition. In NE Washington the loss of 1 or 2 more mills will 
put the remaining ones in a monopolistic position. You can see this 
happening with both USFS and Wash DNR salvage sales that were not bid 
on last year.
    (3) The ICBEMP document writers did not refer to the TSPIRS reports 
each National Forest provides congress annually showing the regions 
employment and timber income they produce. The report also did not 
consider how the Regulatory Flexibility Act and the Small Business 
Regulatory Enforcement Fairness acts would apply under each of the 7 
options. The option chosen will have an enormous affect on the numerous 
small businesses utilizing forest products or natural resource lands.
    Modification or elimination of existing or new mining claims, 
grazing permits, road easements and other historic forest uses affect 
the local citizens private property rights. Road building, logging, 
berry picking, hunting, fishing and sight seeing are rights all 
American citizens have become accustomed to. All of these activities 
contribute to the economic well being of local small businesses.
    (4) No reference was made as to how future National Marine 
Fisheries and Fish and Wildlife Service actions regarding the future 
listing of Threatened and Endangered species will totally change any 
option selected. This is because these Agencies were not a direct and 
designated part of this project and their actions are not controlled by 
its decisions.
    Based upon this list of regulatory actions that were not 
considered, Congress should close down the Project without a decision 
and remand the volumes of Scientific Data to each National forest. 
There the Supervisor can use the new information to actively managing 
the forest health problems and enhance the habitat Or all wildlife, not 
just listed threatened or endangered species.
    The other thing Congress needs to do is to modify the laws that 
allow environmental activists to file lawsuits where they cannot show 
personal monetary losses created by the proposed actions. They also 
need to be held financially accountable for their actions if they do 
not prevail because their actions have cost local citizens both time 
and money due to the delay. This is necessary if I interpreted Mark 
Solomon's testimony correctly. I believe I heard him say they planned 
to take any decision to court that did not meet their ``no management 
activity'' agenda whether or not the Decision Process was completed.
    Thank you for allowing me the opportunity to voice our comments on 
this very important matter that will have a permanent and long lasting 
economic impact on our family farm. Your decision will determine how my 
grandchildren are allowed to produce those vitally needed wood and 
paper products your grandchildren will need to continue to live the 
American dream.
    Ten years ago our family Tree Farm looked just like the adjacent NF 
with dead and dying trees throughout. We have initiated an intensive 
management program of harvesting, burning and planting the worst areas 
first. This is giving us a naturally mosaiced forest landscape coupled 
with an annual income; a National Forest can do the same.
    I would like to invite you and any of your staff to tour our 
managed forest and then look across the fence at the adjacent National 
Forest which is still dying and being harvested by wood gatherers.
                                 ______
                                 
  Prepared Statement of Dennis Reynolds, Judge, County Court of Grant 
                                 County
    Thank you for conducting the Senate ICBEMP hearing here in Spokane 
on this the 28th day of May.
    It is imperative congress hears from all those who are materially 
impacted by this administratively driven, lethargic, and exuberantly 
expensive planning process. This plan will be impossible to implement 
because of its attempt to be specific from a broad base.
    It is appalling yet true. Those who will pay the price for this 
administratively driven agenda are the hard working citizens of our 
timber based counties who have dedicated their life and endured 
substantial financial risk, to serve the needs of our federal resource 
managers.
    As a professional forester I have grown to understand that forestry 
is nothing more than mankind's attempt to mimic Mother Nature's effect 
on the forest while doing so in a way that will benefit and serve the 
needs of mankind. This plan ignores the needs of mankind.
    This plan if allowed to go to a record of decision will do nothing 
more than allow those who are so inclined to tie up 144 million acres 
of resources in one finely orchestrated litigated battle that will cost 
little more than one large timber sale appeal costs them now. This plan 
must not be allowed to go to a record of decision.
    The Citizens of Grant County, Oregon deserve better. Codify the 
good science and place it in the hands of the local resource managers. 
Proceed with district and national forest management planning.
    I have attached for your convenience copies of comments and 
correspondence that Grant County has offered the process. This 
documentation includes Grant County, Oregon's formal resolved position 
on the ICBEMP process.
    Thank you for this opportunity.
                                 ______
                                 
     prepared statement of dennis reynolds, judge, grant county, or
    interior columbia basin ecosystem management project, eastside 
   ecosystem coalition of counties meeting, walla walla, washington, 
                       october 7, 1997, 10:00 am
    I wish to thank Gil Riddell with the Association of Oregon Counties 
for inviting my views on the Interior Columbia Basin Ecosystem 
Management Project (ICBEMP) and members of the Eastside Ecosystem 
Coalition of Counties (EECC) for allowing them to be presented today.
    These views are offered from my background as a graduate of Oregon 
State University in Forest Management (1972), experienced in road 
design and construction supervision; logging and sawmill management; 
design, fabrication and installation of irrigation head gates and 
measuring devices. I am currently enjoying the awesome responsibility 
of representing as their elected county Judge, 8,100 citizens of Grant 
County, Oregon who are actively pursuing their inalienable rights to 
life, liberty and the pursuit of happiness.
    While the ICBEMP has produced both the Upper Columbia River Basin 
environmental impact statement (IJCRBEIS) end the Eastside EIS (EMS), 
my views will specifically address elements of the Eastside EIS. I 
expect you will find a substantial amount of similarity when applying 
these views to the UCRBEIS.
    The fifth reason the ICBEMP was initiated was ``to replace interim 
management strategies (PACFISH, Inland Native Fish Strategy and 
Eastside Screens) with a consistent long term management strategy.'' 
(EEIS Draft/Summary/Page 1) PACFISH, Inland Native Fish Strategy and 
Eastside Screens were reported to have reflected the most current and 
applicable science at the time they were implemented. ``It is important 
to understand that for changes in grazing systems to be meaningful, 
they must be in place over the long term. This appears to conflict with 
the short term nature of PACFISH. However, management put into place 
through implementation of PACFISH would be expected to continue through 
the long term if it confirms with direction provided by the EEMP and 
ICBEMP when these plans are completed. Based on the current state of 
knowledge of the effects of grazing on riparian and aquatic systems, it 
is expected that this would in fact occur. Therefore, the 
implementation of PACFISH can correctly be envisioned as the initiation 
of management changes over the next 18 months which will likely 
continue and whose benefits to aquatic habitat will become apparent 
through the long term.'' (EEIS Draft/Apx 3-2 Attachment 1/Page 7) The 
net effects of the interim strategies (PACFISH, INFISH, and Eastside 
Screens) remain in the draft EEIS through long-term management 
direction and standards. It is ill-advised to advocate support for the 
continuance of the ICBEMP sighting the elimination of the interim 
strategies as a reason. Interim strategies in the EEIS Draft will be 
eliminated by title only.
    The EEIS Draft is exceptionally careless with words. I have added 
the underlines to emphasize the wording differences. In the EEIS Draft/
Summary/Page 3 and again on Chapter 1/Page 5&6 the consistently stated 
second need reads; ``Supporting the economic and/or social needs of 
people, cultures, and communities, and providing sustainable and 
predictable levels of products and services from Forest Service- and 
BLM-administered lands.'' while the May, 1997 General Technical Report 
PNW-GTR-404, page iv reads ``Support, within the capacity of the land, 
the economic and social needs of people, . . .'' EEIS Draft/Summary/
Page 1 states the number 2 purpose: ``Support economic and/or social 
needs of people, cultures, and communities, and provide sustainable and 
predictable levels of products and services from lands administered by 
the Forest Service or BLM;'' while the unnumbered stated purpose on 
page 5 of Chapter 1 reads; ``. . . predictable levels of products and 
services from lands administered by the Forest Service or BLM including 
fish wildlife. and native plant communities.'' The nature of these 
disparities cause me to question but what the entire document is laced 
with personal bias and or individual agendas. ``Individuals operating 
within governmental organizations are not immune from the problem, as 
Ascher and Healy (1990: 177-78) have noted. In various combinations, 
their motivations are to:
  --Pursue partisan political objectives,
  --Pursue a particular a priori policy objective (such as 
        environmental protection at any cost).'' (SCIENCE TO SERVE, The 
        report of the Independent Review Group on Research Supporting 
        Ecosystem Management in The Pacific Northwest, March 29, 1996, 
        page 16)
    TI-S11 Standard EEIS Draft/Chapter 3/page 164 is not consistent 
with current direction. It states; ``Where it becomes necessary to 
implement Conservation Measures in the Endangered Species Act, 
restrictions on Tribal activities shall be the least restrict possible, 
and implemented only when restrictions on non-Indian activities are 
insufficient to ensure Conservation.'' Department of the Interior 
Secretarial Order No. 3206 dated June 5, 1997, page 1, signed over each 
of their seals by the Secretary of the Interior and Secretary of 
Commerce in part reads; ``Accordingly, the Departments will carry out 
their responsibilities under the Act in a manner that harmonizes the 
Federal trust responsibility to tribes, tribal sovereignty, and 
statutory missions of the Departments, and that strives to ensure that 
Indian tribes do not bear a disproportionate burden for the 
conservation of listed species, . . .'' (author added underlining) 
Webster's New World Dictionary defines disproportionate; ``not 
proportionate; not in proportion; too great or too small'' Appearing to 
be contradictory to the above the following appears on page 6 of the 
same document: ``In cases involving an activity that could raise the 
potential issue of an incidental take under the Act, such notice shall 
include an analysis and determination that all of the following 
conservation standards have been met: (I) the restriction is reasonable 
and necessary for conservation of the species at issue; (ii) the 
conservation purpose of the restriction cannot be achieved by 
reasonable regulation of non-Indian activities; (iii) the measure is 
the least restrictive alternative available to achieve the required 
conservation purpose; (iv) the restriction does not discriminate 
against Indian activities, either as stated or applied; and, (v) 
voluntary tribal measures are not adequate to achieve the necessary 
conservation purpose.'' Upon careful review of this document I am of 
the opinion these thresholds apply only when a tribal activity that 
could raise the potential issue of direct take under the Act occurs. I 
think you will find tribes enjoy dependent sovereignty. In such they 
are subject to the Federal Threatened and Endangered Species Act the 
same as non-Indian persons.
    ``By actively restoring and maintaining ecosystems, this 
alternative [alternative 4] contributes to the social and economic well 
being of communities throughout the project area.'' (EEIS Draft/The 
Preferred Alternative/Page 2) Then there seems to be some uncertainty. 
``The priority in this alternative [alternative 4] is placed on forest 
land, rangeland, and watershed health, assuming that healthy streams, 
wildlife populations, and economic and social benefits will follow. 
Actions taken to achieve desired conditions are designed to produce 
economic benefits whenever practical.''(author added underlining for 
emphasis) (EEIS Draft/Summary/Page 12) Where is the science that 
supports this assumption? I argue this assumption is not valid. 
``Neither the Forest Service nor the BLM have a specific legal mandate 
to provide economic stability to rural communities.'' (EEIS Draft/
Chapter 2/Page 199) This is self evident when we read; ``Alternatives 
4, 3, and 6 would concentrate a larger proportion of total restoration 
investments (and jobs) at the wildland-urban interface (generally areas 
with high socio-economic resiliency) than other alternatives. It is 
inferred that economically vulnerable areas (low socio-economic 
resiliency) would benefit proportionally less (in terms of jobs) under 
these alternatives.'' (EEIS Draft/Summary/Page 30) Those who don't need 
it as much will get it while those who need it the most will not. This 
is in direct conflict with the Objective HU-06 found on page 159 of 
Chapter 3 where it reads ``Emphasize customary economic uses in rural 
communities or geographic areas that are less economically diverse and 
more dependent on outputs of goods and services from Forest Service- 
and BLM-administered lands.'' In the Rationale it reads; ``The intent 
of this objective is to help sustain an area through the transition to 
a less dependent condition.'' but then it admits ``The intent is not to 
maintain areas of Economic Vulnerability in a priority status or to 
necessarily favor specific industries.'' Show no special treatment to 
any species who has been identified as threatened or endangered. This 
we say to the community likely to fail or who solely exists to serve 
the managerial needs of a federal agency while there is no limit to the 
amount of dollars we can spend of our own or of others, trying to save 
an assumed to be, declining population of a particular species while 
they grow and prosper proficiently in other areas of the region. This 
angers me deeply. It should you as elected community leaders.
    From the EEIS Draft/Chapter 3/Page 20; ``Forest Service-and BLM-
administered lands efficiently provide a mix of economic and cultural 
benefits to people that balances local, regional, national, and 
international interests.'' What international interests? I have yet to 
find where in the EEIS Draft these international interests are defined, 
disclosed or discussed. Could some of these international interests 
relate to the following?
    The ICBEMP is heavily impacted by high level administrative 
agendas. One of the reasons sited for the initiated ICBEMP was to ``. . 
. respond to President Clinton's July 1993 direction to develop a 
scientifically sound, ecosystem-based management strategy. . . .'' 
(EEIS Draft/Summary/Page 1) In a Forest Service informational 
memorandum to James R. Lyons, Under Secretary, NRE; from Barbara Weber, 
Associate Deputy Chief for Research through Mike Dombeck, Chief FS the 
following excerpts were taken:
  --``The Man and the Biosphere Program (MAB) was established at the 
        1970 General Conference of the United Nations Educational, 
        Scientific and Cultural Organization (UNESCO).''
  --``MAB's current interest is the development of tools for ecosystem 
        management . . .''
  --``The U.S. MAB goal links closely with the President's commitment 
        to achieving sustainable forestry in the U.S. by the year 2000 
        and the Santiago Agreement.''
  --``Currently 128 nations participate in the MAB program, including 
        the U.S. The U.S. has 47 biosphere reserves with 99 
        administrative units, . . .''
  --``The USDA Forest Service manages 16 U.S. MAB sites.''
  --``SUMMARY: The survival of the U.S. MAB Program is threatened. 
        Benefits to the U.S. and USDA Forest Service are significant. 
        Loss of authority to participate in the U.S. MAB Program, or 
        the loss of our MAB sites, would significantly deter progress 
        in achieving the goals of the President and that of the 
        Santiago Agreement.''
    ``U.S. MAB's activities build on biosphere reserves that are 
nominated by the U.S. and designated by the United Nations Educational, 
Scientific and Cultural Organization (UNESCO), which coordinates the 
intergovernmental MAB Program.'' (U.S. Man and the Biosphere Program 
Home Page/WWW.MABNET.ORG)
    ``The International Union for Conservation of Nature and Natural 
Resources (IUCN) is an accredited scientific advisory body to the 
United Nations, and has more than 880 state and federal governmental 
agency and non-governmental organization (NGO) members in 133 
countries.'' (THE NEW AMERICAN/AUGUST 18, 1997, p. 13) On January 18, 
1996 President William J. Clinton signed Executive Order 12986. In part 
it says ``. . . I hereby extend to the International Union for 
Conservation of Nature and Natural Resources the privileges and 
immunities that provide or pertain to immunity from suit.'' He went on 
to exempt sections 2(b), 22 U.S.C. 288a(b); 2(c), 22 U.S.C. 288a(c) and 
7(b), 22 U.S.C. 288d(b).
    The UN Convention on Biodiversity, which was signed by Bill Clinton 
in 1993 has yet to be ratified by the Senate. The date of the above 
referenced ``informational memorandum'' is thought to be May of 1997. I 
am of the opinion the Clinton Administration is aggressively 
implementing its provisions through executive action.
    Another strong concern among the citizens of my county is how will 
this federal planning process affect their personal property rights? To 
that extent we read; ``. . . no management decisions for and would not 
impose regulations on state, local (city or county), tribal, or private 
lands in eastern Oregon and Washington.'' ``Nothing in this plan can 
override valid existing rights or permits, such as water rights, 
mineral leases, mining claims, rights-of-way, livestock grazing 
permits, awarded contracts, and special use permits; however, to meet 
the objectives of an alternative, some reasonable changes may be 
required in the way maintenance and operations are carried out.'' 
(Both, EEIS Draft/Chapter 1/Page 21) (author added underlining for 
emphasis) If we are to believe the importance of this ecosystem 
approach then how can we be assured healthy ecosystems can be obtained 
by applying these Objectives and Standards to 72 million acres of the 
144 million acres in the planning area or apx. fifty percent of the 
plan area? Private land and property rights will be impacted by the 
ICBEMP. ``Ecosystem management is being proposed as the new framework 
for management of wildland, both public and private.'' (SCIENCE TO 
SERVE, The report of the Independent Review Group on Research 
Supporting Ecosystem Management in The Pacific Northwest, March 29, 
1996, page 11) Note, the word wildland is a United Nations term used in 
the Helsinki Agreement.
    What are others saying about the ICBEMP or EEIS?
    1. (Boise Cascade Corporation, Executive Review, August, 1997, Tom 
Goodall, contact)
  --``As the Project moves into its final stages, we are convinced that 
        the Project will not meet its objectives, purpose & needs, or 
        accomplish the much needed on-the-ground work to restore forest 
        ecosystem health.''
  --``At this point, the Project lacks the support of many key 
        stakeholders. . . .''
  --``The Eastside Coalition of Counties appears to be among the few 
        supporters of this project despite waning support from some of 
        their constituency.''
  --``The DElSs may also be out of compliance with the National 
        Environmental Policy Act (NEPA) for a variety of reasons, 
        making it vulnerable to legal challenges which will negate its 
        intended purpose.''
  --``.  .  .  we support the efforts of the NW Congressional 
        Delegation to limit the appropriation of funds for continuation 
        of this federal planning effort.''
    2. (Ken Evans, Retired forest supervisor of Malheur National 
Forest, and now consultant, draft letter dated September 25, 1997)
  --``We ask that you join us along with the large and growing movement 
        that is not supporting the DEISs and the continuation of the 
        ICBEMP.''
  --``It needs to be recognized that the ICBEMP is too large and 
        unmanageable to be used to amend individual forest plans.''
  --``If a ROD is not issued, it will put the NEPA process at the 
        Forest and local level where it should be and allow effects and 
        impacts to be fully disclosed''
  --``Monitoring evidence does not show that current Forest Plan 
        Standards, without any interim direction, will or have damaged 
        the environment.''
  --``These forest plans will be appealed and litigated regardless of 
        the completion of the ICBEMP.''
  --``One area of particular concern is the display of Measured Annual 
        Benefits for the First Decade in the Eastside Planning Area 
        DEIS, Table 4-50; and Timber Volume Offered, Historical and by 
        Alternative, Eastside Planing Area, Figure 4-53, (Chap.4, pg. 
        168 & 167). Table 4-50 and the associated narrative inflates 
        actual board foot harvest volumes and values four-fold.''
  --``Expected financial impacts on County Govermnents, employment, and 
        financial impact to communities are grossly understated.''
  --``The DEIS points out that the quality of timber harvested is 
        expected to decrease The effects of this projection are not 
        displayed in the DEIS.''
  --``We are faced with an unacceptable situation and only legislative 
        assistance can help.''
  --``The EECC should be asked to explain in detail how they can 
        continue to support the ICBEMP in light of its deficiencies and 
        the open public opposition.''
  --`` . . . help terminate the Interior Columbia Basin Ecosystem 
        Management Project and to move rapidly forward with the 
        revision of forest plans.''
  3. (Shelley Short, speaking for Congressman Nethercutt, to Eastern 
        Washington Counties at a ICBEMP workshop in Spokane on 
        September 17, 1997)
  --``Many land management laws and guiding processes, including the 
        Sustained Yield Forest Management Act of 1944, National Forest 
        Management Act of 1976, that have been passed since the Organic 
        Act of 1897, all left intact the emphasis of local communities 
        and their economies.''
  --``I note that Stevens County, the county in which I live, shows .4 
        percent of its total budget comes from revenue associated with 
        federal land payments.'' ``. . . I note that the column 
        describing the percentage of federal lands payments compared 
        with total county budgets was in fact provided by ``Schmidt, 
        Wilderness Society, forthcoming (draft, 1995)! Why was this 
        information not garnered from the counties themselves? I found 
        through initial inquiry to the county auditor, however, that 
        that figure is 2.85 percent of its total budget! What other 
        figures are also inaccurate?''
  --``As the project now stands, Congressman Nethercutt fears this 
        project will become another layer of bureaucracy on top of 
        already conflictive and regulative laws.''
    3. Allan K. Fitzsimmons, PhD, in an Analysis of the Interior 
Columbia Basin Ecosystem Management Project commissioned by numerous 
Farm Bureaus the Public Lands Council and the National Cattlemen's Beef 
Association, July 1997)
    Principle Finding--
  -- The Draft Environmental Impact Statements do not provide an 
        adequate basis for well reasoned and scientifically sound 
        management of federal lands.
    In General--
  --Value judgements, not science, drive the DEISs
  --The DEISs make extensive use of vague, ambiguous, and controversial 
        concepts
  --Standards and measures frequently defy objective and quantifiable 
        assessment
  --Key terms lack plain definitions
  --No convincing legal rationale for shifting to ecosystem-based 
        management is offered
  --The specific ecosystems to be protected by land managers are not 
        mapped
  --The procedure used to evaluate proposed management alternatives is 
        fatally flawed
    If Implemented, the Public Could Reasonably Expect--
  --Reduction in human use of public lands
  --Delays in land use decision making
  --Growth in litigation and administrative appeals
  --Increases in uncertainty for commodity users
  --Decreases in commodity and non-commodity outputs directly 
        benefiting humans.
    What is my opinion?
  --The EEIS Draft lacks attention to detail.
  --While I have noted some errors; myself and I believe others, wonder 
        how many more of these errors exist in the EEIS Draft?
  --The EEIS Draft can not be repaired and made to work.
  --Most members of the public including myself can not make an 
        adequate review of this EEIS in a time frame of less than a 
        year and work full-time when it took thousands of man hours and 
        millions of dollars to assemble and compose the two DEISs and 
        supporting documents.
  --I believe the EEIS is poorly constructed enough to become numerous 
        attorney's pension plan.
  --The most infuriating thing about the EEIS Draft is its calloused 
        disregard for the citizens that live in my ecosystem called 
        Grant County, Oregon. If I were to hurt a member of an 
        endangered species like the ICBEMP will hurt my county and 
        eventually our county, I would be thrown in jail.
  --It is time to codify the true science, bind it, and place it in the 
        hands of the Forest Supervisors and BLM District managers and 
        instruct them to continue their forest plan reviews using the 
        best science as a guide. For this to work it will become 
        necessary to insulate their decisions legislatively from those 
        who employ frivolous lawsuits to further their agendas.
    It is time to bring to an end the ICBEMP before the final draft and 
Record of Decision are written for the ICBEMP.
                                 ______
                                 
         prepared statement of the county court of grant county
    We are requesting that you and your office help to prevent 
implementation of the Interior Columbia Basin Ecosystem Management 
Project. Whether this is done by direct legislation from Congress or by 
eliminating funding makes no difference. This project has putrefied 
into such bad and far reaching documents that it simply must not be 
allowed to proceed to implementation.
    What started out as a 12 month project is going into its sixth 
year, has consumed around $35 million tax dollars and no end is really 
in sight. The interim management strategies (PACFISH, INFISH, EASTSIDE 
SCREENS), that were only supposed to last for a short time, have 
negatively impacted thousands of jobs, have accelerated forest health 
deterioration to now epidemic conditions, and have contributed 
significantly to fuel load buildup that is causing the west to 
experience some of the worst wildfires in history.
    What started out as a compilation and review of current good 
science to provide an overview of the various ecosystems and their 
interdependence and generate some general guidelines for management of 
forests in Eastern Washington and Eastern Oregon has become a set of 
one hundred and sixty six standards for 144 million acres in seven 
states. If allowed to continue, the results of this project will 
preclude site specific treatments that may be needed but are outside 
the standards set by the project. Only further costly analysis will 
allow site specific treatments, that fall outside the project 
guidelines, no matter how badly needed or reasonable they may be. The 
end result will be unhealthy forests that will support nothing: not 
people, not communities, not commodities, not livestock--nor the buzz 
activities--not recreation, not wildlife, and certainly not endangered 
species.
    These documents are so convoluted and complicated that we doubt the 
team members have read more than the particular part of the document on 
which they worked. The document crafters do not seem to understand the 
interplay among the various components and what the on-the-ground 
consequences may be. When asked direct questions, they lack direct 
answers. Likewise, land managers who will be charged with implementing 
these plans have no idea what they are supposed to do or what the 
likely outcomes will be. They have been told this will cure all their 
problems, and they have, we assume in defense of their careers, joined 
the party line.
    One of the publicly stated purposes of this project was to 
eliminate litigation. That concept is not even in the draft 
environmental impact statements, and in the public meetings, where 
advocates are trying to garner support, it has been changed to, ``Now 
the Forest Service will win litigations.'' However, with the creation 
of region-wide standards and as convoluted as the document is, with the 
right hand not knowing what the left hand is doing and much of it 
couched in vague, ambiguous terms, it is likely--to the point of 
certainty--that more litigation will be generated not less. The result 
being that management will be tied up in the courts while forests and 
their dependent species and communities die.
    The only faction that is winning or that will win with the 
continuation of this project is the one who advocates no use of natural 
resources. The faction whose doctrine, when followed to its logical and 
natural conclusion, is preaching at least national genocide if not 
total human species genocide. This faction is conspicuously missing 
from the public meetings on the project outcomes, and it makes one 
wonder if they have developed a different avenue of communications or 
influence on the project. An avenue that is not open to the rest of the 
public.
    For all of these reasons and more we urge you to join us and others 
who love our forests and who live, work and recreate in our forests, in 
stopping this diabolical project before it can do more harm. Advocate 
printing the peer reviewed and peer accepted science
    What started out as a compilation and review of current good 
science to provide an overview of the various ecosystems and their 
interdependence and generate some general guidelines for management of 
forests in Eastern Washington and Eastern Oregon has become a set of 
one-hundred and sixty-six standards for 144 million acres in seven 
states. If allowed to continue, the results of this project will 
preclude site specific treatments that may be needed but are outside 
the standards set by the project. Only further costly analysis will 
allow site specific treatments, that fall outside the project 
guidelines, no matter how badly needed or reasonable they may be. The 
end result will be unhealthy forests that will support nothing: not 
people, not communities, not commodities, not livestock--nor the buzz 
activities--not recreation, not wildlife, and certainly not endangered 
species.
    These documents are so convoluted and complicated that we doubt the 
team members have read more than the particular part of the document on 
which they worked. The document crafters do not seem to understand the 
interplay among the various components and what the on-the-ground 
consequences may be. When asked direct questions, they lack direct 
answers. Likewise, land managers who will be charged with implementing 
these plans have no idea what they are supposed to do or what the 
likely outcomes will be. They have been told this will cure all their 
problems, and they have, we assume in defense of their careers, joined 
the party line.
    One of the publicly stated purposes of this project was to 
eliminate litigation That concept is not even in the draft 
environmental impact statements, and in the public meetings, where 
advocates are trying to garner support, it has been changed to, ``Now 
the Forest Service will win litigation.'' However, with the creation of 
region-wide standards and as convoluted as the document is, with the 
right hand not knowing what the left hand is doing and much of it 
couched in vague, ambiguous terms, it is likely--to the point of 
certainty--that more litigation will be generated not less. The result 
being that management will be tied up in the courts while forests and 
their dependent species and communities die.
    The only faction that is winning or that will win with the 
continuation of this project is the one who advocates no use of natural 
resources. The faction whose doctrine, when followed to its logical and 
natural conclusion, is preaching at least national genocide if not 
total human species genocide. This faction is conspicuously missing 
from the public meetings on the project outcomes, and it makes one 
wonder if they have developed a different avenue of communications or 
influence on the project. An avenue that is not open to the rest of the 
public.
    For all of these reasons and more we urge you to join us and others 
who love our forests and who live, work and recreate in our forests, in 
stopping this diabolical project before it can do more harm. Advocate 
printing the peer reviewed and peer accepted science documents and 
making them available to the various land managers. Instruct these land 
managers to use the science in making sound defensible decisions at the 
local level, with input from local inhabitants who know local 
conditions. Advocate legislatively insulating these decisions based on 
peer reviewed science from frivolous litigation.
                                 ______
                                 
 answers and concerns regarding the interior columbia basin ecosystem 
            management program from commissioner, bill gibbs
Background/Introduction:
    There was a document recently circulated supporting the Eastside 
Ecosystem Coalition of Counties' involvement in and support of the 
ICBEMP. I am presenting answers and concerns from the loyal opposition.
    Answers:
  --Is there a better game in town with general support?--Yes. The 
        original forest plans that were locally established and have 
        general local support. Other than EECC there is no general 
        support for the ICBEMP. Let the federal land managers use the 
        peer reviewed and peer accepted science documents to help 
        administer the plans that are already in place.
  --Do counties want to give up the favorable relationship they have 
        with federal agencies?--All relationships change over time. If 
        the price of maintaining the current relationship is rubber-
        stamping a bad plan, the price is too high.
    Concerns:
  --Without the certainty of an acceptable plan there will be more ESA 
        listings and a continuing loss of flexibility.--There is no 
        more certainty in this plan than any other plan--witness the 
        current forest plans which were developed with local input at 
        the local level but which never got a fair chance at 
        implementation. There is no flexibility in the standards 
        associated with this plan without further costly analysis. With 
        this plan we are codifying what were interim guidelines and 
        applying them to a broader area. There is nothing in this plan 
        that will prevent or assure no further listings under the ESA.
  --Legal challenges concerning species viability have been deferred 
        and without the plan there is a high potential for gridlock.--
        The key word is ``deferred''. Those who wish to lock up our 
        forests will continue to challenge use. The more documents you 
        create the more they have to work with. The ICBEMP is 
        convoluted and complicated enough to provide years of 
        litigation before it ever gets a chance at implementation, and 
        when and if it ever gets to the point of implementation it 
        provides another vehicle for injunction and litigation. 
        Continuing with this project plays right into the hands of 
        those factions whose tactic is ``stall''.
  --Allowing the forests and districts to use the science findings 
        locally would subject them to litigation, cost more planning 
        dollars, and remove staff from doing planning and implementing 
        projects.--This document, by the Forest Service's own 
        admission, will not stop litigation. What it will do is remove 
        local option unless extensive, expensive, and time consuming 
        local study and planning are done, which will remove staff from 
        planning and implementing projects. There are already locally 
        developed, reviewed, and approved forest plans in place. Give 
        them a chance to work. Perhaps the managers could use the 
        science from the project, after it has been peer reviewed and 
        accepted, to help insure the success of the local plans.
  --Without the ICBEMP the relationship between the Counties/EECC and 
        the federal agencies might change.--What happens to this 
        relationship when the project comes to its supposed scheduled 
        end at some time? A relationship that requires approval and 
        support of bad policy is a poor relationship, especially for 
        the slave. Further, the ICBEMP does not require the federal 
        agencies to maintain or establish any additional relationship 
        with local communities, it only requires them, ``to begin to 
        develop MOUs'' with county governments. And, even if an MOU is 
        established, the federal agency is not required to abide by it.
  --Without the plan communities are at risk if a significant course 
        change occurs and federal agencies would be bound by current 
        laws and court decisions.--This is double talk. The ICBEMP is a 
        significant course change for most communities including at 
        least fifty percent of the counties it covers which by the 
        projects own admission are nonresilient. It is also a 
        significant course change from federal policy. Current policy 
        has been established by congressional action and to date that 
        policy hasn't been changed by congress to allow the agencies to 
        make the course change contemplated by the ICBEMP. The federal 
        agencies are still bound by current and future legislation. The 
        EIS is just further restriction.
  --New lines of communication and understanding have been established 
        between counties and federal agencies. These should be 
        maintained.--The federal law cited as evidence of this argument 
        is FACA (the Federal Advisory Committee Act). The law was 
        around before ICBEMP, and it will be around after ICBEMP. If 
        local communities have indeed established better lines of 
        communication it is the one thing that we need to try and 
        salvage from the process. But the relationship has to be on an 
        equal footing. And, that doesn't mean endorsing bad policy 
        whether it be local, state or national.
  --Slam-dunk solutions to public policy are often short lived. Better 
        outcomes should come from the people at the table.--Bad public 
        policy is bad public policy whether it is slam-dunk or whether 
        it takes an extended number of years to develop. The ICBEMP is 
        bad public policy. It is bad for the citizenry and bad for the 
        environment. it is unfortunate, but it appears to most informed 
        observers that the project is beyond salvaging even with the 
        EECC at the table.
                                 ______
                                 
  prepared statement of dennis reynolds, judge, county court of grant 
                                 county
    Thank you, Chairwoman, Chenoweth for inviting me to testify before 
this oversight hearing. I am humbled by my surroundings and the stature 
of your committee. My name is Dennis Reynolds, Grant County Oregon, 
Judge. My county is entirely included within the planning boundaries of 
the Interior Columbia Basin Project. I have monitored the project since 
I was first elected in 1995.
    I was not always an elected official. I often say: ``I am a 
Forester by Education; Sawmill Manager by Experience; A Contract Logger 
by Choice; and a County Judge by means of Temporary Insanity.''
    I will share with you the status of the ICBEMP from the eyes of an 
elected official of an impacted county. Grant County is specifically 
asking that the peer reviewed and peer approved science assembled in 
the ICBEMP process be codified and made available to all National 
Forests and BLM districts to be incorporated in each of their 
respective plans. We are asking that the ICBEMP not proceed to a Record 
of Decision.
    Nothing within this testimony should be construed to imply that 
Grant County wants anything less than vital communities, clean water, 
clean air, healthy federal lands, and a functional federal/county 
relationship. While we agree with the Eastside Ecosystem Coalition of 
Counties on these wants we respectfully disagree on how to obtain them.
    I speak to you today as an elected official of Grant County, 
representing 7,950 residents residing on 2,897,920 acres of land of 
which 64 percent is publicly managed. Our principal industries include 
Forestry, Livestock Agriculture, Hunting, and Recreation. Grant County 
was created in 1864 and contains the head waters of the John Day River, 
which has more miles of Wild and Scenic designation than any other 
river in the United States.
    Grant County also is known for its exceptionally high rate of 
unemployment. An article titled ``Grant County's jobless rate highest 
in state'' of The Oregonian on February 17, 1998 reported Grant County 
finished 1997 with an unemployment rate of 12.5 percent. Its jobless 
rate was the worst in Oregon while the seasonally adjusted unemployment 
rate in Oregon stood at 5.3 percent in December. ``Six times during 
1997 the Eastern Oregon county's unemployment picture is the worst in 
the state.''
    Grant County's average annual pay per job in 1996 was $21,831 while 
Oregon's was $27,031 and the United States was $28,945. (Oregon 
Employment Department 1998 Regional Economic Profile Region 13, pg 40.)
    Grant County's economy has been identified by the Oregon Economic 
Development Division as the second most likely county to suffer 
economic collapse in future years.
    My county Assessor reports real estate prices are booming in 
Oregon. They sure aren't in Grant County.
    I am convinced Federal laws provide a place at the land use 
management table for local government involvement and joint planning. I 
am not convinced the intent of the law is served when the federal 
agencies plan with delegates designated by an association of counties 
to which our county may or may not belong. The Eastside Ecosystem 
Coalition of Counties represents the state associations of counties of 
Washington, Oregon, Idaho, and Montana.
    Grant County has not delegated planning or representation authority 
to either the Association of Oregon Counties or the Eastside Ecosystem 
Coalition of Counties.
    Counties are distinctively different. For every variable you can 
list there is little chance another county is exactly the same. Because 
we are different our needs are not the same.
    A major concern we have for the implementation of the ICBEMP 
relates to these differences. Like ecosystems our counties have 
specific subsistence needs. The ICBEMP attempts to address all of these 
specific ecosystem needs and county needs with the same ``one size fits 
all'' Objectives and 166 Standards. These Standards we fear will not 
provide the flexibility local managers will need to accommodate the 
individual needs of our county.
    Grant County identified this issue early in the process. Other 
counties agreed and became more concerned. Thankfully, Congress 
responded and invited additional socio-economical analysis. Near the 
end of January 1998 a member of the Association of Oregon Counties and 
a second member of the Oregon delegation to the EECC explained they had 
previewed the additional analysis and reported additional matrixing had 
revealed, as we had professed, there were ``low resiliency'' and ``low, 
low resiliency'' counties. Again I was orally assured all nine 
incorporated cities in Grant County had risen to the top of the list of 
the lease resilient communities.
    As of March 4, 1998 I have yet to see a copy of the new socio-
economical analysis document. It was to be released in mid February.
    All of the extensive and 40 million plus dollar planning done thus 
far for the ICBEMP and the economic team leader Mr. Nick Reyna has been 
unable to answer the question foremost in the minds of Grant County 
citizens. What does all of this mean specifically to Grant County? On 
two occasions I asked the question. In response if was told if our 
communities happen to be close enough to an area where restoration 
activities might occur, they might receive a benefit, if they were not 
close to an area where the restoration activity occurred then they more 
than likely would not benefit. Page 4-181 of the DEIS concentrates 
restoration within the wildland/urban interface. The wildland/urban 
interface is generally highly resilient. Restoration activity needs to 
be directed toward areas of least economic resiliency.
    Nothing within the DEIS is specifically clear on how the lowest 
resiliency communities will be addressed, now that they have been 
further quantified and delineated.
    Why are the ICBEMP planners not equally concerned with how they are 
complying with the Sustained Yield Forest Management Act of 1944 which 
established the even-flow sustained yield policy for timber harvest 
with a focus on community stability (emphasis added) as they appear to 
be with complying with the Endangered Species Act and National Forest 
Management Act of 1976?
    Grant County has been skeptical of the federal/county collaborative 
relationship from the onset of the ICBEMP. On January 22, 1998 the U.S. 
Department of Agriculture's Chief of the Forest Service, Mike Dombeck 
proposed to halt all road construction in roadless areas on National 
Forests. A definite violation of trust by the absence of collaboration. 
On February 10, 1998 he held a private meeting with county 
commissioners, John Howard and Pat Wortman and Association of Oregon 
Counties staff and apologized for proceeding with the proposal without 
first having involved the counties in the basin. He termed it a serious 
mistake. (EECC 24th Report 2/18/98) On February 13th in LaGrande USFS 
Chief Dombeck by phone apologized again to attendees of an open forum 
assembled by Oregon Governor Kitzhaber. Yet the proposal continues with 
little to no respect given the betrayed counties.
    Grant County had been told this collaborative technique was the 
only way to go, for so long, it was difficult for us not to say we told 
you so.
    Grant County continues to fear and predict that in spite of all the 
planning efforts exhausted on the ICBEMP, if it goes to a Record of 
Decision, it will be appealed and subsequently litigated. The planning 
process will simply consolidate and stop all proposed activities on 144 
million acres in one litigation.
    On February 13, 1998 Oregon's Governor Kitzhaber invited all 
counties to embrace the notion of collaborative consultation. At the 
same time a member of his forest health task force reported that with 
the aid of the task force Governor Kitzhaber had identified 26 USFS 
timber sales that he felt should continue in the sale process to 
harvest. The Badger timber sale on the Malheur National forest was one 
of those 26 sales. Even with the intensive scientific review and 
considerable scrutiny and site visit by the Governor's task force and 
subsequent endorsement by the Governor of the State of Oregon the sale 
is now in litigation. Its award is uncertain much to the discouragement 
of the citizens of Grant County.
    Frivolous litigation must be legislatively stopped. The situation 
can not be resolved until the weakest link in the chain, which is now 
an inevitable litigation at the end of any planning process, is 
removed. In the words of an elderly forester friend of mine, ``When the 
tail starts to wag the dog, it's time to cut the tail off.''
    Management decision makers must be legislatively empowered to make 
decisions consistent with their professional expertise and required to 
utilize codified, peer reviewed and peer approved science. These 
managers deserve a degree of litigative insulation if they have applied 
the science consistently.
    In another valient and respectable effort Governor Kitzhaber pushed 
to completion The Oregon Plan, a Coastal Salmon Restoration Initiative 
designed to avoid the listing of the coastal coho salmon runs. The plan 
was put in place inspite of much local opposition. It received the 
endorsement of the National Marine Fisheries Service. Last week less 
than a year into the plan that was in the making since October of 1995, 
the National Marine Fisheries Service unilaterally decided to mandate 
additional restrictions on harvest of private timber administered by 
Oregon State Forestry. A substantial amount of private timber harvest 
appears now in jeopardy. So extreme are the proposed restrictions some 
industry representatives are indicating some lands will be totally lost 
to management.
    Can we trust these federal/county collaborative efforts? Grant 
County thinks not. The only hope for these efforts is to bring the 
decisions home to the situations and apply codified science with 
participation from local planners, both federal and county and local 
stakeholders.
    Grant County is concerned about the degree of secrecy surrounding 
the ICBEMP.
    The first draft of the ICBEMP was dated July 12, 1996. I asked the 
Oregon Association of Counties for a copy. They indicated the EECC had 
signed an agreement not to share any of the information with the 
outside. My contact indicated I might get my local Regional Advisory 
Council to ``leak'' a copy to me. After much effort I received a draft 
copy labeled ``(for FACA-Exempt Agency Review Only)'' on December 31, 
1996 from the USFS. I am of the opinion counties are FACA exempt.
    If counties are FACA exempt, what authority did EECC members have 
to conduct executive meetings and deny other impacted county 
participation? To the extent my personal knowledge can relay executive 
meetings were held on October 7, 1997 at Walla Walla, February 12, 1998 
in Bosie, Idaho, and February 13, 1998 in LaGrande, Oregon.
    I attempted to obtain copies of forest reviews of the draft EIS. I 
obtained copies of comments from the Wallowa-Whitman and Umatilla 
National Forests. Each review was comprehensive raising serious 
questions and providing suggestions. One review when responding to the 
positive stuff reiterated ``Nice Sidebars, good fonts, Colorful maps.'' 
The reviews were not particularly supportive of the draft EIS. Suddenly 
availability of review documents similar to these became unavailable 
from any other forests.
    Computer GIS systems were seen as a visual management tool. I 
obtained a set of three draft computer overlay maps that attempted to 
pictorially project the impact effect of Alternative 4 implementation. 
The first map displayed the management intensity in 1987 according to 
the Forest and Land Management Plan of that year. The second map 
displayed the 1996 timber management opportunities after implementation 
of all applicable laws and direction. The third map displays the 
potential ecosystem restoration intensity preliminary as of August 20, 
1997. In each case the higher degree of intensity is displayed by a 
darker color. The no management areas are white. All ranges of 
management between are a lighter shade of the darker color. It is 
vividly obvious that as you progress from 1987 to 1997 the map becomes 
very light with a great deal of white visible. The other major 
difference is the buffer strips becoming white and wider. These areas 
take on the appearance of veins in leaves. The legends change from 
intensity of management in the first two maps to intensity of timber 
based restoration in the last map. It's my understanding these maps 
have been sequestered. If so; why are the authors of the ICBEMP afraid 
of this information becoming common knowledge in the area of impact?
    Current management decisions continue to be plagued by conflicting 
and overlapping federal laws and regulations. ICBEMP does nothing to 
reduce the overlap but compounds the problem with an additional 166 
Standards. A case in point is the Summit fire salvage sale on the 
Malheur National forest. On August 13, 1996 a lightning storm started 
what was to become the Summit Fire. It was eventually controlled at 
37,961 acres on September 16, 1996. The Long Creek district of the 
Malheur National Forest contained 28,286 acres or 75 percent of the 
burned over area. The district immediately began an Environmental 
Impact Statement to analyze recovery alternatives. A draft EIS was 
published in April of 1997. A Final EIS with Record of Decision was 
published September 1997. Two appeals were filed on the last day to 
file appeals, one by the Tribes and one by a coalition of 10 
environmental groups. The forest supervisor announced his intent to 
withdraw his decision on December 12, 1997 and formally withdrew the 
decision on January 8, 1998.
    In a recent meeting with the forest service the forest service team 
members discussed with the crowd the pros and cons of how many standing 
dead trees to leave to meet Management Indicator Species constraints. 
The area in question was about 7 percent of the proposed activity area 
which was about 11,000 acres, which was about 29 percent of the total 
area burned. Therefore, if you allow the surface area of this page to 
represent the 37,961 acres burned the square at the top of this page 
represents the proportionate size of the area in question. What covers 
the remainder of this page? More standing dead trees. This makes no 
sense to the rational thinking person. In the mean time we are 571 days 
down the road from the death of the trees. They have deteriorated in 
value to the American taxpayers approximately $13,000,000 in value and 
continue to decline in value until about the end of the year when they 
are likely to be of no sale value to the American taxpayers. At that 
time the American taxpayers will have lost an additional $15,600,000 
including an estimated $1,600,000 in sale analysis. The laws then 
require the American taxpayers to fund the reforestation project to the 
tune of numerous more millions of dollars. While all this transpires 
the stream continues to run chocolate brown. Salmon spawning beds 
continue to silt. The county will have lost a little more than 
$8,000,000 of family wage payroll not including the in county turn over 
benefit. I ask you, who wins in this scenario? If only the American 
taxpayers knew what was being wasted!
    From Grant County's perspective, given the above information, the 
ICBEMP should not proceed to a Record of Decision.
                                 ______
                                 
     Letter From Sue Kupillas, Commissioner, Jackson County, Oregon
                                                  October 15, 1997.
Mr. Bruce Babbit,
Secretary, U.S. Department of the Interior,
Washington, DC.
    Dear Mr. Glickman: This letter is written in support of the 
concerns expressed by Idaho County Commissioners about the Interior 
Columbia River Basin Ecosystem Management Project (ICRBEMP). As a 
Commissioner from the ``west side'' in the State of Oregon, as a Board 
Member for the O&C Association and as member of the Public Lands 
Committee for the Association of Oregon Counties, I am very familiar 
with the entire process that has occurred as a result of the 
President's Forest Conference in April 1993. The issues that concerned 
us when the ``plan'' for the owl forests came out are more than 
concerns three years later. They are the reality we face on a daily 
basis as we deal with declining federal revenues, declining forest 
health and increasing regulation. Problems we are experiencing include 
severe reductions in timber harvest, even in areas scheduled for 
management; increase in use of expensive harvest methods, even in 
roaded areas; little or no consideration of the social and economic 
effects of decisions; inability of local managers to make decisions 
about forest management because of overly prescriptive regulation and 
top down micro-management of each decision; unclear paths of authority; 
restrictions going way beyond Record of Decision in LSR's and riparian 
areas, because of fear of controversy, and on and on.
    The ICRBEMP is full of problems with confusion about who has 
decision-making authority and potential problems with implementation 
that mimic the owl region problems.
    With reference to the letter from the Idaho Commissioners, Item 4 
was of particular interest. The broad comments in the purporting to 
deal with social and economic issues were totally inadequate. The 
economics must include a study of the amount of federal land in each 
county, the decline in harvest, the employment decline, an actual 
comparison of timber jobs and related manufacturing, hauling, timber 
equipment, to pay in recreation, equipment, change in revenue to local 
governments, and where the money to pay for services comes from when no 
timber receipts, the difference between management burden on the 
federal government, and the revenue picture for management when timber 
receipts cover costs of management, impact of federal job decline on 
rural communities (since the federal government payroll historically 
has been the largest payroll in rural communities, except for the 
timber company). There has been no attempt to maintain a certain level 
of harvest activity to stabilize the less resilient communities. The 
analysis states the problem and offers no solution. There are many 
social factors that have not been quantified. What is the impact on 
local government, of the increase in drugs and alcohol, child abuse, 
domestic violence on families that go from a stable, family wage job, 
to either joblessness, lower paying jobs with no benefits or multiple 
jobs where they cannot supervise young children. There are many long 
term devastating effects on displaced, disenfranchised families as they 
struggle to remain in our rural communities. The social displacement, 
villianization and disruption of families continues to erode our rural 
communities. There is no attempt to say that maintaining a constant 
level of timber supply would help stabilize the rural community and 
help rural families. The social analysis and resulting conclusions in 
all of our forest plans are incomplete. It appears that forest managers 
do not require that sociologists look at habitat of people on the same 
scale as the biologists look at habitat for birds and fish. We need 
very local, community scale, family scale cumulative effects analysis 
of the social and economic effects of this plan, as it displaces the 
culture, future and productivity of our rural people. We need a plan 
where the ASQ will satisfy the social and economic needs of our rural 
communities.
    In addition to declining ASQ in timber harvest, forests are 
decreasing grazing allotments in most areas of the States on Federal 
lands. The decrease in allotments will have a cumulative effect in 
systematically eliminating the cattle industry from Western lands. 
Grazing and mining are part of the intended multiple use of our 
national forests. Decrease and threats of elimination are very real as 
ranchers with declining AUM's start figuring what the break even point 
is and realize that the shorter grazing seasons, reductions of AUM's 
make their grazing operation unprofitable. What are the cumulative 
effects on the rural communities, on the economy, on the social well-
being of our rural community when rancher after rancher sells out and 
divides up the ranch for development or goes bankrupt? In both the case 
of timber production and beef production, the consumers in America 
still consume the products. If we are not producing in USA rural 
communities, we transfer production to other countries. Then the income 
from production and the environmental effects are transferred to third 
world countries. While these countries probably need the economy, 
perhaps they do not need to be impacted by lack of environmental 
protection as we have the USA. The irony is that in some cases we turn 
our own rural communities into third world country status, with decline 
in services, infrastructure and products. We have not analyzed the 
cumulative economic and social effects of the decline in both timber 
and beef production to our rural timber and beef reliant communities. 
The plan's social and economic analysis is woefully inadequate.
    When the federal government does not have statistics to perform 
biological analysis on habitat, biologists are hired who study and 
analyze until they have an answer. When the Federal government does not 
have statistics on what happens to rural people when a renewable, 
sustainable resource is politically withdrawn in a way that it does not 
satisfy the requirements of the law for multiple use, sustained yield, 
social economic etc., we have yet to hire enough sociologist and 
economists to look at the communities and human condition on a 
meaningful Mr. Scale. We need a plan that resolves to not reduce 
federal allotments because of cumulative social and economic effects. 
Lets say ``NO NET LOSS IN AUM'S.'' The forest management laws supply 
the legal basis for those decisions.
    The Jackson County Natural Resources Advisory Committee has 
assigned itself the task of examining the way the agencies look at the 
legal requirements of considering the social and economic effects of 
the Northwest Forest Plan on Jackson County in Southern Oregon. We will 
be happy to share the findings with the ICB commissioners. We will need 
funding if we are to do the job of the Federal forests in discovering 
what is missing.
    Meanwhile, add my name to the ever-growing list of county 
commissioners from our Northwest communities who have found the plan 
inadequate--inadequate to meet the needs of our counties, our towns and 
villages in supplying rural services, employment, and the rural 
people's social needs.
            Sincerely,
                                              Sue Kupillas,
                                                      Commissioner.
                                 ______
                                 
               in the county court of the state of oregon
                     in and for the county of grant
in the matter of interior columbia basin ecosystem management project--
                            resolution 98-08
    THIS BEING the 25th day of February, 1998 and a regular meeting of 
the County Court of Grant County and there being present County Judge 
Dennis Reynolds and Commissioners William Gibbs and Bob Kimberling;
    WHEREAS, the President of the United States, by executive order, 
initiated Interior Columbia Basin Ecosystem Management Project (ICBEMP) 
to create a scientifically sound, legally defensible ecosystem 
management plan; and
    WHEREAS, ICBEMP was to be a broad-scale, 12-month project that 
would give general direction to public land managers for ecosystem 
management, but has become a top-down, highly prescriptive set of 
management directives; and
    WHEREAS, ICEMP will directly affect management of 16 Bureau of Land 
Management districts and 30 national forests administered by USDA 
Forest Service, all located in western states; and
    WHEREAS, ICBEMP covers 104 counties, 144 million acres (including 
72 million acres of private land) and will directly affect the 
livelihoods of millions of citizens in the planning area; and
    WHEREAS, the citizens of the United States and communities 
throughout the western states depend on the management stewardship, 
sustained-yield, even flow production of good and services from 
multiple-use management of public lands located in those states; and
    WHEREAS, there is increasing demand within the United States and 
the world for renewable, recyclable goods and services including 
recreation, wildlife, fisheries, food, fiber, clean air, clean water; 
and
    WHEREAS, ICBEMP draft documents fail to adequately and truthfully 
disclose the economic, environmental and social effects of 
implementation of ecosystem management practices embodied in the Draft 
EIS documents; and
    WHEREAS, ICBEMP represents a top-down management paradigm which 
reduces or eliminates effective local input in natural resource 
management and environmental decision making; and
    WHEREAS, ICBEMP directly contradicts public policy as established 
by Congress; and
    WHEREAS, ICBEMP has become a six-year, $35 million project, with no 
end in sight;
    NOW THEREFORE, BE RESOLVED: ICBEMP should be terminated, with no 
Record of Decision being approved; the ecosystem management data 
developed by the project should be communicated to BLM district 
managers and National Forest supervisors for consideration as public 
input in statutorily scheduled environmental land and resource 
management plan revisions; and
    BE IT FURTHER RESOLVED: Grant County strongly supports natural 
resource planning and environmental management featuring site-specific 
management decisions made by local decision makers, local citizenry and 
parties directly and personally affected by environmental land and 
resource management decisions.
    DONE AND DATED 25th day of February, 1998.

                                   Dennis Reynolds, County Judge.
                                   William Gibbs, County Commissioner.
                                   Bob Kimberling, County Commissioner.

                                  <all>

</pre></body></html>
